In sp ecto r G e n e r a l
            United States Department of Defense




Semiannual Report to
    the Congress
         APRIL 1, 2013 TO SEPTEMBER 30, 2013




                         Required by Public Law 95-452
I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely over-
          sight of the Department of Defense that: supports the warfighter;
          promotes accountability, integrity, and efficiency; advises the Sec-
                retary of Defense and Congress; and informs the public.



                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting ex-
          cellence; a diverse organization, working together as one profes-
                     sional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
	
                                                   INSPECTOR GENERAL
                                                  DEPARTMENT OF DEFENSE
                                                  4800 MARK CENTER DRIVE
                                               ALEXANDRIA, VIRGINIA 22350-1500


                               I am pleased to present the Department of Defense Inspector General Semiannual Report
                               to Congress for the reporting period April 1, 2013, through September 30, 2013, issued in
                               accordance with the Inspector General Act of 1978, as amended.
                               This year has been unprecedented in recent memory in light of two profound events affecting
                               the Department: sequestration and the government shutdown. Despite these challenges, we
                               continued to protect our Warfighters, provide valuable information to Congress, and advise
                               the Secretary of Defense about oversight matters. During this reporting period, our significant
                               accomplishments included:
                                •	 Continuing focus on DoD’s audit readiness efforts to include audits supporting the Schedule 	
    Inspector General           	 of Budgetary Activity/Statement of Budgetary Resources and implementation of the 	
    Jon T. Rymer
                                	 enterprise resource planning systems.
         •	 An audit report found the Marine Corps risks spending $22.2 billion to procure and support 44 additional CH-53K
            helicopters that may not be needed to support future requirements.
         •	 The establishment of a Cyber Crime Field Office better focusing criminal investigative efforts on digital forensics
            and intrusion investigations impacting DoD.
         •	 A review of whether Military Criminal Investigative Organizations investigate sexual assaults as required by
            guiding policies and procedures.
         •	 An investigation found that the owner of Skylinks FZC in Dubai tried to buy restricted U.S. satellite equipment and
            transship it to Iran in violation of the International Emergency Economic Powers Act, but was arrested, convicted,
            and sentenced.
         •	 Southwest Asia Joint Planning Group issuance of the FY 2014 Comprehensive Oversight Plan for Southwest Asia
            and the updated Joint Strategic Oversight Plan for Afghanistan.
         •	 Site assessments conducted at Army Warrior Transition Units and Marine Corps Wounded Warrior Battalions.
         •	 Seven reports addressing joint warfighting and readiness in the intelligence enterprise, and issues in the security
            and nuclear enterprises.
         •	 Implementing recent enhancements to whistleblower protection statutes.
    Representatives of DoD IG also testified at two hearings: one about concerns regarding a contract with the prime food/
    nonfood vendor for our Nation’s Warfighters in Afghanistan; and one about DoD direct assistance to Afghanistan and
    DoD IG’s oversight efforts.
    During this reporting period, we issued 83 reports and identified $23.5 billion in potential monetary benefits.
    Defense Criminal Investigative Service investigations were the basis for 111 arrests, 175 criminal charges, 147 criminal
    convictions, 76 suspensions, and 102 debarments, as well as $619.8 million returned to the government. The DoD
    Hotline fielded 15,108 contacts from the public and members of the DoD community. Administrative Investigations
    closed a total of 835 complaints involving whistleblower reprisal and senior official misconduct.
    Thank you to our Department counterparts whose valuable information provides added insight to this publication:
    the Army Audit Agency, Naval Audit Service, Air Force Audit Agency, U.S. Army Criminal Investigation Command, Naval
    Criminal Investigative Service, Air Force Office of Special Investigations, and the Defense Contract Audit Agency.
    As the new Department Inspector General, I want to pledge my accountability to DoD IG, the Department, Congress, and
    our Nation. I would also like to extend my thanks to our DoD IG employees, the entire defense oversight community, the
    Department, and Congress for their commitment in supporting this office.



    							 Jon T. Rymer
    							Inspector General
S tat i s t i c a l H i g h l i g h t s

         SUMMARY OF AUDIT ACTIVITIES
           Reports Issued 	                                                                                        56
           Monetary Benefits
           	         Recommendations Made with Questioned Costs	                                        $22.3 billion
           	         Recommendations Made on Funds Put to Better Use 	                                    $1.1 billion
           	         Achieved Monetary Benefits	                                                          $2.2 billion

         SUMMARY OF DEFENSE CRIMINAL INVESTIGATIVE SERVICE ACTIVITIES
           Total Returned to the U.S. Government1	                                                     $619.8 million
           	         Recovered Government Property	                                                        $672,471
           	         Civil Judgments/Settlements	                                                      $556.1 million
           	         Criminal Fines, Penalties and Restitution (does not include Forfeitures)	          $50.7 million
           	         Administrative Recoveries 	   2
                                                                                                        $12.2 million
           Investigative Activities
           	         Arrests	                                                                                    111
           	         Criminal Charges	                                                                           175
           	         Criminal Convictions	                                                                       147
           	         Suspensions	                                                                                  76
           	         Debarments	                                                                                 102
           Asset Forfeiture Results
           	         Seized	                                                                            $19.1 million
           	         Final Orders of Forfeiture	                                                           $9 million
           	         Monetary Judgments	                                                                $40.3 million

         SUMMARY OF ADMINISTRATIVE INVESTIGATIONS
           Complaints Received	                                                                                1,005
           Complaints Closed	                                                                                    835
           	         Senior Official	                                                                            358
           	         Whistleblower Reprisal	                                                                     477

         SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES
           Existing and Proposed Regulations Reviewed	                                                           220
           Evaluation Reports Issued	                                                                              10
           Inspector General Subpoenas Issued	                                                                   342
           Contractor Disclosures Received	                                                                      106

         SUMMARY OF INTELLIGENCE AND SPECIAL PROGRAM ASSESSMENTS ACTIVITIES
           Reports Issued	                                                                                          7

         SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES
           Assessment Reports Issued	                                                                              10

         SUMMARY OF DEFENSE HOTLINE ACTIVITIES
           Contacts	                                                                                          15,108
           	         Cases Opened	                                                                             1,341
           	         Cases Closed	                                                                             1,584

           1
               	 Includes investigations conducted jointly with other law enforcement organizations.
           2
               	 Includes contractual agreements and military non-judicial punishment.



ii │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                                                                                          Contents
CONTENTS
1.	 OVERVIEW
         MISSION & ORGANIZATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  2
                     MISSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                     ORGANIZATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
         EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  4
                     OVERVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                     PRIORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                     CORE MISSION AREAS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                     ENABLING MISSION AREAS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
2.	 CORE MISSION AREAS
         AUDITS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                     ACQUISITION PROCESSES & CONTRACT MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                     FINANCIAL MANAGEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                     JOINT WARFIGHTING AND READINESS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                     CYBER SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
                     HEALTH CARE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
                     EQUIPPING AND TRAINING AFGHAN SECURITY FORCES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
                     NUCLEAR ENTERPRISE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
                     OTHER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
         INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
                     PROCUREMENT FRAUD. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
                     PUBLIC CORRUPTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
                     PRODUCT SUBSTITUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
                     HEALTH CARE FRAUD. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
                     ILLEGAL TECHNOLOGY TRANSFER. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
         INSPECTIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
                     HEALTH AND SAFETY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
                     JOINT WARFIGHTING AND READINESS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
                     INFORMATION ASSURANCE, SECURITY AND PRIVACY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
         ADMINISTRATIVE INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46
                     WHISTLEBLOWER REPRISAL INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46
                     REPRISAL INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
                     INVESTIGATIONS OF SENIOR OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
         POLICY AND OVERSIGHT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50
                     AUDIT POLICY AND OVERSIGHT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50
                     INVESTIGATIVE POLICY AND OVERSIGHT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52
                     CRIMINAL INVESTIGATIVE POLICY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53
                     TECHNICAL ASSESSMENTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53
3.	 ENABLING MISSION AREAS
         CONGRESSIONAL TESTIMONY AND BRIEFINGS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58
         DOD HOTLINE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59
         PROGRAMS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
         OUTREACH . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63
4.	 SERVICES
         ARMY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68
                     ARMY AUDIT AGENCY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68
                     U.S. ARMY CRIMINAL INVESTIGATION COMMAND. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .77
         NAVY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 88
                     NAVAL AUDIT SERVICE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .88
                     NAVAL CRIMINAL INVESTIGATIVE SERVICE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 97
         AIR FORCE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 104
                     AIR FORCE AUDIT AGENCY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 104
                     AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 110
5.	 APPENDIXES
         APPENDIX A. AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED. . . . . . . . . . . . . . . . . . . . . . . . 118
         APPENDIX B. REPORTS CONTAINING POTENTIAL MONETARY BENEFITS. . . . . . . . . . . . . . . . . . . . . . . . 127
         APPENDIX C. FOLLOW-UP ACTIVITIES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 129
         APPENDIX D. CONTRACT AUDIT REPORTS ISSUED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 131
         APPENDIX E. STATUS OF ACTION ON POST-AWARD CONTRACTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 132
         APPENDIX F. STATUS OF REPORTS WITH ACTION PENDING. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 133
         APPENDIX G. SECTION 845 ANNEX AUDIT REPORTS WITH SIGNIFICANT FINDINGS. . . . . . . . . . . . . 143
         APPENDIX H. RESULTS OF PEER REVIEWS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 157
         APPENDIX I. ACRONYMS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 159

                                                                                                                                                                  APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ iii
Reporting Requirements

         The Inspector General Act of 1978, as amended, states that each inspector general shall no later than April 30
         and October 31 of each year prepare semiannual reports summarizing the activities of the office during the
         immediately preceding six-month periods ending March 31 and September 30. The IG Act specifies reporting
         requirements for semiannual reports. The requirements are listed below and indexed to the applicable pages.

          REFERENCES         REQUIREMENTS                                                                                        PAGE
          Section 4(a)(2)    “review existing and proposed legislation and regulations...make recommendations...”                N/A

          Section 5(a)(1)    “description of significant problems, abuses, and deficiencies...”                                  12-54

          Section 5(a)(2)    “description of recommendations for corrective action...with respect to significant problems,       12-54
                             abuses, and deficiencies...”
          Section 5(a)(3)    “identification of each significant recommendation described in previous semiannual reports on      N/A
                             which corrective action has not been completed...”
          Section 5(a)(4)    “a summary of matters referred to prosecutive authorities and the prosecution and convictions       12-54
                             which have resulted.”
          Section 5(a)(5)    “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” instances    N/A
                             where information requested was refused or not provided”
          Section 5(a)(6)    “a listing, subdivided according to subject matter, of each audit report, inspection report, and    106-113
                             evaluation report issued” showing dollar value of questioned costs and recommendations that
                             funds be put to better use.
          Section 5(a)(7)    “a summary of each particularly significant report...”                                              12-54

          Section 5(a)(8)    “statistical tables showing the total number of audit reports, inspection reports, and evaluation   115
                             reports and the total dollar value of questioned costs...”
          Section 5(a)(9)    “statistical tables showing the total number of audit reports, inspection reports, and              115
                             evaluation reports and the dollar value of recommendations that funds be put to better use by
                             management...”
          Section 5(a)(10)   “a summary of each audit report, inspection report, and evaluation report issued before the         115
                             commencement of the reporting period for which no management decision has been made by
                             the end of reporting period...”
          Section 5(a)(11)   “a description and explanation of the reasons for any significant revised management decision...”   N/A

          Section 5(a)(12)   “information concerning any significant management decision with which the Inspector General        N/A
                             is in disagreement...”
          Section 5(a)(13)   “information described under Section 05(b) of the Federal Financial Management Improvement          N/A
                             Act of 1996...” (instances and reasons when an agency has not met target dates established in a
                             remediation plan)
          Section 5(a)(14)   “An Appendix containing the results of any peer review conducted by another Office of Inspector     129
                             General during the reporting period...”
          Section 5(a)(15)   “A list of any outstanding recommendations from any peer review conducted by another Office         N/A
                             of Inspector General that have not been fully implemented, including a statement describing the
                             status of the implementation and why implementation is not complete...”
          Section 5(a)(16)   “Any peer reviews conducted by DoD IG of another IG Office during the reporting period,             129
                             including a list of any outstanding recommendations made from any previous peer review...that
                             remain outstanding or have not been fully implemented...”
          Section 5(b)(2)    “statistical tables showing the total number of audit reports, inspection reports, and evaluation   116
                             reports and the dollar value of disallowed costs...”
          Section 5(b)(3)    “statistical tables showing the total number of audit, inspection, and evaluation reports and the   116
                             dollar value of recommendations that funds be put to better use by management agreed to in a
                             management decision...”
          Section 5(b)(4)    “a statement with respect to audit reports on which management decisions have been made but         125-128
                             final action has not been taken, other than audit reports on which a management decision was
                             made within the preceding year...”
          Section 8(f)(1)    “information concerning the number and types of contract audits...”                                 117

          Section 5 note     “an annex on final completed contract audit reports...containing significant audit findings.”       119-124



iv │ SEMIANNUAL REPORT TO THE CONGRESS
            1
O verview
M i ss i o n


         Serving the Congress and the
         Department
         Department of Defense Inspector General is an
         independent, objective agency within the U.S.
         Department of Defense that was created by the
         Inspector General Act of 1978, as amended. DoD IG is
         dedicated to serving the warfighter and the taxpayer
         by conducting audits, investigations, inspections
         and assessments that result in improvements to
         the Department. DoD IG provides guidance and
         recommendations to the Department of Defense
         and Congress.


         Mission
         Our mission is to provide independent, relevant and
         timely oversight of the Department of Defense that:
           •	 Supports the warfighter.
           •	 Promotes accountability, integrity and efficiency.
           •	 Advises the secretary of defense and Congress.
           •	 Informs the public.


         Vision
         Our vision is to be a model oversight organization
         in the federal government by leading change,
         speaking truth and promoting excellence; a diverse
         organization, working together as one professional
         team, recognized as leaders in our field.


         Core Values
           •	 Integrity
           •	 Efficiency
           •	 Accountability
           •	 Excellence


         Goal 1
         Promote economy, efficiency and effectiveness.


         Goal 2
         Identify, deter and investigate fraud, waste and abuse.


         Goal 3
         Engage, enable and empower our people.


         Goal 4
         Achieve excellence through unity.




2 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                              O r g a n i z at i o n


                                                Secretary of Defense




                                                 Inspector General




                                                             Intelligence &
Auditing                                 Administrative                                                     Special Plans &
                   Investigations                           Special Program       Policy & Oversight
                                         Investigations                                                       Operations
                                                              Assessments




 Auditing                                                    Intelligence and Special Program
 The Office of the Deputy Inspector General for
 Auditing conducts audits within all facets of DoD
                                                             Assessments
                                                             The Office of the Deputy Inspector General for
 operations. The work results in recommendations for         Intelligence and Special Program Assessments
 reducing costs; eliminating fraud, waste and abuse          provides oversight (audits, evaluations and
 of authority; improving performance; strengthening          inspections) across the full spectrum of programs,
 internal controls; and achieving compliance with laws,      policies, procedures and functions of the intelligence,
 regulations and policy.                                     counterintelligence, nuclear and security enterprises
                                                             and other special programs within DoD.
 Investigations
 The Office of the Deputy Inspector General for
 Investigations leads the Defense Criminal Investigative
                                                             Policy and Oversight
                                                             The Office of the Deputy Inspector General for
 Service, which conducts highly relevant, objective,         Policy and Oversight provides oversight and policy
 professional investigations of matters critical to DoD      for audit and investigative activities, conducts
 property, programs and operations that provide for          engineering assessments of DoD programs, provides
 our national security with emphasis on life, safety         technical advice and support to DoD IG projects,
 and readiness.                                              and operates the DoD IG subpoena and contractor
                                                             disclosure programs.
 Administrative Investigations
 The Office of the Deputy Inspector General for
 Administrative Investigations investigates and
                                                             Special Plans and Operations
                                                             The Office of the Deputy Inspector General for Special
 oversees investigations of allegations regarding            Plans and Operations provides assessment oversight
 the misconduct of senior DoD officials, both civilian       to facilitate informed decision making by senior
 and military; restriction from communicating with           civilian and military leaders of DoD and Congress to
 an IG or member of Congress; whistleblower reprisal         accomplish priority national security objectives.
 against service members, defense contractor
 employees and DoD civilian employees (appropriated
 and nonappropriated fund); and improper command
 referrals of service members for mental
 health evaluations.



                                                                                            APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 3
E xecutive Summary


         OVERVIEW                                                 Investigations-Defense Criminal Investigative Service
                                                                  opened 310 cases, closed 277 cases and has
                                                                  1,670 ongoing investigations. Cases resolved in
         The Inspector General Act of 1978, as amended,           this reporting period primarily addressed criminal
         states that the inspector general is responsible for     allegations of procurement fraud, public corruption,
         conducting audits, investigations and inspections        product substitution, illegal transfer of technology and
         and for recommending policies and procedures to          health care fraud.
         promote economical, efficient and effective use
         of agency resources and programs that prevent            Administrative Investigations received a total of
         fraud, waste, abuse and mismanagement. The               1,005 complaints for the second half of FY 2013
         Act also requires the inspector general to keep          and closed a total of 835 complaints. Of the 835
         the Department and Congress fully and currently          complaints closed, 270 were full investigations.
         informed about problems and deficiencies in the          The investigations involved whistleblower reprisal,
         Department’s operations and the need for                 restriction of service members from contacting an
         corrective action.                                       IG or member of Congress, procedurally improper
                                                                  mental health referrals and senior official misconduct.
         During this reporting period, DoD IG continued
         directing its resources toward those areas of greatest   Intelligence and Special Program Assessments issued
         risk to the Department of Defense. We are dedicated      seven reports that addressed joint warfighting and
                                                                  readiness in the intelligence enterprise, and issues in
         to serving the warfighter and the taxpayer by
                                                                  the security and nuclear enterprises.
         conducting audits, investigations and inspections
         that result in improvements to the Department.
                                                                  Policy and Oversight issued 10 evaluation reports
         DoD IG provides guidance and recommendations to
                                                                  primarily addressing its oversight of audit and
         the Department and information to Congress. We
                                                                  investigative issues in DoD agencies and an evaluation
         summarize below the work of each component as of
                                                                  of the F-35 Lightning II program by conducting a series
         Sept. 30, 2013.
                                                                  of quality assurance assessments of the Joint Program
                                                                  Office, prime contractor and major subcontractors.
         Auditing issued 56 reports with 412
                                                                  Policy and Oversight also issued three Department-
         recommendations identifying potential cost
                                                                  wide policies, coordinated 220 existing and proposed
         savings and funds that could be put to better use,
                                                                  DoD directives and instructions, issued 342 IG
         ensuring the safety of service members; addressing
                                                                  subpoenas and received 106 contractor disclosures.
         improvements in DoD operations, financial reporting
         and accountability; ensuring the Department
                                                                  Special Plans and Operations issued 10 assessment
         complied with statutory mandates; and improve
                                                                  reports with 118 recommendations that addressed
         existing or identifying new efficiencies. Of those
                                                                  a range of issues, including U.S. and coalition efforts
         reports, 43 percent addressed acquisition processes
                                                                  to develop the command, control and coordination
         and contracting issues; 21 percent addressed
                                                                  system within the Afghan National Army. U.S. and
         financial management issues; 11 percent addressed
                                                                  coalition efforts to improve health care conditions and
         cyber security issues; 12.5 percent addressed joint
                                                                  develop sustainable Afghan National Security Forces’
         warfighting and readiness issues; 5 percent addressed
                                                                  medical logistics at the Dawood National Military
         equipping and training Afghan National Security
                                                                  Hospital in Kabul, Afghanistan, were also reviewed.
         Forces; 3.5 percent addressed health care; and
         4 percent addressed base and realignment and
         closure issues.




4 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                            E xecutive Summary


PRIORITIES                                                CORE MISSION
As a Department-wide priority, the secretary of
                                                          AREAS
defense identified the need to improve effectiveness
and efficiencies in business operations to sustain        We issued 83 reports identifying $23.5 billion in
mission-essential activities. In support of this focus,   potential monetary benefits. We achieved an
DoD IG uses its extensive oversight capabilities to       additional $2.2 billion in financial savings based on
promote economy, efficiency and effectiveness             management completed corrective actions to reports
throughout the Department. DoD IG performs                issued this year and in previous reporting periods.
audits, investigations and assessments to support the     In addition, DCIS investigations were the basis for
Department’s goals to:                                    111 arrests, 175 criminal charges, 147 criminal
  •	 Prevail in today’s wars.                             convictions, 76 suspensions and 102 debarments, as
  •	 Prevent and deter conflict.                          well as $619.8 million returned to the government.
  •	 Prepare to defeat adversaries and succeed in a
     wide range of contingencies.
  •	 Preserve and enhance the all-volunteer force.        Audits
  •	 Reform the business and support functions of the       •	 Air Force efforts to rapidly develop and field a
     defense enterprise.                                       persistent surveillance capability in response to
                                                               joint urgent operational needs were unsuccessful.
We performed audits, inspections and assessments of            Air Force and Army Corps of Engineers personnel
key programs and operations. We also consulted on              improperly managed the award of contracts for
a variety of Department initiatives and issues. DoD IG         Blue Devil Block 2. The warfighter did not receive
is focusing work efforts on preventing and detecting           an urgently needed capability and Air Force
fraud, waste and abuse and improving efficiency and            personnel wasted about $149 million on a system
effectiveness in critical areas for the Department             the contractor did not complete.
such as:                                                       Report No. DODIG-2013-128
   •	 Acquisition processes and contract management.        •	 The Marine Corps overstated, in the DoD FY 2013
   •	 Financial management.                                    President’s Budget, the number of CH-53K Heavy
   •	 Joint warfighting and readiness.                         Lift Helicopters to procure. The Marine Corps
   •	 Information assurance, security and privacy.             increased the CH-53K procurement quantity by
   •	 Health and safety.                                       44 helicopters without adequate justification or
   •	 Equipping and training Afghan National Security          support. As a result, the Marine Corps may
      Forces.                                                  spend $22.2 billion for additional aircraft that
                                                               may not be needed to support future Marine
Our investigations resulted in criminal, civil and             Corps requirements.
administrative actions. We report on the following             Report No. DODIG-2013-084
investigative priorities for crimes impacting the
Department:                                               Investigations
  •	 Procurement fraud.                                     •	 A joint investigation with Air Force Office of
  •	 Public corruption.                                        Special Investigations determined that United
  •	 Product substitution.                                     Technology Corporation violated the Truth in
  •	 Health care fraud.                                        Negotiations Act when they negotiated pricing
  •	 Technology protection.                                    and submitted claims to DoD for work performed
                                                               on an Air Force contract. UTC was found liable
                                                               for more than $473 million in damages and
                                                               penalties arising from a contract to provide




                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 5
E xecutive Summary

             aircraft engines for the F-15 and F-16 aircraft           communication changed when contingency
             between 1985 and 1990. UTC's proposed prices              operations ended and the post-contingency
             for the engine contract misrepresented how                operating environment began in Iraq in late 2011.
             UTC calculated those prices, resulting in the             DoD IG projected how these factors may evolve
             government overpaying for the engines by                  and stressed key conditions that existed when the
             hundreds of millions of dollars. UTC did not              DoD IG team visited Iraq in late 2012.
             disclose historical discounts received from               Report No. DODIG-2013-136
             suppliers in the price proposal and knowingly          •	 The mission of the Afghan Border Police
             used outdated information that excluded such              encompasses paramilitary and counterinsurgency
             discounts. Previously, UTC had been found                 functions in the border security zone and security
             guilty and ordered to pay the U.S. government             functions at ports of entry. The Afghan Border
             $7 million for violations of the False Claims Act.        Police are located in six zones and the capital
             On June 17, 2013, UTC was further ordered by              region. The regional commands in the east,
             an appellate court to pay the government $357             south and southwest accounted for 92 percent
             million in damages and penalties for violations           of all enemy-initiated attacks. Given the volatility
             of the False Claims Act and an additional $109            and enemy activity in these commands, DoD IG
             million in damages for common law claims.                 found that Afghan Border Police authorizations
           •	 A joint investigation with the FBI, Department           in equipment, weapons and personnel resources
             of Homeland Security-Counter Proliferation                did not align with requirements. As a result, the
             Group, and the Department of Commerce                     zones were either over- or under-resourced.
             disclosed that Seyed Amin Ghorashi Sarvestani,            Over-resourced zones created the risk for waste
             owner of Skylinks FZC, Dubai, attempted to                or abuse, while under-resourced zones could not
             purchase restricted U.S. satellite equipment              meet operational needs.
             and transship it to Iran in violation of the              Report No. DODIG-2013-081
             International Emergency Economic Powers Act.
             Previously, Sarvestani was arrested in Virginia. He
             pleaded guilty to conspiracy to acquire satellite
                                                                   Policy and Oversight
                                                                    •	 DoD IG determined whether the Military Criminal
             technology and was convicted. On Aug. 14,
                                                                       Investigative Organizations completed sexual
             2013, Sarvestani was sentenced to 30 months
                                                                       assault investigations as required by DoD and
             of imprisonment and to pay a $100,000 fine and
                                                                       found that 89 percent of the cases reviewed met
             $54,000 in criminal forfeiture.
                                                                       investigative standards. Of the cases, 11 percent
                                                                       had significant deficiencies and were returned to
         Inspections                                                   the MCIOs for corrective action.
           •	 DoD IG found, nearly a year after contingency            Report No. DODIG-2013-091
              operations ended, that Department of State-           •	 DoD IG determined that the F-35 Joint Program
              directed personnel reductions at U.S. Embassy-           Office oversight of Lockheed Martin was
              Iraq required accelerating transfer of control of        deficient in several areas, including failing
              DoD-managed equipment fielding site facilities           to require subcontractors to meet technical
              to the Iraqi government. The accelerated transfer        and quality requirements. DoD IG also found
              will complete the transition of responsibilities         that Defense Contract Management Agency
              for providing logistical and specialized DoD             oversight of the contractors was ineffective,
              support from DoD to DOS, and integrate the               which if left uncorrected, will continue to result
              Office of Security Cooperation-Iraq into the U.S.        in nonconforming hardware, less reliable aircraft
              mission. DoD IG summarized how authorities,              and increased cost.
              funding, organizational structures and lines of          Report No. DODIG-2013-140




6 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                               E xecutive Summary


Administrative Investigations
 •	 AI substantiated that a Naval flag officer relieved
                                                             ENABLING MISSION
    an Air Force officer under his command,
    reassigned the officer to a position not
                                                             AREAS
    commensurate with his rank and forced the
    officer to depart his joint tour early in reprisal for   DoD Hotline
    allegedly filing a complaint against the flag officer.   The DoD Hotline received 16,615 contacts from the
    DoD IG recommended the service secretaries               public and members of the DoD community during
    take appropriate remedial and corrective actions.        this reporting period. Of those contacts, 7,014
 •	 AI also substantiated that a defense agency SES          (43 percent) were telephone calls. Based on these
    misused her position, improperly held a financial        contacts, the hotline opened 1,499 cases and closed
    interest in a private company owned by a family          1,050 cases.
    member and used proprietary information in
    communications with senior DoD officials. The
    senior official left government service prior to
                                                             Congressional Testimony &
    completion of the investigation.                         Briefings
                                                             Section 4(a) of the Inspector General Act requires the
                                                             Inspector General “to review existing and proposed
                                                             legislation and regulations relating to the programs
                                                             and operations of [the Department of Defense]” and
                                                             to make recommendations “concerning the impact
                                                             of such legislation or regulations on the economy
                                                             and efficiency in the administration of programs
                                                             and operations administered or financed by [the
                                                             Department] or the prevention and detection of fraud
                                                             and abuse in such programs and operations.” DoD IG
                                                             provides information to Congress by participating in
                                                             congressional hearings and briefings.

                                                             Hearings
                                                             Representatives of DoD IG testified at two hearings
                                                             during the period. Daniel Blair, the Deputy Inspector
                                                             General for Auditing testified April 10, 2013, before
                                                             the House Committee on Oversight and Government
                                                             Reform. The subject of the hearing was "Contracting
                                                             to Feed U.S. Troops in Afghanistan: How did the
                                                             Defense Department End Up in a Multi-Billion Dollar
                                                             Billing Dispute?" The hearing focused on concerns
                                                             uncovered during an initial audit of a contract with
                                                             the prime vendor for food and nonfood products
                                                             for our warfighters in Afghanistan; actions taken
                                                             to address the report recommendations; and
                                                             opportunities to improve contract administration
                                                             through lessons learned that could be applied to
                                                             future contracts.




                                                                                           APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 7
E xecutive Summary

         On April 10, 2013, Ambassador Kenneth Moorefield,
         the deputy inspector general for special plans and
         operations, testified before the House Committee
         on Oversight and Government Reform. The subject
         of the hearing was "U.S. Foreign Assistance: What
         Oversight Mechanisms are in Place to Ensure
         Accountability?" The testimony focused on DoD
         Direct Assistance to Afghanistan and DoD IG oversight
         efforts in that area.

         Meetings with Congressional Members and
         Staff
         During the reporting period, representatives of the
         Office of the Inspector General had 60 meetings with
         members of Congress and/or their staffs. Topics of
         discussion during those meetings include issues such
         as: a series of audit reports concerning spare parts
         pricing and inventory issues, an audit of the TRICARE
         Mail Order Pharmacy program, an assessment of the
         testing protocols for the Advanced Combat Helmet
         and an audit of the Navy Commercial Access Control
         System.

         Congressional Requests
         The Office of Communications and Congressional
         Liaison supports the DoD IG by serving as the contact
         for communications to and from Congress, and by
         serving as the DoD IG public affairs office. From
         April 1, 2013, through Sept. 30, 2013, Office of
         Communications and Congressional Liaison received
         152 new congressional inquiries and closed 162,
         including a report required by the Reducing
         Over-Classification Act, an accountability review of
         the intelligence community, reviews of reprisal
         allegations and a review of the release of DoD
         information to the media.

         New inquiries and pending legislation involved issues
         such a review of allegations involving Joint POW/MIA
         Accounting Command, an audit of permanent change
         of station funding and an assessment of the planned
         testing of the ground-based interceptors program.
         Office of Communications and Congressional Liaison
         proactively reaches out to congressional staffers to
         ensure they are informed about upcoming IG releases
         and ongoing reviews.




8 │ SEMIANNUAL REPORT TO THE CONGRESS
                    2
C ore M ission A reas
C o r e M i ss i o n A r e a s


         AUDITS                                                    Award and Administration of Performance-
                                                                   Based Payments in DoD Contracts
                                                                   O verview:
         The following are highlights of DoD IG audit work                The government can provide contract financing
         during the reporting period. DoD IG performed audits             for contractors before it accepts the supplies
         in the following categories:                              or services. Contract financing is prudent when it
            •	 Acquisition processes and contract management.      can expedite the performance of essential contracts.
            •	 Financial management.                               DoD IG determined whether DoD contracting
            •	 Joint warfighting and readiness.                    personnel negotiated and administered performance-
            •	 Cyber security.                                     based payment schedules in DoD contracts in
            •	 Health care.                                        accordance with selected Federal Acquisition
            •	 Equipping and training Afghan Security Forces.      Regulation requirements.
            •	 Nuclear enterprise.

                                                                      “The government could realize potential
         Acquisition Processes &                                       monetary benefits of $13.6 million to
         Contract Management                                           $53.3 million over the next five years
         Acquisition and contract management operations                related to reduced carrying costs.”
         are critical core functions to the Department but also
         present persistent challenges within the Department.
         For acquisition programs, the Department needs to
                                                                   Findings:
                                                                   DoD contracting personnel needed additional
         better balance its limited resources, the capabilities
                                                                   guidance and training to better award and administer
         needed for current conflicts and the capabilities
                                                                   the $13.2 billion in performance-based payment
         needed to prepare for possible future conflicts. Senior
                                                                   events contained in the 60 contracts reviewed. These
         leadership has, in recent years, terminated acquisition
                                                                   improvements should reduce DoD’s risk of making
         programs that were underperforming, over budget
                                                                   future payments without measurable contractor
         or of questionable continuing investment. The
                                                                   performance and help ensure the contractor meets
         Department continues to strengthen contracting and
                                                                   performance criteria before payment. DoD risked
         has issued policy, procedures and guidance addressing
                                                                   making advance payments totaling $11.4 billion and
         current contracting challenges. The Department
                                                                   might have made full payments for less than full
         continues to struggle to consistently provide effective
                                                                   contract performance. Also, the government could
         oversight of its contracting efforts. The Department’s
                                                                   have needlessly incurred $28.8 million in carrying
         continuing contracting deficiencies include obtaining
                                                                   costs associated with the $7.5 billion that DoD paid
         adequate competition in contracts, defining contract
                                                                   contractors. The government could realize potential
         requirements, overseeing contract performance,
                                                                   monetary benefits of $13.6 million to $53.3 million
         obtaining fair and reasonable prices, and maintaining
                                                                   over the next five years related to reduced carrying
         contract documentation for contract payments.
                                                                   costs. Finally, DoD limited its ability to ensure that
                                                                   it received adequate consideration for authorizing
         DoD IG oversight continues to assess Department
                                                                   performance based payments.
         acquisition processes and contract management.
         During this reporting period, DoD IG issued several       R esult :
         reports highlighting questionable acquisition             The director, Defense Pricing, agreed with the
         programs, lack of use of existing spare parts, pricing    recommendations and will issue guidance to:
         of spare parts and inadequate oversight of contracting      •	 Require contracting personnel request a
         efforts.                                                       contractor estimate of expenditures before
                                                                        approving the performance-based payment
                                                                        schedule.
                                                                     •	 Develop a training program that includes a
                                                                        discussion on appropriate event descriptions and
                                                                        required elements.




10 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                          C o r e M i ss i o n A r e a s

  •	 Update guidance to require contracting personnel     Use of Defense Logistics Agency Excess Parts
     to determine whether the contractor could            for High Mobility Multipurpose Wheeled
     obtain private financing and the amount of           Vehicle Depot Repairs Will Reduce Costs
     contract financing and define what a reasonable      O verview:
     level of contractor investment is.                           As of September 2012, the Army operated
Report No. DODIG-2013-063                                         about 153,000 high mobility multipurpose
                                                          wheeled vehicles. The U.S. Army 2010 Tactical
Defense Contract Management Agency Santa                  Wheeled Vehicle Strategy stated that the Army
Ana Quality Assurance Oversight Needs                     plans to sustain portions of the HMMWV fleet for
Improvement                                               an additional 20 years through recapitalization and
O verview:                                                reset repair programs. DoD IG evaluated HMMWV
          The Defense Contract Management Agency          repair parts supply chain management at Red River
          performs quality assurance services to verify   Army Depot, Texas. Specifically, DoD IG reviewed
that contractors deliver products on time, at projected   Defense Logistics Agency inventory levels, DLA annual
cost and meet contract performance requirements.          customer demand and the depot consumption of
As of June 2012, 46 DCMA contract management              HMMWV repair parts to determine whether the
offices managed 337,000 active contracts with an          supply chain was cost-effective.
obligated value of $1.7 trillion. DCMA Santa Ana,
Calif., is a contract management office within the
Western Regional Command. At DCMA Santa Ana,
about 366 civilian and military employees, with
1,504 active contractors, manage more than 20,337
contracts, valued at $38 billion. DoD IG determined
whether DCMA Santa Ana contract management
office performed quality assurance procedures and
oversight of contractors in accordance with applicable
policies for critical safety items.
Findings:
Quality assurance representatives assigned to four
contracts for DCMA Santa Ana, valued at about $278
million, did not adequately perform or document
their quality assurance surveillance. DCMA Santa
Ana officials provided limited assurance that 18,507
critical safety items—consisting of T-11 parachutes,
oxygen masks, drone parachutes and breathing                DoD IG evaluated HMMWV repair parts supply chain
                                                            management at Red River Army Depot, Texas.
apparatuses—met contract requirements.
R esult :
DoD IG recommended that DCMA Santa Ana                    Findings:
contract management office verify that QA                 DLA Land and Maritime did not cost-effectively
representatives developed adequate QA surveillance        manage 118 HMMWV repair parts valued at $11.1
plans and performed process reviews and product           million while purchasing these parts from AM
examinations; certify that the supervisory reviews        General, LLC for $17.6 million. DLA Land and Maritime
of QA representatives were accurate, complete and         officials did not review DLA-owned inventory at
timely; and perform a risk analysis in coordination       key contract decision points to maximize use of
with service engineers to identify QA risk areas and      its own stock. DoD IG identified $9.7 million of
determine the need to recall or restrict the use of       excess inventory that could be used for HMMWV
critical safety items previously accepted. DCMA           maintenance requirements. Thus, DLA missed an
comments were responsive.                                 opportunity to improve DoD cash flow by drawing
Report No. DODIG-2013-069                                 down DLA-owned inventory before using commercial




                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 11
C o r e M i ss i o n A r e a s

         support. Furthermore, DLA incurred costs to maintain      statements; comply with federal and DoD regulation
         this excess inventory.                                    controls to verify contracting personnel perform price
         R esult :                                                 analysis for modifications over $700,000; and develop
         DoD IG recommended that DLA perform periodic              procedures for contracting officers or contracting
         inventory reviews of DLA-owned HMMWV repair               officer representatives to validate contractor payment
         parts on the Integrated Logistics Partnership contract;   requests before certifying invoices for payment.
         develop a drawdown plan for the excess inventory          Report No. DODIG-2013-075
         identified and incorporate the plan into the final
         option year of the Integrated Logistics Partnership       TRICARE Management Activity Needs to
         contract and any future HMMWV support contracts at        Improve Oversight of Acquisition Workforce
         Army maintenance depots; and provide all HMMWV            O verview:
         repair part consumption data to supply planners.                  The TRICARE Management Activity is
         Report No. DODIG-2013-073                                         responsible for managing the TRICARE health
                                                                   care program that serves more than 9.7 million
         Improvements Needed in U.S. Special                       active duty service members, National Guard and
         Operations Command Global Battlestaff and                 Reserve members, retirees, their families, survivors
         Program Support Contract Oversight                        and certain former spouses worldwide. In FY 2012,
         O verview:                                                the TMA acquisition budget was $18.8 billion. DoD
                 The Global Battlestaff and Program Support        IG assessed the status of efforts to improve the TMA
                 contract is an indefinite-delivery, indefinite-   acquisition program, specifically, whether the TMA
         quantity contract for services or supplies with a         acquisition workforce was adequately trained and
         $1.5 billion ceiling covering a three-year base and       certified.
         a two-year option period. The Global Battlestaff          Findings:
         and Program Support indefinite-delivery, indefinite-      TRICARE Management Activity acquisition personnel
         quantity contract was awarded to four prime               did not have required Defense Acquisition Workforce
         contractors. DoD IG determined whether U.S. Special       Improvement Act certifications for their functional
         Operations Command properly administered task             areas, accurate position descriptions for their assigned
         orders awarded under the Global Battlestaff and           duties or proper training. TRICARE Management
         Program Support contract, valued at approximately         Activity officials could not verify and be assured that
         $231 million, as of Nov. 16, 2011.                        the right people with the right skills were involved
         Findings:
         USSOCOM officials did not properly administer the
         Global Battlestaff and Program Support task orders
         in accordance with federal guidance. Specifically,
         contracting officers awarded task orders with unclear
         requirements and without measurable outcomes. In
         addition, task orders may have included inherently
         governmental duties and elements of a personal
         service contract. Further, contracting officers did
         not adequately support fair and reasonable price
         determinations for 20 modifications, totaling
         approximately $38.8 million, or validate that
         contractors were entitled to approximately $50.9
         million paid on Global Battlestaff and Program
         Support task orders.
         R esult :
         DoD IG made recommendations to include, among
                                                                     DoD IG assessed whether the TMA acquisition workforce
         others, that USSOCOM implement controls to ensure           was adequately trained and certified.
         task orders contain clearly defined performance work




12 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                           C o r e M i ss i o n A r e a s

in the acquisition process; leaving the TRICARE            Findings:
Management Activity at an increased risk for fraud,        The Marine Corps procurement quantity for CH-53K
waste and abuse.                                           heavy lift helicopters in the DoD FY 2013 president’s
R esult :                                                  budget was overstated by as many as 44 aircraft. The
DoD IG recommended that the TMA place additional           Marine Corps could not support the need to procure
emphasis on the identification and oversight of            a total of 200 aircraft because Headquarters Marine
the acquisition workforce by establishing quality          Corps Department of Aviation officials:
assurance procedures to ensure identification,                •	 Did not follow the Joint Capabilities Integration
assignment, certification and training of the                    and Development System Instruction and obtain
acquisition workforce, and implementation and use                Joint Requirements Oversight Council approval
of the Contracting Officer Representative Tracking               for the increase.
Tool. Additionally, the under secretary of defense for        •	 Did not have requirement studies prepared
acquisition, technology, and logistics should perform            to determine a procurement quantity in
a comprehensive review of TMA’s progress on                      consideration of program affordability.
meeting compliance with identification, assignment,           •	 Incorrectly relied on a 2008 memorandum from
certification and training of the acquisition workforce;         the deputy commandant for aviation directing
progress on implementation and use of the                        the increase of the procurement quantity to 200
Contracting Officer Representative Tracking Tool; and            aircraft, without support.
compliance with proper contracting procedures.                •	 Incorrectly used the 2010-2011 Force Structure
Report No. DODIG-2013-078                                        Review’s war-gaming scenarios as justification for
                                                                 the quantity increase.
Increased Procurement Quantity for CH-53K                     •	 Did not justify or appropriately consider the
Helicopter Not Justified                                         impact of the Marine Corps personnel reductions
O verview:                                                       effect on heavy lift quantity requirements.
       DoD IG evaluated the CH-53K program                 The Marine Corps risks spending $22.2 billion in
       documentation used to support the increased         procurement, operating and support funding for 44
procurement quantity from 156 to 200 aircraft for          additional aircraft that have not been justified and
the CH-53K program. This report is the first in a series   may not be needed to support future Marine Corps
of reports evaluating Naval Air Systems Command            mission requirements.
acquisition management of the CH-53K program.              R esult :
                                                           DoD IG recommended the Marine Corps deputy
                                                           commandant for aviation perform an analysis to
                                                           determine the number of CH-53K aircraft needed,
                                                           conduct an affordability assessment and obtain Joint
                                                           Requirements Oversight Council approval of the
                                                           CH-53K quantity before the low-rate initial production
                                                           decision planned in February 2016.
                                                           Report No. DODIG-2013-084

                                                           The Navy P-8A Poseidon Aircraft Needs
                                                           Additional Critical Testing Before the Full-Rate
                                                           Production Decision
                                                           O verview:
                                                                  The overall expected cost for developing and
                                                                  procuring the P-8A Poseidon is $33.5 billion.
                                                           DoD IG evaluated whether the Navy addressed
                                                           potential risks and increased its flight hours to fully
  DoD IG evaluated the CH-53K program documentation
                                                           assess system reliability as the director, operational
  used to support the increased procurement quantity.
                                                           test and evaluation, advised at the low-rate initial
                                                           production decision in August 2010.



                                                                                          APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 13
C o r e M i ss i o n A r e a s

                                                                      aircraft (at an estimated cost of $2.6 billion) based
                                                                      on incomplete test results and could result in costly
                                                                      retrofits to meet lifespan, mission and system
                                                                      performance requirements.
                                                                      R esult :
                                                                      DoD IG recommended that the under secretary of
                                                                      defense for acquisition, technology, and logistics
                                                                      award an additional low-rate initial production lot for
                                                                      the P-8A Poseidon aircraft in July 2013 and defer the
                                                                      full-rate production decision for the P-8A Poseidon
                                                                      program until the program manager for Maritime
                                                                      Surveillance Aircraft demonstrates (1) the airframe
                                                                      can achieve the required 25-year lifespan without
                                                                      succumbing to structural fatigue; (2) testing has
                                                                      resolved mission limited deficiencies; and (3) the
                                                                      aircraft can perform its primary missions, including
           DoD IG evaluated whether the Navy addressed risks to the
                                                                      antisurface warfare.
           P-8A Poseidon aircraft before the full-rate production.
                                                                      Report No. DODIG-2013-088

         Findings:                                                    Improved Guidance Needed to Obtain Fair and
         The program manager for Maritime Surveillance                Reasonable Prices for Sole-Source Spare Parts
         Aircraft effectively addressed the potential risks and       Procured By the Defense Logistics Agency
         flight hour concerns of the director, operational test       From The Boeing Company
         and evaluation, at the low-rate initial production.
                                                                      O verview:
         However, additional critical testing should be
                                                                              DoD IG determined whether Defense
         completed before the full-rate production
                                                                              Logistics Agency Aviation obtained best value
         decision. The program manager planned the full-
                                                                      and purchased sole-source spare parts at fair and
         rate production decision review to occur in July
                                                                      reasonable prices from The Boeing Company. DoD
         2013 before testers complete testing needed to
                                                                      IG reviewed contract actions associated with two
         demonstrate that the P-8A Poseidon airframe can
                                                                      contracts and, specifically, costs for 60 spare parts
         meet life expectancy requirements. The program
                                                                      on 2,659 delivery orders, valued at about $81.1
         manager delayed life expectancy testing in reaction
                                                                      million, to determine if DLA Aviation received fair and
         to funding constraints and testing priorities. The
                                                                      reasonable prices.
         program manager also did not correct known system
         deficiencies, about which the director, operational          Findings:
         test and evaluation, and Joint Interoperability Test         DLA Aviation contracting officers did not negotiate
         Command officials had expressed concern, before              fair and reasonable prices on 1,469 delivery orders,
         conducting initial operational test and evaluation.          valued at $27.2 million, thereby, not getting best
         The chief of naval operations accepted the risk of           value for the government. Pricing problems occurred
         granting the program manager temporary waivers               because DLA Aviation contracting officers did not
         from correcting the deficiencies to allow the program        conduct a fair and reasonable price analysis. In
         to enter into initial operational test and evaluation,       addition, DLA Aviation guidance did not require
         while not having to fully correct the deficiencies until     contracting officers to:
         after the full-rate production decision. Finally, the           •	 Obtain and review contractor purchase order
         program manager deferred completing mission testing                histories when determining fair and reasonable
         in response to fleet commander concerns regarding                  prices.
         maintaining on-time delivery of the P-8A Poseidon               •	 Complete a subsequent review of pricing for
         aircraft. A decision by the under secretary of defense             spare parts, after the parts were initially placed
         for acquisition, technology, and logistics to acquire              on long-term contracts, as allowed by the
         the first full-rate production lot of 13 P-8A Poseidon             contract.




14 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                              C o r e M i ss i o n A r e a s

                                                               Improvements Needed in the Oversight of
                                                               the Medical Support Services and Award-Fee
                                                               Process Under the Camp As Sayliyah, Qatar,
                                                               Base Operation Support Services Contract
                                                               O verview:
                                                                       The Camp As Sayliyah Installation Base
                                                                       Operations Support Services contract is a
                                                               combination cost-plus-award-fee and firm-fixed-
                                                               price contract awarded by U.S. Army Contracting
                                                               Command–Rock Island, March 11, 2010. The contract
                                                               is valued at $143.4 million over a one-year base
                                                               period of performance and four option periods. The
                                                               contract performance work statement requires the
                                                               contractor to provide installation support services
                                                               at Camp As Sayliyah, Qatar, to include medical
                                                               services. DoD IG determined whether DoD officials
  DoD IG determined whether DLA Aviation purchased spare
  parts at fair and reasonable prices for equipment, such as
                                                               were properly administering the Camp As Sayliyah
  the deceleration parachute for the B-52.                     Base Operations Support Services contract, valued at
                                                               $143.4 million.
Furthermore, Boeing did not maintain complete cost             Findings:
and pricing data for 20 delivery orders, valued at $3.4        DoD officials did not effectively administer the
million, because contracting officers did not conduct          medical services functional area and award-fee
adequate contract oversight.                                   process of the Camp As Sayliyah Base Operations
                                                               Support Services contract. In addition, contracting
DLA Aviation paid approximately $13.7 million                  officials did not verify that contracted physician
in excess of fair and reasonable prices for 1,469              assistants were medically supervised and erroneously
delivery orders. DLA Aviation also may have made               allowed the Area Support Group–Qatar command
payments in excess of the fair and reasonable price            surgeon to supervise contractor physician assistants
for an additional 20 delivery orders. If prices are not        under a nonpersonal services contract. Army officials
corrected, DLA Aviation will continue to overpay on            also did not adequately document and justify an
future sole-source spare parts procured from Boeing            award fee of approximately $1.5 million paid to the
on the two contracts.                                          contractor. The contractor received the award fees
                                                               even though required critical positions were unfilled.
R esult :
DoD IG recommended DLA implement available                     R esult :
options to recover from Boeing the overpayment of              Among other recommendations, DoD IG
approximately $13.7 million. Additionally, DLA needed          recommended the U.S. Army Medical Command,
to (1) renegotiate prices for overpaid parts; (2) revise       revise guidance and the Landstuhl Regional Medical
“DLA Aviation acquisition procedures” to require               Center, Germany, establish procedures in line with
contracting officers to obtain and review contractor           the guidance. DoD IG also recommended the Army
purchase-order histories when determining fair                 Contracting Command require the contractor to
and reasonable prices for sole-source acquisitions             provide a medical health services manager, who
and complete periodic reviews of the contractor’s              is a medical doctor, to supervise the professional
cost basis for spare parts purchased multiple times            aspects of physician assistants’ duties and that the
on a long-term contract; and (3) conduct periodic              Defense Contract Management Agency provide clear
evaluations of contract files for long-term contracts to       instructions and training regarding award-fee plans
verify that the contractor maintained contract data.           and evaluations.
Report No. DODIG-2013-090                                      Report No. DODIG-2013-097




                                                                                            APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 15
C o r e M i ss i o n A r e a s

         Contract Administration of the Subsistence               Boeing Overstated Contract Requirements for
         Prime Vendor Contract for Afghanistan                    the CH-47F Helicopter
         Improved, but Additional Actions are Needed              O verview:
         O verview:                                                      DoD IG determined whether Army Aviation
                 Supreme Foodservice GmbH was awarded                    and Missile Life Cycle Management Command
                 a 60-month prime vendor contract, starting       and The Boeing Company were fully complying
         December 2005. This was a fixed-price, indefinite-       with DoD policy and guidance for the analysis of
         quantity contract and was initially valued at            subcontractors’ pricing proposals and whether the
         approximately $726.2 million. At the time the contract   analyses was effective in the negotiation of prime
         was awarded, the prime vendor was required to            contracts.
         provide food and nonfood distribution support to four    Findings:
         activities in Afghanistan—Bagram, Kabul, Salerno and     AMCOM and Boeing generally complied with federal
         Kandahar. This follow-up audit determined whether        and DoD guidance for analyzing subcontractor pricing
         Defense Logistics Agency implemented corrective          proposals. However, AMCOM did not review the $67.5
         actions to address the problems and risk areas           million of proposed safety stock (new parts that may
         identified in DoD IG Report No. D-2011-047.              or may not be used). In addition, Boeing installed
         Findings:                                                significantly more reworked or salvaged parts instead
         DLA implemented corrective actions to address            of the proposed safety stock for remanufactured
         some of the problems and risk areas identified in        helicopters. Therefore, Boeing overstated contract
         the previous DoD IG report. However, additional          requirements by $15.1 million for 21 high-dollar
         actions were still needed for fair and reasonable        parts. Boeing also overstated requirements for 17
         pricing determinations: recovery, and refunds of         parts valued at $35.1 million that would result in
         overpayments; and reviews for costs charged to an        overcharges ranging from $7.4 million to $16.6
         incorrect appropriation. As a result, DLA may have       million. As a result of this audit, AMCOM performed
         paid excessive costs for containers and airlifts of      an analysis of Boeing’s multiyear II contract proposal
         fresh fruits and vegetables and may not collect up       and calculated $36.8 million in funds that could be
         to $282 million in potential premium transportation      put to better use by reducing safety stock costs. The
         overpayments. Furthermore, there is an increased risk    multiyear II contract also had potential requirement
         for potential Antideficiency Act violations from costs   overcharges for eight parts valued at $51.7 million
         charged to incorrect appropriations.                     that would result in overcharges ranging from $10.6
         R esult :
         DoD IG recommended the DLA implement corrective
         actions to address all open recommendations
         in audit report no. D-2011-047, develop a time-
         phased plan with measurable goals and metrics
         regarding implementing the open recommendations,
         and educate contracting officers to maintain all
         supporting documentation used in fair and reasonable
         determinations. In April 2013, DoD IG testified before
         the Subcommittee on National Security, Committee
         on Oversight and Government Reform about this
         matter. DLA has been collecting offset payments
         but ongoing litigation has impacted DoD IG’s ability
         to validate the accuracy of data supporting DLA’s
         determination that the contractor had been overpaid
         approximately $756 million.
         Report No. DODIG-2013-100
                                                                    Boeing overstated contract requirements for the CH-47F
                                                                    helicopter.




16 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                            C o r e M i ss i o n A r e a s

million to $19.1 million. AMCOM officials reviewed
these eight parts on the multiyear II contract, and
Boeing adjusted the requirements. Additionally, Army
and Boeing could not accurately value the CH-47F
government-furnished property stored at New Breed
Logistics, Tenn. The Army’s reliance on and the
unreliability of the government online data system
increases the risk of improper inventory management
and valuation.
R esult :
DoD IG recommended that the executive director,
Army Contracting Command-Redstone Arsenal, Ala.,
instruct the contracting officer for the CH-47F multi-
year II contract to require Boeing to clearly identify
contingencies costs and establish a separate line item
in the contract for safety stock. Additionally, DoD IG
                                                           DoD IG evaluated the effectiveness of the contractor
recommended the commander, AMCOM, to properly
                                                           logistics support strategy for the Stryker family of vehicles.
value, manage and use CH-47F government-furnished
property at New Breed Logistics through an Army
inventory management system.                             Canadian governments that allows Public Works
Report No. DODIG-2013-103                                and Government Services Canada to perform audit
                                                         support services that comply with applicable U.S.
DoD Oversight Improvements Are Needed                    fiscal laws and accounting standards on U.S. contracts
on the Contractor Accounting System for the              with Canadian companies. Additionally, DCMA
Army’s Cost-Reimbursable Stryker Logistics               should request that Public Works and Government
                                                         Services Canada review the General Dynamics Land
Support Contract
                                                         Systems Canada accounting system for adequacy
O verview:                                               by verifying that actual costs are tracked to the
       DoD IG evaluated the effectiveness of the
                                                         appropriate project tasks and billed to the proper
       contractor logistics support strategy for the
                                                         appropriation. Further, PMO Stryker, with support
Stryker family of vehicles.
                                                         from the U.S. Army Contracting Command, should
Findings:                                                report any potential Antideficiency Act violations to
The U.S. Army and the Defense Contract Management        the U.S. assistant secretary of the Army (financial
Agency did not identify contractor accounting            management and comptroller).
system weaknesses on the Stryker cost-reimbursable       Report No. DODIG-2013-104
contract, valued at $1.6 billion. The U.S. Army was
potentially billed for as much as $866.1 million in      Defense Advanced Research Projects Agency
reimbursable costs that were charged to the incorrect    Properly Awarded Contracts for Disc-Rotor
contract line items and fiscal appropriation. Program    Research and Development
Management Office Stryker risked potentially violating
                                                         O verview:
the Antideficiency Act by paying the misapplied
                                                                This audit was in response to a congressional
charges. Further, as of February 2013, PMO Stryker
                                                                request for DoD IG to investigate a
paid approximately $1.5 billion on the Stryker
                                                         constituent’s complaint concerning an improper
contracted logistic support contract without verifying
                                                         contract award for disc-rotor technology. DoD IG
that General Dynamics Land Systems Canada’s portion
                                                         determined whether Defense Advanced Research
of the reimbursable costs was accurate.
                                                         Projects Agency personnel complied with federal laws
R esult :                                                and DoD guidance when awarding contracts to The
Among other recommendations, the director, Defense       Boeing Company for disc-rotor technology research
Procurement and Acquisition Policy should continue       and development.
to negotiate an agreement between the U.S. and



                                                                                              APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 17
C o r e M i ss i o n A r e a s

         Findings                                                  about using appropriate language in software
         Defense Advanced Research Projects Agency                 acquisition contracts.
         personnel followed federal and DoD acquisition            Report No. DODIG-2013-115
         regulations when awarding two contracts for the
         research and development of disc-rotor technology         Army Needs Better Processes to Justify and
         to Boeing. Also, DARPA personnel followed proper          Manage Cost-Reimbursement Contracts
         procedures in addressing the complainant’s white          O verview:
         paper topic submissions, proposals and letters.                   DoD IG conducted this audit in accordance
         Therefore, the complainant’s allegations were not                 with the FY 2009 National Defense
         substantiated. DoD IG did not make a determination        Authorization Act, section 864, Regulations on the Use
         on the allegation that DARPA personnel improperly         of Cost Reimbursement Contracts. DoD IG determined
         awarded contracts to Boeing that infringed on the         (1) whether the Army complied with interim Federal
         complainant’s patents for disc-rotor blade technology.    Acquisition Regulation revisions on the use of cost-
         Defense Federal Acquisition Regulation Supplement         reimbursement contracts by documenting that
         Part 227 provides private parties with a process for      approval for the cost-reimbursement contract was
         filing administrative claims for patent infringement      at least one level above the contracting officer; (2)
         against DoD components.                                   that cost-reimbursement contracts were justified;
         R esult :                                                 (3) how the requirements under contract could
         No recommendations were issued with this report.          transition to firm-fixed-price in the future; (4) that
         Report No. DODIG-2013-106                                 government resources were available to monitor the
                                                                   cost-reimbursement contract; and (5) that contractors
         The Navy’s Management of Software Licenses                had an adequate accounting system in place during
         Needs Improvement                                         the entire contract.
         O verview:
                 DoD IG determined whether the Department             “...Army contracting personnel did not
                 of the Navy effectively managed software               consistently implement the interim
         licenses. Specifically, DoD IG determined whether the
                                                                        rule for 107 contracts, valued at about
         Navy included appropriate clauses in software license
         contracts. DoD IG reviewed one Enterprise Licensing            $10.5 billion.”
         Agreement, 13 non-ELAs and the associated End User
         License Agreements to determine if the contracts          Findings:
         included desirable language in accordance with the        Of the 161 contracts reviewed, valued at about
         DoD Enterprise Software Initiative approved software      $53.3 billion, Army contracting personnel did not
         licensing training.                                       consistently implement the interim rule for 107
         Findings:                                                 contracts, valued at about $10.5 billion. Contracting
         The Navy made progress in its management of               personnel issued contracts that did not follow the
         software licensing by issuing an ELA for Microsoft,       interim rule because they were unaware of the rule.
         which included best practice language for the             Contracting personnel may increase the contracting
         acquisition of software licenses. However, the 13         risk because cost-reimbursement contracts provide
         non-ELA software contracts reviewed did not include       less incentive for contractors to control costs.
         desired best practice language. The Navy increased        DoD IG identified internal control weaknesses for
         the potential of wasteful spending, disruption of         implementing the interim rule changes regarding the
         government operations and vulnerability to lawsuits,      use of cost-reimbursement contracts.
         claims and penalties.                                     R esult :
         R esult :                                                 Among various recommendations, DoD IG
         Among others, DoD IG recommended that                     recommended management formalize interim
         the assistant secretary of the Navy (research,            guidance, develop better communications and
         development, and acquisition) require all DON             transition to firm-fixed-price contracts when possible.
         contracting personnel who prepare and issue               Management concurred with all recommendations
         software license contracts to take specialized training   Report No. DODIG-2013-120


18 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                           C o r e M i ss i o n A r e a s

Improvements Needed at the Defense
Advanced Research Projects Agency When
Evaluating Broad Agency Announcement
Proposals
O verview:
       DoD IG determined whether the Defense
       Advanced Research Projects Agency
properly awarded contracts from broad agency
announcements. Specifically, DoD IG reviewed
contracts awarded and funded by DARPA from DARPA
broad agency announcements published in March
2011 through Sept. 30, 2012.
Findings:
Of the 36 contracts reviewed, valued at about $426.4
million, DARPA personnel did not consistently adhere
to scientific review process and Federal Acquisition
Regulation requirements before awarding contracts
from broad agency announcements for 35 contracts,
valued at about $424.6 million. DARPA may not
be able to justify that technical office personnel
                                                            DoD IG determined whether Air Force and USACE properly
adequately substantiated proposal selections and
                                                            managed the contracts for Blue Devil Block 2.
increased contracting risks when issuing cost-
reimbursement contracts.
R esult :                                                 Findings:
DoD IG recommended that DARPA establish controls          Air Force and Army Corps of Engineers personnel
to verify scientific review process documentation         improperly managed the award of contracts for
is adequate as well as reemphasize internal               Blue Devil Block 2. Air Force personnel improperly
requirements for approval of funding documentation,       offloaded the award of the initial Blue Devil Block 2
requirements within the cost-reimbursement                contract to the Army Corps of Engineers instead of
interim rule, and the Federal Acquisition Regulation      using Air Force program and contracting personnel. In
requirement to appropriately complete the                 addition, contracting personnel awarded the second
determination of the adequacy of the contractor’s         Blue Devil Block 2 contract to develop and field Blue
accounting system.                                        Devil Block 2 in an unachievable time frame. As a
Report No. DODIG-2013-126                                 result, the warfighter did not receive an urgently
                                                          needed capability and Air Force personnel wasted
Air Force and Army Corps of Engineers                     about $149 million on a system the contractor did not
Improperly Managed the Award of Contracts                 complete.
for the Blue Devil Block 2 Persistent                     R esult :
Surveillance System                                       Among the recommendations, DoD IG recommended
O verview:                                                the Air Force determine whether Air Force
         The Blue Devil Block 2 was an Air Force          Intelligence, Surveillance, and Reconnaissance
         Intelligence, Surveillance, and Reconnaissance   should be assigned a program or contracting office
initiative to provide persistent surveillance by          for quick reaction capability development and field
attaching an integrated multiintelligence sensor          of Intelligence, Surveillance, and Reconnaissance
platform to an airship. DoD IG determined whether         initiatives. Additionally, the Air Force should only use
Army Corps of Engineers and Air Force personnel           the capabilities of the 645th Aeronautical Systems
properly awarded and administered contracts for           Group for systems appropriate for quick reaction
the acquisition of the Blue Devil Block 2 surveillance    contracting that can be accomplished in an achievable
system.                                                   time frame.
                                                          Report No. DODIG-2013-128


                                                                                            APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 19
C o r e M i ss i o n A r e a s

         Army Requirement to Acquire Individual                    validate the quantity of M4 carbines needed and hold
         Carbine Not Justified                                     a competition if additional carbines are determined
         O verview:                                                to be needed. Furthermore, Army should reprogram
                  The Individual Carbine program is an             the $382 million in procurement and research,
                  Acquisition Category II major system program     development, test and evaluation funding currently
         that entered the engineering and manufacturing            allocated to acquire carbines across the FY 2013 to
         development phase of the acquisition process in           FY 2018 Future Years Defense Program, adjusted by
         April 2011. The program was designated as an Army         validated M4 carbines needed. Management actions
         Acquisition Executive special interest program and        met the intent of the recommendations.
         placed on the Office of the Secretary of Defense,         Report No. DODIG-2013-131
         Director of Operation Test and Evaluation oversight
         list. As of May 2013, the Army had spent about $14        Financial Management
         million in research, development, test and evaluation     Although the Department is far from reaching an
         funds. The Army plans to spend an additional $2.5         unqualified opinion on its financial statements, it has
         billion to acquire, operate and support 501,289           made progress. DoD senior leadership has placed an
         carbines over a 20-year life cycle. DoD IG determined     increased emphasis on achieving this goal. DoD IG
         whether the Army justified its competition to acquire     believes the increased emphasis is essential to the
         a new carbine weapon and whether the Army was             Department’s ability to meet its internal milestones,
         implementing an effective acquisition strategy.           as well as the 2014 and 2017 audit readiness
         Findings:                                                 mandates. The Department continues to make
         The Army did not justify the need for a new carbine       progress toward meeting the 2014 audit readiness
         and, as a result, wasted about $14 million on a           goal of the statement of budgetary resources;
         competition to identify a source to supply new            however, it is still uncertain whether the Department
         carbines it does not need. In addition, the Army          will meet the 2014 goal.
         plans to spend $2.5 billion over a 20-year life cycle
         to procure and maintain 501,289 carbines that the         DoD IG oversight is continuing to focus on the
         Army’s own analysis states can be delayed for another     Department’s audit readiness effort to include
         10 years with no impact to readiness. During the          examinations of existence, completeness and
         audit, DoD IG identified potential monetary benefits      rights of the critical assets and development and
         of $2.5 billion, $382 million of funds to put to better   implementation of the enterprise resource planning
         use and $2.1 billion in cost avoidance after FY 2018 if   systems. During this reporting period, DoD IG issued
         the program is terminated.                                a report on the examination of Army’s assertion for
         R esult :                                                 existence and completeness of operating materials
         DoD IG recommended that the Army terminate the            and supplies quick win assets. DoD IG also issued
         Individual Carbine competition and eliminate funding      several reports addressing the Department’s efforts
         the Individual Carbine program. Also, the Army should     to develop and implement enterprise resource
                                                                   planning systems identifying improvements to
                                                                   ensure the systems will report timely and reliable
                                                                   financial information. Other oversight focused on the
                                                                   Department’s efforts to prevent improper payments
                                                                   and the proper reporting when they do occur.

                                                                   Defense Agencies Initiative Did Not Contain
                                                                   Some Required Data Needed to Produce
                                                                   Reliable Financial Statements
                                                                   O verview:
                                                                          DoD developed the Defense Agencies Initiative
           DoD IG determined whether the Army justified its
                                                                          as a single enterprise resource planning system
           competition to acquire a new carbine weapon.
                                                                   for 28 DoD agencies. DAI’s primary objective




20 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                          C o r e M i ss i o n A r e a s

   “The DAI program management office                      Navy Did Not Develop Processes in the Navy
     spent $193 million to develop and                     Enterprise Resource Planning System to
                                                           Account for Military Equipment Assets
     deploy DAI from FY 2007 through
     May 2012 and estimated the total cost                 O verview:
                                                                   The Department of the Navy acknowledged
     at completion for DAI to be $426.8                            seven material weaknesses related to
     million through FY 2016.”                             the Navy’s business processes and systems that
                                                           prevent the Navy from producing auditable financial
is to achieve an auditable, Chief Financial Officers       statements. These material weaknesses exist, in part,
Act-compliant system environment that facilitates          because the Navy did not design its legacy accounting
accurate and timely financial data. The DAI program        systems to maintain auditable data at the transaction
management office spent $193 million to develop            level to support the amounts reported on its financial
and deploy DAI from FY 2007 through May 2012 and           statements. DoD IG determined whether the amounts
estimated the total cost at completion for DAI to be       reported in the Defense Departmental Reporting
$426.8 million through FY 2016. DoD IG determined          System were supported by business processes in
whether the DAI fulfilled selected functional              the Navy Enterprise Resource Planning system for
capabilities needed to generate accurate and reliable      the aircraft, shipbuilding and weapons procurement
financial data and reported data in compliance with        appropriations.
U.S. Standard General Ledger requirements.
                                                           Findings:
                                                           Department of Navy Office of Financial Operations
Findings:                                                  personnel did not use the Navy Enterprise Resource
The Defense Agencies Initiative program management         Planning system to support $416 billion in military
office did not ensure the DAI system fulfilled the         equipment assets reported out of the Defense
functional capabilities needed to generate reliable        Departmental Reporting System-Audited Financial
financial data. The DAI program management officer         Statements. As a result, Navy officials spent $870
did not have procedures and periodic reviews to            million to implement the Navy Enterprise Resource
ensure proper implementation of reporting attributes,      Planning system and still did not correct the pre-
Standard Financial Information Structure Transaction       existing military equipment material weakness.
Library posting logic and the DoD standard chart of
                                                           R esult :
account codes before deploying DAI. The Defense
                                                           DoD IG recommended that the Navy re-engineer the
Agencies Initiative could not generate all the financial
                                                           business process used to record military equipment
data necessary to prepare financial statements.
                                                           and correct the existing material weakness in military
R esult :                                                  equipment valuation and implement processes in the
DoD IG recommended that DoD officials configure            Navy Enterprise Resource Planning system to properly
DAI with all U.S. Standard General Ledger reporting        record and support military equipment assets.
attributes, establish controls over manual vouchers,       Further, DoD IG recommended that the Navy develop
develop complete system documentation and                  a business process re-engineering plan that accounts
annually certify that DAI complies with the U.S.           for military equipment assets and considers the Navy
Standard General Ledger and Standard Financial             Enterprise Resource Planning system as one of the
Information Structure. DoD officials should revise the     possible solutions.
DoD Financial Management Regulation to require             Report No. DODIG-2013-105
core financial systems to include all the accounts in
the DoD Standard Chart of Accounts and require DoD         Army Needs to Improve Controls and Audit
to accumulate and report major program costs by            Trails for the General Fund Enterprise Business
program instead of appropriations.                         System Acquire-to-Retire Process
Report No. DODIG-2013-070
                                                           O verview:
                                                                 The Army developed the General Fund
                                                                 Enterprise Business System to be a Web-
                                                           enabled financial, asset and accounting management



                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 21
C o r e M i ss i o n A r e a s

         system. On July 1, 2012, the Army completed the           Enhanced Oversight Needed for Nontactical
         final planned deployment of GFEBS with more than          Vehicle Fleets in the National Capital Region
         53,000 users at 227 locations in 71 countries. DoD IG     O verview:
         determined whether the Army had adequate controls                 Presidential Memorandum—Federal Fleet
         over recording accounting transactions within the                 Performance, May 24, 2011, emphasizes as
         acquire-to-retire business process through GFEBS          a priority that government vehicle motor pools be
         and whether the Army had verifiable audit trails to       reduced to a level that will ensure agencies can meet
         support these transactions.                               their mission in the most efficient way possible.
         Findings:                                                 Each agency is responsible for its fleet management
         The Army’s inadequate controls over the recording         process, which includes determining the vehicle needs
         of accounting transactions for the acquire-to-retire      of the organization; acquiring vehicles; using these
         business process in GFEBS contributed to more             vehicles; and implementing appropriate controls to
         than $100 billion of journal voucher adjustments          ensure effective fleet management and disposition
         during FY 2012. The Army will continue using              of vehicles after use. DoD IG determined whether
         inefficient legacy business processes and diminish        various DoD organizations had controls in place to
         the estimated benefits associated with business           accurately assess their requirements for nontactical
         system modernization. Although the Army has               vehicles in the National Capital Region.
         spent $814 million on GFEBS, it did not provide           Findings:
         Army decision makers with relevant and reliable           The Navy, Defense Logistics Agency, Pentagon Force
         financial information for real property, and it is        Protection Agency and Washington Headquarters
         unable to identify the cost to correct the unreliable     Services had 511 excess nontactical vehicles, with
         real property information. In addition, the Army is at    annual base lease costs of $1.2 million. Eliminating
         increased risk of not accomplishing the FY 2017 audit     the excess vehicles in their fleet would save $7.2
         readiness goal.                                           million over the next six years. Further, DLA’s Fort
         R esult :                                                 Belvoir fleet manager used a government purchase
         DoD IG recommended Army officials create working          card to pay $57,000 for the DLA director’s leased
         groups to implement necessary functionality in            vehicle, rental cars and taxis without valid contracts
         GFEBS for Army real property management; develop          in place. Thus, unauthorized commitments of funds
         standardized procedures and controls that leverage        occurred and DLA might not have received the best
         all GFEBS capabilities; provide job-specific training;    value for rental cars.
         review all real property data, including land, in         R esult :
         GFEBS for accuracy; develop integrated processes for      DoD IG made recommendations to the various DoD
         recording construction costs; and develop procedures      organizations to eliminate or justify excess vehicles,
         for converting fixed assets.                              perform annual mileage reviews of vehicles and
         Report No. DODIG-2013-130                                 establish daily logs. DoD IG also recommended that
                                                                   the director, DLA needed to initiate action to review
                                                                   unauthorized commitments and begin ratification
                                                                   actions in accordance with the Federal Acquisition
                                                                   Regulation and Defense Logistics Agency Directive.
                                                                   Report No. DODIG-2013-117

                                                                   The Audit Opinion of the DISA FY 2011
                                                                   Working Capital Fund Financial Statements
                                                                   Was Not Adequately Supported
                                                                   O verview:
                                                                           In 2006, DoD IG issued policy instructing
           DoD IG recommended Army officials create working
                                                                           all other defense organizations to execute
           groups to implement GFEBS functionality necessary for
           Army real property management.
                                                                   contracts with independent public accounting firms
                                                                   for the audit of financial statements through the



22 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                        C o r e M i ss i o n A r e a s

Inspector’s General Chief Financial Officer Multiple     approximately $712.7 million. DoD IG determined
Award Contract. The purpose of the policy was to         whether improper payments processed through the
ensure that DoD IG would maintain oversight of           One Pay system at Navy activities were identified and
the financial statement audits of other defense          reported.
organizations. In 2010, DoD IG issued policy
establishing that DoD IG will conduct post audit
reviews on a sample of the DoD entities financial
                                                            “From a nonstatistical review of 25
statement audits for which DoD IG did not provide             payments valued at $2.5 million, DoD
oversight. DoD IG determined the adequacy of Acuity           IG identified five improper payments,
Consulting, Inc.’s auditing procedures for the Defense        valued at $158,602 that the Naples
Information Systems Agency FY 2011 Working Capital            CBPO neither identified nor reported.”
Fund Financial Statements.
Findings:                                                Findings:
Acuity Consulting, Inc.’s auditing procedures on         The Naples Commercial Bill Pay Office did not comply
the DISA FY 2011 Working Capital Fund Financial          with the requirements of the Improper Payments
Statements were inadequate. In addition, the             Elimination and Recovery Act and the implementing
director, Procurement and Logistics Directorate, DISA,   DoD regulations. The Naples CBPO did not perform
prohibited the contracting officer representative from   reviews to identify and report improper payments
completing key duties required to provide oversight of   from the 18,688 payments. The Navy and DoD
Acuity’s work. Acuity did not have sufficient evidence   understated the amount of improper payments
to issue an unqualified opinion on the DISA FY 2011      reported. From a nonstatistical review of 25 payments
Working Capital Fund Financial Statements.               valued at $2.5 million, DoD IG identified five improper
R esult :                                                payments, valued at $158,602 that the Naples CBPO
DoD IG recommended DISA should ensure that               neither identified nor reported.
individuals performing contract oversight of financial   R esult :
statement audits are qualified DISA employees            DoD IG recommended that the Navy update guidance
and seek a refund from Acuity. Acuity Consulting,        to clarify responsibility for processing payments
Inc. should withdraw their opinion and review the        in One Pay and develop procedures for improper
planned work on future audits to gather sufficient       payment identification and reporting.
evidence to support their opinion.                       Report No. DODIG-2013-077
Report No.DODIG-2013-071
                                                         Efforts to Minimize Improper Payments for the
The Navy Commercial Bill Pay Office, in                  Shipment of Household Goods Were Generally
Naples, Italy, Needs to Identify and Report              Effective But Needed Improvement
Improper Payments                                        O verview:
O verview:                                                        DoD processed more than 1.3 million invoices
        The Department of the Navy established                    and paid $3.5 billion from July 2010 to March
        the Commercial Bill Pay Offices in FY 1996       2012 to ship household goods for DoD military and
to streamline fiscal responsibility and functions.       civilian employees who relocated to and from DoD
The Naples CBPO provides disbursing support for          installations worldwide. DoD IG determined whether
contract payments for Navy Region Europe, Africa         the Department’s efforts to minimize, identify, report
and Southwest Asia. The Naples CBPO processes            and recover improper payments on the shipment
approximately 80 percent of its payment transactions     of household goods were sufficient, effective and in
through One Pay. One Pay was designed to create          compliance with applicable laws and regulations.
payment entitlements in accordance with the Prompt       Findings:
Pay Act, recognize and manage applicable discounts       DoD IG determined that General Services
or deductions, and compute and apply interest when       Administration post-payment audits identified more
necessary. From July 1, 2011, through June 30, 2012,     than 16,000 invoices with potential overpayments
Naples CBPO processed 18,688 payments, valued at




                                                                                      APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 23
C o r e M i ss i o n A r e a s

         that DoD had not detected. The Surface Deployment       for reconciling the Italian air force fuel exchange
         and Distribution Command and the Defense Finance        agreement jointly with the Northern Italian Pipeline
         and Accounting Services did not obtain information      system fuel support agreement did not comply with
         from GSA that could assist in identifying and           established guidance on reciprocal pricing. As a result
         preventing the improper payments. As a result, DoD      of this reconciliation process, DLA Finance Energy
         lost the use of $4.6 million of overpayments and DFAS   over-calculated the amount of aviation fuel required
         underreported the number of improper payments.          to settle the Northern Italian Pipeline System fuel
         DoD IG also determined that DFAS identified 142,636     support agreement by approximately 3.4 million
         processed line items that had accounting errors         gallons of aviation fuel, valued at approximately $10.8
         related to shipments of household goods, resulting in   million for 2006 through 2010.
         $13 million of costs that could be saved over a         R esult :
         five-year period.                                       DoD IG recommended DLA revise the annual joint
         R esult :                                               reconciliation process to deduct the monetary value
         DoD IG recommended the Surface Deployment and           of the Italian Air Force fuel exchange agreement
         Distribution Command use GSA data to improve            balance, calculated at standard price, from the dollar
         compliance and implement automated controls             value of the Northern Italian Pipeline System fuel
         over the input of household goods information.          support agreement bill, document the process that
         Additionally, DoD IG recommended DFAS report            complies with the reciprocal pricing laws and initiate
         improper payment information in accordance with         actions to recover overcompensation from the annual
         guidance. Management generally agreed with the          joint reconciliations.
         recommendations.                                        Report No. DODIG-2013-101
         Report No. DODIG-2013-083

         Fuel Exchange Agreements Reconciliations
                                                                 Joint Warfighting and Readiness
                                                                 The Department is making progress in addressing the
         Are Effective, but the Joint Reconciliation             many difficulties in the drawdown in Afghanistan,
         Process Needs Improvement                               resetting equipment and ensuring the long-term
         O verview:                                              viability of the all-volunteer force. However, the
                  International agreements include fuel          Department must also be ready to address fiscal
                  exchange agreements and fuel support           challenges, starting with sequestration. There are
         agreements entered into between Defense Logistics       already reductions in spending for available training
         Agency Energy and foreign governments that bind         hours and needed maintenance and reset needs.
         both parties to the terms and conditions established    These continuing challenges will impact DoD’s Joint
         for all types of fuel-related supplies and services.    Warfighting and Readiness efforts for the foreseeable
         DLA Energy, as delegated by the DoD through             future. As such, DoD IG oversight will continue to
         DLA, has overall responsibility for negotiating,        focus on these important issues concerning warfighter
         concluding and amending international agreements.       capabilities and readiness. During this reporting
         International agreements are a critical control for     period DoD IG oversight of Department’s Joint
         the worldwide fuel network required to support the      Warfighting and Readiness efforts included classified
         DoD and other agencies. DoD IG determined whether       reports addressing efficiency improvements with
         the management and oversight of the Defense             the munitions requirements process, transportation
         Logistics Agency Energy’s international fuel support    planning for retrograde operations and military
         agreements were effective.                              support operations with civil-military operations
         Findings:                                               in the Horn of Africa. DoD IG also reported on
         DLA Finance Energy’s reconciliation process was         communication capabilities during domestic
         generally effective for 11 fuel exchange agreements     emergencies and accountability of aircraft.
         reviewed. However, DLA Finance Energy’s process




24 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                            C o r e M i ss i o n A r e a s

Improved Oversight of Communications
Capabilities Preparedness Needed for
Domestic Emergencies
O verview:
         DoD provides Defense Support of Civil
         Authorities through active military forces
(primarily under the command and control of the
U.S. Northern Command), DoD Component assets
and National Guard units, when requested by civil
authorities or by qualifying entities, or when directed
by the President or approved by the appropriate DoD
officials. Army National Guard and Air National Guard
units (primarily under the command and control
of the governor) are the first military responders
on-site when a domestic emergency occurs. DoD IG
determined whether DoD communications equipment
                                                            DoD IG determined whether DoD had adequate oversight
was available, maintained, staffed and ready for use to     and accountability of the C-12 aircraft.
ensure interoperability during a domestic emergency.
Findings:                                                 DoD IG determined whether U.S. Army Special
National Guard Bureau officials did not always
                                                          Operations Command officials were complying with
ensure that DoD communications equipment was
                                                          applicable federal and DoD guidance when justifying
available, maintained, staffed or ready for use during
                                                          the use of military airlift aircraft and whether DoD
a domestic emergency. DoD may experience reduced
                                                          had adequate oversight and accountability of the
communications during domestic emergencies, which
                                                          C-12 aircraft.
may adversely affect rescue and relief efforts and
increase the risk of physical and economic damages        Findings:
                                                          U.S. Special Operations Command officials did
and human casualties.
                                                          not assume responsibility for providing oversight
R esult :                                                 and accountability of the aircraft. USASOC may be
DoD IG recommended that the National Guard
                                                          operating an underused aircraft in excess of the
Bureau establish oversight procedures, including
                                                          required Operational Support Airlift aircraft inventory.
performance metrics, to verify that National Guard
                                                          Additionally, DoD is at an increased risk that misuse
units resolve, repair and troubleshoot actions for the
                                                          of the aircraft by senior officials may occur and go
Joint Incident Site Communications Capability system in
                                                          undetected. U.S. Army Special Operations Command
a timely manner. National Guard officials agreed with
                                                          officials did not comply with federal and DoD
recommendations.
                                                          guidance when justifying the cost of using the aircraft.
Report No. DODIG-2013-102
                                                          DoD lacks reasonable assurance that USASOC officials
                                                          used the most cost-effective flights.
Better Oversight and Accountability Needed
for the U.S. Army Special Operations
                                                          R esult :
                                                          DoD IG recommended the USSOCOM assume
Command C-12 Aircraft
                                                          responsibility for providing oversight and
O verview:                                                accountability of the C-12 aircraft, report the aircraft
       In August 2000, the Army transferred a C-12        in their inventory and make the aircraft visible for
       Operational Support Airlift aircraft to U.S.       centralized scheduling. DoD IG also recommended
Special Operations Command. The C-12 aircraft             that USASOC develop and use the actual cost per
was to be used by the U.S. Army Special Operations        flying-hour rate for the C-12 aircraft. USSOCOM and
Command for administrative travel of senior officials.    USASOC agreed with the recommendations.
DoD IG conducted the audit in response to a referral      Report No. DODIG-2013-080
from the U.S. Army Office of the Inspector General.




                                                                                             APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 25
C o r e M i ss i o n A r e a s


         Cyber Security                                              “Additionally, the commander,
         U.S. military forces are critically dependent on              Navy Installations Command, N3
         networks and information systems to execute their             Antiterrorism office spent more than
         missions. The forces are highly vulnerable if threats         $1.1 million in disallowable costs and
         to those networks and information systems are not             lacked oversight of and diminished
         mitigated. DoD has recognized cyberspace security
         and operations as a top issue. DoD and U.S. Cyber
                                                                       legal recourse against the service
         Command are working to build a balanced and highly            provider.”
         capable military cyber force to meet DoD’s joint
         warfighting requirements. Offensive cyber programs       The Commander, Navy Installations Command,
         and capabilities are growing, evolving and spreading.    N3 Antiterrorism office, misrepresented its
         DoD is normalizing cyber operations to include           costs and circumvented competitive contracting
         improving tactics, techniques and procedures, as well    requirements to implement the system. Additionally,
         as policies and organizations.                           the commander, Navy Installations Command, N3
                                                                  Antiterrorism office spent more than $1.1 million
         Oversight of the Department’s efforts concerning         in disallowable costs and lacked oversight of and
         cyber security is a top priority for DoD IG. During      diminished legal recourse against the service provider.
         this reporting period, DoD IG addressed maintaining      R esult :
         authorization accreditations for DoD information         DoD IG recommended that the Navy replace the
         systems, prevention of data loss, improvements           system with one that uses mandatory databases
         needed in information assurance vulnerability            and revise their policy and guidance to align with
         management program at DISA and security of critical      federal and DoD credentialing requirements.
         infrastructure and systems.                              Further, DoD IG recommended the Navy review the
                                                                  inappropriate contracting practices and establish a
         Navy Commercial Access Control System Did                corrective action plan.
         Not Effectively Mitigate Access Control Risks            Report No. DODIG-2013-134
         O verview:
                 The Navy Commercial Access Control System        Health Care
                 is an enterprise identity management and         The Department seeks to better manage DoD
         perimeter installation access control solution           health benefits in a way that improves quality and
         used to manage commercial vendors, contractors           satisfaction, while more responsibly managing costs
         and suppliers requiring routine access to Navy           by building a shared commitment to health care. The
         installations. The Commander, Navy Installations         Department must continue to provide the highest
         Command, the office designated to oversee the            quality care and service, while ensuring fiscally
         physical security of all continental U.S. Navy           responsible management. The DoD strategy is to
         installation perimeters, implemented the Navy            continue to ensure the military force is medically
         Commercial Access Control System. DoD IG                 ready to deploy, reducing the generators of ill health
         determined whether the Navy Commercial Access            while encouraging healthy behaviors, providing
         Control System was mitigating access control risks to    the highest quality that is patient- and family-
         Navy installations.                                      centered and responsibly managing the total cost
         Findings:                                                of health care. During this reporting period, DoD
         DoD IG determined the Navy Commercial Access             reported that the TRICARE Mail Order Program was
         Control System did not effectively mitigate contractor   more cost-efficient for beneficiaries than obtaining
         access control risks and allowed convicted felons        pharmaceuticals through retail pharmacies, and
         to access Navy installations without the knowledge       the program had adequate controls over dispensing
         and approval of the installation commander. DoD IG       pharmaceuticals. Additionally, DoD IG reported on
         identified 52 convicted felons who received routine,     DoD’s and the Department of Veterans Affairs’ joint
         unauthorized installation access, placing military       venture at Tripler Army Medical Center.
         personnel, dependents, civilians and installations at
         an increased security risk.


26 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                           C o r e M i ss i o n A r e a s

The Department of Defense and Veteran                      to grow. DoD IG identified $33.6 million in potential
Affairs Health Care Joint Venture at                       monetary benefits that could be used to meet
Tripler Army Medical Center Needs More                     future requirements.
Management Oversight                                       R esult :
O verview:                                                 Among other recommendations, DoD IG
        Tripler Army Medical Center, Hawaii, home          recommended (1) TAMC request the required waiver
        of the Pacific Regional Medical Command, is        from the under secretary of defense (comptroller) and
the only federal tertiary care hospital in the Pacific     elevate issues to U. S. Army Medical Command; (2)
basin. TAMC supports 264,000 local active duty             U. S. Army Medical Command request DoD/Veterans
and retired military personnel, their families and         Affairs Program Coordination Office to review the
veteran beneficiaries. TAMC supports an additional         reimbursement policy; and (3) assistant secretary of
171,000 military personnel, family members,                defense (health affairs) require the DoD/VA Program
veteran beneficiaries, residents of nine U.S.-affiliated   Coordination Office present the issues cited to the
jurisdictions and forward-deployed forces in more          appropriate levels within the Health Executive Council
than 40 countries throughout the Pacific. In 1992, the     for resolution.
under secretary of the Army signed the initial Joint       Report No. DODIG-2013-135
Venture agreement between TAMC and Veterans
Affairs Pacific Islands Health Care System. The vision
for the Joint Venture agreement is to be the model
                                                           Equipping and Training Afghan
DoD/Veterans Affairs integrated comprehensive              Security Forces
health care system in the 21st century. According to       The Department continued to develop the Afghan
the agreement, TAMC billed Veterans Affairs Pacific        National Security Force’s capability to take ultimate
Islands Health Care System for medical services            responsibility for Afghanistan’s security. Completing
totaling $18.7 million for FY 2009, $21 million for FY     the fielding of “enablers,” or military capabilities
2010, $18.2 million for FY 2011 and $15.3 million          essential to building ANSF’s capacity to accomplish its
for FY 2012. DoD IG determined whether the master          missions, is increasingly important. The Afghanistan
sharing agreement and joint policies governing claims      Security Forces Fund provides the resources required
and reimbursement between Department of Veterans           to train, sustain and equip a 352,000-person ANSF.
Affairs and DoD for health care services at Tripler        For FY 2013 Congress appropriated $5.1 billion for
Army Medical Center were operating effectively.            ASFF. The FY 2013 DoD request reflected a shift
                                                           as emphasis moves from building, equipping and
                                                           training to professionalizing and sustaining the
   “DoD IG identified $33.6 million in                     force. DoD IG continues to focus oversight on DoD’s
     potential monetary benefits that could                management and effective use of ASFF. During this
     be used to meet future requirements.”                 reporting, DoD IG reported on the DoD’s contract
                                                           oversight efforts with the Afghanistan National Police
Findings:                                                  training/mentoring contract, ANSF radio contracts and
The master sharing agreement and joint policies            overhaul of Mi-17s.
did not effectively obtain timely reimbursement for
health care services provided. The master sharing          DoD Needs to Improve Oversight of the
agreement and joint policies did not comply with           Afghan National Police Training/Mentoring
DoD regulations, deliver an adequate authorization         and Logistics Support Contract
process, or provide an effective modification              O verview:
process to revise local policies. As a result, without a         Army Contracting Command awarded the
mutual solution between DoD and the Department                   Afghan Ministry of Interior and Afghanistan
of Veterans Affairs to address the longstanding            National Police training/mentoring and logistics
problems, the burden of about $26.2 million in             support contract, valued at approximately $1 billion,
delinquent debt—$3.7 million in unbilled claims and        to DynCorp International, LLC, Dec. 20, 2010. The
$3.7 million in uncompensated care—will continue           ANP contract was a cost-plus-fixed-fee contract




                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 27
C o r e M i ss i o n A r e a s

         that included a 120-day transition period for the         Award and Administration of Radio Contracts
         contractor to become fully operational, a two-year        for the Afghan National Security Forces Need
         base period and a one-year option period. DoD IG          Improvement
         determined whether the Army, NATO Training Mission        O verview:
         Afghanistan/Combined Security Transition Command-                 DoD IG reviewed the procedures used by
         Afghanistan and the Defense Contract Management                   the U.S. Army Communications–Electronics
         Agency had adequate oversight processes and               Command to award Datron World Communications,
         procedures for the ANP contract and whether DoD           Inc. radio contracts, verify timely deliveries and
         conducted adequate surveillance of the contract.          establish quality assurance measures in accordance
         Findings:                                                 with requirements. Specifically, DoD IG reviewed
         The Defense Contract Management Agency,                   36 contract actions, valued at approximately
         Combined Security Transition Command-Afghanistan          $321.5 million.
         and Army contracting officials need to improve
         oversight of the DoD Afghan National Police
         contract. DCMA personnel did not coordinate                  “...Datron...did not meet the initial
         oversight processes and procedures with program or            90-day contractual delivery
         contracting personnel, implement quality assurance            requirement for 29 of 36 contract
         requirements considered critical for mission success,         actions, and ACC-APG contracting
         review oversight documentation and properly train             officials did not renegotiate to establish
         contracting officer representatives. Furthermore,
                                                                       reasonable delivery schedules.”
         U.S. Forces-Afghanistan and DCMA officials did not
         have an adequate fielded mentor oversight strategy
         to overcome the challenges of providing oversight         Findings:
         in Afghanistan. In addition, CSTC-A developed a           CECOM, Security Assistance Management Directorate
         memorandum of agreement with Red River Army               personnel could not substantiate the requirements
         Depot, Texas, to hire CORs for the ANP contract;          for $133 million of Datron radios and equipment
         however, the memorandum did not identify                  procured for the Afghan National Security Forces
         appropriate COR qualifications.                           because personnel developed letters of offer and
                                                                   acceptance for more equipment than NATO Training
         R esult :                                                 Mission–Afghanistan/Combined Security Assistance
         DCMA-Afghanistan, should review the prior lead
                                                                   Command–Afghanistan requested. As a result, ANSF
         quality assurance representative’s and the prior
                                                                   might not have needed all the Datron items at the
         quality assurance representative’s performance and
                                                                   time U.S. Army Contracting Command–Aberdeen
         hold them accountable for deficient performance as
                                                                   Proving Ground procured for them. Furthermore,
         appropriate; establish a quality control process to
                                                                   NTM-A/CSTC-A could have used those funds to
         verify oversight was performed; and establish a clear
                                                                   procure other required equipment. Additionally,
         reporting strategy for fielded mentor COR oversight.
                                                                   Datron did not meet the initial 90-day contractual
         Additionally, DoD IG recommended the Army
                                                                   delivery requirement for 29 of 36 contract actions,
         Contracting Command should coordinate with
                                                                   and ACC-APG contracting officials did not renegotiate
         DCMA to determine whether the oversight strategy
                                                                   to establish reasonable delivery schedules. ACC-
         was appropriate and implement a strategy to
                                                                   APG did not obtain consideration for the delivery
         consistently review contractor internal corrective
                                                                   delays. Furthermore, the delays caused a lack
         action requests. Lastly, U.S. Forces-Afghanistan should
                                                                   of communications capability within ANSF. Also,
         establish and implement an effective fielded mentor
                                                                   Defense Security Cooperation Agency personnel did
         oversight strategy.
                                                                   not return excess contract administration services
         Report No. DODIG-2013-093
                                                                   fees associated with Datron radio contracts to the
                                                                   Afghanistan Security Forces Fund. Approximately $5
                                                                   million in excess fees were not available to NTM-A/
                                                                   CSTC-A to procure unfunded requirements for ANSF.




28 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                           C o r e M i ss i o n A r e a s

R esult :                                                  overhaul of five Pakistani Mi-17 aircraft. The ACC
The director, CECOM Security Assistance Management         contracting officer allowed advance payments in
Directorate, should establish procedures to prepare        violation of U. S. Code and the Federal Acquisition
a letter of acceptance with the same quantities            Regulation. The NSRWA PMO directed the
requested by NTM-A/CSTC-A. The executive director,         procurement of an $8.1 million Mi-17 parts inventory
ACC-APG, should require contracting officials to           without performing a technical analysis or using
coordinate with Defense Contract Management                existing DoD inventory, after the Office of Defense
Agency to monitor and enforce delivery requirements        Representative Pakistan placed an operational hold on
in equipment contract actions. Also, the director,         the scheduled overhauls. The contracting officer and
DSCA, should immediately return unexpended                 NSRWA PMO officials misspent a total of $7.1 million,
contract administration service fees to ANSF and track     or 88 percent, of the $8.1 million. This amount
actual amounts of contract administration service          included $4.5 million for unnecessary Mi-17 parts that
fees collected and expended for future Datron radio        were not needed based on historical data and $2.6
pseudo–foreign military sales cases.                       million for Mi-17 parts that were already in existing
Report No. DODIG-2013-095                                  DoD inventory.
                                                           R esult :
Army Needs To Improve Mi-17 Overhaul                       Among the recommendations, DoD IG recommended
Management and Contract Administration                     the ACC recoup questioned costs of advance
O verview:                                                 payments and unreasonable prices paid for the parts
       DoD IG determined whether U.S. Army                 inventory, provide training to the ACC contracting
       officials properly awarded and administered         officer assigned to this task order and improve quality
the Mi-17 overhaul effort under contract W58RGZ-           assurance oversight of the contractor. In addition,
09-D-0130-0102 in accordance with federal and DoD          DoD IG recommended a full inventory review of all
regulations and policies.                                  Mi-17 parts currently in DoD inventories.
                                                           Report No. DODIG-2013-123
Findings:
Among the findings, the Non-Standard Rotary Wing
Aircraft Project Management Office officials and the       Nuclear Enterprise
U.S. Army Contracting Command contracting officer          National security of the U.S. nuclear enterprise
did not properly procure Mi-17 parts inventory and         extends to providing oversight for evaluating policies,
did not effectively administer the contract for the        procedures, plans and capabilities of security and
                                                           control of nuclear weapons.

                                                           Accountability of the Air Force’s Classified
                                                           Inventory of Nuclear Weapons-Related
                                                           Material
                                                           O verview:
                                                                  The report determined the status of the
                                                                  U.S. Air Force’s supply-system procedures for
                                                           receiving, marking, storing and shipping classified
                                                           nuclear weapons-related material. The former
                                                           deputy assistant secretary of defense for nuclear
                                                           matters sought confirmation that the Air Force had
                                                           made progress to correct loopholes that would
                                                           prevent the accidental shipment of nuclear
                                                           weapons-related material.
                                                           R esult :
  DoD IG determined whether U.S. Army officials properly
                                                           The Air Force’s procedures for receiving, marking,
  awarded and administered the Mi-17 overhaul effort.      storing and shipping nuclear weapons-related




                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 29
C o r e M i ss i o n A r e a s

         material were adequately monitored with sufficient        elimination and reviewed applicable DoD and
         oversight. The integrated process team that the Air       presidential guidance.
         Force Directorate of Logistics, Nuclear Weapons,          R esult :
         Munitions and Missile Maintenance Division                DoD IG determined that the billets will not be
         established and the reports that the Air Force Audit      eliminated; however, DoD IG has concerns regarding
         Agency Acquisition and Logistics Audit Directorate        how the potential decision was staffed. Key offices
         issued addressed the concerns from the former             were not consulted and the time allowed to
         deputy assistant secretary of defense for nuclear         coordinate was extremely short, resulting in an
         matters and DoD IG audit objectives. No further           incomplete picture of the potential impact of the
         audit work by the Office of the Inspector General         proposed action. This report is FOUO.
         for Intelligence and Special Program Assessments          Report No. DODIG-2013-089
         is currently warranted; however, DoD IG plans to
         continue to periodically monitor Air Force oversight of
         nuclear weapons-related material. This report             Other
         is redacted.
         Report No. DODIG-2013-064                                 Cost Increases and Delays Occurred
                                                                   During Closure and Land Transfers of Army
         Cryptographic Modernization of                            Ammunition Plants and Chemical Depots
         Critical Nuclear Command, Control, and                    Under Base Realignment and Closure 2005
         Communications Systems                                    O verview:
         O verview:                                                        The audit was initiated in response to language
                  This report examines the advocacy,                       contained in the report of the Committee
                  programming, budgeting and execution             on Appropriations accompanying H.R. 5854 (House
         of critical nuclear command, control and                  Report 112-491), the Military Construction, Veterans
         communications cryptographic modernization                Affairs and Related Agencies Appropriations Bill for
         programs. The scope was limited to the modernizing        FY 2013.
         of cryptographic components used in 25 critical
         communication networks.                                   The report required DoD IG to review BRAC 2005
                                                                   closures and land transfers, specifically the Committee
         R esult :                                                 directed DoD IG to review BRAC 2005 closures and
         Senior leaders did not give priority to modernization
         programs; guidance was ambiguous, not adhered
         to or disjointed; and no single office is responsible
         for nuclear command, control and communications
         cryptographic modernization lifecycle requirements.
         This report is classified.
         Report No. DODIG-2013-085

         Hotline Report on the Proposed Elimination
         of the Nuclear Command and Control System
         Support Staff
         O verview:
                 This report describes the results of an
                 investigation into allegations that the
         department was preparing to eliminate the Nuclear
         Command and Control System support staff,
         which is required by National Security Presidential
         Directive 28, while that directive remained in place.       Cost increases and delays occurred during closure and
                                                                     land transfers at sites not known to be contaminated at the
         DoD IG interviewed the points of contact for each
                                                                     time of the BRAC recommendation.
         organization asked to coordinate on the proposed




30 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                             C o r e M i ss i o n A r e a s

report to the congressional defense committees               Findings:
on additional issues that delayed land transfer and          The National Geospatial-Intelligence Agency could
increased costs to DoD.                                      have minimized or avoided $11.4 million in total costs
Findings:                                                    if it had incorporated a site scheduled for closure
Army Base Realignment and Closure officials                  into the original plans for the National Geospatial-
incurred cost increases, ranging from $665,000 to            Intelligence Agency Campus East as required by Base
an indeterminable dollar value and indeterminable            Realignment and Closure legislation.
amount of delay in the transfer of land, at five of the      R esult :
six Army Ammunition Plants and Chemical Depots.              Specifically, NGA and under secretary of defense for
Army officials and contractor personnel identified           acquisition, technology, and logistics disagreed with
additional contamination at five sites that were             DoD IG to close the remaining Newington, Va.,
unknown at the time of the BRAC recommendation;              site as required by BRAC. Instead, management
Army, Environmental Protection Agency, state                 continued to execute contractor operations at the
environmental and local redevelopment authority              Newington site even though BRAC legislation
officials disagreed on cleanup requirements at three         includes contractor personnel positions as part of
sites; and Army officials identified additional factors at   the BRAC closure process.
three sites.                                                 Report No. DODIG-2013-116
R esult :
DoD IG recommended that the chief, BRAC Division,
Army Assistant Chief of Staff for Installation
Management, establish a dispute resolution plan              INVESTIGATIONS
to resolve problems and disagreements between
the Army, Environmental Protection Agency, state             The following cases are highlights of investigations
environmental officials and local redevelopment              conducted by DCIS and its federal law enforcement
authority officials as they occur.                           partners during the reporting period. DCIS
Report No. DODIG-2013-114                                    investigations are listed under the following
                                                             categories:
National Geospatial-Intelligence Agency                        •	 Procurement fraud
Did Not Comply With Base Realignment and                       •	 Public corruption
Closure Legislation                                            •	 Product substitution
O verview:                                                     •	 Health care fraud
        DoD IG conducted this audit in response to             •	 Illegal technology transfer
        a congressional request. DoD IG determined
whether the National Geospatial-Intelligence                 Procurement Fraud
Agency complied with Public Law 101-510, Defense             Procurement fraud investigations continue to
Base Closure and Realignment Act of 1990, as                 comprise a major part of the DCIS case inventory. Of
amended. Specifically, DoD IG determined whether             all forms of white-collar crime, procurement fraud
NGA complied with Base Realignment and Closure               is probably the least visible, yet the most costly.
Recommendation 168, National Geospatial-                     Procurement fraud includes, but is not limited to, cost
Intelligence Agency Activities.                              or labor mischarging, defective pricing, price fixing,
                                                             bid rigging, and defective and counterfeit parts. The
   “The National Geospatial-Intelligence                     potential damage resulting from procurement fraud
     Agency could have minimized or                          extends well beyond financial losses. This crime poses
                                                             a serious threat to the ability of the Department to
     avoided $11.4 million in total costs if                 achieve its operational objectives and can have a
     it had incorporated a site scheduled for                negative effect on the implementation of programs.
     closure into the original plans...”                     DCIS places the highest priority on investigations
                                                             impacting safety and operational readiness to
                                                             protect the welfare of warfighters throughout the
                                                             procurement process.


                                                                                           APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 31
C o r e M i ss i o n A r e a s

         DoD Contractor Ordered to Pay $473 Million
         for False Claims Act Violations
         O verview:
                 A joint investigation with Air Force Office
                 of Special Investigations determined that
         United Technology Corporation violated the Truth in
         Negotiations Act when they negotiated pricing and
         submitted claims to DoD for work performed on an
         Air Force contract. UTC was found liable for more than
         $473 million in damages and penalties arising from a
         contract to provide aircraft engines for the F-15 and
         F-16 aircraft between 1985 and 1990. UTC proposed
         prices for the engine contract misrepresented
         how UTC calculated those prices, resulting in the
         government overpaying for the engines by hundreds
         of millions of dollars. UTC did not disclose historical
                                                                      Blue Marsh Laboratory prepared and mailed fraudulent
         discounts received from suppliers in the price               water test results to DoD seeking payment for testing that
         proposal and knowingly used outdated information             was not done according to contract specifications.
         that excluded such discounts.
         R esult :                                                  BML violated other contract requirements by not
         Previously, UTC had been found guilty and ordered          having the required testing equipment or personnel
         to pay the U.S. government $7 million for violations       qualified to conduct the tests. BML provided testing
         of the False Claims Act. On June 17, 2013, UTC was         services and reports to other customers such as
         further ordered by an appellate court to pay the           local municipalities and business entities that were
         government $357 million in damages and penalties           required to comply with EPA and Pennsylvania
         for violations of the False Claims Act and an additional   Department of Environmental Protection regulations.
         $109 million in damages for common law claims.
                                                                    R esult :
                                                                    Previously, McKenna was sentenced to nine months
         U.S. Army Debars Blue Marsh Laboratory for                 of imprisonment, three years of supervised release,
         Falsifying Water Test Results                              and to pay jointly and severally with BML, restitution
         O verview:                                                 of $14,114 to the identified victims, of which,
                 A joint investigation with EPA-Criminal            $10,118 was directed to be paid to USACE. BML was
                 Investigative Division and Food and Drug           sentenced to five-years of probation and joint and
         Administration-Office of Criminal Investigations           several payment of the $14,114 restitution. On April
         disclosed that Michael J. McKenna, president and           24, 2013, the U.S. Army debarred BML and McKenna
         owner of Blue Marsh Laboratory, prepared and mailed        from federal contracting and government-approved
         fraudulent water test results to DoD seeking payment       subcontracting until Aug. 12, 2016.
         for testing that was not done according to contract
         specifications. From June 2006 through December
         2006, BML was subcontracted to perform water               Public Corruption
         quality and sediment sampling analysis for various         Corruption by public officials poses a fundamental
         pollutants and chemistry for the U.S. Army Corps of        threat to the country’s national security and overall
         Engineers at four reservoir parks in Pennsylvania. The     safety and undermines the public trust in the
         parks were used for recreational activities such as        government. Public corruption wastes billions of tax
         swimming and contained numerous water fountains            dollars and negatively affects DoD and the mission
         for human consumption. The investigation showed            of the warfighter. DCIS combats this issue with
         McKenna directed BML employees to falsify the              the authority, resources and expertise to conduct
         water test results knowing the tests were not done         undercover operations, court-authorized electronic
         according to contract specifications. In addition,         surveillance and forensic audits. Using these tools,




32 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                              C o r e M i ss i o n A r e a s

DCIS holds accountable those who undermine                    for his participation in the bribery and money
the integrity of the DoD acquisition system. The              laundering scheme.
entire procurement system is based on the trust
and integrity of the public officials who oversee             Army Corps of Engineers Bribery Scheme
the purchase, quality, safety and security of the             O verview:
equipment, and services that warfighters require to                   A joint investigation with the FBI,
carry out the mission.                                                Internal Revenue Service, Small Business
                                                              Administration and Army CID disclosed that several
Former DoD Contractor Jailed for Corruption                   DoD contractors paid approximately $6-7 million
Scheme in Kuwait                                              in bribes to U.S. Army Corps of Engineers program
O verview:                                                    manager Kerry Khan and approximately $1.5 million in
         A joint DCIS, FBI, U.S. Army Criminal                bribes to USACE Program Director Michael Alexander.
         Investigative Command and Special Inspector          The bribes were paid in exchange for approximately
General for Iraq Reconstruction investigation disclosed       $731 million in subcontracts on USACE contracts
that Wajdi Birjas, a former DoD contract employee in          for technology for infrastructure, geospatial and
the Host Nation Affairs Office at Camp Arifjan, Kuwait,       environmental requirements.
was involved in a bribery and money laundering                R esult :
scheme. The scheme involved corruption in the                 On July 11, 2013, Khan was sentenced to 19 years
award of defense contracts at Camp Arifjan. Birjas            and seven months in prison for receipt of bribes and
had frequent contact with U.S. Army contracting               conspiracy to commit money laundering. Khan was
officials, including officials regularly receiving unlawful   ordered to pay $32.5 million in restitution to USACE.
payments from individuals who had contracts with              The restitution is to be paid jointly and severally
or were seeking contracts from DoD. By bribing these          with seven previously convicted codefendants. This
Army contracting officials in 2005 and 2006, Birjas           amount includes a forfeiture money judgment of $11
assisted his company in obtaining more than $1.7              million. Khan was also ordered to forfeit $1.3 million
million in DoD contracts to provide various goods and         in bank account funds; 13 properties in Virginia,
services to the U.S. military. Birjas received a share        Florida and West Virginia; and a vehicle.
of the profits that the contracts generated and was
allowed to live rent-free in a villa in Kuwait. Birjas paid   Three Sentenced for Their Roles in a Bribery
his co-conspirators more than $100,000. Birjas also           Scheme for DoD Contracts
allowed another co-conspirator to hide bribe money
                                                              O verview:
in a hidden safe in the Kuwait villa. Birjas later assisted
                                                                      A joint investigation with Naval Criminal
his co-conspirators in transferring the money back to
                                                                      Investigative Service disclosed that supply
the United States.
                                                              technician Michelle Rodriguez, a former employee
                                                              at Marine Corps Logistics Base Albany, Ga., accepted
   “On April 2, 2013, Birjas was sentenced                    bribes to award contracts for machine products to
     to 35 months in prison, three years of                   companies owned by Thomas Cole and Frederick
     supervised release and ordered to forfeit                Simon. The investigation showed that from 2011,
                                                              Rodriguez provided competitors’ bid solicitations and
     $650,000 for his participation in the                    suggested usually inflated bid amounts to Thomas
     bribery and money laundering scheme.”                    Cole and Frederick Simon to win contracts in exchange
                                                              for money. Rodriguez was paid $75 cash per order.
R esult :                                                     Cole’s and Simon’s companies received nearly 1,300
Previously, Birjas pleaded guilty to conspiracy to            machine product orders. As a result of this scheme,
commit bribery and conspiracy to commit money                 the loss to the U.S. government was approximately
laundering and was convicted. On April 2, 2013, Birjas        $907,000.
was sentenced to 35 months in prison, three years of          R esult :
supervised release and ordered to forfeit $650,000            On June 6, 2013, Michelle Rodriguez, Thomas
                                                              Cole and Frederick Simon were sentenced for



                                                                                            APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 33
C o r e M i ss i o n A r e a s

         bribery. Rodriguez was sentenced to 70 months of        R esult :
         confinement, forfeiture of $161,000 and 36 months of    Previously, Begany, Vando and Lamboy-Rivera pleaded
         supervised release. Cole was sentenced to 46 months     guilty to converting property and aiding and abetting,
         of confinement, forfeiture of $209,000 and 36 months    and were convicted. On May 3, 2013, Vando and
         of supervised release. Simon was sentenced to 32        Lamboy-Rivera were both sentenced to 30 months in
         months of confinement, forfeiture of $74,500 and        prison followed by three years of supervised release.
         36 months of supervised release. Rodriguez, Cole and    On July 22, 2013, Begany was sentenced to 48 months
         Simon were jointly ordered to pay total restitution     in prison and three years of supervised release.
         of $907,000 to the Marine Depot Maintenance             Additionally, the three codefendants were ordered to
         Command.                                                jointly and severally pay restitution of $1.2 million to
                                                                 the DoD contractor.
         U.S. Army Soldiers Sentenced for $1.3 Million
         Army Finance Office Theft                               Former DoD Auditor Violated Federal Conflict
         O verview:                                              of Interest Rules
                  A joint DCIS, FBI and Army CID investigation   O verview:
                  disclosed that Staff Sgt. Jason Begany,                A DCIS investigation disclosed that former
         Sgt. Edwin Vando and Sgt. Juan Lamboy-Rivera                    Defense Contract Audit Agency auditor, Jodi
         participated in a scheme to keep contract               Andres, represented DoD contractor Alaska Aerospace
         overpayments returned by a DoD contractor. While        Development Corporation during communications
         deployed with the 82nd Finance Battalion to Kabul,      and negotiations with DCAA regarding a contract she
         Afghanistan, Bagany was the noncommissioned             had previously audited. The investigation showed
         officer-in-charge of the Camp Eggers finance            that from January 2003 to September 2006, Andres,
         office. Bagany, Vando and Lamboy-Rivera were            as a DCAA auditor, worked on a multiyear, million-
         responsible for ensuring that authorized contract       dollar Missile Defense Agency contract. Andres
         payments were made to vendors. In May 2009, a           conducted both pre-award and post-award accounting
         contractor representative contacted the Camp Eggers     system reviews for this contract and, as a result,
         finance office regarding a possible overpayment of      had a significant role in the contract procurement
         $1,297,959. Begany, Vando, Lamboy-Rivera and an         process. Andres’s audit results continued to be relied
         interpreter reviewed the contract and determined        upon by DCAA during the risk assessment phase of
         that there was not an overpayment, but devised          audit planning to help determine areas of risk for
         a plan to steal the money. Begany, through the          subsequent audit effort relating to AADC. Andres
         interpreter, contacted the vendor, claimed that         resigned from DCAA and was hired as a controller
         an overpayment had been made and directed the           with AADC. In July 2008, Andres represented AADC
         vendor to wire the money to a specific bank account.    during communications and negotiations with DCAA
         The bank account was set up by the interpreter to       for the same Missile Defense Agency contract she had
         facilitate the theft. The interpreter then withdrew     previously audited and with the intent to influence
         approximately $500,000 from the account and gave        DCAA regarding that contract. Her actions were
         approximately $400,000 to Vando. Begany¸ Vando and      in violation of a lifetime restriction that bars such
         Lamboy-Rivera split the money among themselves          communications.
         and purchased rugs and shipped some of the rugs to      R esult :
         the United States.                                      On July 22, 2013, Jodi Andres pleaded guilty to and
                                                                 was convicted of conflict of interest. The same day,
            “Additionally, the three codefendants                Andres was sentenced to two years of probation and
              were ordered to jointly and severally              a $5,000 fine.
              pay restitution of $1.2 million to the
              DoD contractor.”




34 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                             C o r e M i ss i o n A r e a s


Product Substitution                                       and ordered to pay $998,951 in restitution.
                                                           Chesapeake Corporation was sentenced to five
DCIS supports DoD and its warfighting mission
                                                           years of probation, joint and several liability for the
through timely, comprehensive investigations of
                                                           restitution and ordered to pay a $50,000 fine. On April
counterfeit, defective or substandard products,
                                                           19, 2013, the Defense Logistics Agency debarred the
and substituted products that do not conform with
                                                           Chesapeake Corporation and Cummings from doing
the requirements of the contract. Nonconforming
                                                           business with the federal government through Aug.
products disrupt readiness and waste economic
                                                           10, 2016.
resources. They also threaten the safety of military
and government personnel and other end-users.
When substituted products are deliberately provided
                                                           Defense Logistics Agency Debarred Aerospec
to DoD, mission critical processes and capabilities
                                                           Fasteners for Supplying Nonconforming Parts
can be severely impacted until those products are          O verview:
removed from the DoD supply chain. DCIS works with                  A DCIS investigation disclosed that Aerospec
federal law enforcement partners, supply centers                    Fasteners, Inc. supplied nonconforming
and the defense industrial base to ensure that DoD         parts to a prime contractor of the Defense Logistics
contractors provide the correct parts and components       Agency. These parts were intended to be inventory for
to meet DoD requirements. DCIS actively participates       multiple military weapons system platforms, including
in the Defense Supply Center- Columbus Counterfeit         the C-5 military transport aircraft, A-10 assault aircraft
Material/Unauthorized Product Substitution Team            and B-52 bomber. The investigation showed that Paul
and partners at the national level with the Intellectual   J. Skiscim, president and CEO of Aerospec, supplied
Property Rights Coordination Center, to focus on           nonconforming pin rivets with “LS” markings when
preventing the proliferation of counterfeit parts.         pin rivets with “HL” markings were specified by the
Pooling the member agencies’ resources allows for          contracts. Aerospec packaged the pin rivets with the
more effective detection and removal of inferior           false “HL” markings. DLA shipped the pin rivets to the
goods that threaten the safety of America’s soldiers,      Air Force for repairs on A-10 aircraft and noticed the
sailors, airmen and Marines.                               “LS” markings were removed from the packaging.
                                                           Pin rivets with the “HL” marking have a higher tensile
Contractor Debarred for Supplying                          strength and are a critical application item. From
Nonconforming Parts to the Government                      September 2010 through May 2011, DLA located and
                                                           quarantined all fasteners traced to Aerospec. These
O verview:
        A DCIS investigation disclosed that Barbara
        Cummings, aka Barbara Cummings
Robinson, president of DoD contractor Chesapeake
Corporation, and her corporation, were involved
in procurement fraud schemes associated with
Defense Supply Center-Columbus contracts. The
investigation determined that the company was
supplying automotive parts, primarily filters that did
not meet the specified contract requirements. The
nonconforming parts were for use in military vehicles
and vessels, and hydraulic cranes. Some of the parts
were critical application items.
R esult :
Previously, Cummings pleaded guilty to a bill of
information charging her and her company with wire
fraud and was convicted. Cummings was subsequently
                                                             DLA debarred Aerospec Fasteners for supplying
sentenced to one year of home confinement, 240
                                                             nonconforming parts intended to be inventory for military
hours of community service, four years of probation          weapons system platforms, including the A-10 aircraft.




                                                                                             APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 35
C o r e M i ss i o n A r e a s

         fasteners were inspected and tested, resulting in the
         failure of 29 of 105 fasteners.
         R esult :
         On July 10, 2013, DLA debarred Aerospec and Paul
         Skiscim from all contracting and subcontracting
         with the federal government until Feb. 25, 2016.
         On July 30, 2013, AFI Aerospace, an affiliate of
         Aerospace, was debarred by DLA from all contracting
         and subcontracting with the government until
         June 16, 2016.

         DLA Suspends Suppliers and Owners for
         Supplying Nonconforming Microcircuits
         O verview:
                  A joint investigation with Air Force Office
                  of Special Investigations disclosed that          DLA suspended suppliers and owners for supplying
         Glenn Nichols and Steven Frediani, along with their        nonconforming microcircuits used on S-3B Viking.
         companies, supplied nonconforming microelectronics
         designated as critical application items to Defense
                                                                  Exchange, Instocomp, Inc. – Colorado, Military and
         Supply Center-Columbus for contracts. The
                                                                  Commercial Supply, Inc.; Glenn Nichols and Steven
         investigation showed that from Oct. 27, 2004, through
                                                                  Frediani from federal government contracting. They
         Sept. 6, 2006, Instocomp, Inc., owned by Nichols, was
                                                                  were also suspended from directly or indirectly
         awarded more than 100 DoD contracts for various
                                                                  receiving the benefits of federal assistance programs
         microcircuits. DSCC quality assurance specialists
                                                                  or from purchasing surplus government property
         performed an inspection of the products supplied by
                                                                  under Federal Property and Management Regulations.
         Instocomp and determined they were not original
         equipment manufacturer’s parts as required by the
                                                                  General Electric Aviation Systems Settles False
         contracts. The items supplied included a variety of
                                                                  Claims Act Allegations for $6.5 Million
         digital microcircuits and semiconductors used on
         different aircraft, to include the E-3A AWACS, F-16,     O verview:
         B-52, F-15 Eagle, E-2C, S-3B Viking, B1B and several             A joint investigation with NCIS revealed that
         submarines. Further DSCC review determined a                     General Electric Aviation Systems allegedly
         second company, Military Product Exchange, was           submitted false claims in connection with numerous
         affiliated with Glenn Nichols and Instocomp. Frediani,   DoD contracts. GEAS allegedly failed to comply with
         former sales manager for Instocomp, produced             contract specifications and failed to undertake proper
         fraudulent certificates of conformance at Nichols’       quality control procedures in connection with 641
         direction. Frediani opened Military and Commercial       external fuel tanks delivered to the Navy between
         Supply, Inc. and continued to conspire with Nichols      June 2005 and February 2008. The external fuel
         and provided nonconforming microelectronics and          tanks were for the F/A-18 Hornet fighter. GEAS also
         semiconductors in more than $200,000 worth of            allegedly supplied the Army with drag beams used
         contracts issued by DLA Land and Maritime.               on the Army’s UH-60 Black Hawk helicopter. The
                                                                  drag beams were not properly inspected, which is in
         R esult :
                                                                  violation of contract requirements.
         On Feb. 26, 2013, Steven Frediani and Glenn Nichols
         were charged with conspiracy to commit aircraft          R esult :
         parts fraud. On May 10, 2013, DLA Land and Maritime      On June 6, 2013, management of General Electric
         indefinitely suspended Instocomp, Inc. from doing        Aviation Systems entered into a civil settlement with
         business as IC Electronic Components, Core Integrated    the Department of Justice and agreed to pay
         Circuits aka Core IC and/or Instocomp, Inc.; IC          $6.5 million to settle allegations that they submitted
         Power Exchange doing business as Military Product        false claims in connection with DoD contracts.




36 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                           C o r e M i ss i o n A r e a s


Health Care Fraud                                          $24.9 Million Settlement by Amgen to Settle
                                                           Allegations of False Claims
The rising costs associated with health care continue
to be a national concern. DCIS has experienced             O verview:
an increase in allegations of health care fraud,                    A joint investigation with Health and
and combatting this crime is one of DoD IG’s top                    Human Services OIG disclosed that Amgen
investigative priorities. Of particular concern are        allegedly paid kickbacks to long-term care pharmacy
allegations of potential harm to DoD military              providers—Omnicare Inc., PharMerica Corporation
members and their dependents. In addition to patient       and Kindred Healthcare Incorporated—to increase
harm, typical investigations scrutinize health care        market share for Aranesp. Amgen develops,
providers participating in corruption or kickback          manufactures and sells pharmaceutical products,
schemes, overcharging for medical goods and                including products sold under the trade name
services, marketing of drugs for uses not approved         Aranesp. The investigation showed that from Sept. 1,
by the Food and Drug Administration, and approving         2003 through Dec. 31, 2011, Amgen allegedly offered
unauthorized individuals to receive TRICARE health         and paid illegal remuneration such as rebates, grants,
care benefits. DCIS continues to proactively target        honoraria, speaker fees, consulting services and
health care fraud through coordination with other          gifts to induce Omnicare, PharMerica and Kindred to
federal agencies and participation in federal and state    recommend Areanesp and to influence health care
task forces                                                providers’ selection and utilization of Aranesp within
                                                           nursing homes, skilled nursing facilities and long-term
Health Care Provider Agreed to Pay $6 Million              care settings.
to Settle False Claims Act Allegations                     R esult :
O verview:                                                 On April 4, 2013, the Department of Justice entered
         A joint investigation with the FBI, Health and    into a civil settlement agreement with Amgen,
         Human Services Office of Inspector General,       in which Amgen agreed to pay $24.9 million to
and Office of Personnel Management alleged TranS1,         resolve False Claims Act allegations. Of this amount,
Inc. knowingly caused health care providers to submit      TRICARE’s portion is $136,542.
claims with incorrect diagnoses or procedure codes
for certain minimally-invasive spine fusion surgeries.     $4.2 Million Settlement by East Tennessee
The physicians used TranS1’s AxiaLIF System, a             Hematology-Oncology Associates for False
device developed as an alternative to invasive spine       Claims
fusion surgeries. It was further alleged that TranS1       O verview:
improperly counseled physicians and hospital staff                A joint investigation with FDA-OCI, FBI and
to bill for their system using codes intended for more            Tennessee Bureau of Investigations disclosed
invasive spine fusion surgeries. As a result, the health   that William R. Kincaid, M.D., Millard R. Lamb, M.D.,
care providers received greater reimbursement than         and Charles O. Famoyin, M.D., former partners of
they were entitled to for performing the minimally-        East Tennessee Hematology-Oncology Associates, P.C.
invasive AxiaLIF procedures. This was a qui tam case.      conducting business as McLeod Cancer and Blood
R esult :                                                  Center, knowingly caused the submission of false
On June 28, 2013, TranS1 agreed to pay the United          claims to Medicare, Medicaid, TRICARE and TennCare
States $6 million to resolve allegations under the civil   programs for misbranded unapproved chemotherapy
False Claims Act that the company caused health            drugs that were administered through the McLeod
care providers to submit false claims to Medicare and      Cancer clinic. The investigation showed that from
other federal health care programs. Of this amount,        2007 to early 2008 and from August 2009 to February
TRICARE will receive $558,900 and the relator will         2012, the managing partner, Kincaid, purchased a
receive $1 million.                                        substantial amount of chemotherapy drugs from a
                                                           drug distributor in Canada. The Canadian distributor
                                                           obtained these drugs from foreign sources and the
                                                           drugs were not manufactured in establishments that
                                                           were registered with the FDA. Drugs with labeling




                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 37
C o r e M i ss i o n A r e a s

         in a language other than English or from foreign          audit that Shands Healthcare initiated specific to the
         sources not registered with the FDA are considered        observation status and one-day inpatient charges,
         misbranded. Kincaid, Lamb and Famoyin administered        the auditors discovered the vast majority of claims
         these drugs to their patients and submitted claims for    made by Shands Healthcare to TRICARE and Medicare
         the drugs to health benefit programs for payment.         did not meet TRICARE and Medicare guidelines to be
                                                                   paid under the codes billed. The audit revealed that
                                                                   the documentation provided by Shands Healthcare to
            “On June 10, 2013, Kincaid                             justify the claims was inadequate or missing. This was
              was sentenced to 24 months of                        a qui tam case.
              imprisonment and ordered to pay a                    R esult :
              $10,000 fine.”                                       On July 29, 2013, the Department of Justice entered
                                                                   into a civil settlement agreement with Shands
         R esult :                                                 Healthcare in which the company agreed to pay
         Previously, Kincaid pleaded guilty to receiving           $20.6 million to the U.S. government to settle the
         misbranded drugs with intent to defraud or mislead        allegations of fraud. Of that amount, TRICARE will
         and was convicted. On June 10, 2013, Kincaid was          receive $1 million and the relator will receive
         sentenced to 24 months of imprisonment and                $4.5 million. In addition, Shands agreed to pay the
         ordered to pay a $10,000 fine. Lamb and Famoyin           state of Florida $829,600, of which $157,624 will go
         were minority owners of the company and were not          to the relator.
         criminally charged. On July 2, 2013, the Department
         of Justice entered into a civil settlement agreement      Pediatrix Medical Group of Texas Pays More
         with Kincaid, Lamb and Famoyin, who agreed to pay,        Than $2 Million to Settle Claims of Fraudulent
         via separate settlement agreements, $4.2 million          Billing
         plus interest to resolve allegations they allegedly       O verview:
         violated the False Claims Act. Kincaid’s portion of               A joint investigation with the FBI and Office
         the civil settlement is $2.5 million, and he agreed to            of Personnel Management OIG disclosed
         be excluded from federal health care programs for         an alleged scheme for inflating billing by Pediatrix
         10 years. Lamb and Famoyin are each responsible           Medical Group of Texas who allegedly submitted
         for payments of $850,000. TRICARE’s portion of the        false claims for payment to TRICARE and the Federal
         settlement is $26,966.                                    Employees Health Benefits Program in connection
                                                                   with newborn hearing screenings.
         $26 Million Settlement by Shands Healthcare               R esult :
         for False Claims                                          On April 11, 2013, Pediatrix Medical Group of Texas
         O verview:                                                and parent company MEDNAX, entered into a civil
                 A joint investigation with Health and             settlement with the Department of Justice in which
                 Human Services OIG disclosed that Shands          the companies agreed to pay the government a total
         Jacksonville Healthcare, Inc. and Shands at the           of $2.2 million to settle allegations of fraud . Of this
         University of Florida (collectively, Shands Healthcare)   amount, TRICARE will receive $1.2 million.
         allegedly violated the False Claims Act by submitting
         charges to Medicare, Medicaid and TRICARE for             Health Care Provider Pays $14.5 Million to
         medically unnecessary services related to one-day         Settle Allegations of Overbilling
         inpatient stays and observation status charges. The
                                                                   O verview:
         investigation showed that from 2003 through 2008,
                                                                          A joint investigation with Health and Human
         Shands Healthcare and affiliates allegedly submitted
                                                                          Services OIG and Office of Personnel
         inpatient claims to Medicare, Medicaid and TRICARE
                                                                   Management OIG indicated that Sound Inpatient
         for certain services and procedures that Shands
                                                                   Physicians, Inc. allegedly submitted inflated claims
         Healthcare allegedly knew were correctly billable
                                                                   for payment to federal health care programs. The
         only as outpatient services or procedures. During an
                                                                   claims for hospitalist services rendered to program




38 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                            C o r e M i ss i o n A r e a s

beneficiaries were allegedly billed as higher level       R esult :
services than those that were actually provided and/      He pleaded guilty to conspiracy to violate the IEEPA
or documented on corresponding medical records.           and was convicted. On Aug. 14, 2013, Sarvestani was
Sound Inpatient Physicians employs physicians and         sentenced to 30 months of imprisonment and ordered
contracts with hospitals for physicians’ “hospitalist”    to pay a $100,000 fine and $54,000 in criminal
services. Hospitalists assume the care of hospitalized    forfeiture.
patients in the place of the patients’ primary care
physician. Between Jan. 1, 2008, and July 31, 2009,       UK Arms Dealer Illegally Hid Chinese Origin of
TRICARE paid $681,000 to Sound Inpatient Physicians       Rifle Magazines Sold to DoD
for claims of $7.2 million. This was a qui tam case.
                                                          O verview:
R esult :                                                         A joint investigation with the Bureau of
On June 26, 2013, Sound Inpatient Physicians                      Alcohol, Tobacco, Firearms and Explosives and
entered into a civil settlement agreement with the        Immigration and Customs Enforcement-Homeland
Department of Justice and agreed to pay the U.S.          Security Investigations determined that United
government $14.5 million to settle the allegations        Kingdom citizen and international arms dealer Gary
of fraud. Of the government’s share, TRICARE will         Hyde deliberately altered the origin markings of AK-47
receive $125,898 and the realtor will receive             drum magazines to facilitate their sale to DoD. Hyde
$2.6 million.                                             purchased 6,000 Chinese-manufactured 75-round
                                                          AK-47 rifle drum magazines and deliberately altered
Illegal Technology Transfer                               the origin markings to show Bulgaria as the country of
DCIS serves a vital role in national security through     origin. Hyde sold the altered magazines to AMCHAR
investigations of theft and illegal export or diversion   Wholesale, Inc., also known as American Tactical
of strategic technologies and U.S. Munitions List items   Imports. ATI in turn, supplied the Chinese-made
to banned nations, criminal enterprises and terrorist     magazines to the DLA.
organizations. This includes the illegal transfer or      R esult :
theft of defense technology, weapon systems, and          On May 15, 2013, Hyde pleaded guilty to removing
other sensitive components and programs. Consistent       and altering country of origin markings on imported
with its role in protecting America’s warfighters, DCIS   articles and was convicted. On May 20, 2013,
is an integral participant in the President’s Export      Hyde was sentenced to time served, approximately
Control Reform Initiative. DCIS is a charter member       three months.
of the Export Enforcement Coordination Center, a
multiagency center established to serve as a focal
point for the coordination and enhancement of
government export enforcement efforts.

DoD Contractor Sentenced for Attempting
to Purchase Restricted U.S. Technology for
Shipment to Iran
O verview:
        A joint investigation with the FBI, Department
        of Homeland Security-Counter Proliferation
Group and the Department of Commerce disclosed
that Seyed Amin Ghorashi Sarvestani, owner of
Skylinks FZC, Dubai, attempted to purchase restricted
U.S. satellite equipment and transship it to Iran in
violation of the International Emergency Economic           A UK arms dealer deliberately altered the origin markings of
Powers Act.                                                 AK-47 drum magazines to facilitate their sale to DoD.




                                                                                            APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 39
C o r e M i ss i o n A r e a s

         Foreign Export Company Conspired to Provide                especially in the areas of rehabilitation and transition
         Chinese Company with Restricted Defense                    care. It is critical for DoD IG to maintain vigorous
         Articles                                                   oversight of the health and safety challenges facing
         O verview:                                                 the Department, not only to ensure that wounded
                 A joint investigation with Immigration and         warriors receive high-quality health care but that DoD
                 Customs Enforcement disclosed Kevin                health care dollars are spent wisely and prudently.
         Zhang, owner of Wayfarer Trade Ltd., contacted a
         Northrup Grumman business manager in an attempt            DoD IG supports this priority by focusing its oversight
         to purchase several G2000 dynamically-tuned                efforts on preventing and detecting fraud, waste and
         gyroscopes. The G2000 DSP-1500 dynamically-tuned           abuse, and improving efficiency and effectiveness
         gyroscopes are used in the small aperture radar            of the programs affecting the health and safety of
         systems of tactical unmanned aerial vehicles. Zhang        service members and employees.
         further added the end user of the gyroscopes as
         Beijing Zebanon Science & Technology Co., Ltd in           Assessment of DoD Wounded Warrior Matters
         China. Northrup Grumman informed Zhang that                – Fort Riley
         the gyroscopes in question are controlled by the           O verview:
         International Traffic and Arms Regulation and require              The report is the fifth of six site assessments
         an export license from the Department of State                     conducted at Army Warrior Transition Units
         regardless of the end user.                                and Marine Corps Wounded Warrior Battalions. In this
         R esult :                                                  assessment, analysts evaluated whether the Warrior
         Previously Zhang was arrested when he attempted            Transition Battalion, Fort Riley, Kan., effectively and
         to enter the United States from Canada at the              efficiently managed the programs for medical care
         Washington border. He pleaded guilty to conspiring         and transition of wounded, ill and injured warriors.
         to export a defense article without a license and was      The examination of the missions, policies and
         convicted. On April 15, 2013, Zhang was sentenced          processes in place to assist warriors in transition with
         to time served (approximately seven months), three         their return to duty status or transition to civilian life
         years of supervised release and ordered to report to a     were of high concern.
         probation officer should he re-enter the United States.    R esult :
                                                                    The command implemented several noteworthy
                                                                    initiatives at both the Fort Riley WTB and Irwin Army

         INSPECTIONS                                                Community Hospital. There were also a number
                                                                    of significant challenges that require corrective
                                                                    action by the responsible Army commanders to
                                                                    increase program effectiveness and efficiency. One
         Health and Safety                                          example is the need for the command to examine
         DoD IG has identified health care as one of the critical   adequate funding and other resources to support
         management and performance challenges facing the           the necessary level of WTB personnel, ongoing
         Department. The military health care system provides       staff training requirements and support services to
         services to approximately 9.5 million beneficiaries,       maintain optimal staffing levels and ratios. Another
         including active duty personnel and their families. Of     concern is for the command to evaluate the current
         special concern is the proper care and support to the      and future cadre personnel requirements of the
         thousands of soldiers, sailors, airmen and Marines         Warrior Transition Units to ensure that staffing levels,
         wounded due to combat actions in Operations Iraqi          including squad leaders and nurse case managers,
         and Enduring Freedom.                                      are appropriate to meet the mission for effective
                                                                    management and support of soldiers during their
         Medical care required by military personnel is             healing and transition.
         expected to increase in the next several years,            Report No. DODIG-2013-113




40 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                          C o r e M i ss i o n A r e a s

Assessment of DoD Wounded Warrior Matters                  Between now and the completion of the scheduled
– Joint Base Lewis-McChord                                 drawdown of combat forces at the end of 2014, the
O verview:                                                 DoD will continue training, equipping, partnering
        The report is the sixth site report to discuss     and mentoring the ANSF to enable it to assume the
        the care, management and transition of             leading security operations role.
recovering service members. Specifically, this analysis
examined the programs for the care, management             Assessment of Afghan National Security
and transition of soldiers in the Warrior Transition       Forces Metrics, Ministry of Interior Police
Battalion, Joint Base Lewis-McChord, Wash., and how        Forces
they were managed effectively and efficiently. The         O verview:
efficiency and effectiveness of whether the missions,              DoD IG selected, summarized and concisely
policies and processes were in place to assist warriors            presented six months of quantitative and
in transition with their return to duty status or          qualitative metrics deemed indicative of progress
transition to civilian life were of particular interest.   toward the goal of developing a sustainable Afghan
Also, the efficiency and effectiveness of DoD programs     National Security Force for transition to Afghan
for service members affected with traumatic brain          control by 2014. Reports are produced separately
injury and post-traumatic stress disorder were of          for the Afghan National Police and the Afghan
particular interest.                                       National Army.
R esult :                                                  R esult :
The command implemented several initiatives at both        This assessment provided indications of Afghan
the WTB and Madigan Army Medical Center that               National Police development over the six-month
DoD IG believed to be noteworthy practices for             period, October 2012 to March 2013. The selected
supporting the comprehensive care, healing and             metrics tracked ANP/Ministry of Defense development
transition of soldiers. The report also identified a       in the areas of sustainment, professionalization and
number of significant challenges such as the need          ANP/MoD transition to Afghan security lead. This
to develop policy guidance for Reserve Component           report is classified.
soldiers who volunteer for WTB positions to attend         Report No. DODIG-2012-034.5
training prior to or in route to their assignment at the
WTB. Another observation was the need to evaluate          Assessment of Afghan National Security
current and future manning requirements of WTBs            Forces Metrics, Afghan National Army (ANA)
to ensure they are appropriately staffed to meet           O verview:
the mission and have experienced cadre in place to                 DoD IG selected, summarized and concisely
effectively manage and support soldiers during their               presented six months of quantitative and
healing and transition                                     qualitative metrics deemed indicative of progress
Report No. DODIG-2013-087                                  toward the goal of developing a sustainable Afghan
                                                           National Security Force for transition to Afghan
Joint Warfighting and Readiness                            control by 2014. Reports are produced separately
DoD IG has identified joint warfighting and                for the Afghan National Police and the Afghan
readiness, and training and equipping the Iraq and         National Army.
Afghan Security Forces as critical management and          R esult :
performance challenges facing the Department.              This assessment provided indications of Afghan
While the Department is continuing to equip the            National Army development over the six-
Iraq Security Forces through the Office of Security        month period, October 2012 to March 2013.
Cooperation-Iraq, operating under Chief of Mission         The selected metrics tracked ANA/Ministry of
authority at the U.S. Mission-Iraq, it is also engaged     Defense development in the areas of sustainment,
in the mission to train, equip and mentor the Afghan       professionalization and ANA/MoD transition to Afghan
Security Forces.                                           security lead. This report is classified.
                                                           Report No. DODIG-2012-034.6




                                                                                       APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 41
C o r e M i ss i o n A r e a s

         Planning for the Effective Development and                OSC-I mission; that the process used to direct OSC-I
         Transition of Critical ANSF Enablers to Post-             personnel reductions did not fully consider its mission
         2014 Capabilities Part I – Afghan National                priorities; that the OSC-I had not fully integrated into
         Army Enabler Description                                  the U.S. mission; and that joint DoD doctrine did not
         O verview:                                                sufficiently support or address the post-2011 inter-
                Based on observations from the Coalition           departmental transition of OSC-I responsibilities that
                Force, DoD IG was asked to review plans            were evident in Iraq.
         and activities that are in place to mature enabling       Report No. DODIG-2013-136
         capabilities (enablers) identified as being critical to
         the ability of the Afghan National Army to conduct        Assessment of U.S. Government and Coalition
         and sustain independent operations.                       Efforts to Develop Leaders in the Afghan
         R esult :                                                 National Army (ANA)
         This report is classified.                                O verview:
         Report No. DODIG-2013-129                                         The purpose of this report was to assess
                                                                           the sufficiency and the effectiveness of the
         Assessment of the Office of Security                      coalition force’s programs for developing Afghan
         Cooperation – Iraq Mission (OSC-I) Capabilities           National Army officers and noncommissioned officers.
                                                                   Analysts conducted interviews with selected leader
         O verview:
                                                                   development subject matter experts in the United
                 This report is the latest of three and was in
                                                                   States. In Afghanistan, extensive interviews were
                 coordination with Department of State OIG
                                                                   conducted with U.S. and coalition advisors, as well
         Audit for the assessment of the realignment of the
                                                                   as their Afghan principals, at the Ministry of Defense,
         U.S. Mission Iraq. The evaluation was designed to
                                                                   the general staff and ANA training schools and
         address the adequacy of DoD support for executing
                                                                   operational units.
         security cooperation programs in Iraq and whether
         the Office of Security Cooperation–Iraq is organized,     R esult :
         equipped and prepared to successfully accomplish          In general, coalition force’s programs for the ANA
         its mission.                                              leader development were effective and on schedule
                                                                   for transition to the Afghans. The establishment of
         R esult :
                                                                   a noncommissioned officer corps, and the roles and
         Management concurred with all 18 recommendations,
                                                                   responsibilities accompanying this enlisted leadership
         some of which were to designate a senior defense
                                                                   position, were not completely embraced by senior
         official in Iraq and to plan and accelerate integrating
                                                                   ANA and general staff personnel. The lack of a true
         the OSC-I into the U.S. Mission Iraq. Of particular
                                                                   merit-based personnel promotion and assignment
         note, the results indicated that Department of State
                                                                   system negatively impacted the further development
         and DoD had not come to an agreement on the
                                                                   of a new generation of ANA leaders. In addition,
                                                                   among coalition advisors to the ANA, at both training
                                                                   schools and operational units, there was a wide
                                                                   variation in the selection for assignment and specific
                                                                   advisor training preparation. Coalition command data
                                                                   assessment practices and categories did not appear
                                                                   to have been updated to reflect the change in mission
                                                                   emphasis from building the ANA to improving its
                                                                   quality. Of special note was the ANA literacy program.
                                                                   In a country with a very low national literacy rate, this
                                                                   educational program serves not just as an immediate
                                                                   benefit to the ANA, but also eventually the larger
                                                                   nation of Afghanistan by, as one senior officer said, “…
           DoD IG assessed the adequacy of DoD support for         allowing Afghans to be more discerning…”
           executing security cooperation programs in Iraq.        Report No. DODIG-2013-094




42 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                            C o r e M i ss i o n A r e a s

Assessment of U.S. Government and Coalition                border strategy, use of enablers, corruption at border
Efforts to Train, Equip, and Advise the Afghan             crossings and overall control of logistics.
Border Police                                              Report No. DODIG-2013-081
O verview:
        The report evaluated the capabilities of the       Assessment of DoD Long-Term Intelligence
        Afghanistan Border Police. The International       Analysis Capabilities
Security Assistance Force Joint Command and NATO           O verview:
Training Mission-Afghanistan/Combined Security                      The report evaluated multiple concerns
Transition Command-Afghanistan, in coordination                     about the perceived degradation of the
with the Ministry of Interior and the Afghan National      Defense Intelligence Enterprise to perform long-
Police, have committed to the development of the           term intelligence analysis as a result of a decade-
border police force. The Afghan Border Police is           long focus on counterinsurgency crisis support.
one of the eight police force pillars that comprise        The common thread gleaned from the review was
the Afghan National Police. It consists of personnel       that it is not analytic capacity that is in short supply
recruited, trained and assigned to provide security to     but rather subject matter expertise. Additional
the border security zone that extends 50 kilometers        mission requirements, an increase in the magnitude
into Afghan territory, as well as at border crossings      and variety of analytic questions, crisis response
and ports of entry, such as airports and rail crossings.   fatigue and customer-shortened expectations have
This mission entails significant shared responsibilities   all stressed the Defense Intelligence Enterprise’s
and capabilities on the part of coalition forces. ISAF     capability to produce and retain the subject-matter
is the executive agent responsible for planning and        expertise.
executing the border police program. ISAF Joint            R esult :
Command is responsible for the general support of          Recommendations provided to the Office of
the program and the border police units operating          the Secretary of Defense staff have led to the
within their battle space.                                 development of a plan of actions and milestones
R esult :                                                  to address emerging requirements, intelligence
Although work remains to be accomplished, there            analysis resources and certification training
were several noteworthy areas of progress such             necessary to develop subject-matter expertise.
as coalition forces coordination, joint border             Initially, management concurred with only two of
coordination centers, Ministry of Interior Logistics       three recommendations, but subsequently provided
System development and the development and use of          comments that satisfied the original finding. This
Afghan trainers. Areas of concern include the overall      report is classified.
                                                           Report No. DODIG-2013-112

                                                           Inspection of DoD Detainee Transfers and
                                                           Assurances
                                                           O verview:
                                                                    The report is the third in a series of inspections
                                                                    under the recommendation of the Special
                                                           Task Force on Interrogation and Transfer Policies, an
                                                           interagency task force that Executive Order 13491
                                                           created Jan. 27, 2009. It examined assurances
                                                           regarding the transfer of detainees from DoD custody
                                                           to foreign nations; specifically, this involved the
                                                           process for obtaining those assurances, the content
                                                           of the assurances, implementing and monitoring the
                                                           assurances, and post-transfer treatment of persons
  DoD IG evaluated the capabilities of the Afghanistan
                                                           transferred from the Guantanamo Bay Detention
  Border Police.
                                                           Facility, Iraq, and Afghanistan between Aug. 24, 2011,
                                                           and Feb. 28, 2013.


                                                                                           APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 43
C o r e M i ss i o n A r e a s

         R esult :                                                 Assessment of U.S. Military Cemeteries
         No significant changes were identified from the last      O verview:
         inspection. This report is classified.                            After a significant level of concern was raised
         Report No. DODIG-2013-127                                         about Arlington National Cemetery, Congress,
                                                                   in the 2012 National Defense Authorization Act,
         Information Assurance, Security                           directed DoD IG to conduct an inspection of the
                                                                   cemeteries where military services have jurisdiction.
         and Privacy                                               Of particular interest, the inspections included
         One of the challenges that DoD faces is defending its     an assessment of the adequacy of the statutes,
         information and information systems against cyber         policies and regulations governing the management,
         threats. On a daily basis, DoD information technology     oversight, operations, and interments or inurnments
         infrastructures are attacked by those wanting to          of the military cemeteries under review. This was
         not only steal DoD information but also do harm to        the first time these cemeteries had been examined
         DoD programs, operations and personnel. As stated         by an outside agency. DoD IG conducted the field
         in the Quadrennial Defense Review, “in the 21st           assessment of this report from April through
         century, modern armed forces simply cannot conduct        September 2012.
         effective high-tempo operations without resilient,
                                                                   R esult :
         reliable information and communication networks
                                                                   While DoD IG found that each cemetery had different
         and assured access to cyberspace. DoD must actively
                                                                   circumstances, they all had the same mission and the
         defend its networks.”
                                                                   same types of challenges and issues. DoD IG made six
                                                                   observations and 20 recommendations. In general,
         Federal Voting Assistance Program                         the installation and garrison commanders and their
         O verview:                                                cemetery management staffs were very dedicated
                This report complies with the congressional        and conscientious with respect to management
                requirement that DoD IG assesses and reports       of cemetery operations. Overall, the services do
         to Congress, at least annually, on both the level of      well at honoring the dead. All interments were
         compliance and the level of effectiveness of voting       accounted for within the statistical sample of grave
         assistance programs during the preceding year. DoD        sites and, generally, the military services managed
         voting assistance programs provide U.S. citizens          their cemeteries in an adequate manner. However,
         worldwide a broad range of nonpartisan information        regulation guidance and cemetery management was
         and support to facilitate their participation in the      inadequate in many instances. In addition, DoD IG
         voting process. This review was conducted from            found that funding for cemetery operations remained
         December 2012 through April 2013 and reviewed the         an issue across all military services. Furthermore,
         voting analysis reports from the Army, Navy, Air Force
         and Marine Corps IGs.
         R esult :
         The reviewers found that all services had functioning
         voting assistance programs, had persons assigned
         to appropriate voting assistance program duties and
         that they complied with regular oversight of their
         individual voting programs. However, there were
         several issues noted pertaining to the execution of the
         programs such as potential staffing overlaps, outdated
         regulations and accommodation of new technological
         advances to provide information. There were eight
         recommendations made in this report.
         Report No. DODIG-2013-074
                                                                     DoD IG conducted field assessments of the cemeteries
                                                                     where military services have jurisdiction.




44 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                         C o r e M i ss i o n A r e a s

annual inspections required by Army regulation were      DoD Evaluation of Over-Classification of
incomplete or had not been performed at all. It was      National Security Information
also found that the Navy and Air Force do not have an    O verview:
annual inspection requirement.                                    This was the first of two reports required
Report No. DODIG-2013-098                                         by Public Law 111-258, Section 6(b), which
                                                         mandates that inspectors general of federal
Release of DoD Information to the Media                  departments or agencies, with an officer or employee
O verview:                                               who is authorized to make original classifications,
       This report responded to questions posed          conduct an evaluation to determine whether
       by then-chairman of the House Homeland            classification policies, procedures, rules, regulations
Security Committee regarding the support provided to     and management practices have been adopted
“Hollywood executives” making a film about the raid      and are followed and effectively administered.
that successfully killed Usama bin Laden.                DoD IG found that applicable classification policies,
R esult :                                                procedures, rules and regulations have been
The report addresses, in depth, four questions posed     adopted; however, in some circumstances had not
by the chairman. The Executive Office of the President   been followed or effectively administered. DoD
did communicate with DoD regarding providing             IG also concluded that some policies, procedures,
filmmakers access to the under secretary of defense      rules, regulations or management practices may
for intelligence. DoD IG found no communications         be contributing to persistent misclassification of
between DoD personnel and the Executive Office           material. Additionally, DoD IG found several instances
of the President which discussed access to military      where the inaccurate use of dissemination control
special operators. DoD did not expect to review          and handling markings could unnecessarily restrict
the script because only official requests for support    information sharing. Finally, while there is still room
require script submission, and the filmmakers never      for improvement, DoD continues to make advances
asked for formal support. There is no requirement        with program management, reporting costs and
for the filmmakers to provide DoD pre-publication        security classification activities, and advancing policies
review for any productions which the DoD did not         that will help in constraining over-classification.
formally support. DoD special operators involved with    R esult :
the bin Laden raid were present during one event         DoD IG made nine recommendations in support of
at which a filmmaker was also present; DoD IG was        policies and procedures that will assist in countering
unable to identify any precautionary measures taken      the persistent misclassification of material. The Office
to protect the identity of operators who attended this   of the Under Secretary of Defense for Intelligence,
event. Within DoD, DoD IG did not identify instances     and the Office of the Under Secretary of Defense for
where any special operations tactics, techniques,        Acquisition, Technology, and Logistics concurred with
and procedures–related information was provided          the recommendations and have begun taking steps to
to filmmakers. The review resulted in referrals within   address identified issues.
DoD IG, as well as referrals external to the DoD.        Report No. DODIG-2013-142
Report No. DODIG-2013-092




                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 45
C o r e M i ss i o n A r e a s


         ADMINISTRATIVE                                              Whistleblower Reprisal
                                                                     Investigations
         INVESTIGATIONS                                              The Whistleblower Reprisal Investigations Directorate
                                                                     investigates and conducts oversight reviews of
         The DoD IG Office of the Deputy Inspector General           investigations conducted by the military service and
         for Administrative Investigations consists of two           defense agency IGs into allegations of whistleblower
         directorates: Whistleblower Reprisal Investigations         reprisal made by DoD military service members,
         and Investigations of Senior Officials. AI completed        nonappropriated fund instrumentality employees,
         an organizational transformation to achieve its vision      and DoD contractor employees under Title 10 of the
         of becoming the model administrative investigations         U.S. Code. WRI additionally investigates allegations
         organization in the federal government:                     that military members were restricted from
           •	 Attained 95 percent of authorized full-time            communicating with a member of Congress or an IG.
              equivalent positions.                                  WRI also investigates, under the authority of the IG
           •	 In May 2013, AI led a joint DoD and intelligence       Act and on a discretionary basis, allegations of reprisal
              community IG accountability review of the              filed by DoD appropriated fund civilian employees.
              disciplinary processes and disciplinary actions
              taken in response to substantiated Intelligence        DoD IG is committed to maintaining the Department’s
              Community Offices of Inspector General                 whistleblower protection program as a model for the
              investigation reports from FY 2009 through FY          federal government by improving the timeliness and
              2012.                                                  quality of reprisal investigations. During the reporting
                  ■■ The Senate Select Committee on                  period, DoD IG implemented numerous enhancements
                     Intelligence requested the review. More         to WRI’s investigative and oversight functions:
                     than 20 inspector general personnel               •	 Staffed the DoD IG Policy Memorandum 2013-
                     from six agencies participated:                      5, Protecting Whistleblowers with Access to
                     Office of the Director of National                   Classified Information in DoD OIG, June 18, 2013,
                     Intelligence, Department of Defense,                 and certified to the under secretary of defense
                     Defense Intelligence Agency, National                for intelligence that DoD IG had implemented
                     Geospatial-Intelligence Agency, National             Presidential Policy Directive 19, Protecting
                     Reconnaissance Office and National Security          Whistleblowers with Access to Classified
                     Agency.                                              Information. [Note: for details on recent
                  ■■ As a result of the team’s recommendations,           enhancements to whistleblower protections, see
                     each agency made improvements in                     the insert]
                     agency processes and internal controls            •	 Renewed emphasis on Council of Inspectors
                     that will enhance the transparency and               General on Integrity and Efficiency quality
                     accountability in the intelligence community         standards for investigations, to include
                     in the future. AI provided copies of the             incorporation of CIGIE standards into oversight
                     final report to the Senate Select Committee          reviews.
                     on Intelligence and other congressional           •	 Expanded the DoD IG whistleblower outreach
                     committees.                                          program and provided robust whistleblower
           •	 Completed phase II in the development of                    protection and reprisal training to DoD IG and
              the next generation complaint database and                  component IG staff.
              management information system—the Defense                •	 Collaborated and shared best practices with other
              Case Activity Tracking System. D-CATS enables full          members of DoD IG and federal whistleblower
              lifecycle tracking and monitoring of reprisal and           protection community.
              senior official misconduct investigations.               •	 Filled several new positions focused on
           •	 Continued robust quarterly internal control                 administration, policy and outreach, in addition
              reviews of investigative case files using Council of        to key investigative vacancies to address the
              the Inspectors General on Integrity and Efficiency          continually increasing number of whistleblower
              and General Accountability Office review criteria.          reprisal complaints filed with DoD IG and the
                                                                          military services.


46 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                       C o r e M i ss i o n A r e a s


Reprisal Investigations                                              Figure 2.1 Total Complaints Received During FY 2013 (2nd Half)
During the reporting period, the Department received
                                                                                                      9 (2%)
a total of 464 complaints involving reprisal, restriction
                                                                                               Military Restriction
from communicating with a member of Congress/                               15 (3%)
                                                                    Mental Health Procedural
inspector general and procedurally improper mental
health evaluation referrals. The Department closed a                           20 (4%)
                                                                             NAFI Reprisal                                 83 (18%)
total of 477 complaints.                                                                                               Civilian Reprisal
                                                                      55 (12%)
The chart, below, shows the number and type of                        Defense
complaints closed by DoD IG and the service/defense                  Contractor
                                                                      Reprisal
agency IGs during the period, along with the total
closed during FY 2013. Of the 477 complaints closed
this period, 325 were dismissed due to insufficient
evidence to warrant an investigation, nine were
withdrawn, and 143 were closed following full
investigations. Of the 143 investigations closed,
14 involved procedurally improper mental health
evaluation referrals (six substantiated [43 percent]);
three involved restriction from communicating with
a member of Congress/inspector general (three                                                            282 (61%)
                                                                                                      Military Reprisal
substantiated [100 percent]); and 126 involved
whistleblower reprisal (11 substantiated [9 percent]).              Total: 464 complaints

Figure 2.2 Complaints Closed Second Half FY2013 and FY2013 Totals

                              Reprisal, Restriction, and Mental Health Procedural Complaints
                                       Closed in FY2013 (2nd Half) and FY 2013 Total
                                              Total     Dismissed   Withdrawn Investigated        Substantiated       Substantiation
                                             Closed                                                  Cases                Rate
             Type of Complaint                                                Closed by DoD IG
  Civilian Reprisal                             99          90           1                8               1                13%
  Military Reprisal                             92          76           8                8               1                13%
  Defense Contractor Reprisal                   54          51           0                3               0                 0%
  NAFI Reprisal                                 21          15           0                6               0                 0%
  Subtotal FY 13 (2nd Half)                    266         232           9              25                2                 8%
  Military Restriction                           5            3          0                2               2               100%
  Mental Health Procedural                       3            3          0                0               0                 0%
  Total FY13 (2nd Half)                        274         238           9              27                4                15%
             Type Complaint                               Closed by Component IG with Oversight Review by DoD IG
  Civilian Reprisal                              2            1          0                1               0                   0
  Military Reprisal                            183          83           0             100                9                 9%
  Subtotal FY 13
                                               185          84           0             101                9                 9%
  (2nd Half)
  Military Restriction                           1            0          0                1               1               100%
  Mental Health Procedural                      17            3          0              14                6                43%
  Subotal FY13 (2nd Half)                      203          87           0             116              16                 14%
  Total FY13 (2nd Half)                        477         325           9             143              20                 14%
                                                 Closed in FY13 (1st and 2nd Half)
  Grand Total FY13                             755         524          22             209              30                 14%



                                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 47
C o r e M i ss i o n A r e a s

         Substantiated Whistleblower Reprisal/                        senior chief petty officer made several complaints
         Restriction/Procedurally Improper Mental                     to inspector general and equal opportunity
         Health Evaluation Allegations                                offices against the commander and the chain
           •	 An Army lieutenant general attempted to restrict        of command. The Naval inspector general is
              two Army colonels from communicating with               following up with the chain of command on
              a DoD IG inspection team by sending three               appropriate corrective action.
              restrictive emails. An Army major general also       •	 An Army National Guard brigadier general
              restricted one of the colonels when he forwarded        reprised against a lieutenant by relieving the
              one of the emails and directed that the colonel         lieutenant from her duties as aide-de camp;
              be reminded of the lieutenant general’s                 and, acting as both the rater and senior rater,
              restrictive order. The restrictive actions caused       issued the lieutenant a relief-for-cause officer
              no harm to the colonels’ careers; therefore, DoD        evaluation report. The investigation found that
              IG made no remedial recommendations. DoD IG             the brigadier general took the actions because of
              recommended that the secretary of the Army              a complaint the lieutenant filed with the battalion
              take appropriate corrective action against the          commander. Corrective action is pending.
              general officers. Corrective action is pending.      •	 An Air Force colonel issued a letter of counseling
           •	 An Air Force major general threatened to identify       to a major in reprisal for stating she had an
              and fire four civilian employees who reported           appointment with the commanding general about
              potential wrongdoing by another civilian                problems she was having with her supervisor
              employee to a defense agency inspector general.         and others in her chain of command. Corrective
              The major general was upset that she was not            action is pending.
              notified before the potential wrongdoing was
              reported to the agency IG. Because the major        Corrective Actions Taken during Second Half
              general made no attempt to follow through           of FY2013 on Whistleblower Cases Closed in
              with her threat, DoD IG made no remedial            Previous Reporting Periods
              recommendations. DoD IG recommended that             •	 An Army colonel improperly referred a Navy
              the secretary of the Air Force take appropriate         junior grade officer for a mental health
              corrective action against the major general.            evaluation by not providing him with the proper
              Corrective action is pending.                           documentation for the referral in violation of
           •	 A Navy rear admiral reprised against an Air             DoD Directive 6490.1, Mental Health Evaluations
              Force lieutenant colonel under his command              of Members of the Armed Forces, and DoD
              by relieving him of his position, reassigning him       Instruction 6490.4, Requirements for Mental
              to a position not commensurate with his rank,           Health Evaluations for Members of the Armed
              and forcing the lieutenant colonel to depart            Forces. DoD IG recommended the Army take
              his joint tour early. The rear admiral suspected        appropriate corrective action against the colonel
              the lieutenant colonel of filing an anonymous           for the improper referral. The Army counseled
              complaint against him. DoD IG recommended the           the colonel on the procedural requirements for
              secretary of the Air Force review the lieutenant        mental health referrals in effect at the time.
              colonel’s official personnel file to ensure no       •	 An Air Force Reserve colonel received a general
              harm to his promotion potential occurred as a           officer letter of counseling for restricting a
              result of the personnel actions. DoD IG further         subordinate officer from making a protected
              recommended the secretary of the Navy take              communication to the colonel’s superior.
              appropriate action against the rear admiral          •	 An Army National Guard major received
              for reprising against the lieutenant colonel.           counseling for improperly referring a subordinate
              Corrective action is pending.                           for a mental health evaluation without following
           •	 A Navy commander reprised against a senior              established procedures.
              chief petty officer under his command by giving      •	 Air Force officials relieved a lieutenant colonel of
              him an adverse fitness report and suspending            command for removing a subordinate from flying
              his access to classified information. The Navy          duties in reprisal after the subordinate made
              commander took the reprisal actions after the           allegations of impropriety in the unit.



48 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                         C o r e M i ss i o n A r e a s

  •	 The secretary of the Navy took corrective actions                   involving senior officials and oversees component
     against two of three naval officers who reprised                    investigations of same.
     against a lieutenant commander: one captain
     retired at a lower pay grade; another met a show                    Misconduct allegations are noncriminal in nature
     cause board for retention in the Navy and was                       and typically involve ethics or regulatory violations.
     retained. Corrective action regarding the third                     Specialized units within each military department
     officer is pending. The lieutenant commander,                       office of inspector general conduct the majority
     who had resigned in lieu of meeting a show cause                    of senior official investigations. ISO investigates
     board, was reinstated into the Navy Reserve.                        allegations against the most senior DoD officials
  •	 A contractor who was reprised against for                           (three-star and above general/flag officers and
     whistleblowing received $35,000 as part of a                        equivalents), senior officials in the joint or defense
     settlement.                                                         intelligence community and allegations not suitable
                                                                         for assignment to service IGs. ISO conducts oversight
Investigations of Senior Officials                                       reviews of all service/defense agency IG investigations
                                                                         of misconduct involving senior officials.
To promote public confidence in the integrity of
DoD leadership, Investigations of Senior Officials
                                                                         During the period, the Department received
investigates and conducts oversight reviews of
                                                                         541 complaints of senior official misconduct and
investigations conducted by the military service and
                                                                         closed 358. Of the 358 complaints closed, 231
defense agency IGs into alleged misconduct
                                                                         were dismissed due to lack of a credible allegation
by senior DoD officials (brigadier general/rear
                                                                         of misconduct and 127 were closed following
admiral and above, members of the senior executive
                                                                         investigation. Of the 127 investigations closed, 10
service and senior political appointees). The WRI
                                                                         were closed by DoD IG and 117 were closed by
Directorate investigates allegations of reprisal


Figure 2.3 Senior Official Complaints Closed During FY 2013

                                                    Senior Official Complaints
                                         Closed in FY2013 (2nd Half) and FY2013 TOTAL
                                                                                                   Substantiated    Substantiation
                                               Total Closed        Dismissed       Investigated
                                                                                                      Cases             Rate
              Service/Agency                                                    Closed by DoD IG
  Army                                               89                 85                4               0                 0%
  Navy                                               18                 17                1               0                 0%
  Air Force                                          33                 30                3               0                 0%
  Marine Corps                                       10                 10                0               0                 0%
  COCOM / Defense Agency                             91                 89                2               1               50%
  Subtotal FY13 (2nd Half)                          241                231               10               1               10%
              Service/Agency                                  Closed by Component IG with Oversight Review by DoD IG
  Army                                               75                                  75              26               35%
  Navy                                                 7                                  7               3               43%
  Air Force                                          22                                  22              10               45%
  Marine Corps                                         2                                  2               0                 0%
  COCOM / DA                                         11                                  11               8               73%
  Subtotal FY13 (2nd Half)                          117                                 117              47               40%
  Total FY13 (2nd Half)                             358                231              127              48               38%
                                                    Closed in FY13 (1st and 2nd Half)
  Grand Total FY13                                  614                337              277              95               34%




                                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 49
C o r e M i ss i o n A r e a s

         service IGs with oversight by DoD IG. Of the 127               Figure 2.3 Types of Substantiated Misconduct

         investigations closed, 48 (38 percent) contained
         substantiated allegations of misconduct. DoD IG                25 (23%)                                         15 (14%)
         processed 6,523 senior official name checks for                  Travel                                       Government
                                                                        Violations                                      Resources
         general/flag officers pending nomination, promotion,
         retirement and reassignment for a total of 11,880
         name checks in FY 2013.

         DoD IG conducted several investigations with
         significant congressional and media interest.

         Examples of Significant Senior Official Cases
         The following is a list of significant senior official cases
         closed:
           •	 A defense agency SES misused her position to
              endorse a product, service or enterprise. DoD IG          29 (27%)                                    39 (36%)
              found that the SES held a financial interest in a         Personnel                            Personal Misconduct/
                                                                         Matters                               Ethical Violations
              private company owned by a family member and
              used proprietary materials from the company in
              communications with senior DoD officials. The
              senior official left government service prior to
              completion of the investigation.
                                                                        POLICY AND
           •	 A major general maltreated his front office
              personnel. The major general received a written
                                                                        OVERSIGHT
              reprimand.
                                                                        DoD IG provides policy, guidance and oversight to
           •	 A brigadier general failed to conserve
                                                                        audit and investigations within DoD. DoD IG also
              government resources, used government rental
                                                                        provides analysis and comments on all proposed
              cars for unauthorized purposes and directed a
                                                                        draft DoD policy issuances, as well as conducts
              subordinate to use a Government Travel Charge
                                                                        technical assessments of DoD programs and provides
              Card for other than authorized purposes. The
                                                                        engineering support for other assessments.
              brigadier general received a written reprimand.
           •	 A rear admiral sent a racially offensive email to
              members of his command and spoke in a manner              Audit Policy and Oversight
              diminishing confidence in or respect due to three         DoD IG provides audit policy direction, guidance
              superior admirals. The rear admiral received a            and oversight for its auditing component; the
              letter of counseling.                                     military departments’ audit organizations, the
           •	 A defense agency SES engaged in an                        Defense Contract Audit Agency, other defense audit
              inappropriate relationship with a subordinate             organizations and public accounting firms under the
              employee and misused government                           Single Audit Act of 1984 . As such, DoD IG provides
              communications systems to facilitate the                  guidance and oversight for more than 6,700 DoD
              relationship. Corrective action is pending.               auditors in 22 DoD audit organizations, which is nearly
           •	 A brigadier general coerced raters to change              40 percent of all auditors in federal inspector general
              evaluations in violation of service regulations.          audit organizations.
              Corrective action is pending.




50 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                          C o r e M i ss i o n A r e a s

Hotline Allegation Regarding the Failure to               markup issue involved a foreign military sales base
Take Action on Material Management and                    contract that was negotiated in 2004 and option years
Accounting System (MMAS) Audit Findings                   that were negotiated in 2006 and 2007. Although the
O verview:                                                contract was negotiated several years ago, DoD IG
        DoD IG evaluated allegations from a DoD           elected to review the complaint and make appropriate
        Hotline complaint alleging that the contracting   recommendations because Tinker Air Force Base
officer at a Supervisor of Shipbuilding, Conversion and   could be allowing similar unallowable costs on current
Repair facility failed to take action on audit findings   DoD and foreign military sales contracts.
reported by the Defense Contract Audit Agency
involving a DoD contractor’s Material Management             “A Tinker Air Force Base contracting
and Accounting System. The complaint also alleged
                                                               officer inappropriately agreed to
that DCAA management at a field audit office did not
take appropriate action to protect the government’s
                                                               pay a 22-percent markup factor on
interests.                                                     materials transferred between affiliated
Findings:                                                      contractors.”
DoD IG substantiated the allegation that the SUPSHIP
contracting officer did not take action on significant    Findings:
MMAS deficiencies reported in multiple DCAA audit         A Tinker Air Force Base contracting officer
reports since 1996. As a result, the government likely    inappropriately agreed to pay a 22-percent markup
paid millions of dollars in excess material inventory     factor on materials transferred between affiliated
carrying costs and other charges, which are not           contractors. As a result, a contractor received an
recoverable. In 2008, DCAA estimated that the             estimated $18.3 million in additional profit under the
government incurred $27.7 million annually in excess      foreign military sales contract that was unallowable.
inventory carrying costs on one of the deficiencies       According to Federal Acquisition Regulation, materials
involving the failure to appropriately time-phase         transferred between affiliated companies must
material costs. DoD IG did not substantiate the second    be based on costs incurred, excluding profit. The
allegation that DCAA field office management failed to    contracting officer allowed the markup factor even
take appropriate actions to protect the government’s      though a Defense Contract Audit Agency auditor and
interests.                                                a Defense Contract Management Agency attorney
R esult :                                                 recommended that the contracting officer disallow it.
DoD IG recommended that the commander, Naval Sea          The contracting officer failed to adequately explain in
Systems Command, take appropriate administrative          the price negotiation memorandum why he did not
action, including personal accountability, for the        adopt the auditor and attorney recommendations.
failure of SUPSHIP to take action on the reported         R esult :
MMAS deficiencies. In consultation with DCAA,             DoD IG recommended that the deputy assistant
DoD IG also recommended that SUPSHIP promptly             secretary for contracting, Office of the Assistant
evaluate the adequacy of the contractor’s plan for        Secretary of the Air Force for Acquisition, improve
correcting the deficiencies. Management agreed with       the quality assurance procedures to help ensure that
all report recommendations.                               Tinker Air Force Base contracting officers (1) limit
Report No. DODIG-2013-082                                 negotiated material costs transferred to the costs
                                                          incurred, (2) document adequate rationale in the
Complaint Regarding Tinker Air Force Base                 price negotiation memorandum when they do not
Agreement to Pay an Unallowable Markup on                 adopt the specialist recommendations and (3) take
a Foreign Military Sales Contract                         all practicable steps to obtain recoupment of the
                                                          $18.3 million profit that the contracting officer had
O verview:
                                                          no authority to pay the DoD contractor. Management
        DoD IG reviewed a complaint alleging that a
                                                          agreed with all report recommendations.
        contracting officer from Tinker Air Force Base,
                                                          Report No. DODIG-2013-086
Okla., agreed to pay a 22-percent unallowable markup
on a foreign military sales contract. The 22-percent



                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 51
C o r e M i ss i o n A r e a s

         Acquisition Processes and Contract                            audits and any audits impacting DoD on which the
         Management Report on Quality Control                          Grant Thornton auditor who falsified work papers was
         Review of the Grant Thornton, LLP, FY                         assigned, (3) the role of the auditor and any specific
         2011 Single Audit of the Henry M. Jackson                     actions taken on the audit(s) identified above and
         Foundation for the Advancement of Military                    (4) any corrective actions taken, including changes
         Medicine                                                      to Grant Thornton’s supervisory review process and
         O verview:                                                    overall quality control procedures. Concerning Grant
                As the cognizant federal agency for the Henry          Thornton’s sampling policy, DoD IG recommended
                M. Jackson Foundation for the Advancement of           that the National Managing Partner, Professional
         Military Medicine, DoD IG began a review of the Grant         Standards Group, Grant Thornton, LLP revise the
         Thornton LLP, single audit and supporting working             Grant Thornton sampling policy to include steps on
         papers for the audit period Oct. 1, 2010, to Sept. 30,        how to determine and document the significance
         2011. The purpose of the review was to determine              of the internal controls being tested according to
         whether the single audit was conducted in accordance          the auditing guidance in the American Institute of
         with auditing standards and the auditing and                  CPAs Audit Guide. DoD IG also recommended that
         reporting requirements of the Office of Management            the Audit Partner, Grant Thornton, LLP assess the
         and Budget Circular A-133, Audits of States, Local            significance of the internal controls being tested,
         Governments, and Non-Profit Organizations. The                according to the auditing guidance in the American
         Foundation is a not-for-profit organization authorized        Institute of CPAs Audit Guide, when determining
         by Congress in May 1983 to support military medical           the sample sizes for the FY 2011 Single Audit on the
         research. During FY 2011, the Foundation expended             Henry M. Jackson Foundation for the Advancement of
         $398.4 million in federal awards, under one federal           Military Medicine. Management agreed to all report
         program, the research and development cluster. Of             recommendations.
         the $398.4 million, $335.9 million was expended for           Report No. DODIG-2013-124
         Department of Defense programs.
         Findings:                                                     Investigative Policy and
         DoD IG discontinued its quality control review                Oversight
         due to the determination that some of the Grant               DoD IG evaluates the performance of and develops
         Thornton work papers could not be relied on and,              policy for the DoD criminal investigative and law
         therefore, neither could the audit report opinion             enforcement community, as well as the non-Defense
         on compliance with requirements on the federal                Criminal Investigative Organization offices of DoD.
         program. As such, Grant Thornton needs to perform
         additional audit procedures to support the audit              Evaluation of the Military Criminal
         conclusions and overall audit opinion. DoD IG will            Investigative Organizations Sexual Assault
         reschedule its review once the additional audit work          Investigations
         is completed and the audit report is resubmitted to
         the Federal Audit Clearinghouse. Although DoD IG
                                                                       O verview:
                                                                              DoD IG evaluated the sexual assault
         discontinued its review, they identified an issue with
                                                                              investigations completed in 2010 by Military
         Grant Thornton’s sampling policy that needs to be
                                                                       Criminal Investigative Organizations to determine
         addressed to ensure the audit procedures performed
                                                                       whether they conducted investigations as required
         for all single audits are sufficient to support the
                                                                       by DoD, military service and MCIO guidance. The
         opinion on compliance with requirements on federal
                                                                       evaluation focused on the following question: Did
         programs.
                                                                       the MCIOs investigate sexual assaults as required by
         R esult :                                                     guiding policies and procedures?
         DoD IG recommended that the National Managing
         Partner, Professional Standards Group, Grant
                                                                       Findings:
                                                                       DoD IG found that most MCIO investigations met
         Thornton, LLP, provide DoD IG with (1) the results of
                                                                       or exceeded the investigative standards. However
         the Grant Thornton investigation into the matter of
                                                                       11 percent of cases had significant deficiencies and
         the falsified work papers, (2) a list of all Circular A-133




52 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                             C o r e M i ss i o n A r e a s

were returned to the MCIOs for corrective action. The              and provides procedures for the initiation
U.S. Army Criminal Investigation Defense Command                   of criminal investigations into adult, private,
and Air Force Office of Special Investigations policy              consensual sexual misconduct. The Instruction
guidance did not direct the collection of clothing                 also incorporates the repeal of policy in Public
articles that a victim or suspect might have placed                Law 111-321, Don’t Ask, Don’t Tell Repeal Act of
on themselves shortly after the assault, if different              2010.
from the clothing worn during the assault. Naval               3.	 DoDI 5505.10, Criminal Investigations of
Criminal Investigative Service policy did not require              Noncombat Deaths, August 15, 2013. The
NCIS investigators to notify or coordinate with                    Instruction reissuance establishes policy, assigns
their servicing judge advocate(s) upon initiating an               responsibilities and prescribes procedures for
investigation. Army CID guidance regarding records                 the criminal investigation of noncombat deaths
checks did not provide a definitive timeliness                     by military criminal investigative organizations.
requirement. NCIS needs policy to require Sexual
Assault Response Coordinator notifications and
documentation.
                                                             Technical Assessments
                                                             DoD IG performs expert technical assessments that
R esult :                                                    affect improvements in defense system acquisition,
DoD IG made pertinent recommendations including              operation and sustainment by proactively addressing
(1) the MCIOs implement measures to improve crime            issues of concern to Congress, DoD and the public.
scene processing, evidence collection, supervision and
documentation to reduce investigative deficiencies           Quality Assurance Assessment of the F-35
and (2) the commanders of Army CID and AFOSI                 Lightning II Program
evaluate their existing policies regarding the collection
                                                             O verview:
of clothing worn by suspects and victims subsequent
                                                                     DoD IG performed an evaluation of the F-35
to a sexual assault.
                                                                     Lightning II program by conducting a series of
Report No. DODIG-2013-091
                                                             quality assurance assessments of the Joint Program
                                                             Office, prime contractor and major subcontractors.
Criminal Investigative Policy                                DoD IG assessed conformity to the contractually
During the reporting period, DoD IG issued three             required Aerospace Standard (AS)9100, “Quality
policies affecting the criminal investigative arena as       Management Systems - Requirements for Aviation,
follows:                                                     Space and Defense Organizations,” contractual quality
                                                             assurance clauses, and internal quality assurance
  1.	 DoD Instruction (DoDI) 5505.02, Criminal               processes and procedures for the following six
      Investigations of Fraud Offenses, August 29,           contractors: Lockheed Martin Aeronautics Company
      2013. The Instruction reissuance establishes           (Prime Contractor and Aircraft Integrator); Northrop
      the authority to initiate, conduct and                 Grumman Aerospace Systems (Center Fuselage
      supervise fraud investigations within the DoD          Integrator); BAE Systems (Aft Fuselage Integrator); L-3
      (including the military departments) and other         Display Systems (Panoramic Cockpit Display System);
      investigations as DoD IG deems appropriate.            Honeywell Aerospace (On-Board Oxygen Generation
      Also it establishes policy, assigns responsibilities   System); and United Technologies Corporation,
      and prescribes procedures for determining              Aerospace Systems (Landing Gear System).
      which of the Defense Criminal Investigative            Findings:
      Organizations will conduct investigations of           The F-35 program did not sufficiently implement
      fraud offenses.                                        or ensure that technical and quality management
  2.	 DoDI 5505.08, Military Criminal Investigative          system requirements were placed on subcontractor
      Organizations (MCIO) and other DoD Law                 contracts throughout the supply chain to prevent the
      Enforcement Organizations Investigations of            fielding of nonconforming hardware and software. As
      Adult, Private, Consensual Sexual Misconduct,          such, this could adversely affect aircraft performance,
      April 17, 2013. The Instruction reissuance             reliability, maintainability and ultimately program
      establishes policy, assigns responsibilities           cost. Lockheed Martin and its subcontractors did




                                                                                           APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 53
C o r e M i ss i o n A r e a s

                                                                     •	 Implement an aviation critical safety item
                                                                        program that meets the requirements of public
                                                                        law and DoD policy, which would include
                                                                        ensuring that requirements for a critical safety
                                                                        item program to Lockheed Martin and its
                                                                        subcontractors.
                                                                     •	 Assess the impacts and risks to all delivered
                                                                        aircraft for critical safety item deficiencies.
                                                                     •	 Perform a verification of the technical and quality
                                                                        assurance requirements applied throughout the
                                                                        F-35 supply chain.
                                                                     •	 Establish an independent quality assurance
                                                                        organization, which has the authority and
                                                                        resources to enforce the AS9100 standard and
                                                                        F-35 product quality.
                                                                     •	 Revise the Defense Contract Management Agency
           DoD IG evaluated the F-35 Lightning II program.              memorandum of agreement to include explicit
                                                                        quality assurance oversight requirements.
         not follow disciplined AS9100 Quality Management            •	 Ensure that Defense Contract Management
         System practices, as evidenced by 363 findings, which          Agency is performing quality assurance oversight
         contained 719 issues. Further, the Joint Program               commensurate with product criticality.
         Office did not (1) ensure that Lockheed Martin and
         its subcontractors were applying rigor to design,         The Defense Contract Management Agency should:
         manufacturing and quality assurance processes;              •	 Provide a comprehensive quality assurance
         (2) ensure that critical safety item requirements              oversight plan for Joint Program Office
         were placed on subcontractor contracts; (3) ensure             approval to be included in the memorandum of
         that Lockheed Martin provided quality assurance                agreement.
         and technical requirements to subcontractors; (4)           •	 Audit the execution of the quality assurance
         establish an effective quality assurance organization;         oversight plan throughout the F-35 supply chain.
         and (5) ensure that the Defense Contract
         Management Agency perform adequate quality                The Joint Program Office agreed with eight
         assurance oversight. In addition, the Defense Contract    recommendations, partially agreed with
         Management Agency did not sufficiently perform            two and disagreed with one. The Defense
         government quality assurance oversight of                 Contract Management Agency agreed with one
         F-35 contractors.                                         recommendation and partially agreed with
         R esult :                                                 the second.
         DoD IG recommended that the Joint Program Office:         Report No. DODIG-2013-140
           •	 Ensure compliance with AS9100 throughout the
              F-35 supply chain.                                   Compliance with Electrical and Fire Protection
           •	 Ensure that Lockheed Martin approves all design      Standards of U.S. Controlled and Occupied
              and material review board changes and variances      Facilities in Afghanistan
              with government concurrence.                         O verview:
           •	 Perform process proofing of all critical processes            At selected U.S. controlled and occupied
              to include first-article inspections.                         facilities in Kandahar Air Field and Bagram Air
           •	 Modify its contracts to include a quality escape     Field, Afghanistan, DoD IG inspected for compliance
              clause to ensure the government does not pay for     with the National Electrical Code ,the Unified
              nonconforming products.                              Facilities Criteria, National Fire Protection Association
           •	 Assess the impacts and risks to all delivered        standards and corrective actions for previous DoD IG
              aircraft for all findings.                           electrical and fire protection findings.




54 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                         C o r e M i ss i o n A r e a s

                                                            •	 U.S. Forces-Afghanistan review the government
                                                               oversight and inspection requirements for
                                                               electrical and fire protection systems and ensure
                                                               that sufficient qualified resources are available
                                                               and deployed to meet requirements throughout
                                                               the USFOR-A area of responsibility.
                                                            •	 Provisions be made for regular inspection and
                                                               maintenance of electrical and fire protection
                                                               systems.
                                                            •	 Base camp master plans include a comprehensive
                                                               fire protection plan.
                                                            •	 Commander, U.S. Central Command Joint Theater
                                                               Support Contracting Command, review applicable
                                                               contracts to determine if contractual remedies,
                                                               including financial recovery, are appropriate
                                                               in those cases where contract requirements
  DoD IG found hazardous conditions due to a lack of           for electrical or fire protection construction,
  consistent adherence at selected U.S. controlled and
                                                               maintenance or repair services were not satisfied.
  occupied facilities in Afghanistan.

                                                          USCENTCOM and its subordinate commands reviewed
Findings:                                                 the findings and recommendations concurring with
Hazardous conditions due to a lack of consistent          nine and partially concur with two of the eleven
adherence to minimum NEC and NFPA standards were          recommendations.
evidenced by 1,089 findings; 440 findings violated        Report No. DODIG-2013-099
NEC electrical standards and 649 findings violated UFC
and/or NFPA fire protection standards. Further, DoD       Advanced Combat Helmet Technical
IG found:                                                 Assessment
  •	 Fire protection systems were not maintained and/     O verview:
     or repaired.                                                 DoD IG assessed the methods and technical
  •	 Garrison commands lacked qualified government                rationale in developing the Advanced Combat
     or dedicated contractor electricians, fire alarm,    Helmet testing protocols issued by the Office of the
     or fire suppression technicians on their staffs to   Director, Operational Test and Evaluation to determine
     perform inspection, testing and maintenance.         whether the test protocols were appropriate for the
  •	 Inadequate government oversight and inspection       ACH. Specifically, the assessment focused on the first
     of facilities.                                       article testing, resistance to penetration requirement
  •	 Lack of independent technical support for            of at least 90 percent probability of no penetration
     the Government Contracting Office resulted           with 90 percent confidence level, commonly termed
     in overreliance on facility construction and         the “90/90 standard,” and the lot acceptance testing
     maintenance contractors.                             and RTP requirement of 4 percent Acceptable Quality
  •	 The base camp master plans lacked a                  Level. Lastly, DoD IG assessed the participation of
     comprehensive fire protection plan.                  various stakeholders and industry experts such as
  •	 Corrective actions for previous DoD IG audits and    active ACH manufacturers and test facilities.
     inspections were incomplete and ineffective for
     many findings.
                                                          Findings:
                                                          DoD IG, after reviewing the methods and technical
R esult :                                                 rationale in developing the helmet RTP requirements,
DoD IG recommended that all 1,089 findings,               found that the DOT&E test protocol for the ACH
which include 71 critical findings, be addressed and      adopts a statistically principled approach and
prioritized according to a robust risk management         represents an improvement from the legacy test
plan and that:                                            protocol with regard to increased sample size.




                                                                                       APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 55
C o r e M i ss i o n A r e a s

                                                                      failures for a unique helmet size or in a particular test
                                                                      environment.
                                                                      R esult :
                                                                      During the course of the assessment, DOT&E and the
                                                                      Army’s Program Executive Office Soldier were very
                                                                      responsive and had already committed to address
                                                                      most of the findings identified. The report contained
                                                                      various recommendations including that (1) DOT&E
                                                                      and PEO Soldier fully characterize the performance of
                                                                      all helmet designs included in the combat helmet test
                                                                      protocols; (2) performance characterization should
                                                                      consider threat, historical test data, prototype test
                                                                      data and manufacturing capabilities; and (3) based on
                                                                      helmet performance characterizations, DOT&E and
                                                                      PEO Soldier should determine if modification to the
                                                                      FAT and LAT protocols are appropriate. Also due to the
           DoD IG assessed the Advanced Combat Helmet testing
                                                                      significance and broad impact of the test protocols,
           protocols to determine whether they were appropriate for
           the ACH.                                                   DOT&E should ensure the affected organizations,
                                                                      including heads of the military departments, are
                                                                      consulted in developing the protocols and have an
         However, future protocol revisions necessitate further
                                                                      opportunity to provide input on new or changed
         refinement by anchoring the RTP requirements to
                                                                      test protocols. DOT&E should also ensure that
         helmet specific empirical data such as manufacturing
                                                                      inputs received are documented and adjudicated.
         capabilities and test performance. The DOT&E LAT
                                                                      Management agreed to all report recommendations.
         protocol is an improvement from the legacy LAT
                                                                      Report No. DODIG-2013-079
         and adopts a widely established and industrially
         accepted American National Standards Institute. In
         selecting the LAT RTP requirement of 4 percent AQL,
         DOT&E considered the government risk of accepting
         underperforming helmets, manufacturer risk of
         failing LAT with acceptable helmets and historical LAT
         data. However, DOT&E did not consider selecting an
         AQL that was based on the safety criticality of the
         helmet. Also in accordance with authorizing statutes,
         DOT&E has the authority to establish test standards
         for personnel protective equipment such as the ACH.
         However, despite the significance and broad effect
         of these protocols, DOT&E did not explicitly consult
         with heads of the military departments to provide
         them an opportunity to comment on new or changed
         test protocols and did not adequately document the
         adjudication of inputs provided by program offices
         and subject matter experts in the staffing process. The
         program office also did not solicit comments on the
         helmet test protocols with the helmet vendors and
         Defense Contract Management Agency. Lastly the FAT
         RTP acceptance was based on an aggregate of all test
         outcomes under varying conditions to achieve 90/90,
         or 17 penetrations out of 240 shots. This could result
         in passing FAT, despite test results showing clusters of




56 │ SEMIANNUAL REPORT TO THE CONGRESS
                     3
Enabling Mission Areas
E n a b l i n g M i ss i o n A r e a s


         CONGRESSIONAL                                            The testimony focused on DoD direct assistance to
                                                                  Afghanistan and DoD IG oversight efforts in that area.

         TESTIMONY AND                                            Meetings with Congressional
         BRIEFINGS                                                Members and Staff
                                                                  During the reporting period, representatives of the
         Section 4(a) of the Inspector General Act requires the   Office of the Inspector General had 60 meetings with
         Inspector General “to review existing and proposed       members of Congress and/or their staffs. Topics of
         legislation and regulations relating to the programs     discussion during those meetings included issues such
         and operations of [the Department of Defense]” and       as a series of audit reports concerning spare parts
         to make recommendations “concerning the impact           pricing and inventory issues, an audit of the TRICARE
         of such legislation or regulations on the economy        Mail Order Pharmacy program, an assessment of
         and efficiency in the administration of programs         the testing protocols for the Advanced Combat
         and operations administered or financed by [the          Helmet and an audit of the Navy Commercial Access
         Department] or the prevention and detection of fraud     Control System. Additional topics included briefings
         and abuse in such programs and operations.” DoD          on the Intelligence Community Inspectors General
         IG is given the opportunity to provide information to    Accountability Review, whistleblower protections for
         Congress by participating in congressional hearings      military technicians and senior official accountability.
         and briefings.

         Representatives of DoD IG testified at two hearings
                                                                  Congressional Requests
                                                                  The Office of Communications and Congressional
         during the period. Deputy Inspector General for Audit    Liaison supports DoD IG by serving as the contact
         Daniel Blair testified before the House Committee        for communications to and from Congress, and
         on Oversight and Government Reform April 17,             by serving as the DoD IG public affairs office.
         2013. The subject of the hearing was,“Contracting        From April 1 through Sept. 30, 2013, the Office of
         to Feed U.S. Troops in Afghanistan: How did the          Communications and Congressional Liaison received
         Defense Department End Up in a Multi- Billion Dollar     152 new congressional inquiries and closed 162,
         Billing Dispute?” The hearing focused on concerns        including a report required by the Reducing Over-
         uncovered during an initial audit of a contract with     Classification Act, an accountability review of the
         the prime vendor for food and nonfood products           intelligence community, reviews of reprisal and senior
         for the Nation’s warfighters in Afghanistan; actions     official allegations and a review of the release of DoD
         taken to address the report recommendations; and         information to the media.
         opportunities to improve contract administration
         through lessons learned that could be applied to         New inquires and pending legislation involved issues
         future contracts.                                        such a review of allegations involving Joint Prisoner
                                                                  of War/Missing in Action Accounting Command,
         On April 10, 2013, Ambassador Kenneth Moorefield,        an audit of permanent change of station funding
         the deputy inspector general for Special Plans and       and an assessment of the planned testing of the
         Operations, testified before the House Committee on      Ground Based Interceptors program. The Office of
         Oversight and Government Reform. The subject of the
                                                                  Communications and Congressional Liaison continues
         hearing was “U.S. Foreign Assistance: What Oversight
                                                                  to proactively reach out to congressional staffers to
         Mechanisms are in Place to Ensure Accountability?”
                                                                  ensure they are informed about upcoming IG releases
                                                                  and ongoing reviews.




58 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                  E n a b l i n g M i ss i o n A r e a s


DOD HOTLINE                                               15,000 contacts, the DoD Hotline opened 1,341 cases,
                                                          which involved the following types or categories of
                                                          misconduct:
The mission of the DoD Hotline is to provide a              •	 Procurement fraud
confidential, reliable means for military service           •	 Ethics violations
members, DoD civilians, contractors and the public to       •	 Abuse of authority
report violations of federal law or regulation. The DoD     •	 Public corruption
Hotline is also an avenue for these stakeholders to         •	 Prohibited personnel practices
report mismanagement, gross waste of funds, abuse           •	 Conflict of interest
of authority and classified information leaks, as well      •	 Security violations
as the detection and prevention of substantial and          •	 Reprisal
specific threats to public health and safety.               •	 Trafficking in persons
                                                            •	 Safety violations
The DoD Hotline aims to become the recognized
leader for federal government hotline programs.           Open Cases
Significant accomplishments during the reporting          The DoD Hotline initiated 1,341 cases to the following
period include:                                           activities:
  •	 Developed and implemented a DoD Hotline                                        Military Services
     improvement plan.                                     Air Force                                               75
  •	 Streamlined complaint intake and review               Army                                                   306
     processes for more effective and efficient triage.
                                                           Navy                                                    80
  •	 Established and met priority 1 and 2 complaint
                                                           Marine Corps                                            29
     metrics.
  •	 Systematically decreased the complaint                Joint Staff                                             45
     processing backlog by one-third.                                                   DoD IG
  •	 Increased the number of personnel to more             Investigation of Senior Officials                      243
     efficiently manage the volume of incoming             Whistleblower Reprisal                                 306
     complaints.
                                                           Hotline                                                  9
  •	 Formed a DoD-wide hotline working group to
                                                           Audits                                                  10
     establish a common vision and open dialogue
     about issues affecting the hotline community as       Investigations                                          79

     a whole.                                              Intelligence & Special Program Assessments              17
  •	 Hosted a world-wide outreach for all federal and      Office of Professional Responsibility                    6
     Defense hotline programs.                             Special Plans & Operations                               1
  •	 Strengthened internal and external partnerships       Audit Policy and Oversight                              14
     within the hotline community
                                                           Investigative P&O                                       11
                                                                         Defense Agencies/DoD Field Activities
DoD IG is committed to maintaining the Department’s
whistleblower protection program as a model                DARPA                                                    1
for the federal government. The DoD Hotline                DCAA                                                    11
directly supports this commitment by continuously          DCMA                                                     9
analyzing and improving its processes for handling         DECA                                                     6
whistleblower complaints.
                                                           DFAS                                                     8
                                                           DIA                                                      6
Hotline Contacts and Case                                  DISA                                                     3
initiation                                                 DLA                                                      7
During this reporting period, the DoD Hotline received     Department of Defense Education Activity                 7
more than 15,000 contacts, the second largest              Defense Security Service                                 1
number ever received in a six-month period. Of those
                                                           Defense Threat Reduction Agency                          1




                                                                                               APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 59
E n a b l i n g M i ss i o n A r e a s

                   Defense Agencies/DoD Field Activities (cont’d)             WPO’s role is to educate agency employees about the
                                                                              prohibitions, rights and remedies related to retaliation
          Missile Defense Agency                                    5
                                                                              for protected disclosures.
          National Security Agency                                  9
                                                                              The WPO accomplished the following:
          Pentagon Force Protection Agency                          3           •	 Established a whistleblower protection
          TRICARE Mgmt. Activity                                    3              ombudsman page on the DoD IG website.
          Washington Headquarters Services                          3           •	 Established direct email contact to the WPO.
                           Office of the Secretary of Defense                   •	 Published training slides for appropriated fund
          AAFES                                                     2
                                                                                   personnel.
                                                                                •	 Established hyperlinks to the U.S. Office of Special
          Acquisition, Technology and Logistics                     1
                                                                                   Counsel.
          Health Affairs                                            1
                                                                                •	 Coordinated training slides for nonappropriated
          Military Entrance Processing Command                      6              fund, intelligence community, contractor and
          Non-DoD                                                   5              military personnel websites.
          Office of General Counsel                                 4           •	 Executed outreach to various groups comprised
          Personnel and Readiness                                   5              of DoD civilian, contractor, and military
                                                                                   personnel.
          Policy                                                    3

                                                                              The WPO aims to enhance the current No Fear Act
         Whistleblower Protection                                             training by providing additional and specific reprisal

         Ombudsman                                                            training based on whistleblower category (military,
                                                                              nonappropriated fund, appropriated fund and
         In accordance with the Whistleblower Protection
                                                                              subcontractor). Steps are underway to have this
         Enhancement Act of 2012, the DoD inspector
                                                                              additional training deemed mandatory for all
         general designated a DoD whistleblower protection
                                                                              DoD personnel.
         ombudsman, currently the DoD Hotline director. The
         Figure 3.1 Category of Allegations


                                   Travel

                                      TIP

                                 Medical

                                   Other

                           Safety Matters

                                 Security

                           Pay & beneﬁts

                           Gov Resources

               Gov Programs/Projects

                    Personnel Matters

                   Criminal Allegations

                            Procurement

         Misconduct/Ethics violations

        Reprisal related Matters/MHE

                                            0           200             400    600          800          1000         1200         1400
         *Cases may contain multiple allegations.



60 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                           E n a b l i n g M i ss i o n A r e a s


 PROGRAMS                                                            subpoenas is a useful procedure for legally obtaining
                                                                     business, personnel, financial and state and local
                                                                     government records. Records obtained by DoD IG

 Subpoena Program                                                    subpoenas may also be used to locate witnesses,
                                                                     confirm statements made by witnesses or subjects
 The DoD IG authority to issue subpoenas is based on
                                                                     and provide other relevant information. DoD IG issued
 the Inspector General Act of 1978, as amended. The
                                                                     more than 500 subpoenas each year during the past
 Act authorizes the IGs to issue subpoenas in matters
                                                                     three years in support of DoD criminal investigations,
 that involve fraud and abuse in Department programs
                                                                     audits and evaluations. During this reporting period,
 and operations. Historically, most DoD IG subpoenas
                                                                     342 subpoenas were issued.
 were issued on fraud-related matters. During 2005,
 DoD IG recognized the need to expand the DoD IG
 Subpoena Program into nonfraud related crimes such                  Contractor Disclosure Program
 as violent crime, cybercrime, child pornography and                 All contractor disclosures made pursuant to the
 theft of government property. During 2008, after a                  Federal Acquisition Regulation shall be reported to
 trial period, DoD IG made the issuance of subpoenas                 DoD IG in accordance with the Defense Acquisition
 for certain specifically enumerated general crimes                  Regulation. A contractor disclosure is a written
 permanent. A DoD IG subpoena request must meet                      disclosure by a DoD contractor or subcontractor to
 three criteria (1) the subpoena can only be issued for              DoD IG that addresses credible evidence that the
 investigations within the statutory authority of the                contractor or subcontractor has committed a violation
 IG, (2) the information sought must be reasonably                   of Title 18, or Title 31, U. S. Code, in connection with
 relevant to the IG investigation, audit, investigation              the award, performance or closeout of a contract or
 or evaluation and (3) the subpoena cannot be                        any subcontract. During this reporting period, 114
 unreasonably broad or burdensome. Using DoD IG                      contractor disclosures were received.

 Figure 3.2 Subpoenas Issued by Type of Investigation - FY 2013


                                                                  84 (24%)
                                                              Theft/Larceny of
                                                                Government
                                                              Property or Funds

                                 17 (5%)
                                                                                                      10 (3%)
                                  Other
                                                                                                 Public Corruption
       6 (2%)
Computer Related Crime

                                                                                                             65 (19%)
                                                                                                        Pay, Allowance &
            86 (25%)                                                                                    Entitlement Fraud
         Crimes Against
            Persons




                                                                        74 (22%)
                                 Total: 342                        Procurement Fraud



                                                                                                   APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 61
E n a b l i n g M i ss i o n A r e a s

         Figure 3.3 Contractor Disclosure Received


                                             1 (1%)
                          2 (2%)       Product Substitution
                                                                                         2 (2%)
                  Procurement Integrity Act                                          Counterfeit Parts
                                                                       4 (3.5%)
                                      6 (5%)                  7 (6%) Anti-Kickback
                                   False Testing              Other       Act
                                                                                          9 (8%)
                              2 (2%)                                                   False Claims
                         Cost Mischarging
                                                                                                        1 (1%)
                 6 (5%)                                                                          False Certiﬁcations
         SigniﬁcantOverpayment
                                                                                                          71 (62%)
            3 (2.5%)                                                                                  Labor Mischarging
         Non-Conforming
              Parts




                             Total: 114


         Asset Forfeiture Program                                     Investigative Examples:
                                                                      On June 20, 2013, a final order of forfeiture was
         The Defense Criminal Investigative Service asset
                                                                      filed containing a forfeiture money judgment in
         forfeiture program continues to effectively provide
                                                                      the amount of $6.1 million. Additionally, four
         forfeiture support to DCIS investigations involving
                                                                      checks totaling $3.1 million were forfeited to satisfy
         fraud, waste and abuse by including forfeiture counts
                                                                      the monetary judgment. This investigation was
         in all indictments, criminal informations and consent
                                                                      initiated based on a referral from the Government
         agreements when warranted by the evidence. The
                                                                      Accountability Office regarding a company
         program has successfully met its goal to deter criminal
                                                                      that committed fraud to obtain Small Business
         activity by depriving criminals of property used or
                                                                      Administration 8(a) Business Development program
         acquired through illegal activity both in the United
                                                                      contracts with various agencies including the
         States and in Southwest Asia. In the past five years
                                                                      Department of Defense. The 8(a) program provides
         of the program, DCIS participated in the seizure of
                                                                      federal contracting opportunities to develop small
         assets totaling $560.2 million, final orders of forfeiture
                                                                      businesses owned by socially and economically
         totaling $525.2 million and money judgments in
                                                                      disadvantaged individuals.
         the amount of $161.8 million. During the six-month
         reporting period, DCIS participated in investigations
                                                                      On April 4, 2013, a final order of forfeiture was filed
         that led to seizures of assets totaling $19.1 million,
                                                                      for $2.5 million in funds seized from three bank
         final orders of forfeiture totaling $9 million and money
                                                                      accounts associated with the owners of a company
         judgments in the amount of $40.3 million. Assets
                                                                      under investigation for contract fraud. The fraud
         seized or forfeited included cash currency, financial
                                                                      involved false statements and applications being
         instruments, lotto tickets, vehicles and firearms.




62 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                 E n a b l i n g M i ss i o n A r e a s

submitted to the Small Business Administration for         accredited by the Federal Law Enforcement Training
the purpose of obtaining “historically underutilized       Accreditation Board in a ceremony in Brunswick, Ga.
business zone”-related contracts from a U.S.               The DCIS Special Agent Basic Training is a four-week
military base.                                             program developed to provide new DCIS special
In May 2013, $3.9 million was seized for forfeiture        agents with standardized and enhanced skills, tools
from 14 bank accounts related to a contract fraud          and knowledge necessary to operate successfully in
investigation. The owners of a company certified           the DoD environment. The program provides new
their company as a Service-Disabled Veteran-Owned          agents with a thorough background of the DCIS
Small Business to obtain set-aside contracts under         organization, history, jurisdiction and authority. The
the Service-Disabled Veteran-Owned Small Business          training covers common fraud schemes and legal
program, a portion of which were procured under the        issues typically faced by DCIS agents.
American Recovery and Reinvestment Act of 2009.
                                                           This initial accreditation was the direct result of
DCIS Cyber Crime Field Office                              several years of hard work by the DCIS Training
                                                           Division, Federal Law Enforcement Training Center.
Established                                                In late 2009, the DCIS Special Agent Basic Training
As the result of a previously conducted internal           program was specifically revamped by a Curriculum
assessment of its staffing, organization and               Review Board made up of DCIS supervisors and
priorities, the Defense Criminal Investigative Service     leaders representing each DCIS field office and
Cyber Crime program has transitioned into an               several headquarters’ components. Operating under
independent, operational Cyber Crime Field Office.         the direction of the DCIS Training Division, they met
This reorganization will better focus DCIS efforts on      several times over two years to develop, review and
the core missions of digital forensics and intrusion       approve the new DCIS curriculum and to identify a
investigations. The new field office is led by a special   quality instructor cadre.
agent in charge and staffed with 27 full-time agents
and support personnel nationwide.                          The Federal Law Enforcement Training Accreditation
                                                           Board is the accrediting body for all federal law
The priorities for the new DCIS Cyber Crime Field          enforcement training and support programs.
Office include:                                            To achieve accreditation, DCIS submitted to an
  •	 Intrusions into DoD networks where there has          independent review of their program to ensure
     been a compromise of DoD data or personally           compliance with Federal Law Enforcement Training
     identifiable information.                             Accreditation standards and procedures in the
  •	 Intrusions into cleared defense contractors           areas of program administration, training staff,
     resulting in loss/compromise of technical or          training development and training delivery. Initial
     other information affecting DoD warfighting or        accreditation is followed by a new and independent
     peacekeeping capabilities.                            review every three years to justify reaccreditation.
  •	 Specific cyber threats affecting DoD, to include,
     but not limited to, terrorism, organized crime,

                                                           OUTREACH
     criminal actors such as Anonymous, LulzSec and
     Web-based robot networks impacting DoD.
  •	 Contract fraud exposing DoD networks to
     heightened risk of compromise.
                                                           Interagency Initiatives
Federal Law Enforcement Training
Accreditation Board Grants Initial                         Southwest Asia Joint Planning Group
Accreditation to DCIS’s Special Agent Basic                The Southwest Asia Joint Planning Group is the
Training Program                                           coordinating body for U.S. government organizations
The Defense Criminal Investigative Service’s               conducting oversight of U.S. military and civilian
Special Agent Basic Training program was formally          activities in Southwest Asia. The group meets
                                                           quarterly to coordinate and de-conflict oversight




                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 63
E n a b l i n g M i ss i o n A r e a s

         activities. The group last met in August 2013, with     General for Afghanistan Reconstruction; the Army
         participants located in the continental United States   Audit Agency; the Naval Audit Service; and the Air
         and Kabul, Afghanistan. During this fiscal year, the    Force Audit Agency. The FY 2014 update also includes
         Southwest Asia Joint Planning Group chairman            ongoing oversight efforts by the U.S. Government
         presented several distinguished senior military         Accountability Office related to Southwest Asia.
         guest speakers at the quarterly meetings to provide     The oversight community uses a risk-based planning
         situational awareness of ongoing and planned            process that includes conducting outreach with
         activities in Afghanistan:                              congressional representatives, department and
                                                                 agency leadership, U.S. Central Command and
         January 2013                                            senior military and civilian leadership in Afghanistan.
           •	 Brig. Gen. Steven Shapiro, deputy commanding       Agency leaders in each of the oversight components
              general, 1st Theater Sustainment Command,          meet with various senior officials responsible for the
              Afghanistan                                        significant operations and programs in their respective
           •	 Brig. Gen. Jonathan Maddux, deputy                 departments and agencies to include financial,
              commanding general, Support, Combined              acquisition/contracting, logistics, transportation and
              Security Transition Command – Afghanistan          military operations.
         April 2013
           •	 Maj. Gen. Jim Ferron Jr., OMM, CD, commander,      As emphasis continues on the U.S. military, diplomatic
              Canadian Mission, and deputy commanding            and development missions in Afghanistan, the
              general, NATO Training Mission – Afghanistan       COPSWA also includes an updated FY 2014 Joint
           •	 Col. Rick O’Donnell, U.S. Army, chief of           Strategic Oversight Plan for Afghanistan that reflects
              staff, Combined Security Transition                the oversight of activities related to the transition
              Command – Afghanistan                              from a military-led to a civilian-led U.S. mission in
         August 2013                                             Afghanistan. Oversight efforts in Afghanistan will
           •	 Lt. Gen. Ken Tovo, commanding general, NATO        continue, consistent with the security posture of U.S.
              Training Mission – Afghanistan, and Combined       forces and the USCENTCOM ability to provide support.
              Security Transition Command – Afghanistan
                                                                 In the interest of clarity and to better focus on the
         FY 2014 Comprehensive Oversight Plan for                emerging issues relating to the transfer of security
         Southwest Asia                                          and other responsibilities to the Government of the
         Other notable Afghanistan related activities by the     Islamic Republic of Afghanistan (GIRoA), the strategic
         Southwest Asia Joint Planning Group during this         issue areas addressed in the Joint Strategic Oversight
         reporting period included the issuance of the FY        Plan for Afghanistan was consolidated from 22 in FY
         2014 Comprehensive Oversight Plan for Southwest         2013 to 11 in FY 2014. These issues are presented
         Asia and the updated Joint Strategic Oversight Plan     in two sections: Reconstruction (7 issues) and Other
         for Afghanistan. These plans reflect interagency        Than Reconstruction (4 issues).
         collaboration within the oversight community
         to provide comprehensive audits, inspections            The COPSWA also includes descriptions of oversight
         and evaluations of contingency expenditures, to         projects in the rest of the USCENTCOM’s area of
         determine whether critical oversight gaps exist and     responsibility, which is comprised of a total of 20
         to recommend actions to address those gaps. The FY      countries, including Iraq, Kuwait, Kyrgyzstan and
         2014 COPSWA is effective as of Sept. 1, 2013, and may   Pakistan. The COPSWA contains a section that lists
         be revised and updated as necessary.                    198 products and alerts that were issued during
                                                                 FY 2013. In March 2013, the Special Inspector General
         The FY 2014 COPSWA includes descriptions of 315         for Iraq Reconstruction culminated its nine-year
         planned and ongoing oversight projects by the           mission in the issuance of its study, Learning From
         inspectors general of the Department of Defense,        Iraq: A Final Report From the Special Inspector
         Department of State and the U.S. Agency for             General for Iraq Reconstruction.
         International Development; the Special Inspector




64 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                               E n a b l i n g M i ss i o n A r e a s

Despite situational challenges, the oversight            cooperation and coordination among the inspectors
community will continue to follow the money,             general of the intelligence community. The forum
assess progress, and identify what is working, what      meets quarterly to discuss issues of common concern
is failing and what can be improved. The work of the     and to plan how to address them collaboratively.
oversight community, reflected in the FY 2014
COPSWA, will help identify and deter fraud, waste        Joint Intelligence Oversight Coordination
and abuse, and promote integrity, accountability,        Group
efficiency and excellence.                               The deputy inspector general for intelligence
                                                         and special program assessments chairs the Joint
Council of the Inspectors General on Integrity           Intelligence Oversight Coordination Group, which
and Efficiency                                           meets quarterly. The group promotes and furthers
The Department of Defense Office of Inspector            collaboration, cooperation, coordination and
General received six awards Nov. 15, 2013, at the        information sharing among the inspectors general and
16th Annual Awards Ceremony, hosted by the Council       auditors general of the Department of Defense. The
of the Inspectors General on Integrity and Efficiency.   group’s objectives are to support the DoD inspectors
Beth Cobert, CIGIE executive chair and deputy director   general and auditors general in the performance
for management, Office of Management and Budget,         of audits, inspections and evaluations within their
presented the most prestigious awards to include one     respective departments and agencies as well as
to DoD IG: Glenn/Roth Award for Exemplary Service,       strengthen their collective role and effectiveness to
Combating Trafficking in Persons Team.                   enhance their support of the National Intelligence
                                                         Strategy. Finally, the group seeks to optimize the use
Phyllis K. Fong, CIGIE chairperson, and Lynne A.         of resources, increase efficiency and avoid duplication
McFarland, CIGIE vice chairperson, presented the         of effort among DoD inspectors and auditors general.
Awards for Excellence. DoD IG received awards for        The group can also explore opportunities for joint
one Defense Criminal Investigative Service special       and interagency training and education, as well
agent and the following teams: G222 Audit Team;          as examine defense programs and operations and
Service Disabled Veteran-Owned Small Business            identify those requiring coverage from more than one
Audit Team; Afghan Local Police Team; and AES            member of the group.
Investigation Team.

Jon T. Rymer, DoD IG inspector general, was part
                                                         Administrative Investigations
of the team that received the Barry R. Snyder Joint      Outreach Initiatives
Award for their work with the Council of Inspectors      During the reporting period, Administrative
General on Financial Oversight Working Group during      Investigations conducted 40 hours of instruction
his prior service as the inspector general for the       and training on policy updates and best practices
Federal Deposit Insurance Corporation.                   in whistleblower protection and senior official
                                                         accountability matters reaching 874 attendees in
Also, two special agents with DCIS were members          various venues: periodic training symposia; service/
of teams from other offices of inspectors general        defense agency IG roundtables; instruction at the
that were presented the following Awards for             Joint, Army and Air Force IG courses; and hotline
Excellence: Investigation, National Aeronautics and      outreach conferences. AI also participated in
Space Administration Multi-Agency Complex Fraud          several roundtables to update media outlets on
Investigative Team; and Investigation, Office of         the senior official investigative process and various
Personnel Management Amgen Investigative Team.           whistleblower reprisal statutes, with emphasis on
                                                         recent enhancements to contractor whistleblower
Intelligence Community Inspectors General                protections. The deputy IG for administrative
Forum                                                    investigations gave opening remarks during an Audit-
DoD IG participates in the Intelligence Community IG     sponsored conference.
Forum, which promotes and furthers collaboration,




                                                                                      APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 65
E n a b l i n g M i ss i o n A r e a s


         Hotline Outreach Initiatives
         Hotline World-wide Outreach event
         The DoD Hotline hosted representatives from across
         the federal government and throughout the Defense
         Department at the Hotline Worldwide Outreach
         May 23, 2013. This was the first federal hotline
         event of its kind and was accessible to individuals
         regardless of their location. Attendees gathered as a
         hotline community, shared relevant information, and
         discussed collective best practices and challenges,
         using the Council of Inspectors General on Integrity
         and Efficiency’s Recommended Practices for Office of
         Inspector General Hotlines as its framework. More
         than 200 people from 17 federal agencies and 23 DoD
         organizations attended the event via Defense Connect
         Online or at the Mark Center Conference Center,
         Alexandria, Va.


          H O T L I N E




            HOSTE D B Y
          Department of Defense HOTLINE


         DoD Hotline Outreach Poster


         Department-wide Hotline Working Group
         established.
         The first DoD-wide Hotline Working Group was
         formed shortly following the Hotline Worldwide
         Outreach. The Working Group was established to
         create a forum for cooperation and participation
         among hotlines offices within the department,
         establish a common vision for the DoD Hotline
         community, and develop and implement a strategic
         plan to achieve the vision. The DoD-wide hotline
         Working Group is currently focusing on updating
         DoD Instruction 7050.01 – Defense Hotline Program.
         All members of the DoD-wide Hotline community
         participate in the monthly Working Group meetings
         via Defense Connect Online, video teleconferencing or
         at the Mark Center Conference Center, Alexandria, Va.


66 │ SEMIANNUAL REPORT TO THE CONGRESS
           4
Services
Services


         ARMY                                                      outdated technology. The towers were slow to deploy,
                                                                   required excessive setup times, and didn’t have the
                                                                   reliability and maintainability to provide consistent

         Army Audit Agency                                         air traffic control support. USAAA performed an audit
                                                                   to verify that the mobile tower system would meet
         To accomplish its mission, U.S. Army Audit Agency
                                                                   the needs of the soldier and address current system
         relies on a workforce of highly trained professional
                                                                   capability shortfalls. USAAA focused on the current
         auditors, many with advanced degrees and
                                                                   system and planned improvements and also
         professional certifications. USAAA’s staff consists of
                                                                   reviewed testing practices and procedures to verify
         approximately 580 employees and is organized into 20
                                                                   that testing was sufficient to evaluate Mobile Tower
         functional audit teams that provide audit support to
                                                                   System performance.
         all aspects of Army operations.
                                                                   Findings:
         USAAA also maintains a significant presence in the        The Mobile Tower System program had an approved
         U.S. Central Command area of responsibility assisting     capability production document and acquisition
         Army commanders. At the end of September 2013,            strategy, which identified the planned improvements
         it had 13 deployed auditors in Kuwait and                 needed to address air traffic control tower system
         Afghanistan. Overall, USAAA has deployed more             shortfalls. USAAA verified that testing was sufficient to
         than 215 auditors since 2002 and issued more than         evaluate Mobile Tower System performance and that
         205 reports on Operation Enduring Freedom/                the test results supported the milestone C decision to
         Operation Iraqi Freedom.                                  approve low-rate initial production.


         USAAA’s goal is to be a highly sought after and           USAAA found the Army planned to procure four
         integral part of the Army by providing timely and         Mobile Tower Systems to be used as operational
         valued services that focus on the evolving needs of       readiness floats. USAAA calculated ORF requirements
         Army leadership. To ensure its audits are relevant        using the authorizations-before-fielding formula
         to the needs of the Army, USAAA aligned their audit       outlined in Army Regulation 750-1 (Army Materiel
         coverage with the Army’s highest priorities and high-     Maintenance Policy) and determined that the
         risks areas as determined by its enterprise-level risk    requirement was less than one system. However,
         assessment and from input from Army senior leaders.       the Office of the Deputy Chief of Staff, G-4 personnel
                                                                   believed they needed four systems because of the
                                                                   system’s low density and geographical dispersion
            “USAAA published 79 reports, made                      requirement. The Office of the Deputy Chief of Staff,
              more than 250 recommendations                        G-4 agreed that two engineering development models
              and identified about $1.3 billion of                 in inventory could be used as ORFs. Using the two
              potential monetary benefits.”                        engineering development models would satisfy two of
                                                                   four systems needed for ORFs.
         During the second half of FY 2013, USAAA published        R esult :
         79 reports, made more than 250 recommendations            USAAA reported the Army should use the two
         and identified about $1.3 billion of potential monetary   engineering development model systems to satisfy
         benefits. A few of USAAA’s significant reports are        half of the ORF requirements. This would reduce
         described in the following paragraphs:                    the planned procurements by two systems and
                                                                   save the Army about $6.2 million. The Office of
         Mobile Tower System                                       the Assistant Secretary of the Army (Acquisition,
                                                                   Logistics and Technology) and the Office of the
         O verview:
                                                                   Deputy Chief of Staff, G-4 agreed with the intent
         The Army uses mobile towers to provide tactical air
                                                                   of the recommendations and planned to adjust
         traffic control capabilities where no fixed control
                                                                   procurements.
         tower exists. The current system is too small and uses
                                                                   Report No. A-2013-0113-ALA




68 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                       Services

   “Transportation office personnel lacked               R esult :
    guidance and training for processing                 USAAA recommended that the Office of the Deputy
    transportation transactions and didn’t               Chief of Staff, G-4 establish guidance on authorizing
                                                         second destination transportation transactions, to
    understand the impact that missing                   include requirements for documenting transactions,
    data had on monitoring the centrally                 assigning appropriate transportation account
    managed funds.”                                      codes, performing internal control evaluations
                                                         and conducting organizational inspections
                                                         of transportation offices. In addition, USAAA
Audit of Second Destination Transportation—              recommended the deputy chief of staff establish a
Fund Execution                                           training course for transportation officers. USAAA
O verview:                                               estimated these actions would save the Army at least
At the request of the Office of the Deputy Chief         $19.4 million in FYs 2013-2018.
of Staff, G-4, USAAA conducted this audit to verify      Report No. A-2013-0111-ALS
that the Army had sufficient controls to oversee
how second destination transportation funds              Property Accountability of Training Aids,
were executed and recorded. Second destination           Devices, Simulators, and Simulations Upon
transportation is the movement of Army materiel          Receipt
worldwide, from the first government point of            O verview:
acceptance or storage point to the point of use. The     USAAA conducted this audit at the request of the
DoD uses a contractor-operated third-party payment       deputy chief of staff, G-4 to verify that the Army
system to pay for commercial transportation. In FY       properly accounted for and reported training
2011, there were more than 400,000 transactions          aids, devices, simulators and simulations. This
totaling about $453 million in the third-party           audit focused on verifying that receiving activities
payment system that the Army paid for using second       (installation-level activities) properly accounted for
destination transportation funds.                        TADSS. Installation training support centers used the
Findings:                                                Training Support–Materiel Armywide Tracking System
USAAA concluded the Army needed to improve               to account for TADSS. As of April 2012, TS-MATS
controls over executing and recording second             contained 22.8 million TADSS items costing about
destination transportation funds. USAAA’s review         $11.6 billion.
of the funds that G-4 personnel centrally managed        Findings:
showed: (1) managers relied on incomplete                USAAA concluded that installation-level activities
information to oversee funds execution; (2)              didn’t properly account for and report TADSS
transportation transactions weren’t consistently         equipment. Physical inventories conducted at two
authorized and supported; (3) the Army working           installations showed the installations didn’t have
capital fund should have paid for some transportation    an accurate accounting of TADSS items or an audit
charges; and (4) the Army could have avoided Defense     trail of transactions. USAAA’s review of TS-MATS also
Finance and Accounting Service charges to manually       identified significant inaccuracies. For example, of the
process transactions with missing transportation         reported 22.8 million TADSS items costing about $11.6
account codes. Transportation office personnel lacked    billion, 14.5 million items costing about $4.7 billion
guidance and training for processing transportation      consisted of fictitious ammunition. Personnel at one
transactions and didn’t understand the impact            training support center entered this data into
that missing data had on monitoring the centrally        TS-MATS to quantify “real” ammunition saved by
managed funds. As a result, the Army had decreased       using the engagement skills trainer (a simulator).
assurance that second destination transportation
transactions were properly authorized and supported.     Further, in accordance with DoD policy, 82,000 items
About $528,000 in second destination transportation      costing about $5.4 billion were nonexpendable
funding was incorrectly used to ship repair parts. The   property that should have been accounted for in an
Army also incurred about $2.7 million annually in        accountable property system of record. Army policies
unnecessary DFAS processing fees.                        required training support centers to use TS-MATS to



                                                                                       APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 69
Services

         account for TADSS items, but the system wasn’t an               July and August 2012 didn’t have their pay
         accountable property system of record. The system               stopped within seven days of the date of their
         didn’t link with core financial systems or maintain an          absence.
         audit trail of transactions. As a result, the Army had       •	 Army commands weren’t reconciling their due-in
         diminished assurance that TADSS items were properly             list of incoming soldiers with the soldiers who
         accounted for and reported for asset visibility and             in-processed. Commands didn’t take appropriate
         financial readiness purposes.                                   action to report soldiers that were due to report,
         R esult :                                                       but didn’t, as absence without leave if there
         The deputy chief of staff, G-4 issued a directive               wasn’t a legitimate reason for their absence.
         requiring units and activities to record nonexpendable    Further, USAAA found more than 39 percent of the
         TADSS in an accountable property system of                absent without leave soldiers reported during July
         record. The deputy chiefs of staff, G-3/5/7 and           2012 were absent for more than 30 days and hadn’t
         G-4, started revisions to Army Regulation 350-38          been processed as deserters. As a result, the Army
         and Army Regulation 710-2. These changes define           remained liable for active duty death benefits to these
         responsibilities for accounting for TADSS items and       soldiers’ next of kin if these soldiers died. The Army is
         will improve the accuracy of asset and financial          liable until the soldier is processed as a deserter and is
         reporting. Finally, the Office of the Deputy Under        dropped from the rolls of the Army.
         Secretary of the Army for Business Transformation         R esult :
         commenced a business process review of the                USAAA estimated that the Army could potentially
         functionality of TS-MATS.                                 achieve about $39 million in savings during FYs
         Report No. A-2013-0129-ALS                                2013-2018 by increasing command emphasis on unit
                                                                   commanders’ responsibility to process and report
         Stopping Pay for Soldiers in an Absentee or               absentee soldiers in accordance with current Army
         Deserter Status                                           policies and procedures.
         O verview:                                                Report No. A-2013-0119-FMF
         USAAA conducted this audit to verify that the Army
         had sufficient policy, procedures and controls in place   Government-Provided Meals for Soldiers
         and operating to report deserters or absentee soldiers    Attending Institutional Training
         to the pay system to ensure that pay and benefits for     O verview:
         these soldiers was promptly curtailed.                    USAAA conducted multi-location audits to verify that
                                                                   the Army was properly charging soldiers for their
                                                                   meals when they attended institutional training and
            “More than 60 percent of soldiers                      were provided government meals during their training
              who were absent without leave and                    attendance. USAAA found some serious weaknesses
              reported during June, July and August                that needed immediate attention in the management
              2012 didn’t have their pay stopped                   of basic allowance for subsistence collections at three
              within seven days of the date of their               of the five sites visited.
              absence.”                                            Findings:
                                                                   USAAA found that the Army wasn’t collecting
         Findings:                                                 BAS from their soldiers when they were provided
         USAAA reported the Army didn’t have sufficient            government meals during their training attendance.
         controls in place and operating to enforce established    Specifically:
         policies and procedures for reporting deserters and         •	 The commands didn’t have sufficient policies and
         absentee soldiers to the pay system to ensure the pay          procedures outlining the requirement for units
         and benefits for these soldiers was promptly curtailed.        to submit Department of the Army Form 4187
         Specifically:                                                  (Personnel Action) to collect BAS from soldiers
           •	 More than 60 percent of soldiers who were                 receiving BAS during their training attendance.
              absent without leave and reported during June,         •	 There wasn’t coordination between the battalion,
                                                                        brigade S-1s and the school noncommissioned




70 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                            Services

     officers on each office’s responsibilities pertaining   developing a best business practice identifying group
     to enrolling soldiers for attendance at the NCO         policies and scripts that network enterprise centers
     Academy and subsequent responsibility for               could use to improve oversight of elevated accounts.
     the collection of the soldiers’ BAS during their        R esult :
     attendance.                                             USAAA recommendations will help ensure that
  •	 There wasn’t oversight by the command G-1 to            elevated privileged access on Army installations is
     ensure the S-1s understood their duties to              sufficiently documented, justified and verifiable. It will
     initiate and process the personnel actions to           also allow network enterprise centers to more easily
     collect BAS from the unit’s soldiers who attended       modify any elevated privilege accounts if network
     the NCO Academy and received government-                enterprise center capabilities or staffing changes
     furnished meals.                                        over time, and could reduce the Army risk of attack
R esult :                                                    through an insider threat.
USAAA estimated that by increasing command                   Report No. A-2013-0137-FMT
emphasis to unit commanders on their responsibility
to collect BAS from their soldiers during their training
attendance, the Army could potentially achieve about
                                                                “USAAA identified about $119 million
$1.7 million in savings at these three installations.             in efficiencies the Army should achieve
As of the current date, two of the three reports have             in FYs 2013-2017.”
been published and one is still pending command
reply. USAAA will also address the systemic problems
identified in an overall report to the Department of         Enterprise Email
the Army on the audit of government provided meals           O verview:
for soldiers attending institutional training.               Enterprise Email is one of the Army’s initiatives
Report No. A-2013-0123-FMF and A-2013-0146-FMF               directed at consolidating the information technology
                                                             infrastructure. USAAA conducted this audit to verify
Elevated Privileges                                          that the Army maximized its efficiencies through the
O verview:                                                   use of Enterprise Email and that the services provided
USAAA performed this audit to verify that the Army’s         met Army requirements. The review was limited to
network enterprise centers met the principle of              continental United States network enterprise centers
least privilege, thus limiting elevated access to those      and directorates of information management.
requiring it. USAAA visited four Army installations          Findings:
and reviewed the processes for approving elevated            USAAA reported that the Army realized efficiencies in
privileges and the oversight of the privileges for users     the areas of server hardware, licenses, maintenance
accounts.                                                    and power consumption. USAAA identified about
Findings:                                                    $119 million in efficiencies the Army should achieve in
USAAA couldn’t verify that the Army met the principle        FYs 2013-2017. Additionally USAAA calculated that the
of least privilege for its existing elevated users           Army was spending about $5.2 million annually for
because the network enterprise centers weren’t               email storage; however, USAAA couldn’t validate this
requiring sufficient justification before granting           amount because storage equipment is multipurpose,
elevated privileges. USAAA reported that Army                and USAAA could not identify specific equipment
regulations lacked detailed information regarding the        specifically allocated for the storage of legacy
process for approving elevated privileges leading to         email data. USAAA also did not identify manpower
confusion concerning who approved the privileges—            efficiencies because activities visited generally did not
the network enterprise center or the command.                reduce their staffing levels as a result of Enterprise
Also, the network enterprise centers were providing          Email and there was no reliable baseline study
oversight of elevated users to ensure they met               available. USAAA concluded that the Army will not
training and certificate requirements and used tokens        truly understand the efficiencies it achieved through
to access privileged accounts. However, USAAA found          Enterprise Email until the email service matures.
that the Army could reduce the risk to its network by




                                                                                            APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 71
Services

         Although, many of the Army’s email requirements            Findings:
         are being met by the service provider—Defense              USAAA reported that the ASR sufficiently captured the
         Information Systems Agency—there were a few                Army’s progress towards meeting DoD requirements
         significant issues that still needed to be resolved.       and federal mandates for sustainability. The 2012
         For example, DISA was providing two key services—          ASR emphasized the importance of sustainable
         journaling and BlackBerrys—at the level identified in      operations and provided sustainability performance
         the requirements document, but the need could be           data trends for FYs 2004-2011. Also, unlike previous
         much greater. Further, the Army’s ability to manage        versions, the 2012 ASR contained a crosswalk
         and oversee the service DISA provides was affected by      between Executive Order 13514 requirements, DoD’s
         the lack of tools to monitor and ensure performance        Strategic Sustainability Performance Plan goals,
         of services. Specifically, metrics were not in full use,   Global Reporting Initiative indicators, and the Army’s
         DISA had not provided detailed billing in a way that       baselines and progress for each of the Army’s core
         the Army could manage its costs and there was              enterprises: materiel, readiness, human capital, and
         no formal remediation process for service quality          services and infrastructure. The Army also increased
         management between the Army and DISA.                      reporting of GRI indicators from 33 fully reported
         R esult :                                                  to 37 in the 2010 ASR and provided appropriate
         As a result, the Army may have paid for services that      explanations for GRI indicators that weren’t reported
         should have been baseline services and issues of           on or partially reported. In addition, USAAA reported
         nonperformance could go unresolved. The lack of a          that 12 of the 22 data sources used for the 2012 ASR
         remediation process coupled with the lack of metric        had related audit coverage (prior, ongoing or planned)
         reporting and billing terms makes the Enterprise           by USAAA or from external audit organizations such
         Email program, from the Army’s perspective, difficult      as DoD IG or the Government Accountability Office.
         to manage and oversee. It also leaves the Army             Consequently, USAAA identified 10 data sources,
         vulnerable to nonperformance in the Enterprise Email       which haven’t had recent or planned audit coverage
         program. USAAA made recommendations to address             and could potentially be at risk. For phase III audits,
         these issues, which are vitally important as the Army      USAAA plans to focus on at least four data sources
         continues toward more enterprise services provided         (three of which are among the 10 sources that didn’t
         by DISA or other governmental entities.                    have recent audit coverage).
         Report No. A-2013-0136-FMT                                 R esult :
                                                                    The audit, which contained no recommendations,
         Audit of Army Sustainability Reporting                     provided the assistant secretary with assurance the
         Measures                                                   2012 ASR sufficiently captured the Army’s progress
         O verview:                                                 towards meeting DoD requirements and federal
         The Army Sustainability Report documents the               mandates for sustainability. The assistant secretary
         Army’s efforts and progress in instilling sustainability   agreed with the audit findings and stated that the
         into planning, training, equipping and operations,         Army does not plan to issue a GRI-based ASR for
         and achieving DoD’s annual Strategic Sustainability        2013 due to resource restraints and will evaluate the
         Performance Plan goals. At the request of the              feasibility of issuing a two year report in FY 2014.
         assistant secretary of the Army (installations, energy     Report No. A-2013-0095-IEE
         and environment), USAAA will conduct a series of
         audits to ensure the quality of ASR data. For this         Use of Energy Efficient Lighting
         effort, which is the second of a three-phased audit        O verview:
         approach, USAAA reviewed the ASR to ensure it              In October 2010, the assistant secretary of the army
         sufficiently captured the Army’s progress toward           (installations, energy and environment) directed
         meeting DoD requirements and federal mandates              activities to begin using energy efficient lighting to
         for sustainability and to identify risk areas for phase    comply with energy conservation mandates. USAAA
         III audits, which will focus on the quality (accuracy,     conducted an audit to verify that the Army has taken
         completeness and sufficiency of data metrics) of the       sufficient actions to use energy efficient lighting to
         sustainability data.                                       help meet energy conservation goals.




72 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                             Services

Findings:                                                      R esult :
USAAA concluded that the Army has taken actions to             USAAA recommended that the deputy assistant
comply with the policy. However, some improvements             secretary of the Army (energy and sustainability) and
were needed to ensure the Army can consistently                assistant chief of staff for installation management
report and monitor progress. The three Army                    issue clarifying guidance and improve oversight of the
Installation Management Command installations and              implementation of the “Utilization of Efficient Lighting
one Army Materiel Command installation that USAAA              Policy.” The deputy assistant secretary of the Army
reviewed made progress towards implementing                    agreed to work with the assistant chief of staff for
energy efficient lighting. For example, installations          installation management to update the guidance and
used energy savings performance contracts to install           improve tracking of progress toward implementing
lighting upgrades in existing buildings and had policies       the energy efficient lighting policy. This will provide
in place to control the purchase of incandescent               assurance that the Army is making progress toward
bulbs. In addition, IMCOM developed six energy                 meeting energy conservation mandates.
conservation measures/performance metrics and                  Report No. A-2013-0089-IEE
issued guidance for installations to report their
progress. However, although the Army provided                  Follow-up Audit of Accident Investigations
guidance to replace incandescent bulbs in the next             and Reporting
five years, it didn’t have a sufficient process in place       O verview:
to consistently measure, track and report progress             At the request of the deputy assistant secretary of the
towards implementing the policy or to provide                  army (environment, safety and occupational health),
effective oversight because the guidance wasn’t                USAAA conducted a follow-up audit on actions taken
fully sufficient. Specifically, IMCOM’s guidance didn’t        to oversee the development of the single accident
specify methodology and data sources to be used for            reporting system and ensure activities discontinue
reporting progress; other commands’ guidance was               development of legacy systems. The original audit
limited and didn’t require activities to report their          report showed that the Army didn’t have a centralized
progress; and Army guidance didn’t specify how the             safety system that was sufficient to capture Armywide
policy applied to tenant activities. Consequently,             accident data. Further, an effective level of Army
energy managers may not have sufficient data to                oversight wasn’t in place to ensure the development
monitor progress toward implementing the efficient             of ReportIt and the discontinuance of developing
lighting policy by October 2015 to help meet energy            legacy systems.
conservation goals.
                                                               Findings:
                                                               USAAA reported that deputy assistant secretary of
                                                               the army (environment, safety and occupational
                                                               health) took actions to oversee and coordinate the
                                                               development of ReportIt and the Army realized
                                                               monetary benefits of $3.75 million. However,
                                                               actions weren’t sufficient to fully implement the
                                                               recommendation and develop ReportIt in a timely
                                                               manner. Specifically,
                                                                 •	 Deputy assistant secretary of the army
                                                                    (environment, safety and occupational health)
                                                                    didn’t establish a process to transfer or shift
                                                                    funds from other safety systems to the single
                                                                    accident reporting system. Further, USAAA found
                                                                    that Army Materiel Command’s FY 2012 and FY
                                                                    2013 budgets included an additional $4.5 million
                                                                    for its legacy system and the command had no
  USAAA conducted an audit to verify that the Army uses             plans to execute the funding as described in its
  energy efficient lighting to help meet conservation goals.
                                                                    budget request.




                                                                                             APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 73
Services

            “The Army plans to spend an additional                  approval and generally monitored the contracts to
              $18.1 million to develop and sustain                  ensure performance requirements were met and
                                                                    the Army received the services for which it paid.
              the ASMIS-R modernization effort...”                  However, documentation wasn’t available to show
                                                                    that three of six contracts reviewed were cost-
           •	 Two Army activities were using systems with
                                                                    effective and sufficient hours weren’t available to
              similar characteristics and capabilities as
                                                                    pay for completed requirements on two contracts. In
              the Army Safety Management Information
                                                                    addition, contracting officer representatives on four
              System-Revised. The Army plans to spend an
                                                                    contracts didn’t follow quality assurance surveillance
              additional $18.1 million to develop and sustain
                                                                    plans, document surveillance activities or report
              the ASMIS-R modernization effort between
                                                                    contractor performance to contracting officers.
              FYs 2013 and 2018 even though DoD currently
              has an ongoing initiative to select or develop a      R esult :
              safety management system for the entire DoD           USAAA made three recommendations to MEDCOM
              community.                                            to improve health care provider contract oversight.
                                                                    Specifically, USAAA recommended establishing
         R esult :                                                  procedures to make sure contract approvals include
         USAAA recommended that deputy assistant secretary
                                                                    documentation of cost-effectiveness and contract line
         of the army (environment, safety and occupational
                                                                    items include sufficient funding for all requirements.
         health) needs to reevaluate the cost-effectiveness
                                                                    Additionally, USAAA recommended that CORs
         and document the decision whether ASMIS-R (which
                                                                    document their activities in accordance with quality
         includes ReportIt, AnalyzeIt, TrackIt and PreventIt)
                                                                    assurance surveillance plans and that contracting
         should remain the Army’s vehicle for implementing
                                                                    personnel provide prompt feedback on contractor
         the 2006 requirement of a single Armywide accident
                                                                    performance. The assistant secretary of the Army
         reporting system as directed by the vice chief of staff,
                                                                    (manpower and reserve affairs) agreed with the
         Army. USAAA also recommended that the deputy
                                                                    recommendations.
         assistant secretary of the army (environment, safety
                                                                    Report No. A-2013-0114-IEM
         and occupational health) discontinue funding for the
         further development of the ASMIS-R modernization
                                                                    Service Cost Execution Process
         effort until the reevaluation is completed.
         Report No. A-2013-0134-IEE                                 O verview:
                                                                    The assistant chief of staff for installation
         Contracting for Health Care Providers                      management requested that USAAA analyze the
                                                                    execution of service costs to determine if the
         O verview:                                                 Installation Status Report-Services captured the true
         USAAA audited the Army Medical Command’s
                                                                    service costs.
         processes for health care provider contracts to
         verify that the contracts were based on valid and          Findings:
         well-defined performance requirements and the              USAAA reported that Installation Status Report-
         Army received the services for which it paid. USAAA        Services data compiled for FY 2010 and FY 2011 didn’t
         performed the audit because MEDCOM spends a                reflect the complete cost picture for the installation
         significant amount for contracted providers. For           services reviewed which could negatively affect
         example, during FY 2011, the command obligated at          the Army’s ability to program for future funding
         least $2.2 billion for health care provider contracts.     needs of the installations. This occurred because of
                                                                    systemic problems implementing the General Fund
         Findings:                                                  Enterprise Business System, which the Army in turn
         USAAA reported that MEDCOM’s Health Care
                                                                    used to populate Installation Status Report-Services.
         Acquisition Activity awarded the contracts according
                                                                    Additionally, local shortcomings in recording service
         to the Federal Acquisition Regulation and policies
                                                                    execution costs and supplemental funds issues
         issued by DoD, the Army and MEDCOM. Additionally,
                                                                    contributed to these differences.
         MEDCOM customers established requirements based
         on workload and staffing standards with command




74 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                         Services

R esult :                                                  Financial Management—Home Station
USAAA made recommendations to improve the                  Mission
detailed reporting of base operations service costs,       O verview:
which should result in more accurate forecasting of        At the request of the assistant secretary of the
future funding requirements. USAAA also identified         army (financial management and comptroller), in
potential savings of about $7.8 million due to the         coordination with the Task Force on the Optimization
reduction in the existing vehicle fleet at one of the      of Army Financial Management, USAAA completed a
installations visited.                                     narrowly-focused review of potential opportunities
Report No. A-2013-0150-IEO                                 that exist for financial management soldiers to
                                                           perform a home station mission to meet the agreed-
Cost Sharing: Logistics Support, Services, and             to deadline of the task force. This audit was the final
Supplies, U.S. Forces-Afghanistan                          phase in a series of audits on financial management
O verview:                                                 operations. Prior USAAA audits addressed training,
At the request of U.S. Forces-Afghanistan, USAAA           force structure, and mission resources and
verified that sufficient agreements, processes and         capabilities.
procedures were in place to equitably allocate costs       Findings:
and recoup funds for logistics support, services and       USAAA reported that a home station financial
supplies provided to coalition partners supporting         management mission was feasible in the new
Operation Enduring Freedom in Afghanistan. The             enterprise environment. Currently, soldiers are
audit focused on Logistics Civil Augmentation Program      not sustaining their deployable skills while at
provided services and costs.                               home station. This occurred in part due to limited
Findings:                                                  opportunities based on the financial management
USAAA reported that USFOR-A and regional                   force structure and doctrine, transfer of garrison
commands didn’t have sufficient processes and              financial functions to civilians and competing training
procedures in place to identify and equitably allocate     requirements. As the Army moves to an enterprise
costs of logistics support, services and supplies shared   environment having a cost culture that embraces
with coalition partners. Regional command personnel        audit readiness, increased opportunities for financial
and USFOR-A acquisition and cross-servicing                management soldiers to perform functions at home
agreement coordinators didn’t prepare CC-35                station have expanded and continue to evolve.
transaction reports to capture the cost of services        A home station mission should serve to enhance
provided to coalition partners. In addition, CC-35         critical deployed skill sets, as well as augment
transaction reports that were prepared, many didn’t        other organizations as they plan to meet workload
arrive at the Defense Finance and Accounting Service       requirements in an increasingly resourced-constrained
for billing to coalition partners.                         environment. Without development opportunities at
R esult :                                                  home station, technical proficiency gained through
There were 178 CC-35 transaction reports valued at         deployments may decrease, which will impede future
about $27.2 million prepared by regional commands          unit readiness levels.
that had not been received and processed by DFAS.          R esult :
In addition, once sound procedures are in place and        USAAA identified several common functions or
operating, USAAA estimated that through USFOR-A,           missions that financial management soldiers
U.S. Army Central Command should recoup about              performed in a deployed environment that could
$384.4 million from coalition partners for logistics       be performed at home station in some capacity.
support, services and supplies for FYs 2013 and 2014.      These included, but weren’t limited to, commercial
Report No. A-2013-0110-MTE                                 vendor services, disbursing, managerial accounting,
                                                           operational planning, decision-making, budget
                                                           execution and audit readiness. However, the
                                                           opportunities for a home station mission or
                                                           enhanced training faced several implementation
                                                           challenges. These challenges are complex and require




                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 75
Services

         collaboration among multiple entities to resolve            operating bases to supply activities at logistical
         which the Army’s Financial Management Optimization          hubs and strategic bases. USAAA also evaluated
         Workforce Task Force agreed to address.                     the effectiveness of disposition decisions for items
         Report No. A-2013-0094-MTS                                  identified as excess to requirements or determined to
                                                                     be unserviceable.
         U. S. Army Installation Management
         Command Civilian Workforce Reductions
                                                                        “USAAA reported that asset disposition
         O verview:                                                       decisions were generally economical and
         At the request of the assistant secretary of the army
         (manpower and reserve affairs), USAAA audited
                                                                          provided the best value to the Army.”
         installation service contracts to verify that contractors
         didn’t replace Army civilians who were eliminated           Findings:
         by budget constraints. USAAA focused on changes             USAAA reported that U.S. Army Central Command
         to the civilian and contractor workforce mix and the        activities had policies in place for asset visibility and
         associated strategies for getting the work done with        accountability; however, units sometimes didn’t
         the staffing reductions at three locations: Fort Meade,     comply with these policies nor had they established
         Md.; Fort Stewart, Ga.; and Joint Base Lewis-McChord,       sufficient processes and procedures to maintain
         Wash.                                                       proper asset accountability and visibility. Commands
                                                                     generally had controls in place, such as sensitive item
         Finding:
                                                                     physical inventories, to ensure accurate recording of
         USAAA reported that it didn’t find Army civilians
                                                                     ammunition items. However, USAAA found the key
         replaced by service contracts or modifications to the
                                                                     internal control of physical inventory wasn’t always
         scope of work in existing contracts to accommodate
                                                                     effective at the unit level. Units didn’t have the
         work formerly performed by Army civilians. Analysis
                                                                     command emphasis needed to make sure all legacy
         of the annual contract costs over a three-year period
                                                                     munitions were recorded, retrograded or disposed
         showed the annual costs remained unchanged or
                                                                     of accordingly. Commands also hadn’t implemented
         declined. Army garrisons met their mission by using a
                                                                     some aspects of an explosive safety inspection
         combination of civilian over-hires, borrowed military
                                                                     program at the company level to ensure units
         and a reduction to the level of services provided
                                                                     identified issues and initiated corrective actions in a
         to customers. Although USAAA didn’t find Army
                                                                     timely manner.
         civilians replaced by service contracts, USAAA also
         acknowledged that the installations weren’t operating
                                                                     USAAA reported that asset disposition decisions were
         at their FY 2014 targeted reductions. Therefore, the
                                                                     generally economical and provided the best value to
         full impact of the reductions won’t be recognized until
                                                                     the Army. Theater activities worked closely together
         the release of all encumbered over-strength positions
                                                                     to develop sufficient processes and procedures for
         and the FY 2014 targeted reductions are completed.
                                                                     the reposture/retrograde of ammunition. U.S. Army
         R esult :                                                   Central Command personnel properly demilitarized
         USAAA helped validate that service contracts
                                                                     unserviceable items, maximized the use of the do
         didn’t replace Army civilians eliminated by budget
                                                                     not return list, and conserved excess serviceable
         constraints—a specific congressional interest of the
                                                                     ammunition for other requirements. They also
         Senate Subcommittee on Contract Oversight.
                                                                     monitored reoccurring requirements to make sure
         Report No. A-2013-0093-MTS
                                                                     excess retrograded items weren’t immediately called
                                                                     back into theater. These actions provided reasonable
         Retrograde of Class V-Afghanistan                           assurance the Army received the best value for its
         O verview:                                                  resources.
         The deputy commanding general for support, U.S.             R esult :
         Forces–Afghanistan endorsed this audit in which             USAAA made recommendations to the commander,
         USAAA verified that the ammunition accountability           U.S. Forces-Afghanistan to coordinate with the
         and visibility in Afghanistan was sufficient—from           commander, International Security Assistance
         the tactical level of Army units located at forward



76 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                         Services

Forces Joint Command to improve accountability             fraud crimes, 94 percent for violent death crimes, 87
over property book items, some of which were               percent for violent sex crimes, 64 percent for property
Category I and II and sensitive items; establish           crimes and 100 percent for miscellaneous crimes,
task force oversight metrics to ensure units bring         with an overall solve-rate of 97.2 percent. According
legacy ammunition to record; and to direct regional        to the 2011 FBI Uniform Crime Report, these solve-
commanders to have units initiate investigations for       rates for Army CID exceeded the national average of
items not located during USAAA’s inventory. These          47.7 percent for violent crimes (murder, forcible rape,
recommendations should strengthen controls and             robbery and aggravated assault) and 18.6 percent
improve the Army’s asset accountability and visibility     for property crimes (burglary, larceny and motor
in Afghanistan.                                            vehicle theft). The Army CID generated more than
Report No. A-2013-0152-MTE                                 $33,023,503 in total recoveries of criminal fines, civil
                                                           penalties, civil false claims recoveries and restitution
                                                           during the reporting period.
   “Since April 1, 2013, the Army CID
     generated 5,674 new reports of                        The Army CID continued to place significant
     investigation and more than 4,225                     emphasis on the conduct of sexual assault and death
     non-reports of investigation sequence                 investigations to help meet the intent of DoD and
     actions.”                                             Department of the Army leadership in reducing the
                                                           number of sexual assaults and suicides that affect the
                                                           Army community.

U.S. Army Criminal Investigation                           Specialized Unit Operations
Command
                                                           Protective Services Battalion
Significant Activities                                     The Protective Services Battalion conducted
The U.S. Army Criminal Investigation Command is an         continuous worldwide executive protection from
independent, combat-ready organization dedicated to        assassination, kidnapping, injury and embarrassment
providing the U.S. Army critical investigative support,    for designated senior, high-risk personnel in DoD, the
actionable criminal intelligence, logistics security and   Joint Chiefs of Staff, the Army and for their foreign
protective services to senior Department of Defense        counterparts during official visits to the United States.
personnel around the globe. The Army CID had               The Protective Services Battalion also provided
469 agents and other personnel forward-deployed            oversight of training and operational effectiveness
in support of ongoing contingency operations in            for combatant commander protective services in
Kuwait and Afghanistan. This support extended              U.S. Southern Command and U.S. Forces Korea.
beyond normal criminal investigations and included         Since April 2013, the Protective Services Battalion
logistics security operations, training host nation law    conducted more than 200 protective services missions
enforcement personnel, detainee investigations, and        outside the continental United States, in continental
the use of forensic sciences and criminal investigative    United States and in deployed environments without
techniques, which aided combatant commanders               incident. This included 11 visiting foreign counterpart
in identifying, targeting, capturing, deterring and        missions for ministers and chiefs of defense within the
prosecuting insurgents and criminal elements that          national capital region and throughout continental
pose a threat to U.S. forces.                              United States. The Protective Services Battalion
                                                           continued to provide protective support for two
Since April 1, 2013, the Army CID generated 5,674          former secretaries of defense and one former
new reports of investigation and more than 4,225           chairman of the joint chiefs of staff. The battalion’s
non-reports of investigation sequence actions. In spite    intelligence section conducted full spectrum threat
of the demanding caseload, the Army CID maintained         assessments for every low, medium or high-risk travel
a solve-rate of 99.6 percent for drug crimes, 94           mission and for each personal security vulnerability
percent for persons crimes, 95 percent for economic        assessment, incorporating terrorist and criminal




                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 77
Services

         threat data into a comprehensive risk analysis            to preserve soldier safety and Army readiness.
         program. The intelligence section established a           The Major Procurement Fraud Unit investigated
         new 24-hour watch and support team that assisted          allegations of fraud affecting contracting operations
         Protective Services Battalion special agents around       in contingency environments throughout the world.
         the clock and anywhere in the world while on              The Major Procurement Fraud Unit has four forward
         missions. The battalion led the way in establishing the   operating investigative offices in Afghanistan and
         Digital Persona and Personal Information Protection       Kuwait, focused on contingency fund contractual
         program, which secured the personally identifiable        fraud involving overseas contingency operations in
         information, sensitive data and other personal            support to the various military operations under
         information of the protected principals that was          Operation Enduring Freedom and Operation New
         collected or stored by the U.S. government and public     Dawn. Since April 2013, the Major Procurement
         and private entities. This information is often the       Fraud Unit initiated 102 reports of investigations, with
         target of individuals attempting to gain unauthorized     approximately $15,155,040 in total recoveries and
         access, hackers and other threats. The Protective         $1,346,856 returned to the Army. Specific to over-seas
         Services Battalion continued to deploy special agents     contingency operations, the Major Procurement Fraud
         to the U.S. Central Command to lead protective            Unit initiated 20 reports of investigations and realized
         service details for senior U.S. combatant commanders.     $14.4 million in fines and restitutions.

         Computer Crime Investigative Unit                         U.S. Army Criminal Investigation Laboratory
         The Army CID Computer Crime Investigative Unit            The U.S.Army Criminal Investigation Laboratory’s
         continued its support of the DoD strategy for             Forensic Exploitation Directorate has two operational
         operating in cyberspace by aggressively investigating     elements: the Global Forensic Exploitation Center and
         intrusions and related malicious activities affecting     the Forensic Exploitation Team(s). The Global Forensic
         Army computers and networks. The Computer                 Exploitation Center is the CONUS reach-back, which
         Crime Investigative Unit’s increased emphasis on          provided forensic exploitation for overflow from
         insider threats was exemplified by the successful         the Afghanistan Theater of Operations as well as to
         prosecution of an Army intelligence analyst for cyber     those global customers without organic exploitation
         espionage stemming from the largest illegal disclosure    capability. The Forensic Exploitation Team(s) provided
         of classified material in U.S. history. The Computer      deployable solutions that were tailored, scaled and
         Crime Investigative Unit partnered with the U.S.          customized based on the particular mission. While
         Army Cyber Command to conduct crime prevention
         surveys of the Army’s LandWarNet to proactively
         identify vulnerabilities and prevent unauthorized
         access, misuse, damage and disruption to military
         operations. This program resulted in a $42.2 million
         cost avoidance to the Army. Following the mandatory
         remediation of identified vulnerabilities, no computer
         network compromises occurred at assessed
         installations for this reporting period.

         Major Procurement Fraud Unit
         The Major Procurement Fraud Unit continued to
         combat fraud and corruption related to contingency
         operations. The global mission of the Major
         Procurement Fraud Unit is to conduct criminal
         investigations into allegations of fraud associated
         with major Army system acquisition programs to
         recover Army funds, ensure the integrity of the             A special agent collected fingerprints for the Global
         Army procurement process and deter future crimes            Forenseic Exploitation Center.




78 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                       Services

the focus of the directorate remains largely on          particularly improvised explosive device components.
support to Operation Enduring Freedom, the Forensic      He also provides subject matter expertise for all
Exploitation Directorate experienced a sharp increase    matter involving the technical exploitation of
in demand for deployable laboratories and reach-back     improvised explosive device material. The technician
services from the geographic combatant commands          was integrated into Global Forensic Exploitation
for future contingency operations. There                 Center operations, synchronizing the efforts of the
is still a growing need to use forensics in support      Forensic Exploitation Division and Naval Explosive
of joint interagency and multinational activities        Ordnance Disposal Technical Division Technical
conducted on an ongoing, routine basis as a              Support Division to support the weapons technical
component of Theater Security Cooperation Plans to       intelligence process and exploitation of captured
assure friendly relationships and alliances and deter    enemy material and improvised explosive device
potential adversaries.                                   components.

During the reporting period, the Global Forensic
Exploitation Center received 497 exploitation
                                                            “The Latent Print Branch examined
requests from several organizations around the                1,125 latent-to-latent cases which
world and completed 423 cases containing 2,707                resulted in 1,425 matches or linked
separate items. While the majority of cases came              cases after 39,382 examinations.”
from the Afghanistan Theater of Operations, other
supported organizations included the Biometric           During this reporting period, the Forensic Exploitation
Identity Management Activity, the U.S. Naval Forces      Directorate and Global Forensic Exploitation Center
Central Command Exploitation Laboratory in Bahrain,      Latent Print Branch resumed the latent-to-latent
the National Ground Intelligence Center, Joint Task      comparisons derived from the Biometric Identity
Force Guantanamo and the Armed Forces DNA                Management Activity’s biometric database,
Identification Laboratory. Of the total cases received   Automated Biometric Identification System, and also
and completed, the Latent Print Branch completed         reported those findings to the intelligence community.
analysis on 67 cases, the DNA Branch completed           The Latent Print Branch examined 1,125 latent-to-
analysis on 338 cases, the Electronic Engineer Branch    latent cases which resulted in 1,425 matches or linked
completed analysis on 29 cases and the Explosive         cases after 39,382 examinations. The Latent Print
Chemistry Branch completed analysis on 35 cases.         Branch also revised and effectively integrated the
The analysis of the received materials resulted in       support provided to the Combined Joint Task Force
2,518 searchable DNA profiles and yielded 293            Paladin Theater Explosive Exploitation Cell regarding
biometric matches. There were more than 324 latent       the creation of 30 prosecution support packages. It
fingerprints found and 25 database matches.              developed court charts of latent prints and record
                                                         prints of detainees prior to going to trial. These
The Global Forensic Exploitation Center established      court charts were added to the prosecution support
the first resident explosive triage section in concert   packages and were used by Afghan prosecutors and
with Naval Explosive Ordnance Disposal Technical         judges to convict and sentence terrorists to prison.
Division. This is a fully functional explosive triage    The Global Forensic Exploitation Center DNA Branch
section in direct support of the Forensic Exploitation   successfully completed the training and certification
Directorate and the Global Forensic Exploitation         of five DNA analysts and one technician who were
Center, to conduct secondary level II triage and         approved and released for independent case work.
technical exploitation of all captured enemy material    The DNA Branch started backfilling data into the
and evidence received at Global Forensic Exploitation    Expeditionary Forensic DNA Index System. This
Center for exploitation, processing and analysis. The    required a complete review of all completed case
explosive triage technician is responsible for the       work from legacy laboratories in theater, as well as all
explosive safety and protection of Global Forensic       of the Global Forensic Exploitation Center historical
Exploitation Center laboratory personnel from the        cases. A new protocol was put online that allowed
hazards associated with all captured enemy material,     the DNA team to perform a robotic extraction using
                                                         the EZ1 Robots instead of performing it manually;




                                                                                       APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 79
Services

         the team completed extractions more expeditiously          Forensic Analyses and Productivity: The laboratory
         and produced the same high-quality product. The            caseload in Afghanistan decreased 60 percent in
         DNA sample identifiers were submitted to Biometric         2013 compared to the same period in 2012. The
         Identity Management Activity on a weekly basis             decrease is attributed mainly to the turnover of
         to try to link the Armed Forces DNA Identification         combat operations to the Afghanistan National
         Laboratory, Biometric Identity Management Activity         Security Forces. The Forensic Exploitation Team
         and Combined DNA Index System databases. The               examiners conducted forensic examinations on more
         Global Forensic Exploitation Center DNA Branch began       than 209,561 pieces of material, completing more
         preparing for a full accreditation according to the        than 3,367 laboratory requests. More than 735
         International Organization for Standardization and FBI     insurgents were uniquely identified using latent prints
         quality assurance standards.                               and DNA processed from captured enemy material
                                                                    and matching it to known profiles in DoD databases:
                                                                    543 of those identifications came from latent prints
         The Forensic Exploitation Team 1 maintained a robust
                                                                    submitted to the Biometric Identity Management
         capability to conduct forensic examinations in the         Activity and searched in the Automated Biometric
         following disciplines: explosive triage, latent prints,    Identification System database; 192 identifications
         DNA, chemistry (explosives and drug analyses),             came from DNA submitted to the Armed Forces DNA
         electronic engineering, firearms and tool marks, and       Identification Laboratory and searched in its database.
         forensic/biometric enabled intelligence analysis. Team     Forensic examination results supported the successful
         1’s forensic analysis provided timely intelligence used    prosecution of 78 individuals resulting in a total of
         for linking known insurgents forensically to captured      698.5 years of confinement. Apart from prosecution
         enemy material, such as improvised explosive devices,      successes, significant cases during this reporting
         weapons, documents and other materials that were           period also included captured and killed enemies of
         used for targeting and prosecution in Afghan courts.       Afghanistan. Examples, of each, are included:
         The Afghanistan Captured Materiel Exploitation               •	 In April 2013, Jana Akharamahamad was
         Laboratories are under the operational control of               biometrically matched when his fingerprints
         Combined Joint Task Force Paladin Theater Explosive             were developed from the adhesive side of
         Exploitation. The Afghanistan Captured Materiel                 clear packing tape used to build a pressure-
         Exploitation laboratories are comprised of U.S.                 plate improvised explosive device. The Forensic
         military personnel, coalition forces, Department of             Exploitation Directorate Intelligence staff directed
         the U.S. Army Civilians and U.S. contractors.                   the dissemination of a be-on-the-look-out
                                                                         document throughout Afghanistan; U.S. Special
                                                                         Operations Command personnel killed Jana
                                                                         Akharamahamad May 27, 2013.
                                                                      •	 In February 2013, Abdul Razaq was biometrically
                                                                         matched when his fingerprints were developed
                                                                         from the adhesive side of an interior layer of
                                                                         yellow packing tape used to build a command-
                                                                         wire improvised explosive device. The Forensic
                                                                         Exploitation Directorate Intelligence staff directed
                                                                         the dissemination of a be-on-the-look-out
                                                                         document throughout Afghanistan. On May 8,
                                                                         2013, an Afghan National Army patrol received
                                                                         small arms fire. While the patrol questioned
                                                                         nearby locals after the incident, it recognized
                                                                         Abdul Razaq from his be-on-the-look-out, and
                                                                         detained him on site.
                                                                      •	 The Digital Evidence Branch examined a partially
                                                                         melted cell phone and obtained information
           An Army CID agent collected fingerprints at a criminal        that linked the phone to the subject, who was
           investigation scene.                                          immediately questioned.




80 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                        Services

  •	 The Trace Evidence Branch conducted fire debris           lab. This technology resulted in a two to threefold
     analysis in both incidents and found ignitable            recovery increase of the male fraction, leading
     liquids. In the second incident, alcohol rags were        to more accurate downstream DNA analyses.
     used and the presence of isopropyl alcohol was            Moreover, the same technology was also
     detected. The fabric rags and alcohol rags were           leveraged by the Forensic Exploitation Directorate
     consistent with the source materials at the scene         laboratories that were deployed in Afghanistan
     and statements made by the subject. A suspected           with a modified protocol to analyze low-level
     shipyard worker confessed and pleaded guilty to           touch DNA samples isolated from improvised
     two counts of arson. This shipyard worker set fire        explosive devices.
     to rags aboard the USS Miami nuclear submarine         •	 Forensic evidence with complex DNA mixtures
     because he was allegedly fighting depression.             (i.e., mixtures containing three or more
     He was sentenced to 17 years in jail. The blaze           contributors) frequently submitted to USACIL
     injured seven people and caused $450 million              laboratories include sexual assault swabs,
     in damage. He was ordered to pay $400 million             improvised explosive device components and
     in restitution.                                           cell phones. These mixtures were difficult for
                                                               DNA examiners to analyze and often were left
                                                               uninterrupted. To improve analysis of these
   “The USACIL’s DNA Branch continued                          mixtures, Research, Development, Testing
    to excel both in its day-to-day operation                  and Evaluation partnered with the Institute of
    and in scientific advances benefitting                     Environmental Science and Research Limited,
    support to criminal investigations...”                     New Zealand, to train DNA examiners to use the
                                                               STRmix program. STRmix is an expert software
The USACIL’s DNA Branch continued to excel both in             program that assists DNA examiners in their
its day-to-day operation and in scientific advances            interpretation of complex mixtures, enabling
benefitting support to criminal investigations:                them to extract more information from previously
   •	 The USACIL DNA Branch provided an on-line                unusable data sets. Consequently, USACIL will be
      automated process for examining touch DNA                the first forensic laboratory in the nation to test,
      samples. This new procedure not only allowed             validate and implement this software. The affect
      the laboratory to conduct DNA on those types of          of the software will:
      samples faster, but also retired the old organic             ■■ Introduce a new statistical model for DNA-
      DNA extraction procedures, which required work                  mixture interpretation.
      with very hazardous chemicals and reagents.                  ■■ Accelerate the prosecution of sexual assault
   •	 The USACIL DNA Branch continued to lead the                     cases, improvised explosive device evidence
      way in the forensic DNA community in the area                   and other cases involving DNA mixtures.
      of complex mixture interpretation and applying               ■■ Establish USACIL as the in-country authority
      statistical weight. The branch collaborated with                for technology transfer of the system to
      specialists in New Zealand to adopt new software                other federal, state and local crime labs.
      and statistical methods, placing them in the
      forefront of this issue in the United States.       The time required for forensic laboratories to process
                                                          DNA samples can be lengthy—eight or more hours
Research, development, testing and evaluation             to a day and half—depending on the sample quality,
technology improvements during this period included       laboratory resources and laboratory throughput
the following:                                            capability. To reduce this time requirement, a rapid
  •	 Typical forensic evidence (e.g. rape kits)           DNA program was initiated. USACIL led in the testing
     submitted to USACIL contained DNA mixtures           and evaluation of three different rapid DNA platforms:
     with a major female fraction and minor male          NetBio’s Accelerated Nuclear DNA Equipment,
     fraction. To increase detection of the male          IntegenX’s RapidHit platforms and LGC’s ParaDNA.
     fraction, automated DNA isolation robots were        The first two systems provide full short tandem
     tested, validated and implemented at the crime       repeat profiles based on the combined DNA index




                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 81
Services

         system’s core STR loci in approximately 90 minutes.          efforts in Afghanistan and Pakistan. He was charged
         The ParaDNA platform is an investigative screening           June 7, 2013, for allegedly coordinating a series of
         tool that analyzes a subset of those same loci in 75         attacks and related offenses in Afghanistan against
         minutes. The effect of this technology is immense and        U.S. and coalition forces from 2001 to 2004 and
         could lead to reduced laboratory backlogs for DNA            for overseeing an operation that included firing
         casework. Moreover, since all the platforms require          upon a medical helicopter as it attempted to
         minimal user training and hands-on time, the systems         recover causalities.
         offer increased efficiency with less user errors.
                                                                      In an initiative related to Guantanamo, Criminal
         Criminal Investigation Task Force                            Investigation Task Force attorneys and analysts
         The DoD Criminal Investigation Task Force is a               continued to serve as an integral part of the DoD
         highly specialized joint unit that conducted criminal        Security Classification/Declassification Review
         investigations of suspected terrorists, war criminals        Team, established in August 2008 to review all DoD
         and insurgents, in conjunction with deployed                 documents to be used in military commissions and
         battalions, leading to trials across all appropriate legal   Supreme Court-ordered detainee habeas hearings,
         venues, including military commissions, U.S. federal         and to produce declassified records for those
         courts and host-nation courts.                               proceedings and other legal proceedings.

         In support of the Guantanamo military commissions,
         Criminal Investigation Task Force special agents
                                                                         “Between April and September 2013
         conducted criminal investigations of detainees;                   analysts reviewed, redacted and
         Criminal Investigation Task Force attorneys worked                declassified more than 22,500 pages of
         hand-in-hand with the DoD Office of the Chief                     records and processed more than 870
         Prosecutor, Office of Military Commissions; Criminal              documents ...”
         Investigation Task Force linguists reviewed evidence
         and provided translations in Pashto, Dari, Urdu, Arabic      Between April and September 2013, Criminal
         and Farsi of documents, audio and video files; and           Investigation Task Force attorneys and analysts
         Criminal Investigation Task Force analysts successfully      reviewed, redacted and declassified more than
         integrated an advanced intelligence augmentation             22,500 pages of records and processed more than
         system with Criminal Investigation Task Force                870 documents for release to military commissions
         investigations, providing an invaluable tool which           and the federal court. Since the project’s inception,
         mined massive data sets for intelligence and law             Criminal Investigation Task Force attorneys and
         enforcement applications and linked evidence                 analysts processed more than 16,000 documents.
         to crimes. The analysts also provided direct reach-
         back support on seven requests related to high               The Criminal Investigation Task Force’s efforts have
         priority cases.                                              enabled Criminal Investigation Task Force documents
                                                                      and other DoD documents to be utilized in ongoing
         The Criminal Investigation Task Force pursued justice        habeas litigation and the planned trials of detainees,
         for the victims of the deadly attacks on the United          including Khalid Sheikh Mohammed, believed to be
         States Sept. 11, 2001, in which 2,977 people were            the mastermind of the Sept. 11, 2001, plot, and four
         killed, and on the USS Cole where 17 U.S. sailors            other detainees charged with planning and executing
         were killed Oct. 12, 2000. The Criminal Investigation        the attack; Abd al Rahim al Nashiri, who allegedly
         Task Force also assisted prosecutors with several            oversaw the planning and preparation of the Oct. 12,
         high-profile, pretrial military commission hearings          2000, attack on the USS Cole; and Ahmed Mohammed
         for the detainees charged in those cases and assisted        Ahmed Haza al Darbi, charged with aiding and
         prosecutors with preparations for their planned trials.      abetting terrorism and other offenses related to a
         The Criminal Investigation Task Force also investigated      2002 attack against a French oil tanker, which killed
         the case of a Guantanamo detainee, Abd al Hadi               a Bulgarian sailor, and other plots to bomb civilian
         al-Iraqi, who allegedly once commanded al Qaeda’s            oil tankers.




82 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                         Services

During the reporting period, Criminal Investigation        Section 841 nominations. USCENTCOM issued
Task Force Document Media Exploitation unit imaged,        four notification letters identifying five companies
reviewed and summarized more than 580 gigabytes            and their associates as Section 841 designees, and
of digital documents and audio and video files. Since      Criminal Investigation Task Force contributed to all of
the inception of the project in mid-2002, Criminal         those investigations.
Investigation Task Force personnel have identified
and linked evidence found in documents and other           The Criminal Investigation Task Force agents and
material to more than 40 terrorism investigations. In      analysts in Virginia identified 24 Army CID cases that
total, they have identified and cataloged more than        involved logistical-related thefts in the Afghanistan
400,000 documents and have imaged, reviewed,               Theater of Operations totaling $6.9 million, and
exploited, summarized and entered more than                $636,150 of that amount has since been recovered.
9.8 terabytes of digital media evidence (documents,        Of the 24 cases, they assisted in resolving five Army
audio and video files) into Criminal Investigation Task    CID cases by providing Army CID agents deployed in
Force’s case management system for use by agents           theater with direct analytical reach-back support.
and analysts.                                              They also provided information and analytical
                                                           assistance pertaining to 111 Army CID cases.
   “....at the Justice Center in Parwan,                   The Criminal Investigation Task Force analysts also
     Afghanistan...there were more than                    completed the development of a cutting-edge,
     765 trials held between April and                     government-owned logistics security common
     September 2013, resulting in more than                operational picture tool that is comparable to
     490 convictions.”                                     software that probably would have cost the
                                                           government millions of dollars. The tool, which
In support of the Combined Joint Interagency Task          took two years to develop, is designed to enable an
Force 435, Criminal Investigation Task Force agents        operational response to the theft and capture of U.S.
conducted more than 220 interviews of detainees            materiel transiting unsecured lines of communication
in Afghanistan and were successful in developing           in Afghanistan. Criminal Investigation Task Force plans
confessions from more than 90 percent of them. The         to share this tool with the Department of Homeland
confessions will be used in Afghan courts, along with      Security-Customs and Border Protection National
other evidence. Afghans prosecuted the cases in the        Targeting Center.
anti-terrorism court at the Justice Center in Parwan,
Afghanistan; there were more than 765 trials held          Law Enforcement Professionals
between April and September 2013, resulting in more        To effectively combat extremist/insurgent groups, U.S.
than 490 convictions.                                      forces must understand international organizations,
                                                           including their intent, motives, structure and methods
The Criminal Investigation Task Force attorneys and        of movement for personnel, money and arms. The
analysts in Afghanistan and at Fort Belvoir, Va., also     Law Enforcement Professionals program is an ongoing
contributed to a process, named after Section 841          Army CID-managed program which supports both
of the National Defense Authorization Act of 2012,         the U.S. Army and the U.S. Marine Corps during
to determine if entities with potential or existing        contingency operations. The Law Enforcement
contracts with the United States had insurgent             Professionals program embeds experienced former
connections. The Section 841 process provides the          law enforcement personnel at all echelons from
U.S. Central Command Theater commander with the            corps to battalions and some select companies. The
means to restrict, terminate or void contracts with        LEP mission is to advise, assist, mentor and train
entities with insurgent connections. The attorneys         U.S., host nation and coalition forces in various
reviewed more than 10 potential cases against              criminal enterprise investigative and analytical law
entities with potential or existing contracts for legal    enforcement skill sets used in counter-improvised
sufficiency, and the analysts provided direct analytical   explosive device operations, counter-narcotics and
reach-back support to more than seven potential            counter nexus operations. LEP personnel are an




                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 83
Services

         integral component of a comprehensive civil-military            forces several days later. Farah Law Enforcement
         counterinsurgency campaign. They assist commanders              Professionals - Investigative Surveillance advised
         with enhanced expertise and methodology to                      them of the importance of interviewing the
         understand, identify, penetrate, interdict and suppress         detainee to determine if he would provide
         international insurgent and criminal-like network               information concerning other insurgents in
         enterprises. The Law Enforcement Professionals                  Farah City who were planning acts of terror
         program, through advising, assisting, training and              against Afghan Security Forces, local nationals
         mentoring, has been a great success; significant                and coalition forces. The Investigative
         amounts of evidence were collected, and individuals             Surveillance Unit site leader was trained to
         were profiled and identified for questioning and                obtain biometric evidence from the detainee
         prosecution in Afghanistan in support of the rule of            in order to compare evidence collected
         law. In the Afghanistan theater of operation, the Law           from previous attacks to this detainee. The
         Enforcement Professionals program has accomplished              Investigative Surveillance site leader met with
         the following in the past six months:                           the Law Enforcement Professionals - Investigative
           •	 LEP personnel assisted Army CID and military               Surveillance and provided the biometric evidence
              police officers with numerous investigations               and disclosed that the detainee admitted to
              of thefts from Forward Operating Base Fenty,               committing both attacks.
              Behsud District, Nangarhar Province, Afghanistan.       •	 The National Directorate Security agents arrested
              Soldiers at the entrance control point identified          five members of a suicide bomber cell. The
              stolen lumber and security uniforms being                  agents allowed the LEP personnel to biometrically
              driven off the Forward Operating Base by base              enroll and collect buccal swabs from the leader
              employees using the base operations vehicle. The           of the cell, Jandulla Ghulam Mohammad.
              uniforms were the type used by Afghan security             The detainee’s DNA sample was matched to
              guards who worked at Forward Operating Base                previously recovered suicide vest materials.
              Fenty. The Afghan security guards provide                  Additional National Directorate Security agents
              contract security at the Forward Operating Base            detained three other persons who tested positive
              and are armed. The investigation revealed a                for biometric hits. One person was detained as a
              detailed and deliberate plan to remove lumber              match on a be-on-the-lookout flyer.
              from the base. The stolen property was sold
              by bid for the lot. There was evidence that           Command Intelligence Operations Center
              local workers and contractors were involved.          The Command Intelligence Operations Center
              LEP personnel advised, assisted and mentored          continued to expand its analytical support to
              many aspects of the investigation, including          investigative elements worldwide by collecting,
              methods, history, financial interest and the effect   assessing and disseminating criminal intelligence
              on force protection. There were immediate             to the Army CID field units conducting criminal
              procedures initiated to prevent further thefts        investigations or employed in crime prevention
              and improve force protection measures. This is a      efforts. The Command Intelligence Operations
              striking example of the “added value” of the LEP      Center also continued to grow the Army’s e-Guardian
              personnel working with their military partners.       program, which allowed Army law enforcement
           •	 The Farah Investigative Surveillance unit site        to share and disseminate potential terrorist threat
              leader met with a law enforcement professional        information with the FBI, DoD, state and local
              assigned to Farah Law Enforcement Professionals       civilian law enforcement authorities, nationwide.
              Investigative Surveillance and was mentored on        The Army CID continued to strengthen use of the FBI
              the significance of the capture of an insurgent       eGuardian Suspicious Activity Report system by Army
              in Farah City. This insurgent attacked a coalition    activities. The Command Intelligence Operations
              forces patrol convoy in Farah City and killed one     Center managed the accounts of 406 Army eGuardian
              coalition forces commander. The insurgent was         users who were responsible for the issuance of 206
              captured by Afghanistan National Police during        suspicious activity reports during the first three
              an unsuccessful second attack on coalition




84 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                          Services

   “Since February 2008, the Command                             criminal investigations conducted by the Army
     Intelligence Operations Center has                          CID. However, the threat of gang and domestic
                                                                 extremist groups conducting criminal activity
     had an analyst solely dedicated to                          on Army installations, the threat of extremist
     monitoring the illicit and synthetic                        infiltration of the Army to pursue training in
     drug abuse threats to Army personnel                        weapons and explosives, and the potential loss
     and their families.”                                        in public confidence due to a perception that
                                                                 the Army allows extremists in its ranks requires
quarters of 2013. Since 2011, there have been eight              constant monitoring.
incidents that resolved to a “YES” nexus to terrorism       In FY 2013, the Investigative Analysis Branch
and a full field investigation by the FBI. Enhancements     completed numerous studies to include 10 installation
in search capabilities will allow military police           comparison papers that identified offenders by
and analysts to gain a better understanding of the          crime type and by number of offenses; an analysis
suspicious activity surrounding installations to enable     on child sexual assault/child pornography offenders,
improved investigative response.                            with action taken by civilian authorities; a report on
   •	 Since February 2008, the Command Intelligence         soldiers involved in extortion and blackmail using
      Operations Center has had an analyst solely           social media; and an analysis of all active duty and
      dedicated to monitoring the illicit and synthetic     mobilized reservist soldier suicides, with a particular
      drug abuse threats to Army personnel and their        focus on suicides that occurred in the barracks and
      families. The analyst works with the Office of        involved the inhalation of a toxic substance.
      National Drug Control Policy and other federal,
      state and local drug enforcement personnel. By        Significant Investigative Cases
      establishing and maintaining these relationships,
      the analyst leveraged and shared information          Spare Parts Overcharged for US Army Tanks
      to educate Army CID offices about emerging
                                                            O verview:
      and shifting drug trends. The information
                                                            An investigation into Curtiss Wright Controls
      pertaining to illicit drug trends was then used to
                                                            Incorporated determined the company had submitted
      set drug suppression goals and make resource
                                                            inaccurate cost and pricing data in connection with a
      management decisions. The analyst also assisted
                                                            Tank Automotive and Armaments Command contract
      Army CID offices in active drug investigations. The
                                                            for Bradley Fighting Vehicle spare parts, which
      analyst’s knowledge of illicit and synthetic drugs
                                                            resulted in overcharges to the government totaling
      and other abused substances, in conjunction
                                                            approximately $1,311,728. Curtiss Wright Controls
      with other drug enforcement personnel, allowed
                                                            Incorporated certified material part unit prices which
      for more efficient, effective and comprehensive
                                                            were higher than actual purchase order histories;
      assistance and analysis during active drug
                                                            submitted certified bills of material containing out-of-
      investigations. The illicit and synthetic drugs and
                                                            date price quotations; purchased material parts from
      other abused substances are ongoing threats to
                                                            a different vendor at a lower cost; and failed to notify
      the Army that demand continuous observation.
                                                            the Army of a corporate pricing agreement prior to
   •	 Since October 2011, the Command Intelligence
                                                            the certification.
      Operations Center has had an analyst dedicated
      to monitoring the gang and domestic extremist         R esult :
      threat to the Army. The analyst works with the        On May 15, 2013, The U.S. Attorney’s Office, District
      National Gang Intelligence Center to cultivate        of Massachusetts, executed a civil settlement
      working relationships with federal, state and local   agreement wherein Curtiss Wright Controls agreed
      law enforcement agencies investigating gang-          to pay a $1,352,441 in criminal penalty to the
      related crime. Gang activity continues to be a        government. The Army Procurement Fraud Branch
      contributing factor in only a very low number of      declined to take administrative action.




                                                                                          APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 85
Services

         False Invoices Submitted by Contracting                     28, 2013, through Sept. 4, 2018. Additionally, Charpia
         Officer                                                     was sentenced by the Western District of Texas, U.S.
         O verview:                                                  District Court, to serve three years of supervised
         This joint investigation with Defense Criminal              release and ordered to pay $920,000 plus interest in
         Investigation Service and the Department of Health          restitution to the United States.
         and Human Services Office of the Inspector General
         determined Nanoscale Corporation and its chief              Fort Drum Head Shop Closed after
         operating officer, Aaron Madison, mischarged                Distribution of Illegal Drugs
         acquisition costs of equipment used on multiple             O verview:
         projects to two government contracts totaling               Army CID initiated this joint investigation with
         approximately $177,294. The false invoices and              the Drug Enforcement Administration and the
         certifications Madison submitted electronically             Metropolitan Jefferson County Drug Task Force,
         overstated Nanoscale’s costs related to nitrogen use        N.Y., after information was obtained relating to
         on various contracts and also charged the costs of          soldiers assigned to Fort Drum purchasing synthetic
         leasing equipment to the government for equipment           cannabinoids from Tebb’s Head Shop, N.Y. The
         that Nanoscale used for various nongovernment               investigation determined Tebb’s Head Shop was
         projects.                                                   selling synthetic cannabinoids and bath salts, a
         R esult :                                                   banned substance for sale in New York State. During
         The Army Procurement Fraud Branch debarred                  covert drug operations, about 1 gram of bath salts
         Madison from participating in government contracting        from Tebb’s Head Shop was purchased. During
         for two years effective April 5, 2013, through Feb. 19,     the monitored purchase, the employee provided
         2015. The Army Procurement Fraud Branch declined            instructions on how to best consume the substances
         to pursue further action against Nanoscale because          for purposes other than what was advertised and
         the company went out of business.                           labeled on the product. The DEA obtained a warrant
                                                                     to seize all illegal products from numerous Tebb’s
         Contractor in Iraq files False Invoices                     Head Shops, located throughout Central New York,
                                                                     where thousands of grams of bath salts and synthetic
         O verview:
                                                                     cannabinoids were seized.
         This joint investigation with AFOSI, the Internal
         Revenue Service-Criminal Investigations and the             R esult :
         Special Inspector General for Iraq Reconstruction           John Tebbett, the owner of Tebb’s Head Shop, was
         was initiated after it was determined the owner of          charged with possessing and selling bath salts and
         Sourcing Specialist, LLC, Jill Charpia, was awarded a
         contract with the U.S. government to provide a turn-
         key housing facility located outside Iraq’s international
         zone. The building was to facilitate the introduction
         of multinational firms desiring to develop business
         opportunities in Iraq. Charpia submitted a false
         invoice for payment in the amount of $1,270,075 for
         mobilization costs. In addition, Charpia submitted an
         invoice representing she paid $700,000 for the rental
         of two villas in Baghdad and another representing
         she paid $570,075 for the purchase of three armored
         vehicles from an Iraqi company. As a result of the
         false invoices, $1,270,075 was wired to Charpia’s bank
         account.
         R esult :
         Charpia was debarred from participating in
                                                                       An Army CID special agent seized illegal drugs as
         government contracting for five years effective April         evidence.




86 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                        Services

synthetic cannabinoids, in violation of New York Public   Army Member Murders Afghan Nationals
Health Law, Section 16. Tebbett pleaded guilty in state   O verview:
court and admitted to the distribution of bath salts      An Army CID investigation was initiated after U.S.
and to money laundering. The New York Supreme             Army Staff Judge Advocate Lt. Comdr. Kathryn Matt,
Court issued a decision holding Tebbett responsible       Combined Forces Special Operations Component
for selling deceptively-labeled drug products to          Command – Afghanistan, reported a service member
consumers and issued a fine in the amount of              killed and possibly injured several Afghan local
$200,000. All Tebb’s Head Shops have been placed off      nationals near Village Stability Platform Belambai. The
limits for Fort Drum soldiers, and Tebbett is pending     service member was identified as U.S. Army Staff Sgt.
sentencing for money laundering offenses. The case        Robert Bales, who left the Village Stability Platform
has been delayed due to a subsequent violation of the     during the early morning hours of March 11, 2012,
terms of his release by using pain pills not prescribed   and attacked two different local national Afghan
to him.                                                   family compounds with small arms fire resulting in the
                                                          deaths of 16 local nationals and wounding of others.
Soldier Seeking Stress Treatment Kills Service            The investigation established probable cause to
Members                                                   believe Bales illegally used steroids after he submitted
O verview:                                                a urine sample via search authorization, which tested
Army CID responded after Army Sgt. John Russell           positive for steroids. Three bottles of steroids were
murdered five other service members at the Combat         found hidden under a walkway outside Bales’ room.
Stress Center. Russell also assaulted another service     The investigation established that Bales forcefully
member and attempted to murder another service            entered seven residential structures in the hours of
member. Russell’s commander had prohibited Russell        darkness and shot and killed 16 Afghan local national
from carrying a weapon while receiving mental             civilians. The investigation determined that Bales shot
health treatment. On May 11, 2009, Russell became         and injured five Afghan local national civilians and
upset with one of his psychiatrists. Military police      shot an Afghan local national child in the knee. Bales
responded to the altercation and Russell was released     also shot an Afghan national in the side of the neck
to a unit escort. Once Russell arrived at the unit,       causing both disfiguration and loss of feeling in his
he stole his escort’s rifle and stole a government        hand.
vehicle that he used to drive to the Combat Stress        R esult :
Center. When he arrived, Russell moved through            On Aug. 23, 2013, Bales was convicted by a general
the building, methodically shooting the staff and         court-martial and sentenced to life in prison without
patients. The military police and Army CID special        parole.
agents responded to the shooting and apprehended
Russell as he exited the building. U.S. Army Criminal     Army Member Found Guilty of Leaking
Investigative Laboratory technicians responded to the     Information to Wikileaks
scene and obtained scene imaging. Russell’s gunshot-
                                                          O verview:
residue tests were positive. Blood found on Russell’s
                                                          On May 25, 2010, a joint investigation was initiated
boots matched the blood of the victims. Blood from
                                                          with the FBI, Department of State Diplomatic Security
the victims was found on the rifle Russell used. Shell
                                                          Service and Army CID’s Computer Crime Investigative
casings found at the scene and bullet fragments
                                                          Unit into the largest disclosure of classified material
recovered from the victims matched Russell’s weapon.
                                                          in U.S. history. A Computer Crime Investigative Unit
R esult :                                                 source reported that a service member, identified
On May 16, 2013, Russell was convicted by a general       as Pfc. Bradley Manning, claimed during online chat
court-martial of the unpremeditated murder of five        sessions that he had disclosed classified information
service members and attempted murder of two               to the online news organization Wikileaks.org. On
service members. Russell received a sentence of life in   May 27, 2010, Manning was apprehended and a
prison without the possibility of parole, reduction in    military search authorization was executed on his
grade to E-1 and a dishonorable discharge.                military quarters in Iraq. Forensic examination of the
                                                          evidence collected during the investigation by the




                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 87
Services

         Digital Forensics and Research Branch, Computer
         Crime Investigative Unit, as well as analysis of            NAVY
         the released documents and government servers
         revealed that while stationed in Iraq, Manning
         accumulated voluminous classified documents, which
                                                                     Naval Audit Service
                                                                     NAVAUDSVC mission is to provide independent
         he subsequently passed to the operators of the
                                                                     and objective audit services to assist Department
         website WikiLeaks.org. Manning released hundreds
                                                                     of the Navy leadership in assessing risk to improve
         of thousands of classified and unclassified U.S.
                                                                     efficiency, accountability and program effectiveness.
         diplomatic cables, war logs on Iraq and Afghanistan,
                                                                     NAVAUDSVC works with senior DON officials to
         and Guantanamo Bay detainee files.
                                                                     develop an annual risk-based audit plan addressing
         R esult :                                                   critical areas officials feel merit additional oversight.
         On July 30, 2013, Manning was convicted by a general        NAVAUDSVC also responds to requests from senior
         court-martial of 20 specifications related to exceeding     DON officials to provide audit work on emergent
         his authorized access on a classified computer system       issues, such as determining whether there was
         and the theft and release of hundreds of thousands of       documentation that sufficient background checks
         classified intelligence documents. On Aug. 21, 2013,        were conducted for DON childcare providers.
         Manning was sentenced to 35 years of confinement,
         reduction to grade of E-1, forfeiture of all pay and        In the past six months, NAVAUDSVC audits have
         allowances and a dishonorable discharge.                    addressed such issues as contract administration,
                                                                     the management and physical security of fuel
         Army Major Guilty of Premeditated Murder at                 storage tanks and more. NAVAUDSVC assist reports
         Fort Hood                                                   for NCIS identified approximately $5.3 million in
         O verview:                                                  potential fraud (or approximately $6.6 million over
         On Nov. 5, 2009, the Fort Hood, Texas, Criminal             the entire fiscal year). In the year ahead, NAVAUDSVC
         Investigative Division Office was notified of shots fired   will continue to work with senior DON officials
         at the Soldier Readiness Center. A joint investigation      to provide them with an expert and impartial
         by CID, Texas Rangers and the FBI determined                assessment of critical issues, and, if necessary, make
         Army Maj. Nidal Hasan committed premeditated                recommendations that address identified conditions
         murder when he shot and killed 13 persons and an            and help DON achieve greater efficiency and
         unborn child of one of the victims present at the           effectiveness in its operations.
         Soldier Readiness Center. Hasan also attempted to
         kill numerous other personnel in and around the             During this period NAVAUDSVC issued 33 final reports,
         Soldier Readiness Center by shooting at them with his       which identified $2.7 million of potential funds to be
         semiautomatic pistol. Hasan was shot by a responding        put to other use. To date, management has agreed to
         police officer after a short exchange of gunfire. A         $2.7 million.
         multiagency task force, led by Army CID agents and
         consisting of the FBI, Texas Rangers and local area         NAVAUDSVC provided performance and financial
         law enforcement agencies, conducted more than               audit coverage in areas with significant impact. The
         3,200 interviews, collected in excess of 2,000 items of     sources of work for reports published in this period
         physical evidence and ultimately expended in excess         are shown in Exhibit 1.
         of 10,000 investigative hours. Their work resulted in
         the successful prosecution of Hasan.                        Exhibit 1. Workload by Source Published Reports April 1, 2013 –
                                                                     September 30, 2013
         R esult :
                                                                                          Source                           Reports
         On Aug. 23, 2013, Hasan was convicted by a general
         court-martial on 13 counts of premeditated murder            Congressional Requests and Statutory                    0

         and 32 counts of premeditated attempted murder               Management Requests                                    24
         charges and received a sentence of death.                    Risk Benefit Assessments                                9
                                                                       Total                                                 33




88 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                      Services

Exhibit 2 shows the number of final reports published                   Acquisition Processes and Contract
by issue area.
                                                                        Management
Exhibit 2. Number of Reports by Issue Area
April 1, 2013 – September 30, 2013                                      Naval Air Station Sigonella, Italy Base
                    Issue Area                           Reports        Operating Support Contract
 Joint Warfighting and Readiness                              2         O verview:
 Human Capital                                                0         The under secretary of the Navy requested
                                                                        NAVAUDSVC review the Navy’s Base Operating
 Information Assurance, Security and Privacy                  1
                                                                        Support contracts located outside the continental
 Acquisition Processes and Contract                           6
 Management                                                             United States. The objective of this audit was to
 Financial Management                                         9
                                                                        verify that the Naval Air Station Sigonella, Italy,
                                                                        Base Operational Support contract is effectively
 Health Care                                                  0
                                                                        administered in accordance with contracting and
 Infrastructure and Environment                               8
                                                                        disbursing policies and procedures.
 Equipping and Training Iraqi and Afghan                      0
 Security Forces                                                        Findings:
 Nuclear Enterprise                                           0
                                                                        NAVAUDSVC found that Naval Facilities Engineering
                                                                        Command Public Works Department Sigonella did
 Other                                                        7
                                                                        not have sufficient internal controls in place to ensure
  Total                                                    33
                                                                        the Base Operational Support contract at Naval Air
                                                                        Station Sigonella, Italy, was effectively administered
Exhibit 3 shows the funds identified for potential                      in accordance with contracting and disbursing
other use through audit reports issued by                               policies and procedures. Specifically, Naval Facilities
NAVAUDSVC over the past three years.                                    Engineering Command Europe Africa Southwest Asia
                                                                        had not provided sufficient oversight of contracting
Exhibit 3. Funds Identified For Potential Other Use                     operations and contract payments supporting the
($ in thousands)                                                        Base Operational Support contract at Public Works
             Program               Past 3 Years       Past 6 Months     Directorate Sigonella. As a result, Naval Facilities
 Acquisition Programs                    $34,600                   $0   Engineering Command Europe Africa Southwest
 Construction Programs                  $914,342                   $0   Asia and Public Works Directorate Sigonella could
 Logistics Programs                           $0                   $0
                                                                        not provide assurance that the Navy received the
                                                                        goods and services for which it paid on the Base
 Other Programs                           $7,075              $2,700
                                                                        Operational Support contract or that internal controls
  Total                                 $956,017              $2,700
                                                                        were sufficient to detect, deter and prevent fraud and
                                                                        abuse.
Exhibit 4 shows the authorized and actual civilian                      R esult :
year-end strengths for FYs 2010 through 2013.                           NAVAUDSVC recommended the command:
                                                                         •	 Conduct management reviews of the Public
Exhibit 4. Civilian Year-End Strength
                                                                            Works Directorate Sigonella contracting
(Includes audit, other professional, administrative and support
                                                                            office to ensure that surveillance duties and
personnel)
                                                                            responsibilities are sufficiently performed and
      Fiscal Year           Authorized                 Actual
                                                                            documented.
          2010                   398                    391              •	 Review the Sigonella Base Operational Support
          2011                   398                    370                 contract and ensure all contract requirements are
          2012                   398                    373                 measurable to allow for sufficient assessments of
          2013                   383                    366                 contractor’s performance.
                                                                         •	 Direct the Sigonella Base Operational Support
                                                                            contractor to provide itemized monthly
                                                                            contractor invoices.




                                                                                                      APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 89
Services

           •	 Appoint Departmental Accountable Officials            were not actively involved in the cost reconciliation
              to provide surveillance over the construction         process for all husbanding task orders. These
              delivery orders under the Sigonella Base              conditions occurred because the implementation of
              Operational Support contract to ensure goods          husbanding contracts and task orders lacked effective
              and services are provided.                            internal controls and management oversight. As a
           •	 Issue written policy and procedures identifying       result, ships may have been overpaying for services
              the roles and responsibilities for reviewing          received and husbanding contracts/actions were
              and validating accuracy and reasonableness            vulnerable to fraud, waste and abuse. Additionally,
              of invoices for the Sigonella Base Operational        there was not an accurate assessment of contractor
              Support contract.                                     performance, thus resulting in (1) the ineffective
           •	 Issue written policies and procedures to ensure       measurement of costs and quality of service; and (2)
              that the Contracting Officer Representative           the possibility of the government not receiving the
              has oversight of construction delivery orders         best services for the war fighter.
              being issued under the Base Operational               R esult :
              Support contract to ensure surveillance is            NAVAUDSVC recommended that the commander, U.S.
              being conducted.                                      Pacific Fleet, and commander, Naval Supply Systems
         Report No: N2013-0030                                      Command:
                                                                      •	 Assign a contracting officer’s representative for
         Internal Controls over the Execution of                         husbanding contracts.
         Husbanding Contracts – 7th Fleet Area of                     •	 Develop procedures to ensure personnel use the
         Responsibility                                                  Logistics Support Services Repository.
         O verview:                                                   •	 Update policy to ensure volume-based services
         NAVAUDSVC sought to verify whether internal                     are measured accurately.
         controls over the execution of Department of the             •	 Enforce policy on payment for port visit services.
         Navy husbanding contracts were operating to (1)              •	 Capture all husbanding task orders in the
         maximize cost effectiveness, quality of service and             Procurement Performance Management
         efficiency across the 7th Fleet; and (2) detect, deter          Assessment Program/Quality Assurance Self
         and prevent fraud, waste and abuse.                             Assessment processes.
         Findings:                                                    •	 Conduct Contractor Performance Assessment
         The execution of husbanding contracts within the                Reporting reviews for all task orders.
         7th Fleet area of responsibility was not sufficient to       •	 Establish procedures to ensure contracting
         maximize the value and cost efficiency of port services         personnel are involved in the cost reconciliation
         provided to the Department of the Navy. NAVAUDSVC               process.
         found in their review (1) husbanding contracts             Report No. N2013-00336
         were executed without an appointed Contracting
         Officer’s Representative; (2) contract requirements        Guam Base Operating Support Contract
         were not met regarding supporting documentation;           O verview:
         (3) some personnel lacked access to the Logistics          The under secretary of the Navy requested that
         Support Services Repository (a database that               NAVAUDSVC review the Navy’s Base Operating
         captures standard data globally under all husbanding       Support contracts located outside the continental
         contracts); (4) some noncontract line items lacked         United States. The objective of this audit was to
         appropriate approvals; (5) Contractor Performance          verify that the Guam Base Operational Support
         Assessment Reporting reviews were not conducted            contract is effectively administered in accordance with
         for husbanding task orders issued by the ships; (6) in     contracting and disbursing policies and procedures.
         some instances, estimated charges on invoices were         Findings:
         paid during port visits; (7) ship personnel were not       Naval Audit Service found that Naval Facilities
         able to validate offload measurements of volume-           Engineering Command Marianas did not sufficiently
         based services (i.e., collection, holding, transfer and    perform surveillance to ensure the Guam Base
         trash) during port visits; and (8) contracting personnel   Operational Support contract was effectively




90 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                        Services

administered in accordance with contracting and         travel activities for sufficient justification according to
disbursing policies and procedures. The contracting     mission requirements, and where anomalies existed,
officer did not provide oversight at a level that       performed a detailed analysis to identify whether
would ensure the CORs were performing their             questionable or potentially unauthorized transactions
surveillance responsibilities in accordance with        were made; and (3) reviewed internal controls related
Federal Acquisition Regulation and Naval Facilities     to U.S. Pacific Command Center for Excellence’s
Engineering Command’s Performance Assessment            hiring process.
User Guide. Contracting officer representative          Findings:
training did not address how to review contractor       NAVAUDSVC identified issues related to funding
submitted vouchers to verify that costs were            (possible Antideficiency Act), lack of controls/
reasonable or met contract requirements.                oversight for funding documents, obligations,
                                                        expenditures, foreign currency conversion and
Without sufficient surveillance, the Department of      reconciliation/timely return of unobligated funds.
the Navy cannot be assured that the contractor          Also, NAVAUDSVC identified a need for establishing
complied fully with the terms of the Base Operational   procedures and providing oversight to ensure:
Support contract or that Naval Facilities Engineering     •	 Accounting is in compliance with applicable DoD
Command Marianas received the goods and services             Financial Management Regulations.
for which it paid.                                        •	 Defense Travel System is properly utilized
R esult :                                                    and accounted for and personnel are training
NAVAUDSVC recommended that the command:                      appropriately.
  •	 Update and implement policy and procedures           •	 Individuals whose work assignments include
     detailing how performance assessment personnel          travel are being chosen to meet mission need
     are to evaluate and document cost management,           requirements.
     technical services and program management.           •	 Employment documentation is retained to
  •	 Update and implement policy and procedures              comply with the Secretary of the Navy Records
     to ensure contracting officer representatives           Management Manual.
     review a broad spectrum of transactions              •	 Office of Personnel Management occupational
     utilizing supporting documentation and contract         series of current personnel is revised.
     requirements as a basis for determining that         •	 Position descriptions for current personnel are
     contractor costs within vouchers are allowable          updated.
     per the Federal Acquisition Regulation.              •	 Managers’ Internal Control processes are
  •	 Establish controls and provide oversight and            completed.
     training to ensure surveillance of contractor        •	 Review of the organization’s internal controls is
     performance and incurred costs are evaluated,           conducted for the annual statement of assurance
     documented and operating as required.                   and documentation is maintained.
Report No. N2013-0037                                     •	 Maintenance of all project files from inception to
                                                             completion.
Financial Management                                      •	 Project managers are completing afteraction
                                                             reports.
Fiscal Management at the Center for                       •	 Subject matter experts are defined.
Excellence in Disaster Management and                   R esult :
Humanitarian Assistance, United States Pacific          NAVAUDSVC recommended that assistant secretary
Command                                                 of the Navy (financial management and comptroller),
O verview:                                              determine whether an Antideficiency Act investigation
NAVAUDSVC (1) analyzed the organizational budget        is warranted for the potential over-obligation and
for the U.S. Pacific Command Center for Excellence      time violations for Fiscal Years 2010 and 2011 funds.
to determine whether amounts billed, received and
expended for mission execution were justified; (2)      NAVAUDSVC also recommended that comptroller, U.S.
reviewed U.S. Pacific Command Center for Excellence’s   Pacific Command, establish and implement controls




                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 91
Services

         and provide oversight to ensure Center for Excellence        •	 Properly manage their funds in the area of gifts
         accounting personnel prevent over-obligations of                because they did not have sufficient internal
         funds, and that the comptroller provide oversight over          controls in place.
         the Center for Excellence’s Managers’ Internal Control       •	 Properly manage their wireless communication
         program processes.                                              devices because they did not have sufficient
                                                                         internal controls in place as required by
         NAVAUDSVC recommended that the director, Center                 Department of the Navy Chief Information Officer
         for Excellence establish and implement policies and             policy.
         procedures and provide management oversight with          In addition, Naval Postgraduate School management
         regard to financial management, travel and hiring         did not sufficiently implement agreed-to corrective
         practices to ensure an internal control environment       actions for 15 of 33 recommendations made in the
         has been established and activities are in compliance     prior NAVAUDSVC report
         with applicable laws and regulations. NAVAUDSVC           R esult :
         also recommended that the director ensure a               NAVAUDSVC made 27 recommendations to the
         thorough review of the organization’s internal controls   president, Naval Postgraduate School, to establish
         is conducted for the annual statement of assurance        internal controls and provide sufficient oversight in
         and maintain documentation showing the analysis of        the areas reviewed. Also, a recommendation was
         each internal control reviewed. The director should       addressed to the chief of naval operations to provide
         also require the maintenance of all project files from    oversight on implementing these recommendations.
         inception to completion to show a sufficient audit        Report No. N2013-0038
         trail, ensure that project managers are completing
         after-action reports at the completion of events,
         and establish a process for determining whether an
                                                                   Joint Warfighting and Readiness
         individual should be designated as a subject matter
                                                                   Marine Corps War Reserve Levels
         expert.
         Report No. N2013-0027                                     O verview:
                                                                   The audit objective was to verify that the Marine
         Fiscal and Resource Management at the Naval               Corps war reserve levels are supported by valid
         Postgraduate School                                       requirements. This audit was initiated by the auditor
                                                                   general of the Navy.
         O verview:
         NAVAUDSVC identified and tested internal controls         Findings:
         at the Naval Postgraduate School, Monterey,Calif.,        Valid Marine Corps-approved acquisition objectives
         to ensure (1) compliance with applicable laws and         for war reserve materiel requirements (in-stores) did
         regulations on the management of funds, (2) travel        not exist within Total Force Structure Management
         funds are being used appropriately, (3) accountability    System. Instead, Marine Requirements Oversight
         for pilferable items and (4) wireless communication       Council decisions required the Marine Corps to
         devices are being used appropriately. In addition,        temporarily use equipment density lists (that
         NAVAUDSVC followed up on a prior report, N2009-           portrayed asset quantities in support of Operation
         0039, with 34 recommendations.                            Iraqi Freedom and Operation Enduring Freedom)
                                                                   for the Marine Forces Central Command as an
         Findings:                                                 input into the war reserve material requirement
         NAVAUDSVC found that Naval Postgraduate School did
                                                                   (in-stores). The condition also occurred because (1)
         not properly manage their programs. Specifically, the
                                                                   equipment procured through the Urgent Universal
         Naval Postgraduate School did not:
                                                                   Needs Statement process (and shipped directly to the
           •	 Properly manage and execute their government
                                                                   warfighter) was included in the war reserve material
              travel and property management programs
                                                                   requirement (in-stores); (2) standardized procedures
              because they did not have sufficient internal
                                                                   did not exist to ensure equipment requiring periodic
              controls in place, there was insufficient
                                                                   upgrades to software, firmware or hardware was not
              monitoring and oversight and there was
                                                                   procured and held in wholesale war reserve; and (3)
              noncompliance with DON guidance.
                                                                   Marine Corps Combat Development and Integration



92 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                      Services

personnel were not validating and updating the war      Information Assurance, Security and
reserve material requirements within TFSMS.
                                                        Privacy
As a result, the approved acquisition objective data
                                                        Department of Navy Contract Requirements–
contained in TFSMS cannot be relied upon by Marine
                                                        Personally Identifiable Information and
Corps personnel. Also, since the Marine Corps uses
                                                        Sensitive Data
that system to support procurement actions, the lack
of valid approved acquisition objectives could lead     O verview:
to unnecessary or insufficient material quantities      The audit objective was to verify that DON
being purchased to sustain the operating forces.        contracts contain adequate provisions requiring
Although, NAVAUDSVC found that valid Marine Corps       the safeguarding and disposal of DON personally
approved acquisition objectives for war reserve         identifiable information and sensitive data.
material requirements (in-stores) data did not exist    Findings:
within TFSMS, NAVAUDSVC did not identify any            NAVAUDSVC analysis of the contract provisions
communications-electronics war reserve items that       for safeguarding and disposal of DON personally
were purchased and going obsolete in storage at         identifiable information and sensitive data showed
the Marine Corps Logistics Command. However, as         that the control environment and processes for
noted above, Combat Development and Integration         protecting and safeguarding DON personally
personnel conducted a special validation of 217 war     identifiable information and sensitive information
reserve materiel requirements (in-stores) during        was in place for contractor personnel and appeared
the audit and identified 30 workstations, valued at     to be working. However, NAVAUDSVC found that
$138,000, not to procure during Fiscal Year 2013.       Bureau of Naval Personnel and Naval Health Clinic
Therefore, as a result of NAVAUDSVC audit efforts,      Annapolis did not have an approved and implemented
$138,000 of funds was identified to be put to better    contingency plan in place to deal with an unexpected
use during Fiscal Year 2013.                            event that would interrupt their business operations,
R esult :                                               such as that which may occur if DON personally
NAVAUDSVC recommended that the commandant               identifiable information or sensitive data were to be
of the Marine Corps (1) initiate actions to validate    compromised. Directive 3020.26, dated Jan. 9, 2009,
remaining war reserve material requirement approved     requires the continuation of current approved DoD
acquisition objective requirements data in TFSMS        and DoD component mission-essential functions
to provide stakeholders accurate and supportable        under all circumstances across the spectrum of
data; (2) upon completion of the validation discussed   threats. Due to management oversight, Bureau of
above, determine the quantity and unit cost of          Naval Personnel and Naval Health Clinic Annapolis
procurements that will not occur as a result and        were noncompliant with high-level criteria that
report to NAVAUDSVC the amount of funds put to          require a contingency plan to be in place. Without
better use resulting from this recommendation; and      an approved contingency plan, they cannot provide
(3) establish and promulgate procedures that ensure     assurance that they are prepared to support and/or
equipment requiring periodic upgrades to software,      perform DON mission essential functions and
firmware or hardware is not procured and held in        facilitate business continuity during recovery form
wholesale war reserve.                                  a disruptive event.
Report No. N2013-0041                                   R esult :
                                                        NAVAUDSVC recommended the action commands
                                                        approve and implement a contingency plan to
   “Due to management oversight, Bureau                 support and/or perform DON mission-essential
    of Naval Personnel and Naval Health                 functions and to facilitate business continuity during
    Clinic Annapolis were noncompliant                  recovery from a disruptive event, up to the time
    with high-level criteria that require a             when organization returns to normal operations;
    contingency plan to be in place.”                   and to require all contractor personnel who are
                                                        anticipated to have access to a significant amount
                                                        personally identifiable information or sensitive data to



                                                                                      APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 93
Services

         sign a nondisclosure agreement by the start of their     R esult :
         employment under the contract.                           NAVAUDSVC recommended DON management
         Report No. N2013-0034                                    establish a requirement to perform regular collection
                                                                  of DON fuel consumption data at least annually. In
            “NAVAUDSVC consolidated the five                      addition, DON should establish formal processes,
                                                                  such as standard operating procedures, to collect
              audits’ results of sampling 1,514                   fuel consumption data from all units. Each of the five
              fuel transactions/reports, identifying              audit reports included separate recommendations
              a difference with supporting                        to address gaps in policy or oversight for reporting
              documentation for 11 percent of                     fuel, such as for the retention of fuel transaction
              samples, and noting 28 percent of                   supporting documentation.
              samples did not have supporting                     Report No. N2013-0020
              documentation.”
                                                                  Summary of Department of the Navy Bulk Fuel
                                                                  Storage Facilities and Farms
         Infrastructure and Environment                           O verview:
                                                                  The summary fuel audit captured systemic issues
                                                                  identified during four previous Navy fuel storage
         Summary of Audits of Department of the Navy
                                                                  facilities audits. Systemic issues were found in areas
         Fuel Consumption Reporting
                                                                  including (1) tank management and oversight and
         O verview:                                               (2) physical security and antiterrorism measures.
         NAVAUDSVC summarized the results of five audit           The individual fuel facility audit reports provided
         reports covering Navy aviation, Marine Corps aviation,   recommendations for improvement in areas that were
         Navy maritime, Military Sealift Command maritime         installation specific; however, the summary audit
         and DON expeditionary fuel consumption.                  highlighted concerns that occurred during site visits
         Findings:                                                at multiple installations and made recommendations
         The response to Task 4 of the 2010 Secretary of the      to senior management to improve the systemic issues
         Navy Energy Directive, which required reporting          identified across the Navy.
         the current quantities of consumption data for each      Findings:
         category of energy usage, relied on an informal data     Systemic weaknesses were identified in controls over
         collection process to report fuel consumption. The       tank management and oversight and physical security
         Navy Energy Coordination Office relied on open lines     and antiterrorism measures for Navy fuel facilities.
         of communication to gather fuel consumption data         Specifically, NAVAUDSVC found (1) inspections and
         since DON did not have a policy or a formal process      maintenance of fuel facilities were irregular and
         for units to periodically report fuel consumption.       insufficient; (2) tank management plans were missing
         Aviation, maritime and expeditionary data sources        or incomplete; (3) quality assurance measures were
         relied upon to report DON fuel consumption in            either not completed or insufficient; and (4) the Navy
         response to the directive did not include complete       had not established clear roles and responsibilities
         fuel consumption for all units. In addition, Marine      for the oversight and operational responsibility of
         Corps expeditionary and Navy maritime fuel               fuel storage facilities. In regards to physical security
         consumption was over-reported by including aviation      and antiterrorism, NAVAUDSVC identified systemic
         fuel consumption. NAVAUDSVC consolidated the five        weaknesses to include (1) missing or incomplete
         audits’ results of sampling 1,514 fuel transactions/     antiterrorism plans; (2) inconsistent restricted level
         reports, identifying a difference with supporting        designations; and (3) physical security access control
         documentation for 11 percent of samples, and noting      methods.
         28 percent of samples did not have supporting
                                                                  R esult :
         documentation. DON’s tracking of progress toward
                                                                  NAVAUDSVC recommended that the Navy establish
         the secretary of the Navy energy goals is hindered
                                                                  and promulgate guidance to outline roles and
         without a policy and processes for routine reporting
                                                                  responsibilities in regards to management, oversight,
         of fuel consumption.



94 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                        Services

and monitoring of Navy fuel storage facilities, as well   determine if fuel storage tanks should be classified
as procedures to ensure quality assurance inspections     as real property or personal property equipment.
are completed for Navy fuel infrastructure.               This resulted in confusion at the installation level
Recommendations were also made to assess and              about which fuel storage tanks should be recorded in
reevaluate current memorandums of agreement               iNFADS, if they should be recorded at all and in what
pertaining to fuel facility operations as well as tank    system they should be recorded.
management plans across the Navy. In addition,
the Navy should conduct assessments to determine          In addition, for the eight installations, NAVAUDSVC
whether fuel storage facilities have complete, current    also reviewed 334 tank property records that were
and approved antiterrorism plans, accurate restricted     recorded in iNFADS and found 11 percent (37 of
level designations and sufficient access control          334) were for fuel storage tanks that no longer
procedures in place.                                      existed; 6 percent (20 of 334) had inaccurate fuel
Report No. N2013-0026                                     storage tank capacities; 3 percent (10 of 334) of the
                                                          property records included multiple fuel storage tanks
                                                          on one record; and about 5 percent (18 of 334) of
   “Out of the sampled 459 tanks                          the property records could not be associated with a
     reviewed, NAVAUDSVC determined                       tank or other real property asset. The weaknesses
     that 76 percent (348 of 459) were not                occurred because notification was not provided in
     recorded individually in iNFADS .”                   many instances when fuel storage tanks were installed
                                                          or removed; and there was insufficient coordination
                                                          between asset management and environmental
Navy Fuel Storage Tank Inventory                          personnel at the installations visited. As a result,
O verview:                                                the Navy does not have reasonable assurance
The objective of the report was to verify the             that relevant data on accountable fuel storage tank
completeness and accuracy of the Navy’s fuel              assets is visible and accessible to key stakeholders in
storage tank inventory for both aboveground and the       the Navy and DoD or that facilities and sustainment
underground tanks at selected installations.              requirements are calculated using correct
                                                          inventory data.
Findings:
The Navy did not establish effective processes and        R esult :
procedures to ensure that fuel storage tanks were         NAVAUDSVC recommended that the Office of
being properly managed in an “accountable property        the Chief of Naval Operations direct the revision
system of record” and that property records for fuel      of criteria/guidance and establish a checklist
storage tanks recorded in the internet Navy Facility      that standardizes how fuel storage tanks should
Assets Data Store management system were complete         be recorded; and establish oversight to ensure
and accurate. NAVAUDSVC randomly selected 32 Navy         fuel storage tanks across the Navy enterprise are
installations (out of a universe of 735) and compared     consistently recorded in the approved accountability
local tank inventory lists to the tanks recorded in       system. NAVAUDSVC also recommended that Naval
iNFADS. NAVAUDSVC found that significant variances        Facilities Engineering Command (1) revise the roles
existed between the number of tanks recorded in the       and responsibilities between asset management
system and those recorded on installation listings.       and environmental personnel and any other Naval
NAVAUDSVC also visited eight installations and            Facilities Engineering Command business lines
selected a stratified random sample of 459 tanks (out     involved in the installment or removal of fuel storage
of the total 1,649 tanks contained on the local lists)    tanks to facilitate reconciliation of fuel storage tank
for detailed testing. Out of the sampled 459 tanks        assets; and reconcile property records to the most
reviewed, NAVAUDSVC determined that 76 percent            authoritative source to identify and correct errors to
(348 of 459) were not recorded individually in iNFADS.    ensure data accuracy and completeness.
These conditions primarily existed because the Navy       Report No. N2013-0047
has not established clear and concise guidance to




                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 95
Services

         Other                                                         “NAVAUDSVC found that the
                                                                         commander, Navy Installations
         Marine Corps Child, Youth, and Teen Programs                    Command, could not provide sufficient
         O verview:                                                      background check documentation for 66
         On Dec. 20, 2012, Secretary of Defense Memorandum               percent of the child care providers in
         to the DoD directed each Military Department to
         “conduct a 100 percent review and evaluation of
                                                                         the NAVAUDSVC sample.”
         the actual background check documentation on file
         for each individual, employee and volunteer, for
         compliance with applicable DoD and Military Service
                                                                    Navy Child and Youth Programs
         Policies.” Director of Marine Corps Marine and Family      O verview:
         Programs requested NAVAUDSVC to validate the               On Dec. 20, 2012, Secretary of Defense Memorandum
         data integrity of their 100 percent file review of all     to the DoD directed each military department to
         background checks for all child care employees.            “conduct a 100 percent review and evaluation of
                                                                    the actual background check documentation on file
         Findings:
                                                                    for each individual, employee and volunteer, for
         NAVAUDSVC found that Marine Corps Marine and
                                                                    compliance with applicable DoD and Military Service
         Family Programs was not able to provide sufficient
                                                                    Policies.” Commander, Navy Installations Command
         background check documentation for 66 percent of
                                                                    requested that NAVAUDSVC validate the data integrity
         the child care providers in the sample. Based on this
                                                                    of their 100-percent file review of all background
         result, NAVAUDSVC projected that MC MF would
                                                                    checks for all child care employees.
         be unable to provide sufficient background check
         documentation for 996 child care providers. However,       Findings:
         by obtaining supplemental background check                 NAVAUDSVC found that the commander, Navy
         documentation NAVAUDSVC was able to assemble the           Installations Command, could not provide sufficient
         required documentation for all but 3 percent of the        background check documentation for 66 percent of
         sampled child care providers. After supplementing the      the child care providers in the NAVAUDSVC sample.
         MC MF provided background check documentation              Based on this result, NAVAUDSVC projected that
         with that which NAVAUDSVC obtained separately,             commander, Navy Installations Command would
         NAVAUDSVC was able to revise their projection of           be unable to provide sufficient background check
         child care providers without sufficient background         documentation for 3,977 child care providers.
         check documentation from 996 to 82. NAVAUDSVC              However, by obtaining supplemental background
         found that Marine Family Care Program Management,          check documentation, NAVAUDSVC assembled the
         of which the MC MF Child, Youth, and Teen Programs         required documentation for all but 16 percent of the
         is considered a component, is listed as an assessable      sampled child care providers.However, by obtaining
         unit in the Fiscal Year 2103 Management Internal           supplemental background check documentation,
         Control program. However, Marine Corps Child, Youth,       NAVAUDSVC was able to assemble the required
         and Teen Programs was not an assessable unit under         documentation for all but 16 percent of the sampled
         Marine Family Care Program Management.                     child care providers. After obtaining the information,
                                                                    NAVAUDSVC was able to revise the projection of
         R esult :
                                                                    child care providers, who were without sufficient
         NAVAUDSVC recommended the Marine Corps
                                                                    background check documentation, from 3,977 to
         establish controls and provide oversight to ensure
                                                                    979 child care providers, a smaller but still highly
         that the background check documentation for all
                                                                    significant number.
         child care providers is readily available for inspection
         and verification. Also, NAVAUDSVC recommended              R esult :
         assistant secretary of the Navy (manpower and              NAVAUDSVC recommended commander, Navy
         reserve affairs) establish controls and provide            Installations Command, establish controls and
         oversight to ensure that the corrective actions are        provide oversight to ensure that the background
         implemented by the Marine Corps.                           check documentation for all child care providers is
         Report No. N2013-0044                                      readily available for inspection and verification. Also,




96 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                         Services

NAVAUDSVC recommended assistant secretary of               has enabled the Navy to provide more efficient,
the Navy (manpower and reserve affairs) establish          timely and accurate assessments to the Committee
controls and provide oversight to ensure that the          on Foreign Investment in the United States. The
corrective actions are implemented by commander,           Committee on Foreign Investment in the United
Navy Installations Command.                                States uses various threat assessments to determine
Report No. N2013-0045                                      the potential national security vulnerabilities posed
                                                           by a non-U.S. entity owning or controlling a U.S.
Naval Criminal Investigative                               business. As the Department’s executive agent for
                                                           counterintelligence, part of the NCIS mission is to
Service                                                    advise on the potential threat to the U.S. Navy posed
The Naval Criminal Investigative Service has               by a foreign entity owning a business or property.
primary responsibility for law enforcement and
counterintelligence within the Department of the           Conviction of Former Navy Sailor
Navy and actively supports interagency efforts to          On Aug. 21, 2013, Robert Hoffman II was convicted by
identify and interdict terrorist activity. NCIS’s focus    a federal jury in Norfolk, Va., of attempting to provide
on information dominance and investigative and             classified information to individuals whom he believed
operational excellence provides Navy and Marine            to be representatives of the Russian government.
Corps commanders with decision-making advantage            NCIS previously reported on the joint NCIS-FBI
over the adversary.                                        undercover operation and investigation that led to the
                                                           arrest and indictment of the retired Navy cryptologist.
Counterintelligence                                        Sentencing is scheduled for December 2013.

Combatting Insider Threat                                  Defeating Cyber Intrusions
In March 2013, a joint NCIS and FBI investigation led      NCIS continues to investigate and assist prosecutors
to the arrest and indictment of a defense contractor       through its capability to identify a broad spectrum
working for the U.S. Pacific Command in Hawaii.            of cybercriminal threats from inside and outside the
Benjamin Bishop, a former lieutenant colonel in the        Navy’s network using a human source network and
Army Reserves, was charged with communicating              collaboration with multiple law enforcement and
classified national defense information to a foreign       corporate entities around the world. Previously, NCIS
national on multiple occasions. Bishop is the third U.S.   reported on the investigation and prosecution of
citizen in less than six months who has been arrested      “Zyklon B,” the online moniker for a French juvenile
by NCIS and FBI on charges related to endangering          who hacked into the Military Sealift Command and
national security, either by unlawfully retaining          posted sensitive military information online. The
information or by attempting to pass classified secrets    Zyklon B investigation was one of several cyber cases
to a foreign entity. The national defense information      spawned by proactive NCIS cyber operations to
Bishop allegedly provided included matters relating to     identify emerging cybercriminal threats and act on
nuclear weapons, the ability of the United States to       those affecting the Department of the Navy.
detect ballistic missiles and the deployment of early
warning radar systems in the Pacific Rim. Bishop is        This cyber capability was essential to the recent
being held at a federal detention facility in Hawaii.      success in dismantling a hacking group responsible
                                                           for compromising several government and military
Committee on Foreign Investment in the                     websites. In June 2012, unidentified hackers broke
United States                                              into a Navy website used for permanent change
Based on NCIS’s analytical framework for assessing         of station moves. The intruders accessed personal
threats, the Department of the Navy provided support       information—full names, Social Security numbers,
to the FBI’s Committee on Foreign Investment Section       home addresses, personal email addresses, user
and changed its own methodology for assessing              names and answers to online security questions—of
potential counterintelligence threats posed by foreign     more than 200,000 service members who had used
entities owning or controlling businesses located          the system since 2001.
near Department of the Navy facilities. This change



                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 97
Services

         Despite a lack of concrete evidence, such as the
         attacker’s IP addresses or computer logs, a team of
         cyberintelligence specialists identified and located
         the suspect by comparing small clues in postings he
         made using several online aliases. NCIS identified
         the suspect as an active duty enlisted sailor, and
         other members of the group were discovered and
         interviewed, resulting in two confessions. The
         collaborative investigation involved at least 40 law
         enforcement personnel from various agencies across
         almost two dozen locations. To date, the case has
         included more than 70 grand jury subpoenas, 12
         federal search warrants, one command authorized
         search, and several permissive searches of computers
         and online accounts, two cooperating witnesses,
         numerous hours of surveillance and the execution of
         an undercover cyber sting operation aboard the USS           NCIS-led Operation Riptide was an essential element in the
                                                                      largest heroin seizure in maritime history.
         Harry S. Truman as it was underway. In May 2013,
         the sailor was administratively separated from the
         Navy. While additional administrative and judicial         of drugs and other illegal cargo that are known to
         actions remain pending, this investigation effectively     be major funding sources for terrorist networks. In
         mitigated the threat from a previously unknown             2013, Operation Riptide helped identify and track
         hacker group. The approximate loss to the Navy in          eight contacts of interest, resulting in boarding
         response and mitigation costs is nearly $515,000.          and drug seizures of 2,548 kilograms of heroin and
                                                                    15,323 kilograms of hashish. Operation Riptide helps
         In addition to the Zyklon B and Navy permanent             enable operational partners, international task forces
         change of station website cases, proactive NCIS cyber      and host-nation counterparts to develop long-term
         operations have led to several cases and prosecutions      targeted investigations leading to the prosecution of
         of personnel searching for child erotica and drug-         criminal networks in the region.
         related content on the Navy-Marine Corps network.
                                                                    1984 Cold Case Murder
         Criminal Investigations and Program                        NCIS and the Jacksonville Sheriff’s Office in Florida
                                                                    identified a suspect in a cold case sexual assault and
         Initiatives                                                murder from 1984 using advanced DNA testing. In
                                                                    February 2013, James Jackson was charged in the
         Disrupting Maritime Sources of Terrorism                   rape and slaying of Tammy Welch, a 10-year-old
         Funding                                                    daughter of a Navy petty officer. The child’s body
         The NCIS-led Operation Riptide provided information
                                                                    was found strangled behind the family’s apartment
         that helped lead to the March 2013 interdiction of
                                                                    building. Jackson lived next door to the Welches at
         $104 million worth of heroin—one of the largest
                                                                    the time and denied knowing Tammy Welch when
         heroin seizures in maritime history. The suspect vessel
                                                                    he was questioned by law enforcement. In 1999 and
         was carrying more than 500 kilograms of heroin when
                                                                    2002, authorities again interviewed Jackson and
         the Canadian warship HMCS Toronto intercepted it off
                                                                    collected DNA samples. In 2012, NCIS and the sheriff’s
         the coast of Tanzania. Operation Riptide, a joint effort
                                                                    office submitted more than 50 pieces of evidence for
         of NCIS, the Drug Enforcement Administration and
                                                                    advanced DNA testing, which resulted in identifying
         the Office of Naval Intelligence, provides actionable
                                                                    Jackson, now 60. Jackson is being held without bail in
         intelligence and law enforcement support to the
                                                                    a pretrial facility.
         Combined Maritime Forces to disrupt the movement




98 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                        Services

                                                         nations, and sentenced to 12 life sentences. He is
                                                         believed to be the highest-ranking pirate caught and
                                                         tried in the United States. The other 11 co-subjects
                                                         pleaded guilty during earlier court proceedings
                                                         in the U.S. District Court for the Eastern District
                                                         of Virginia and all received life terms for various
                                                         charges, including piracy under the law of nations.
                                                         The convictions are the result of a joint FBI and NCIS
                                                         investigation that required collaboration with Naval
                                                         Special Warfare assets, the State Department and
                                                         various foreign counterparts to identify, locate and
                                                         extract Shibin from Somalia. NCIS analysts provided
                                                         the investigative and trial teams with information
                                                         linking Shibin to known pirate financiers, facilitators
                                                         and action teams.

  USS Miami sustained more than $700 million in damage
  from arson in 2012.
                                                         Support to the Warfighter
                                                         Green-on-Blue Murder in Afghanistan
USS Miami Investigation                                  On July 21, 2013, the Afghan Appellate Court affirmed
In March 2013, a former Portsmouth Naval Shipyard        the 20-year sentence of Abdul Wodood Najibi, one
employee was sentenced to 17 years confinement           of two civilian security contractors convicted in the
followed by five years of supervised release for         September 2011 kidnapping and murder of James
deliberately setting the fire that caused $400 million   Coker, a civilian Navy engineer working in Kabul,
worth of damage to the nuclear-powered attack            Afghanistan. It is the longest sentence ever upheld by
submarine USS Miami. Casey Fury was also ordered         the appellate court. Ahmad Seyar Kaihan received a
to pay $400 million in restitution to the Navy. The      16-year prison sentence for his role. NCIS previously
Navy reversed its decision to repair the sub when cost   reported on the war-zone investigation into Coker’s
estimates rose to $700 million. In November 2012,        disappearance. His body was later discovered in a
Fury pleaded guilty to two charges of arson within       cave at a military training facility, and NCIS identified
the special maritime and territorial jurisdiction of     the suspects and built the cases prosecutors in
the United States. NCIS reported previously on the       Afghanistan used to convict them.
investigation that led to Fury’s confession.
                                                         Force Protection Support in Southwest Asia
Piracy Convictions                                       NCIS analysis identified an important shift in regional
The last three pirates convicted in February 2011 for    terrorist tactics, training and protocol, as well as
kidnapping and murdering four Americans aboard           potential attack venues, related to a significant
an American yacht, Quest, have been sentenced.           terrorist threat in South Asia. The in-depth trend
In July 2013, Somali nationals Ahmed Muse Salad,         analysis altered the assessments of the U.S.
Abukar Osman Beyle and Shani Nurani Shiekh Abrar         intelligence community and foreign partners and, as a
were found guilty of 26 charges, to include 22           result, U.S. and allied partners have synchronized and
capital offenses, and piracy, conspiracy to commit       shifted collective force protection planning to mitigate
kidnapping, hostage-taking resulting in death,           the identified, developing terrorist threat. Separately,
kidnapping resulting in death and multiple firearms      NCIS identified a specific, significant force protection
offenses. The pirates received 22 mandatory life         concern in Bangladesh ahead of a scheduled joint
sentences. Additionally, in July 2013, the 4th U.S.      exercise planning conference. Because of the threat
Circuit Court of Appeals upheld the conviction of        analysis, conference planners canceled the gathering,
pirate negotiator Mohammad Saaili Shibin. Shibin was     thus mitigating any risks to Department of the
tried and found guilty in August 2012 of 15 charges,     Navy interests.
including multiple counts of piracy under the law of



                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 99
Services

         Interagency Collaboration                                government purchase credit card by a civilian,
         NCIS remains the model within DoD for interagency        Michelle Rodriguez, employed by Maintenance Center
         information sharing and fusing of asymmetric             Albany, Marine Corps Logistics Command, Ga. An
         force protection threat reporting. NCIS’s Watch          audit of Rodriguez’s procurement files between 2009
         Analytic Center continues to expand collective           and 2011 revealed numerous procedural violations,
         DoD situational awareness through the co-location        falsified government records and overcharges to the
         of representatives from the military criminal            government of more than $500,000. Investigators
         investigative organizations. In addition to AFOSI and    also identified $59,000 in cash deposits to Rodriguez’s
         Army CID representatives, the Watch Analytic Center      personal bank account that were made around the
         now includes representatives from U.S. Marine            same time that similar amounts were withdrawn
         Corps Headquarters, the Army Protective Service          from vendors’ accounts. Rodriquez was interviewed
         Battalion and the Pentagon Force Protection Agency.      and admitted to violating procedures, falsifying
         Co-location enables the various representatives to       government records and receiving gifts from vendors.
         access and share service-specific operational and        Frederick Simon and Thomas Cole Jr. of the Ran
         investigative data. Real-time sharing promotes the       Can Corporation of Albany, Ga., admitted to paying
         correlation of information from various databases        Rodriguez $161,000 in bribes for requisitions she
         to fuse investigative, law enforcement, security and     made from their businesses between 2009 and 2011.
         intelligence to create a one-stop information center     The total loss to the government was approximately
         for FBI and other national and state law enforcement     $900,000.
         entities seeking timely assistance for breaking          R esult :
         asymmetric threat issues involving DoD personnel,        In June 2013, Rodriguez, Cole and Simon were
         assets and interests. Additional benefits include cost   sentenced in U.S. District Court, Middle District of
         savings and expanded interoperability.                   Georgia. Rodriguez pleaded guilty to one count of
                                                                  bribery, and Cole and Simon both pleaded guilty to
         The watch center supports larger DoD priorities,         one count of bribery of a public official. Rodriguez
         ranging from tactical support to coordination with       was sentenced to 70 months in prison and forfeiture
         DoD, local and national law enforcement elements.        of $161,000. Cole was sentenced to 46 months and
         For example, in February 2013, elements from the         forfeiture of $209,000. Simon was sentenced to 32
         Watch Analytic Center coordinated information in         months and forfeiture of $74,500. In addition, they
         real-time and provided positive identification and       were also sentenced to three years of supervised
         background information—including previous military       release and ordered to pay restitution of $907,000 to
         and weapons training—about former Los Angeles,           the Marine Depot Maintenance Command.
         Calif., police officer and former Navy Lt. Christopher
         Dorner, who was wanted in connection with three
         deaths in California. During the Boston Marathon            “...the lifetime cost avoidance to the
         bombings, the Watch Center coordinated information            Navy in removing Shurn from the
         with the FBI, National Counterterrorism Center                workers’ compensation program
         and the National Joint Terrorism Task Force, greatly          resulted in an additional savings of
         enhancing the safety and situational awareness of             $873,832.”
         law enforcement and investigative agencies on
         the ground.
                                                                  Retired Navy Employee Wrongfully Received
         Significant Investigative Cases                          Workers’ Compensation
                                                                  O verview:
         Bribery of a Navy Employee                               This joint NCIS and DCIS investigation was initiated
         O verview:                                               in August 2009 upon notification that a former Navy
         This joint investigation between DCIS and NCIS           employee, Leray Shurn, was fraudulently receiving
         was initiated in September 2011 after notification       workers’ compensation benefits. Shurn had been
         of irregularities regarding the use of an assigned       collecting benefits for job-related injuries he suffered




100 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                         Services

in 2003 and 2005. In 2009, Shurn was observed             NCIS that they were helping a former sailor, Jonathan
performing strenuous physical activities related to his   Nunez, carry out a drug-smuggling scheme. Japanese
landscaping business. Shurn admitted to investigators     authorities arrested Cole and Jenkins, but Nunez
that he owned and operated the landscaping                fled the country before police could execute his
business, but that he did not profit from it because      arrest warrant.
he used the proceeds to pay his workers. Loss to the      R esult :
Veterans Administration was estimated at $146,840         In July 2013, Nunez became the first American to
and loss to the Navy was estimated at $283,028.           be remanded to Japanese custody under the U.S.-
However, the lifetime cost avoidance to the Navy in       Japan extradition treaty signed in 1980. The complex
removing Shurn from the workers’ compensation             and lengthy extradition process required extensive
program resulted in an additional savings of $873,832.    coordination efforts among Navy investigators and
R esult :                                                 authorities in the United States and Japan. In 2004,
In March 2012, Shurn was indicted by the U.S. District    Cole and Jenkins were debarred from Yokosuka and
Court, Southern District of California of 16 felony       sentenced in Yokohama District Court to seven years
counts. In July 2013, Shurn was found guilty of mail      of confinement and forfeiture of 3 million yen, which
and wire fraud, false statement to a government           is about $28,600 in U.S. currency.
agency and false statement or fraud to obtain federal
employees’ compensation. He was sentenced to 24           Child Sexual Assault by Marine Corporal
months of confinement in federal prison, ordered to       O verview:
pay $357,977.20 in restitution to the Department of       In September 2012, NCIS was notified that Marine
Labor and Veterans Administration, as well as fined       Cpl. Josue Gallegos, stationed at the Marine Corps
$5,000 and given two years of supervised release          Air Ground Combat Center, Twentynine Palms, Calif.,
upon completion of confinement.                           had sexually abused a 5-year-old child his wife was
                                                          babysitting. The child, a Navy dependent, reported
   “In July 2013, Nunez became the                        the events when her mother came to pick her up
                                                          from Gallegos’ home. A forensic medical examination
    first American to be remanded to
                                                          supported the child’s allegations that she had been
    Japanese custody under the U.S.-Japan                 sodomized. Gallegos admitted to investigators that
    extradition treaty signed in 1980.”                   he was alone with the child but denied sexually
                                                          assaulting her. NCIS seized several items of evidence
                                                          from the scene; however, no relevant DNA was
Navy Employees and Former Sailor involved in              recovered. During a second interview, Gallegos
Japanese Drug Distribution                                invoked his right to legal counsel. A military protective
O verview:                                                order was obtained, and he was placed in pretrial
This joint investigation with NCIS, the Japanese          confinement.
National Police Agency, Kanagawa Prefecture, U.S.         R esult :
Marshals Service, Drug Enforcement Administration,        Gallegos pleaded guilty and was convicted of sexual
Chiba Airport Police, U.S. Bureau Immigration and         assault and providing a false official statement.
Customs Enforcement was initiated in 2004, after          He was sentenced in March 2013 to 25 years of
Japanese authorities seized two boxes of drugs            confinement, reduction to E-1 and a dishonorable
sent through military mail to civilians aboard            discharge.
Commander Fleet Activity Yokosuka. The packages
were addressed to Babe Cole, an employee of the           Navy Petty Officer Guilty of Sexually
Yokosuka Morale, Welfare, and Recreation Command,         Assaulting Daughter
and William Jenkins, a former employee of the
                                                          O verview:
Yokosuka Morale, Welfare, and Recreation Command,
                                                          This joint investigation between NCIS and the Guam
and contained nearly $2 million worth of MDMA
                                                          Police Department was initiated March 21, 2012, in
(Ecstasy), MDMA with methamphetamine and crystal
                                                          response to allegations that Navy Petty Officer 1st
methamphetamine. Cole and Jenkins admitted to
                                                          Class Bradford Lung had been sexually abusing his



                                                                                        APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 101
Services

         10-year-old daughter. The abuse allegedly began                “In September 2008, an NCIS source
         when the girl was 5 years old and the family was living          reported that an active-duty Marine
         in Washington. The abuse continued when the family
         moved to California and Guam. The daughter told
                                                                          was taking bribes from a contractor
         investigators that Lung videotaped her being abused              while stationed at Camp Fallujah,
         and made her watch videos of adults and children                 Iraq.”
         having sex. Lung was arrested March 22, 2012, after
         admitting to NCIS and Guam police that he sexually
         abused his daughter on numerous occasions between           Accepting Bribes by Marine in Iraq
         2008 and 2012. In addition, investigators found 46          O verview:
         images of suspected child pornography, including            In September 2008, an NCIS source reported that
         two series of known victims of child pornography, on        an active-duty Marine was taking bribes from a
         digital media seized at the crime scene.                    contractor while stationed at Camp Fallujah, Iraq.
         R esult :                                                   During the joint investigation between NCIS and
         In May 2012, Lung pleaded guilty and was convicted          DCIS, it was discovered that Marine Gy. Sgt. Julio
         of 20 counts of first-degree criminal sexual contact        Arreola allowed the Davut Construction and Services
         in Guam Superior Court. He was sentenced to life            Company to intentionally overcharge the Marine
         in prison and remanded to U.S. Navy custody. At a           Corps for supplies in exchange for monetary bribes.
         general court-martial June 6, 2013, Lung pleaded            In November 2010, Arreola waived his rights and
         guilty and was convicted of aggravated sexual contact       admitted to investigators that he allowed Davut
         with a child, sodomy and indecent acts with a child.        to overprice supplies sold to the Marine Corps in
         He was sentenced to 42 years of confinement,                exchange for more than $19,000 in bribes paid
         reduced to E-1 and a dishonorable discharge.                by Murat Ozerden, Davut’s manager, and that he
                                                                     solicited bribes from several other DoD contractors
         Rape of Civilian by Marine Lance Corporal                   while supervising construction projects at Camp
         O verview:                                                  Fallujah in 2008.
         This investigation was initiated in May 2012 upon           R esult :
         notification that Marine Lance Corporal Marco               In July 2012, Arreola was indicted and convicted in
         Hernandez allegedly sexually assaulted a civilian after     U.S. District Court for the Eastern District of North
         she passed out from drinking alcoholic beverages. On        Carolina for bribery of a public official. In February
         the night of the assault, the victim and her civilian       2013, Arreola pleaded guilty and was separated
         boyfriend were attending a party at his sister’s and        from the Marine Corps with an other than honorable
         brother-in-law’s home aboard Camp Pendleton.                discharge. In July 2013, Arreola was sentenced to five
         The victim reported feeling sick and was carried to         years of probation and ordered to pay restitution of
         a bedroom and passed out. When the sister and               $31,470. The U.S. Attorney’s Office for the Eastern
         brother-in-law went to check on her about 20 minutes        District of North Carolina declined to prosecute
         later, they found Hernandez having sex with the             Ozerden, who had already returned to his native
         unconscious woman. Initially, he told investigators         Turkey.
         that the victim was conscious and invited him to lie
         next to her. During a second interview, Hernandez           Illegal Dumping of Petroleum Contaminated
         admitted the victim was passed out when he sexually         Soil by Navy Contractor
         assaulted her.                                              O verview:
         R esult :                                                   This joint investigation with NCIS, North Carolina
         On March 11, 2013, Hernandez was found guilty at            State Bureau of Investigation, Environmental
         a general court-martial of rape and failure to obey         Protection Agency–Criminal Investigation Division
         a lawful general order. He was sentenced to 15              and Department of Agriculture Office of the Inspector
         years of confinement, reduction to E-1, sex offender        General was initiated in May 2010 upon notification
         registration, forfeiture of all pay and allowances, and a   that petroleum-contaminated soil from Marine
         dishonorable discharge.                                     Corps Air Station New River was being dumped in




102 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                          Services

a protected wetland. As part of an environmental             Navy Sailors Involved in the Sexual
cleanup project at Marine Corps Air Station New River,       Exploitation of Children
P&F Environmental had been contracted to haul the            O verview:
soil to a treatment facility in Whitakers, N.C. However,     This joint investigation between NCIS and the Indiana
the company’s owner, Harvey B. Pridgen, directed             State Police was initiated in 2011 upon notification
employees to dump the soil at a farm in Trenton,             that Seaman Ryan Schroeder had received text
N.C., to fulfill a separate contract to deliver clean soil   messages containing photos of a woman molesting
to farmer Enoch Foy Jr. When questioned, Pridgen             a boy approximately 3 years old. When investigators
maintained his company dumped the dirty soil at the          interviewed Schroeder, he said, “It was possible”
facility and brought clean soil to the Foy farm. NCIS’s      that he asked his girlfriend, Tara Tryon, to produce
investigation, however, confirmed that approximately         and send child pornography to him as text messages.
1,000 pounds of petroleum-contaminated soil from             Schroeder’s phone contained several images
Marine Corps Air Station New River had been dumped           and videos sent by Tryon of her molesting a co-
on Foy’s property and dispersed into wetlands on             worker’s 2-year-old boy and younger sister while
the farm.                                                    she was babysitting them. Digital media seized
R esult :                                                    from Schroeder’s barracks aboard Naval Station
In September 2012, Pridgen was convicted in U.S.             Mayport, Fla., contained additional sexually explicit
District Court for the Eastern District of North Carolina    photographs of children and led to the discovery
of unauthorized fill of wetlands. He was sentenced           of a second woman sending Schroeder images of
in April 2013 to six months of imprisonment and six          child pornography. Petty Officer 3rd Class Adrienne
months of home confinement with electric monitoring          Harris was interviewed and admitted to sending
and fined $300,000. As part of his plea agreement,           photographs to Schroeder of her sexually abusing a
Pridgen paid $11,367 to the North Carolina Ecological        1-year-old.
System Enhancement Program–Wetlands Restoration              R esult :
Fund. Foy was convicted by the U.S. District Court for       On July 12, 2013, Tryon pleaded guilty and was
the Eastern District of North Carolina in September          convicted of one count each of child molestation and
2011 of discharging of pollutants. He was sentenced          child exploitation. She was sentenced to 10 and 8
in April 2012 to 36 months of probation and fined            years of imprisonment to run concurrently. Schroeder
$15,000.                                                     and Harris were both discharged from the Navy in
                                                             2012 for “misconduct due to commission of a serious
   “In June 2012, Harris pleaded guilty                      offense.” In June 2012, Harris pleaded guilty and was
                                                             convicted in U.S. District Court, Eastern District of
     and was convicted in U.S. District
                                                             Virginia, to one felony count of production of child
     Court, Eastern District of Virginia, to                 pornography and was sentenced to 25 years in prison
     one felony count of production of child                 followed by supervised release for life.
     pornography and was sentenced to 25                     Schroeder was tried in Porter Superior Court,
     years in prison followed by supervised                  Valparaiso, Ind., and found guilty of all 23 felony
     release for life. ”                                     counts, including five class A felony charges of aiding
                                                             in child molesting. He was sentenced in February 2013
                                                             to 45 years in prison. All three must register as
                                                             sex offenders.




                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 103
Services


         AIR FORCE                                                 During the second half of FY 2013, AFAA published
                                                                   46 centrally directed audit reports, made more than
                                                                   178 recommendations to Air Force senior officials

         Air Force Audit Agency                                    and identified $380.3 million in potential monetary
                                                                   benefits. The following paragraphs provide and
                                                                   synopsize a few examples of AFAA audit coverage
         Air Force Audit Agency                                    related to specific DoD Management Challenge areas.
         The Air Force Audit Agency mission is to provide
         timely, relevant and quality audit services to all
                                                                   Joint Warfighting and Readiness
         levels of Air Force management by reviewing and
         promoting the economy, effectiveness and efficiency
                                                                   Engine Parts Reclamation
         of operations; assessing and improving Air Force
         fiduciary stewardship and the accuracy of financial       O verview:
         reporting; and evaluating programs and activities and     AFAA determined whether personnel properly
         assisting management in achieving intended results.       identified excess engine parts that could be reclaimed
         AFAA is committed to reaching out to Air Force            and used to meet valid Air Force requirements.
         customers at all levels. To support Air Force decision-   Findings:
         makers, AFAA has approximately 625 personnel at           Air Force engine managers identified excess T56
         more than 50 worldwide locations. AFAA conducts           and F100 engines available for parts reclamation;
         centrally-directed, Air Force-wide audits in numerous     however, supply chain management personnel did not
         functional areas to support Air Force senior leaders.     properly identify engine parts that were available to
         Installation-level audit teams provide additional audit   offset buy requirements.
         services to installation commanders.                      R esult :
                                                                   Properly identifying parts for reclamation will allow
         To provide Air Force officials timely, responsive,        the Air Force to reduce future buy requirements by
         balanced and value-added audit services, AFAA audit-      approximately $43 million during FYs 2013-2018.
         planning methods include frequent contact with Air        AFAA made two recommendations to improve the
         Force senior leaders and Joint Audit Planning Groups.     engine reclamation process.
         The FY 2013 Audit Plan was prepared in partnership        Report No. F-2013-0006-L20000
         with Air Force decision-makers to address the most
         significant areas of management concern. As such,
         AFAA ongoing and planned audits address many of
         the Air Force’s most critical programs and initiatives,
         including topics such as personnel training, cyber
         security, environmental management, systems
         acquisition, health initiatives and Afghanistan Base
         closure planning.

         Further, the Secretary of Defense called for the
         Department to achieve audit readiness of the
         Statement of Budgetary Resources by the end of
         CY 2014 and of all Department financial statements
         by 2017. The Secretary also called for personnel to
         increase emphasis on asset accountability and execute
         a full review over financial controls. Consequently,
         during the second half of FY 2013, AFAA issued
                                                                     AFAA determined if engine parts could be reclaimed.
         eleven reports directly supporting Air Force Financial
         Improvement and Audit Readiness.




104 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                          Services

   “Reducing these overstatements and                      personnel approved 53 percent of man-day orders
     correcting the condition would allow                  with more or less days than authorized to the man-
                                                           day mission (repeat finding). In addition, officials did
     the Air Force to put $151.3 million                   not always limit technicians to short-term man-day
     to better use over the next six years                 requirements. In FY 2012, 190 technicians performed
     (execution year and the Future Years                  240 or more man-days; 119 (63 percent) of the 190
     Defense Program)”                                     technicians performed the man-days at their home
                                                           station.
Depot Condemnations                                        R esult :
                                                           Based on statistical projection, at least 4,064
O verview:
                                                           additional man-days (valued at $828,319) were used
AFAA determined if equipment specialists established
                                                           without prior approval during the period reviewed.
accurate condemnation rates and accurately recorded
                                                           In addition, returning unused man-days will provide
condemnations.
                                                           approximately $266 million over the next six years
Findings:                                                  (execution year and the Future Years Defense
Air Force equipment specialists established inaccurate
                                                           Program) to support mission requirements. Using
estimated condemnation rates for 57 (59 percent)
                                                           technicians for long-term man-days results in an
of 97 items reviewed and recorded inaccurate
                                                           unfilled full time support requirement for the ARC
condemnations for 35 (39 percent) of 90 items
                                                           unit. In addition, long-term unfilled full-time positions
reviewed.
                                                           affect civilian personnel requirement accuracy and
R esult :                                                  the effective distribution of limited resources to meet
Inaccurate estimated condemnation percentages              mission needs. AFAA made five recommendations to
overstated buy and repair budget requirements by           improve Man-Day Program management.
$57.2 million. Reducing these overstatements and           Report No. F-2013-0008-O40000
correcting the condition would allow the Air Force
to put $151.3 million to better use over the next six      Follow-up Audit, United States Air Forces
years (execution year and the Future Years Defense         Central Deployed Locations Aerial Port
Program). Inaccurate recorded condemnations                Operations
overstated buy and repair requirements by $30.4
                                                           O verview:
million and understated requirements by $1.5 million.
                                                           AFAA determined whether Air Force personnel
Reducing these overstatements and correcting the
                                                           efficiently utilized airlift, effectively managed cargo
condition would allow the Air Force to put $85.1
                                                           and passenger movement, and effectively managed
million to better use over the next six years (execution
                                                           passenger and contractor reimbursements.
year and the Future Years Defense Program). AFAA
made two recommendations to improve management             Findings:
of depot condemnations.                                    The Air Force did not fully utilize airlift weight and
Report No. F-2013-0007-L40000                              volume capacity for 35 percent of missions (repeat
                                                           finding), and personnel did not properly code
Follow-up Audit, Military Personnel                        passenger entries and submit required supporting
Appropriation Man-Days                                     documents to facilitate reimbursement (repeat
                                                           finding). Finally, U.S. Air Forces Central and port
O verview:                                                 personnel implemented controls over cargo and
AFAA determined whether Air Force personnel
                                                           passenger movement, but these actions did not
efficiently used man-days for valid mission needs,
                                                           completely correct the previous condition (repeat
limited man-day usage to authorized quantities, and
                                                           finding).
limited use of technicians to short-term requirements
and less than 1,095 man-days in a four-year period.
Findings:
Air Reserve Component personnel did not limit man-
day usage to authorized quantities. Specifically, ARC




                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 105
Services

            “...effective controls over travel would               over medical platform IT identification, IA controls
              result in additional Transportation                  identification and IA controls implementation.
                                                                   Report No. F-2013-0017-O10000
              Working Capital Fund revenue
              totaling $15.8 million.”                             Commercial Off-The-Shelf Software
                                                                   Management
         R esult :                                                 O verview:
         Using a standardized and accurate methodology             AFAA determined whether Air Force officials
         to adjust, consolidate and redirect airlift, auditors     effectively managed commercial off-the-shelf
         estimated the Air Force could put at least                software. Specifically, audit evaluated software
         $63.1 million to better use during FYs 2014-2015.         inventory management, enterprise licenses, individual
         In addition, effective controls over travel would         licenses and the approved products list.
         result in additional Transportation Working Capital
         Fund revenue totaling $15.8 million. Finally,
                                                                   Findings:
                                                                   AFAA identified discrepancies in commercial off-the-
         effective controls over cargo reduce the risks of loss
                                                                   shelf software inventory management, enterprise
         and theft, and timely cargo processing increases
                                                                   licenses, individual licenses and the approved
         cargo movement efficiency. AFAA made four
                                                                   products lists.
         recommendations to further improve management
         of airlift utilization, passenger travel reimbursement,   R esult :
         and cargo and passenger movement within the U.S.          Complete and reliable software inventories will
         Central Command area of responsibility.                   reduce the risk of undetected malicious software on
         Report No. F-2013-0010-O30000                             Air Force networks and highlight enterprise license
                                                                   purchasing opportunities. Also, a more effective
                                                                   software license program will ensure efficient
         Cyber Security                                            use of limited information technology funds and,
                                                                   where possible, reduce unneeded or duplicate
         Medical Platform Information Technology
                                                                   license purchases. Finally, a standardized approved
         Security                                                  products list will facilitate efficient management of
         O verview:                                                software on Air Force networks. AFAA made three
         AFAA determined whether program management                recommendations that should improve commercial
         office personnel effectively identified and registered    off-the-shelf software management.
         medical platform information technology, properly         Report No. F-2013-0019-O10000
         identified applicable information assurance controls
         and properly implemented IA controls requirements.
                                                                   Acquisition Processes and Contract
         Findings:
         Air Force personnel did not effectively identify and
                                                                   Management
         register medical platform IT, identify IA controls
                                                                   Joint Air-To-Surface Standoff Missile Warranty
         applicable to platform IT or implement IA controls
         requirements.
                                                                   Management
         R esult :                                                 O verview:
                                                                   AFAA determined whether Air Force officials
         Unidentified platform IT impedes effective
                                                                   accomplished effective warranty cost analysis and
         completion of security risk assessments and prevents
                                                                   established adequate contract warranty provisions for
         implementation of critical IA controls. Proper IA
                                                                   the joint air-to-surface standoff missile.
         controls identification promotes effective mitigation
         of security vulnerabilities that could pose risks to      Findings:
         medical platform IT and the Air Force network. IA         Air Force did not accomplish effective warranty
         controls-requirements implementation mitigates            cost analysis prior to acquiring each production lot
         risk of unauthorized access and other cyber attack,       warranty or establish adequate contract warranty
         and provides assurance of system and information          provisions that incentivized the contractor to improve
         confidentiality, integrity, and availability. AFAA        missile availability.
         made three recommendations to improve controls


106 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                            Services

R esult :
As a result of ineffective warranty cost analysis,
program personnel allowed the contractor to shift the
cost risks associated with manufacturing defects to
the Air Force, increasing the warranty unit price 513
percent, from $7,155 to $36,774 per missile. Also,
missile availability may remain well below the user’s
requirement. AFAA made two recommendations to
improve program management.
Report No. F-2013-0010-L30000

Air Force Real Property Ingrants
O verview:
AFAA determined whether real property personnel
performed required environmental evaluations,
paid fair market value rents and associated fees, and       AFAA determined whether Air Force medical officials
effectively administered real property in-grants.           performed research consistent with Air Force Medical
Findings:                                                   Service research and development objectives.

Air Force personnel did not properly administer
(justify, renovate, execute or account for) 39 office     no longer needed, provide formal feedback for 16 of
space leases valued more than $88 million.                40 projects reviewed or timely execute 11 projects.
R esult :                                                 R esult :
Proper administration enables the Air Force to reach      Effective medical R&D fund execution ensures
lease reduction goals and prevents overpaying             funds are used for their intended purpose and
for unneeded leased facilities and unauthorized           improves resource allocation decisions. Further,
improvements to them. By cancelling unneeded              timely de-obligating unneeded medical R&D ULOs
leases, the Air Force would save at least $2.3 million    allows the Air Force to put more than $4 million
over the next six years (execution year and the           toward solving critical capability gaps. Effective R&D
Future Years Defense Program). AFAA made one              project management allows the Air Force to better
recommendation to improve Air Force real property         control total costs, maintain collaborative research
in-grant management.                                      relationships and produce quality research results. Air
Report No. F-2013-0010-O20000                             Force Medical Support Agency officials took corrective
                                                          action to improve the project review process and
Health Care                                               de-obligated almost $335,000 in invalid ULOs. AFAA
                                                          made two recommendations to improve medical R&D
Medical Research and Development                          management.
                                                          Report No. F-2013-0010-O40000
O verview:
AFAA determined whether Air Force medical officials
performed research consistent with Air Force Medical      Integrated Disability Evaluation System
Service research and development objectives;              O verview:
appropriately managed project fund distributions and      AFAA determined whether Air Force officials
timely de-obligated unneeded unliquidated balances;       effectively implemented integrated disability
and provided formal feedback on all project reviews       evaluation system initiatives to include pre-
and timely executed projects.                             screening processes, automated tracking systems,
Findings:                                                 and communication protocols and timely processed
Air Force officials did not timely distribute funds for   Medical Evaluation Board and Physical Evaluation
11 of 40 projects, de-obligate 46 of 153 ULO balances     Board cases and appeals.




                                                                                          APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 107
Services

         Findings:                                                  Financial Management
         Air Force personnel did not always timely process
         MEB and PEB cases and appeals to meet various DoD          Aircraft Depot Maintenance Labor Standards
         standard lapsed day goals. This was a repeat of the        O verview:
         condition identified in AFAA Report of Audit F-2010-       AFAA assessed the accuracy of depot maintenance
         0002-FD2000, Disability Evaluation System Internal         labor standards used to plan aircraft overhaul
         Controls, Dec. 3, 2010.                                    requirements.
         R esult :                                                  Findings:
         Timely processing MEB and PEB cases and appeals            Maintenance personnel did not develop and maintain
         minimizes the impact to unit readiness, quickly            accurate labor standards for 335 (60 percent) of the
         identifies Air Force members able to return to duty        556 operations reviewed or document labor standard
         and separates or retires those no longer fit for duty.     reviews as required.
         Further, fully implementing electronic technologies
         will avoid shipping costs, resulting in a savings to the
                                                                    R esult :
                                                                    As a result, the Air Force overstated FYs 2013-
         Air Force in excess of $1.6 million over the next six
                                                                    2017 anticipated direct labor expenditures by
         years (execution year and the Future Years Defense
                                                                    more than $52.9 million and understated the
         Program). AFAA made three recommendations to
                                                                    expenditures by more than $59.3 million. The net
         effectively implement and timely perform integrated
                                                                    result is an estimated understatement of direct labor
         disability evaluation system pre-screening, MEB, PEB
                                                                    expenditures exceeding $6.4 million for FYs 2013-
         and appeals processes.
                                                                    2017. As a result of undocumented labor standard
         Report No. F-2013-0014-O40000
                                                                    reviews, Air Force Materiel Command cannot
                                                                    adequately support or defend planned direct product
         Patient Centered Medical Home
                                                                    standard hours, personnel requirements, anticipated
         O verview:                                                 labor expenditures and customer pricing. AFAA made
         AFAA determined whether Air Force Medical Service          two recommendations to improve the management
         officials effectively managed continuity of care and       of aircraft depot maintenance labor standards.
         patient appointments.                                      Report No. F-2013-0004-L20000
         Findings:
         Air Force Medical Service officials generally met the
         team continuity of care goal, but they could improve
         patient continuity of care. Further, officials did not
         meet Air Force goals for appointment no-shows and
         appointment utilization.
         R esult :
         Effective management of patient-centered medical
         home continuity of care and patient appointments
         will improve access to team providers, helping the
         Air Force achieve objectives and save more than
         $9.7 million in reduced private sector care referral
         costs over the next six years (execution year and
         the Future Years Defense Program). AFAA made
         one recommendation to sufficiently staff patient-
         centered medical home teams and more effectively
         manage controls over patient continuity of care and
                                                                      AFAA assessed the accuracy of depot maintenance labor
         appointments.                                                standards used to plan aircraft overhaul requirements.
         Report No. F-2013-0017-O40000




108 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                        Services

   “Reinvesting bonuses for airmen who                   documents, supported MORD payments and managed
     are sub-proficient in their language                MORD funds.
     skills will allow the Air Force to avoid            Findings:
                                                         Resource advisors did not maintain documentation
     spending more than $1 million from
                                                         supporting establishment of 22 MORDs valued at
     FYs 2016-2018.”                                     $4 million and payment of 25 MORDs valued at $4.7
                                                         million. In addition, resource advisors at four of nine
                                                         organizations did not promptly de-obligate excess
Intelligence, Surveillance, and Reconnaissance           unliquidated obligation balances.
Bonus
                                                         R esult :
O verview:                                               Maintaining documentation to support amounts
AFAA determined whether Air Force officials              obligated and paid helps ensure payments are only
correctly identified Intelligence, Surveillance, and     made for valid requirements and goods or services
Reconnaissance Air Force Specialty Codes requiring       actually received. Further, documentation provides
bonuses and accurately paid the bonuses to eligible      evidence amounts recorded in financial records and
ISR airmen; appropriately used ISR bonus recipients      reported in financial statements are valid, complete
within their critical specialties; and provided timely   and accurate. In addition, de-obligating unneeded
annual assessments and proficiency training to           balances will permit reallocation of approximately
ISR linguists receiving, or those eligible to receive,   $4.6 million for Air Force prior year adjustments.
bonuses.                                                 AFAA made one recommendation to improve MORD
Findings:                                                management.
Air Force personnel did not appropriately use ISR        Report No. F-2013-0008-L10000
bonus recipients within critical specialties. Nineteen
percent of the ISR airmen receiving, or eligible to      Nuclear Enterprise
receive, bonuses worked outside their critical skills
for an average of 19 months. In addition, responsible    Personnel Reliability Program
personnel did not provide timely proficiency training
to ISR linguists receiving, or eligible to receive,
                                                         O verview:
                                                         AFAA determined whether Air Force officials
bonuses as 34 percent of linguists attended training
                                                         accurately identified personnel reliability program
up to six years late.
                                                         manpower requirements, properly monitored and
R esult :                                                timely certified individuals in PRP positions, and
More efficiently using ISR airmen receiving bonuses      timely and consistently performed administrative
will allow the Air Force to put almost $8 million to     qualification for PRP personnel.
better use over the next six years (execution year
and the Future Years Defense Program). Reinvesting
                                                         Findings:
                                                         Air Force officials accurately identified manpower
bonuses for airmen who are sub-proficient in their
                                                         requirements and properly monitored and timely
language skills will allow the Air Force to avoid
                                                         certified individuals in PRP positions. However,
spending more than $1 million from FYs 2016-2018.
                                                         individuals did not timely perform administrative
AFAA made four recommendations to improve the
                                                         qualification within 60 days.
controls over ISR bonus utilization.
Report No. F-2013-0007-O30000                            R esult :
                                                         Effectively and timely qualifying PRP personnel
Secretary of the Air Force Administrative                helps ensure only trustworthy and dependable
Assistant Resource Directorate Miscellaneous             personnel handle critical nuclear assets. AFAA made
Obligation/Reimbursement Documents                       one recommendation to improve the administrative
                                                         qualification process.
O verview:                                               Report No. F-2013-0006-O30000
AFAA determined whether resource advisors properly
established miscellaneous obligation/reimbursement




                                                                                       APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 109
Services

         Other                                                         Air Force Office of Special
         Child and Youth Programs Personnel
                                                                       Investigations
         Background Investigations
         O verview:                                                    Significant Activities
                                                                       The Air Force Office of Special Investigations has
         AFAA determined whether Air Force officials
                                                                       primary responsibility for law enforcement and
         properly initiated and completed initial background
                                                                       counterintelligence within the Department of the Air
         investigations and re-verifications, and performed
                                                                       Force and supports interagency efforts to identify
         suitability determinations for all employees providing
                                                                       and interdict terrorist activity. AFOSI’s mission is to
         services in child and youth programs.
                                                                       identify, exploit and neutralize criminal, terrorist and
         Findings:                                                     intelligence threats to the Air Force, Department of
         Air Force personnel did not properly complete initial
                                                                       Defense and the U.S. government.
         background investigations and re-verifications for 11
         and 14 percent, respectively. In addition, 8 percent
                                                                       Supporting Forward-Deployed Forces
         of employees lacked a current (either initial or re-
                                                                       AFOSI members operating in the vicinity of Kandahar,
         verification) investigation, and there was no evidence
                                                                       Afghanistan, received information on the location
         to validate an investigation or re-verification for 13
                                                                       of Taliban members associated with improvised
         percent of employees. Finally, Air Force personnel did
                                                                       explosive devices and substantial logistic support
         not perform or document suitability determinations
                                                                       activities. As a result of the information, AFOSI,
         for 8 percent of persons with available evidence of
                                                                       additional American forces and the Afghan National
         derogatory information resulting from investigations.
                                                                       Police conducted an operation targeting the Taliban
         R esult :                                                     insurgents. During the operation, a high-level Taliban
         Background investigations and re-verifications help           commander was neutralized and six other insurgents
         provide children with a safe environment, minimizing          were captured.
         risk of harm. Suitability determinations ensure
         personnel are properly screened before caring for             While operating in the area of Kandahar, Afghanistan,
         children. AFAA made two recommendations to                    AFOSI special agents assisted coalition forces
         improve management of Child and Youth Program                 during activities designed to disrupt and neutralize
         personnel background investigations.                          Taliban operations in the area. Information received
         Report No. F-2013-0015-O40000                                 and relayed by the AFOSI members enabled the
                                                                       neutralization of a Taliban commander who was
                                                                       responsible for at least three suicide attacks in the
                                                                       Kandahar area and the distribution of bomb making
                                                                       components.

                                                                       On a mission conducting village engagement
                                                                       operations near Shindand, Afghanistan, AFOSI
                                                                       members identified and captured a known Taliban
                                                                       weapons facilitator. This particular dealer previously
                                                                       claimed responsibility for the sale of rockets
                                                                       ultimately used to conduct indirect fire attacks against
                                                                       coalition forces and military bases.

                                                                       Near Shindand, Afghanistan, AFOSI special agents
                                                                       received information concerning the location of a
           AFAA determined whether Air Force officials properly
                                                                       hidden weapons storage location. AFOSI members
           initiated and completed background investigations for all   and the Afghan National Army conducted an
           employees providing services in child and youth programs.   exploitation operation in which they found and seized




110 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                             Services

                                                              this sensitive equipment. In addition, AFOSI helped
                                                              organize and conduct a biweekly Combined Joint
                                                              Threat Working Group so threat information could
                                                              be shared in a timely manner with NATO allies and
                                                              U.S. Army partners. This teamwork enhanced mutual
                                                              antiterrorism and force protection.

                                                              Combatting Procurement Fraud
                                                              AFOSI activated the Office of Procurement Fraud
                                                              in the summer of 2013 to enhance AFOSI’s major
                                                              acquisition fraud investigative capability and
                                                              maximize its ability to effect greater Air Force
                                                              acquisition and sustainment integrity. The Office
                                                              of Procurement Fraud is headquartered at Joint
                                                              Base Anacostia-Bolling, Washington, D.C., with
                                                              detachments and operating locations dispersed over
  The AFOSI Detachment in Turkey provided significant
                                                              six geographic regions. The new office will focus
  counterintelligence support to the deployment of eight
                                                              on major procurement fraud investigations and
  Patriot missile defense batteries in southeastern Turkey.
                                                              cooperation with counterpart investigative agencies.
                                                              The Office of Procurement Fraud’s organizational
a large amount of weapons and explosives, some of             structure, as a separate office within AFOSI, facilitates
which were rigged as IEDs. The seized items were              partnership with, and the securing of procurement
submitted for further exploitation.                           and sustainment integrity concerns and priorities
                                                              of, AFOSI’s key customers to help align AFOSI’s
AFOSI special agents received information regarding           fraud targeting accordingly. The new office will be
the location of several Taliban fighters who had              instrumental in reinvigorating AFOSI’s procurement
positioned an ambush location near a shopping                 fraud mission and detecting and deterring fraud in Air
area in Shindand, Afghanistan. AFOSI members                  Force programs.
shared the information with Afghan National Army
members, who responded to the area and conducted              Focused Cyber Support
clearing operations. During the operation, Afghan             The Defense Cyber Crime Center is designated as
National Army members detected several Taliban                a national cyber center under National Security
insurgents attempting to set up an ambush. The                Presidential Directive-54/Homeland Security
Taliban members subsequently fled the area to avoid           Presidential Directive-23 and provides the
contact and capture. Upon search of the area, Afghan          following capabilities to DoD law enforcement and
National Army members found abandoned weapons                 counterintelligence organizations, information
in the ambush site.                                           assurance and critical infrastructure protection,
                                                              document and media exploitation requirements, and
The AFOSI Detachment at Incirlik Air Base, Turkey,            counterterrorism objectives:
rendered significant counterintelligence support                •	 Digital and multimedia forensics and laboratory
to the deployment of eight Patriot missile defense                 services.
batteries to three locations in southeastern Turkey.            •	 Cyber training with certifications in cyber
Approximately 900 personnel of the Dutch, German                   investigations, incident response and digital
and U.S. military deployed with these systems to                   forensics.
enhance NATO’s air defenses along Turkey’s border               •	 Digital forensics research, development, test and
against hostile Syrian aggression. AFOSI provided                  evaluation.
on-the-ground assessments of the threats from                   •	 Cyber analytics for information assurance
terrorism and foreign intelligence for each site and               and critical infrastructure protection, and
conducted assessments of hundreds of miles of                      law enforcement / counterintelligence cyber
possible routes to be used by convoys transporting                 investigations and operations.



                                                                                            APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 111
Services

         The Defense Cyber Crime Center delivers these            Use and Distribution of Narcotics
         capabilities through the Defense Computer Forensics      O verview:
         Laboratory, the Defense Cyber Investigations Training    This investigation was initiated after Air Force Airman
         Academy, the Defense Cyber Crime Institute, the          First Class Adonis Little Dog, stationed at Keesler
         Defense Cyber Crime Center Analytical Group and          Air Force Base, Miss., tested positive for marijuana
         the Defense Industrial Base Collaborative Information    and cocaine during a routine urinalysis. Little Dog
         Sharing Environment.                                     confessed to AFOSI that he, along with Airman
                                                                  Basics Joseph Paroski and Matthew Shaffer, ingested
            “AFOSI seized Meyer’s work and home                   marijuana and cocaine four to five times between Jan.
                                                                  31 and Feb. 20, 2013. Little Dog advised he had met
              computers and recovered 542 files
                                                                  a civilian drug dealer at a mental health hospital in
              containing child pornography...”                    Biloxi, Miss. In addition to the cocaine and marijuana,
                                                                  Little Dog purchased five tablets of Vicodin from
         Significant Investigative Cases                          another airman. Little Dog stated that Paproski paid
                                                                  for the marijuana, cocaine and Vicodin. Paproski
         US Air Force Member Soliciting Sex from a                confessed to AFOSI that he had purchased and used
         Minor                                                    marijuana and cocaine on several occasions with Little
                                                                  Dog and Shaffer. Paproski confessed to the purchase
         O verview:
                                                                  of five tablets of Vicodin. Shaffer admitted he,
         On March 15, 2012, the Kenton County Police
                                                                  Paproski and Little Dog purchased and used marijuana
         Department, Internet Crimes Against Children Task
                                                                  and cocaine on multiple occasions. Paproski’s urine
         Force, Independence, Ky., advised an unidentified
                                                                  tested positive for cocaine and marijuana. Analysis
         individual, later identified as Air Force Master Sgt.
                                                                  of residue from a straw found on Little Dog during
         Thomas Meyer, contacted an undercover officer
                                                                  the search incident to apprehension revealed
         posing as a 13-year-old female living in Kentucky.
                                                                  the presence of cocaine. Analysis of a green leafy
         Meyer engaged in sexually explicit computer chats
                                                                  substance seized from PaproskiI’s dormitory room
         and transmitted sexually graphic images of himself to
                                                                  determined it was marijuana.
         the undercover officer from a computer belonging to
         U.S. Central Command, MacDill Air Force Base, Fla. On    R esult :
         May 16, 2012, AFOSI special agents, working jointly      On April 10, 2013, Paproski was convicted by a special
         with the FBI, obtained an Internet protocol address      court-martial and received four months confinement,
         used during the chats and traced it back to Meyer’s      forfeiture of $5,000 and a bad conduct discharge. On
         spouse in Valrico, Fla. AFOSI seized Meyer’s work and    March 29, 2013, Shaffer was convicted by a special
         home computers and recovered 542 files containing        court-martial and received six months confinement,
         child pornography, in addition to multiple chat          forfeiture of $6,060 and a bad conduct discharge. On
         logs between Meyer and suspected minors. Meyer           April 9, 2013, Little Dog was convicted by a special
         confessed to the inappropriate Internet relationship     court-martial and received four months confinement,
         with a person he believed to be a minor and admitted     forfeiture of $5,000 and a bad conduct discharge.
         that he had sent pornographic pictures of himself
         to the individual. Additionally, Meyer confessed         Chinese Parts Substituted in UAV’s
         to having made contact with a known pedophile            O verview:
         and received training about approaching Meyer’s          This joint investigation between AFOSI, DCIS and the
         stepdaughter for sex.                                    FBI was initiated after AFOSI received information
         R esult :                                                of alleged product substitution on the Predator and
         On May 7, 2013, Meyer pleaded guilty in federal court    Reaper Unmanned Aerial Vehicle programs involving
         to the production of child pornography. Meyer was        Mesa Bearing located in Trabuco Canyon, Calif. Mesa
         convicted and received a 15-year sentence in a federal   Bearing was a subcontractor for multiple government
         penitentiary, with supervised release for life and       contracts. In approximately 2009, Keith Faber sold
         registration as a sex offender.                          Mesa Bearing and worked as a consultant with Mesa




112 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                          Services

                                                            and completed searches of social media to confirm
                                                            the allegations levied against Rodriguez. Through
                                                            their efforts, AFOSI confirmed that Rodriguez was
                                                            engaged in sexual relations with six recruits, to include
                                                            nonconsensual sex, sodomy and sexual assault.
                                                            R esult :
                                                            On June 14, 2013, Rodriguez was convicted by a
                                                            general court-martial and sentenced to 27 years of
                                                            confinement, reduction to the grade of E-1, forfeiture
                                                            of all pay and allowances, and a dishonorable
                                                            discharge.

                                                            Air Force Airman Drug Trafficking in the
                                                            Republic of Korea
                                                            O verview:
  A joint investigation determined that Chinese-made ball   This investigation was initiated after AFOSI at
  bearings were fraudulently provided for use in Unmanned
                                                            Osan Air Base, Republic of Korea, was notified by
  aerial vehicle.
                                                            Korean Officials that they intercepted a package of
                                                            marijuana addressed to Senior Airman Lawrence
Bearing until 2010. In May 2010, a new employee             Milton, stationed at Osan Air Base. Milton’s postal
was cleaning the storage area and discovered a green        records from February-September 2012 showed he
folder with handwritten notes. The notes contained          signed for at least six other packages from the same
confessions from Faber of substituting Chinese ball         sender. AFOSI special agents apprehended Milton,
bearings not approved by the original contract.             and in a search of his dorm room, seized his cell
Additionally, testing documents were discovered from        phone. The phone had multiple text messages from
a third-party testing facility that demonstrated failures   a nonbase-affiliated civilian, Minju Shields, to Milton
of the Chinese ball bearings submitted by Mesa              asking if Milton checked his mail box for a package.
Bearing. Faber confessed to AFOSI special agents of         A search of Milton’s backpack revealed a printout of
knowingly providing parts “of questionable origin”          a Facebook conversation between Milton and U.S.
for use on the Predator program. A Defense Contract         Air Force Staff Sgt. Dominick Streeter, stationed at
Audit Agency investigative audit estimated the              Joint Base Andrews, Md. In the conversation, Streeter
damages to be between $60,645 and $334,777.                 asked Milton if he deleted Streeter’s messages and
R esult :                                                   instructed Milton to tell authorities they knew each
On June 10, 2013, Faber pleaded guilty and was              other from stateside. Streeter, while stationed at
convicted in a federal court to the depredation             Osan Air Base, received several packages of marijuana
of government property. Faber was ordered to                for Shields from the spring 2011 through December
pay $60,000 in restitution, given a $250 fine and           2011. Streeter introduced Shields to Milton so Milton
sentenced to a three-year probation period.                 could assume control of the illegal activity. While in
                                                            custody, Shields confessed that, from approximately
USAF Recruiter Indicted on Sexual Assault                   May to November 2011, Streeter provided six to eight
Charges                                                     packages of marijuana. The amount of marijuana
O verview:                                                  increased in each package until the final package
On Nov. 22, 2011, AFOSI was notified of an Air Force        contained 250 to 300 grams of marijuana. Shields
recruiter,Tech Sgt. Jaime Rodriguez, stationed at Lake      asked Milton if he would accept the delivery of
Jackson, Texas, engaged in multiple unprofessional          packages containing marijuana through his military
sexual relationships with potential Air Force recruits.     mailbox, and Milton agreed. In February 2012, Milton
AFOSI special agents conducted multiple records             started receiving packages of marijuana.
reviews, completed numerous witness interviews




                                                                                         APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 113
Services

         R esult :                                                 and deployed dormitory room of Air Force Senior
         On May 3, 2013, Milton was convicted by the Incheon       Airman Adam Parker, stationed at Minot Air Force
         District Court, 13th Criminal Court for the import or     Base, N.D. The search resulted in the seizure of
         export of narcotics into or out of Korea. Milton was      various electronic media. After a review by the
         sentenced to two years and six months confinement.        Defense Computer Forensics Laboratory and the
         Shields was sentenced to three years confinement          National Center for Missing and Exploited Children,
         and a fine of $1,108.                                     files found on Parker’s computers, hard drives and
                                                                   electronic media resulted in the discovery of 239 files,
         Test of Base Security in Alaska                           consisting of photographs and videos, of known child
                                                                   pornography as identified by the National Center for
         O verview:
                                                                   Missing and Exploited Children, and 365,083 files,
         On Jan. 19, 2013, a nonbase-affiliated civilian, Kyle
                                                                   consisting of photographs and videos, of suspected
         Hansen, drove through the Joint Base Elmendorf-
                                                                   child pornography. Parker confessed to several illegal
         Richardson, Alaska gate at a high rate of speed.
                                                                   sexual encounters with five children. Parker stated he
         Hansen traveled across Joint Base Elmendorf-
                                                                   was roughly 19-20 years old when he began sexually
         Richardson at speeds in excess of 60 miles per hour.
                                                                   assaulting two children and believed they were
         Attempting to exit Joint Base Elmendorf-Richardson,
                                                                   between the ages of four to six at the time of the
         Hansen reversed his vehicle into an Air Force vehicle.
                                                                   assaults. Parker admitted to viewing and downloading
         Members of the 673rd Security Forces Squadron set
                                                                   child pornography before and after enlisting in the
         up a road block utilizing patrol vehicles in an attempt
                                                                   Air Force. In April 2010, he began sexually assaulting
         to stop Hansen’s vehicle. Hansen maneuvered his
                                                                   two other children. One was approximately 2 years
         vehicle around the patrol cars, striking a member
                                                                   and 6 months old at the time and the other was
         of the 673rd Security Forces Squadron. Members of
                                                                   approximately 1 year and 4 months old at the time.
         the 673rd Security Forces Squadron and the 545th
                                                                   Parker further confessed to several illegal sexual acts
         Military Police Company, Joint Base Elmendorf-
                                                                   with the 1-year-and-4-month old child. Child forensic
         Richardson, Alaska, fired at Hansen’s vehicle. Hansen
                                                                   interviews with several more children disclosed that
         was not hit by the gunfire and departed the base,
                                                                   Parker engaged in illegal sexual activity with them.
         driving through the chain-link gate. Based on evidence
         left at the scene, AFOSI special agents, working          R esult :
         with the Anchorage Police Department, identified          On April 9, 2013, Parker was convicted by a general
         Hansen and arrested him later that day. A physical        court-martial of engaging in sexual acts with a child,
         search of Hansen’s vehicle found damage consistent
         with a high-speed crash and numerous bullet holes
         and broken windows. Fingerprint analysis of items
         recovered from the vehicle placed Hansen inside
         the vehicle.
         R esult :
         Hansen pleaded guilty in Federal Court in Anchorage,
         Alaska, on one count of felony assault of a law
         enforcement officer and was sentenced to 60 months
         in prison, three years of supervised release and was
         ordered to pay $78,310.44 in restitution.

         Aggravated Sexual Abuse of Multiple Children
         O verview:
         This investigation was initiated after AFOSI was
         notified of possible child sexual abuse. After
         conducting interviews of the child, a search
                                                                     Air Force Senior Airman Adam Parker was convicted of
         authorization was acquired to search the residence          aggravated sexual abuse of multiple children.




114 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                           Services

sodomy of a child, indecent acts with a child and          R esult :
possession of child pornography. Parker received           On Aug. 29, 2013, Aerovironment, Inc. signed a civil
confinement for life, a reduction to E-1 and a             settlement agreement to pay $667,000 to the United
dishonorable discharge.                                    States. Aerovironment, Inc. also had to modify cost
                                                           accounting controls as a result of the investigation’s
Rape                                                       findings.
O verview:
This investigation was initiated after a female reported
to AFOSI that Air Force Senior Airman Stefin Reed,
                                                              “The blanket purchase agreement
assigned to Shaw Air Force Base, S.C., had raped her.
                                                                contained 19 task orders with award
The female stated that she and Reed had walked to               amounts totaling $80,407,838 and a
a local bar. While at the bar, Reed got into several            ceiling value with options totaling $
verbal altercations and was told to return to his room.         206,119,017.”
The female and another military member found Reed
later that evening on the hotel balcony and walked
                                                           Retired Lieutenant Colonel Attempts to
Reed to his room. Later that night, the female went to
                                                           Defraud Government
check on Reed in his room. After approaching the bed,
Reed began to kiss the female, became aggressive           O verview:
and forced her to engage in an illegal sexual act. The     This joint investigation between AFOSI, DCIS, Army
female said she shouted for help and Reed struck her,      CID and the General Service Administration Office
detained her and threatened to kill her. Reed forced       of the Inspector General was initiated after AFOSI
the female to engage in further illegal sexual acts and,   received information that in 2006, retired Air Force
fearing for her safety, she complied. At some point,       Lt. Col. Steven Stallings, living in Valrico, Fla., falsely
the female escaped and ran into the hotel hallway for      entered into a memorandum of agreement for
help. Later analysis disclosed evidence consistent with    a blanket purchase agreement with the General
rape.                                                      Services Administration, Pensacola, Fla., and with
                                                           the Science Applications International Corp., a Top
R esult :                                                  100 Defense Contractor. Stallings falsely represented
On June 7, 2013, Reed was convicted of rape by a
                                                           himself as a government senior executive services
general court-martial and received a sentence to 10
                                                           member. Stallings was a retired at the time but still
years confinement, reduction of grade to E-1 and a
                                                           had a connection with the Science Applications
dishonorable discharge.
                                                           International Corp. The blanket purchase agreement
                                                           contained 19 task orders with award amounts totaling
Cost Mischarging against the DoD
                                                           $80,407,838 and a ceiling value with options totaling
O verview:                                                 $ 206,119,017.
This joint investigation between AFOSI, DCIS and the       More than $10 million awarded to the Science
Army CID was initiated after AFOSI after received          Applications International Corp. under the Blanket
information from the Defense Contract Management           Purchase Agreement were funded by various
Agency, Contract Integrity Center, which alleged           military branches. Stallings’ false representation was
Aerovironment, Inc., located in Monrovia, Calif.,          uncovered when contracting officials at Nellis Air
mischarged multiple DoD contracts. Extensive               Force Base, Nev., questioned his connection with a
document reviews and a Defense Contract Audit              task order under this blanket purchase agreement for
Agency audit found that Aerovironment, Inc. charged        Nellis Air Force Base. Stallings claimed that he was
more than $1 million in federal income tax expenses,       a senior executive service member who worked for
which is an unallowable cost, to their incurred cost       the Chief of Naval Operations. During an interview
account for transportation expenses. This resulted         with Stallings, he stated that he had violated the False
in a nearly 9 percent increase in the company’s            Claims Act by creating a fictitious company, Trusted
overhead rates charged on numerous DoD contracts.          Agent, in 2006, which he claimed was an independent
Aerovironment, Inc. cost accounting controls were          testing organization, and that he was the sole
also found to be inadequate.




                                                                                          APRIL 1, 2013 TO SEPTEMBER 30, 2013 │ 115
Services

         employee. Stallings admitted that he had created a
         deceptive scheme by representing himself as a federal
         government senior executive service member for the
         sole purpose of being awarded contracts through the
         General Service Agency for the Science Applications
         International Corp.

         R esult :
         On June 6, 2013, the Science Applications
         International Corp. reached a settlement agreement
         to pay the United States $5.75 million on or before
         June 12, 2013. Additionally, the Assistant U.S.
         Attorney’s Office reached an agreement to settle with
         Stallings under which Stallings will pay $105,000 to
         the United States over a three-month period.




116 │ SEMIANNUAL REPORT TO THE CONGRESS
             5
Appendixes
Appendix A


         AUDIT, INSPECTION, AND EVALUATION
         REPORTS ISSUED
         Copies of reports may be obtained from the appropriate issuing office by contacting:

         	 DoD IG	                                                                          Army Audit Agency
         	 www.dodig.mil/PUBS	                                                              (703) 693-5679
         		                                                                                 www.hqda.army.mil/aaaweb

         	 Naval Audit Service	                                                             Air Force Audit Agency
         	 (202) 433-5757	                                                                  (703) 696-7904
         		                                                                                 www.afaa.af.mil

                                                                                DoD IG               Military Depts.             Total
           Acquisition Processes and Contract Management                           29                        34                      63
           Joint Warfighting and Readiness                                         11                        39                      50
           Cyber Security                                                           6                         6                      12
           Health Care and Safety                                                   5                        12                      17
           Equipping and Training Iraqi and Afghan Security Forces                 10                         0                      10
           Investigative Oversight                                                  1                         0                       1
           Financial Management                                                    13                        49                      62
           Security                                                                 2                         1                       3
           Nuclear Enterprise                                                       3                         1                      4
           Other                                                                    3                        16                      19
           Total                                                                   83                       158                     241



         Acquisition Processes and Contract Management
          Agency        Report Number         Report Title                                                                   Date
          DoD IG        DODIG-2013-063        Award and Administration of Performance-Based Payments in DoD Contracts        04/08/2013
          DoD IG        DODIG-2013-065        Quality Control Review of the Defense Contract Management Agency Internal      04/18/2013
                                              Review Audit Function
          DoD IG        DODIG-2013-069        Defense Contract Management Agency Santa Ana Quality Assurance Oversight       04/19/2013
                                              Needs Improvement
          DoD IG        DODIG-2013-073        Use of Defense Logistics Agency Excess Parts for High Mobility Multipurpose    04/25/2013
                                              Wheeled Vehicle Depot Repairs Will Reduce Costs
          DoD IG        DODIG-2013-075        Improvements Needed in U.S. Special Operations Command Global Battlestaff      04/26/2013
                                              and Program Support Contract Oversight
          DoD IG        DODIG-2013-078        TRICARE Management Activity Needs to Improve Oversight of Acquisition          05/01/2013
                                              Workforce
          DoD IG        DODIG-2013-082        Hotline Allegation Regarding the Failure to Take Action on Material            05/29/2013
                                              Management and Accounting System (MMAS) Audit Findings
          DoD IG        DODIG-2013-084        Increased Procurement Quantity for CH-53K Helicopter Not Justified (FOUO)      05/31/2013
          DoD IG        DODIG-2013-088        The Navy P-8A Poseidon Aircraft Needs Additional Critical Testing Before the   06/10/2013
                                              Full-Rate Production Decision (FOUO)
          DoD IG        DODIG-2013-090        Improved Guidance Needed to Obtain Fair and Reasonable Prices for Sole-        06/07/2013
                                              Source Spare Parts Procured By the Defense Logistics Agency From The Boeing
                                              Company (FOUO)




118 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                            Appendix A

Agency   Report Number     Report Title                                                                      Date
DoD IG   DODIG-2013-097    Improvements Needed in the Oversight of the Medical-Support Services and          06/26/2013
                           Award-Fee Process Under the Camp As Sayliyah, Qatar, Base Operation Support
                           Services Contract
DoD IG   DODIG-2013-100    Contract Administration of the Subsistence Prime Vendor Contract for              07/02/2013
                           Afghanistan Improved, but Additional Actions are Needed
DoD IG   DODIG-2013-103    Boeing Overstated Contract Requirements for the CH-47F Helicopter (FOUO)          07/16/2013
DoD IG   DODIG-2013-104    DoD Oversight Improvements Are Needed on the Contractor Accounting                07/16/2013
                           System for the Army’s Cost-Reimbursable Stryker Logistics Support Contract
DoD IG   DODIG-2013-106    Defense Advanced Research Projects Agency Properly Awarded Contracts for          07/19/2013
                           Disc-Rotor Research and Development
DoD IG   DODIG-2013-115    The Navy’s Management of Software Licenses Needs Improvement                      08/07/2013
DoD IG   DODIG-2013-118    Acquisition of the Air Force Hard Target Void Sensing Fuze Program (FOUO)         08/20/2013
DoD IG   DODIG-2013-120    Army Needs Better Processes to Justify and Manage Cost-Reimbursement              08/23/2013
                           Contracts
DoD IG   DODIG-2013-121    Award and Administration of Multiple-Award Contracts at Joint Base San            08/23/2013
                           Antonio-Lackland Need Improvement
DoD IG   DODIG-2013-124    Report on Quality Control Review of the Grant Thornton, LLP, FY 2011 Single       08/26/2013
                           Audit of the Henry M. Jackson Foundation for the Advancement of Military
                           Medicine
DoD IG   DODIG-2013-125    Quality Control Review of the PricewaterhouseCoopers, LLP FY 2011 Single          08/29/2013
                           Audit of SRI International
DoD IG   DODIG-2013-126    Improvements Needed at the Defense Advanced Research Projects Agency              09/06/2013
                           When Evaluating Broad Agency Announcement Proposals
DoD IG   DODIG-2013-128    Air Force and Army Corps of Engineers Improperly Managed the Award of             09/19/2013
                           Contracts for the Blue Devil Block 2 Persistent Surveillance System
DoD IG   DODIG-2013-131    Army Requirement to Acquire Individual Carbine Not Justified                      09/16/2013
DoD IG   DODIG-2013-132    Appropriate Contracting Processes Used to Satisfy Validated Marine Corps          09/18/2013
                           Logistics Prepositioning Requirements
DoD IG   DODIG-2013-133    CH-53K Program Management is Satisfactory, but Risks Remain (FOUO)                09/23/2013
DoD IG   DODIG-2013-137    DoD Is Not Properly Monitoring the Initiation of Maintenance for Facilities at    09/30/2013
                           Kandahar Airfield, Afghanistan (FOUO)
DoD IG   DODIG-2013-140    Quality Assurance Assessment of the F-35 Lightning II Program                     09/30/2013
DoD IG   DODIG-2013-143    Allegations Unsubstantiated Concerning Defense Logistics Agency Violation of      09/30/2013
                           Federal Guidance for the Maintenance, Repair, and Operations Contracts
USAAA    A-2013-0081-IEF   Agreed-Upon Procedures Attestation of Latrine Contracts--Fort Bliss, Texas        04/08/2013
                           (FOUO)
USAAA    A-2013-0082-MTE   Administration of the Contractor Logistics Support Services Contract--Mine        04/08/2013
                           Resistant Ambush Protected Vehicle Program, Afghanistan (FOUO)
USAAA    A-2013-0088-FMI   Audit of U.S. Army Special Operations Command Materiel Development                04/29/2013
                           (FOUO)
USAAA    A-2013-0128-MTH   Contracting for the Guard Recruiting Assistance Program, National Guard           08/01/2013
                           Bureau, Arlington, Virginia (FOUO)
USAAA    A-2013-0135-FMP   Time-Sensitive Report; Contract Award Fee Process; Audit of Base Operations       08/12/2013
                           Support-Reagan Test Site, Kwajalein (FOUO)
USAAA    A-2013-0142-MTE   Audit of Contract Requirements for the Base Operations Support Contract-          08/22/2013
                           Kuwait (FOUO)
USAAA    A-2013-0155-FMP   Followup Audit of the Contract for Program Management Services, U.S. Army         09/16/2013
                           Corps of Engineers Far East District, South Korea (FOUO)
USAAA    A-2013-0162-ALE   Agreed-Upon Procedures Attestation of Contractor Billings on Contract             09/30/2013
                           W900KK-07-D-0001 (FOUO)
USAAA    A-2013-0153-FMP   Audit of Single and Multiple Award Indefinite-Delivery/Indefinite-Quantity        09/11/2013
                           Contracts in Korea, U.S. Army Garrison Daegu, Notification of Potential
                           Antideficiency Act Violation (FOUO)




                                                                                                   APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 119
Appendix A

          Agency        Report Number        Report Title                                                                       Date
          USAAA         A-2013-0100-FMP      Administration of Service Contracts in Alaska, Fort Wainwright                     06/12/2013
          USAAA         A-2013-0103-MTP      Followup Audit of Contracts for Intrusion Detection Systems-Acquisition            06/04/2013
                                             Strategy
          USAAA         A-2013-0105-ALC      Contract Training of Military Personnel                                            06/20/2013
          USAAA         A-2013-0107-ALC      Contracting Oversight, Quality Control, and Accountability                         06/25/2013
          USAAA         A-2013-0113-ALA      Mobile Tower System                                                                06/28/2013
          USAAA         A-2013-0114-IEM      Contracting for Health Care Providers, U.S. Army Medical Command                   07/08/2013
          USAAA         A-2013-0120-ALA      Army’s Development of Weapon System Requirements                                   08/06/2013
          USAAA         A-2013-0121-MTP      Followup Audit of Contracts for Intrusion Detection Systems--Non-Mission           07/09/2013
                                             Critical Facilities
          USAAA         A-2013-0126-ALC      Followup Audit of the Army’s Human Capital Plans--Contracting (Reachback           08/29/2013
                                             Capabilities)
          USAAA         A-2013-0139-ALC      Army Geospatial Center Contract Fees, Fort Belvoir, Virginia                       08/21/2013
          USAAA         A-2013-0144-ALA      Audit of the Army Program Office Estimate for the MQ-1C Gray Eagle                 09/13/2013
          USAAA         A-2013-0151-ALC      Arlington National Cemetery Millennium Project, U.S. Army Corps of Engineers,      09/10/2013
                                             Baltimore District
          USAAA         A-2013-0156-ALC      Management of Contracting Officer’s Representatives, Office of the Deputy          09/18/2013
                                             Assistant Secretary of the Army (Procurement)
          USAAA         A-2013-0160-ALA      Army Tactical Radio Strategy, Program Executive Office, Command, Control and       09/25/2013
                                             Communications-Tactical
          NAVAUDSVC     N2013-0025           Department of the Navy Procurement Performance Management Assessment               04/30/2013
                                             Program
          NAVAUDSVC     N2013-0030           Naval Air Station Sigonella, Italy Base Operating Support Contract                 06/07/2013
          NAVAUDSVC     N2013-0032           Implementation of the Procurement Performance Management Assessment                06/20/2013
                                             Program at Classified Activities (Classified)
          NAVAUDSVC     N2013-0033           Internal Controls over the Execution of Husbanding Contracts – 7th Fleet Area of   06/21/2013
                                             Responsibility
          NAVAUDSVC     N2013-0037           Guam Base Operating Support Contract                                               07/25/2013
          NAVAUDSVC     N2013-0046           Service Contract Administration at Naval Air Warfare Center Aircraft Division,     09/24/2013
                                             Patuxent River
          AFAA          F-2013-0009-L30000   Air Force Center for Engineering and the Environment Support Services              04/01/2013
                                             Contract Management
          AFAA          F-2013-0010-L30000   Joint Air-To-Surface Standoff Missile Warranty Management                          04/11/2013
          AFAA          F-2013-0011-L30000   Acquisition Professional Development Program Management                            05/15/2013
          AFAA          F-2013-0012-L30000   Follow-Up Audit, Government Purchase Card Use of Convenience Checks                05/21/2013
          AFAA          F-2013-0010-O20000   Air Force Real Property In-grants                                                  06/10/2013



         Joint Warfighting and Readiness
          Agency        Report Number        Report Title                                                                       Date
          DoD IG        DODIG-2013-066       Transportation Planning Is Sufficient for Retrograde Operations; However,          04/12/2013
                                             There Is an Opportunity To Improve the Efficiency of Management Systems
                                             (Classified)
          DoD IG        DODIG-2013-067       Efficiency Improvements Identified Within the Munitions Requirements Process       04/15/2013
                                             (Classified)
          DoD IG        DODIG-2013-080       Better Oversight and Accountability Needed for the U.S. Army Special               05/09/2013
                                             Operations Command C-12 Aircraft
          DoD IG        DODIG-2013-096       U.S. Army, Europe’s Management of Base Operations at the Black Sea Facility        07/15/2013
                                             Was Generally Effective (Classified)
          DoD IG        DODIG-2013-098       Assessment of U.S. Military Cemeteries                                             06/28/2013




120 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                 Appendix A

Agency      Report Number     Report Title                                                                        Date
DoD IG      DODIG-2013-102    Improved Oversight of Communications Capabilities Preparedness Needed for           07/01/2013
                              Domestic Emergencies
DoD IG      DODIG-2013-110    Guidance Needed to Adequately Integrate Military Information Support                07/26/2013
                              Operations into Civil-Military Operations in the Horn of Africa (Classified)
DoD IG      DODIG-2013-112    Assessment of DoD Long-Term Intelligence Analysis Capabilities (Classified)         08/05/2012
DoD IG      DODIG-2013-119    Better Procedures and Oversight Needed to Accurately Identify and Prioritize        08/16/2013
                              Task Critical Assets (Classified)
DoD IG      DODIG-2013-127    Inspection of DoD Detainee Transfers and Assurances (Classified)                    09/23/2013
DoD IG      DODIG-2013-136    Assessment of the Office of Security Cooperation-Iraq Mission Capabilities          09/18/2013
USAAA       A-2013-0080-FMP   Planning Survey of Army Relocation Program-Korea (FOUO)                             04/03/2013
USAAA       A-2013-0085-ALE   Energy Conservation in Europe                                                       04/19/2013
USAAA       A-2013-0086-ALE   Counseling Services in Europe                                                       04/23/2013
USAAA       A-2013-0089-IEE   Use of Energy Efficient Lighting                                                    05/08/2013
USAAA       A-2013-0092-ALA   Army Blast Standards—Testing, U.S. Army Test and Evaluation Command and             05/06/2013
                              U.S. Army Research Laboratory (FOUO)
USAAA       A-2013-0093-MTS   U.S. Army Installation Management Command Civilian Workforce Reductions             05/09/2013
USAAA       A-2013-0095-IEE   Audit of Army Sustainability Reporting Measures                                     06/05/2013
USAAA       A-2013-0096-MTH   Meal Card Program Controls, Deputy Chief of Staff, G-1 and Deputy Chief of          05/17/2013
                              Staff, G-4
USAAA       A-2013-0098-IEO   Reimbursable Support for Installation Services, Assistant Secretary of the          05/21/2013
                              Army (Financial Management and Comptroller) and Assistant Chief of Staff for
                              Installation Management
USAAA       A-2013-0099-ALE   Workload Planning Report, Resource Requirements for Logistics Operations            05/29/2013
                              (FOUO)
USAAA       A-2013-0104-ALS   Followup Audit of Project Manager Assets, Aviation                                  06/03/2013
USAAA       A-2013-0106-MTS   Time-Sensitive Issue—Opportunity to Reduce Expenditures—Followup Audit:             06/06/2013
                              Active Duty Operational Support for Contingency Operations Outside of
                              Theater
USAAA       A-2013-0122-MTS   Agreed Upon Procedures Attestation of Paratrooper Requirements (FOUO)               07/10/2013
USAAA       A-2013-0124-MTS   Agreed-Upon Procedures Attestation for the Verification of Accountability           07/15/2013
                              Transactions for the Defense Reutilization and Marketing Office, Fort Bragg,
                              North Carolina (FOUO)
USAAA       A-2013-0129-ALS   Property Accountability of Training Aids, Devices, Simulators, and Simulations      08/19/2013
                              Upon Receipt (FOUO)
USAAA       A-2013-0131-FMP   Transportation Operations, Hawaii                                                   08/01/2013
USAAA       A-2013-0133-FMP   Army Prepositioned Stock - 4 Medical, Japan                                         09/03/2013
USAAA       A-2013-0134-IEE   Followup of Accident Investigations and Reporting                                   08/20/2013
USAAA       A-2013-0145-MTH   Followup Audit of Officer Career Incentive Program                                  09/03/2013
USAAA       A-2013-0147-ALM   Audit of Automatic Reset Induction Criteria                                         09/09/2013
USAAA       A-2013-0148-MTT   Training Support System Manning Models - U.S. Army Reserve, Office of the           09/06/2013
                              Deputy Chief of Staff, G-3/5/7
USAAA       A-2013-0149-FMP   Followup Audit of Construction Site Preparation—Parcel 1, U.S. Army Corps of        09/10/2013
                              Engineers, Far East District
USAAA       A-2013-0152-MTE   Audit of Retrograde of Class V-Afghanistan (FOUO)                                   09/20/2013
USAAA       A-2013-0157-FMP   Army Prepositioned Stock-4, Japan                                                   09/19/2013
USAAA       A-2013-0158-MTS   Attestation of 7 Infantry Division Force Structure, Joint Base Lewis-McChord
                                              th
                                                                                                                  09/25/2013
                              (FOUO)
USAAA       A-2013-0159-ALM   Audit of Army Prepositioned Stocks, CONUS Storage (FOUO)                            09/25/2013
USAAA       A-2013-0161-FMP   U.S. Army Pacific Environmental Planning and Processes, Hawaii (FOUO)               09/26/2013
NAVAUDSVC   N2013-0041        Marine Corps War Reserve Levels                                                     08/28/2013




                                                                                                        APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 121
Appendix A

          Agency        Report Number        Report Title                                                                      Date
          NAVAUDSVC     N2013-0052           Limited Duty Population in the Navy                                               09/30/2013
          AFAA          F-2013-0003-L20000   Serialized Parts Configuration Management                                         04/01/2013
          AFAA          F-2013-0006-L20000   Engine Parts Reclamation                                                          08/13/2013
          AFAA          F-2013-0007-L40000   Depot Condemnations                                                               05/13/2013
          AFAA          F-2013-0008-L40000   Shipment of Controlled Items from the United States Air Forces Central Area of    06/10/2013
                                             Responsibility
          AFAA          F-2013-0010-L40000   Air Force Special Operations Command Equipment Management                         07/29/2013
          AFAA          F-2013-0005-O30000   Military Personnel Data System Sourcing of Institutional Forces                   04/09/2013
          AFAA          F-2013-0008-O30000   Blue Force Tracking Devices (Classified)                                          06/12/2013
          AFAA          F-2013-0009-O30000   Personnel Deployment and Redeployment                                             06/26/2013
          AFAA          F-2013-0010-O30000   Follow-Up Audit, United States Air Forces Central Deployed Locations Aerial       08/26/2013
                                             Port Operations
          AFAA          F-2013-0008-O40000   Follow-up Audit, Military Personnel Appropriation Man-Days                        05/14/2013



         Cyber Security
          Agency        Report Number        Report Title                                                                      Date
          DoD IG        DODIG-2013-068       Maintaining Authorization Accreditation for Select DoD Information Systems        04/15/2013
                                             Needed Improvement (FOUO)
          DoD IG        DODIG-2013-072       Data Loss Prevention Strategy Needed for the Case Adjudication Tracking           04/24/2013
                                             System (FOUO)
          DoD IG        DODIG-2013-107       Defense Information Systems Agency Needs to Improve Its Information               07/26/2013
                                             Assurance Vulnerability Management Program (FOUO)
          DoD IG        DODIG-2013-109       Improved Security Needed to Protect Infrastructure and Systems in the Great       07/29/2013
                                             Lakes and Ohio River Division (FOUO)
          DoD IG        DODIG-2013-134       Navy Commercial Access Control System Did Not Effectively Mitigate Access         09/16/2013
                                             Control Risks (FOUO)
          DoD IG        DODIG-2013-141       DoD Information Assurance Weaknesses as Reported by Audit Reports Issued          09/30/3013
                                             From August 1, 2012, Through July 31, 2013 (FOUO)
          USAAA         A-2013-0112-FMT      Audit of Future of Telephony Requirements                                         06/25/2013
          USAAA         A-2013-0136-FMT      Enterprise Email, Chief Information Officer/G-6                                   08/12/2013
          USAAA         A-2013-0137-FMT      Elevated Privileges, U.S. Army Chief Information Officer/G-6 and U.S. Army        08/20/2013
                                             Network Enterprise Technology Command
          AFAA          F-2013-0017-O10000   Medical Platform Information Technology Security                                  06/10/2013
          AFAA          F-2013-0019-O10000   Commercial Off-The-Shelf Software Management                                      06/26/2013
          AFAA          F-2013-0004-O30000   Next Generation Electronic Warfare Integrated Reprogramming Database              04/01/2013
                                             System (Classified)



         Health Care and Safety
          Agency        Report Number        Report Title                                                                      Date
          DoD IG        DODIG-2013-087       Assessment of DoD Wounded Warrior Matters – Joint Base Lewis-McChord              05/31/2013
          DoD IG        DODIG-2013-099       Compliance with Electrical and Fire Protection Standards of U.S. Controlled and   07/18/2013
                                             Occupied Facilities in Afghanistan
          DoD IG        DODIG-2013-108       The TRICARE Mail Order Pharmacy Program Was Cost Efficient and Adequate           07/24/2013
                                             Dispensing Controls Were in Place
          DoD IG        DODIG-2013-113       Assessment of DoD Wounded Warrior Matters – Fort Riley                            08/06/2013
          DoD IG        DODIG-2013-135       The Department of Defense and Veteran Affairs Health Care Joint Venture at        09/18/2013
                                             Tripler Army Medical Center Needs More Management Oversight
          USAAA         A-2013-0083-IEM      Workload Survey of the e-Profile System, U.S. Army Medical Command (FOUO)         04/10/2013



122 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                Appendix A

Agency   Report Number        Report Title                                                                      Date
USAAA    A-2013-0087-IEM      Workload Survey of Army Resilience Programs (FOUO)                                04/25/2013
USAAA    A-2013-0097-IEM      Workload Survey of the Integrated Disability Evaluation System, Deputy Chief      05/16/2013
                              of Staff, G-1 and U.S. Army Medical Command
USAAA    A-2013-0140-IEM      Medical Research Grants and Cooperative Agreements, U.S. Army Medical             08/20/2013
                              Research and Materiel Command
USAAA    A-2013-0154-IEM      Implementation of Pain Management Initiatives—Polypharmacy, U.S. Army             09/16/2013
                              Medical Command
AFAA     F-2013-0007-O40000   Temporary Disability Retirement List                                              04/09/2013
AFAA     F-2013-0009-O40000   Follow-Up Audit, Air Reserve Component Line of Duty Determinations                05/21/2013
AFAA     F-2013-0010-O40000   Medical Research and Development                                                  06/26/2013
AFAA     F-2013-0011-O40000   Follow-up Audit, Civilian Drug Demand Reduction Program                           07/15/2013
AFAA     F-2013-0013-O40000   Follow-up Audit, Medical War Reserve Materiel Requirements                        08/15/2013
AFAA     F-2013-0014-O40000   Integrated Disability Evaluation System                                           08/15/2013
AFAA     F-2013-0017-O40000   Patient Centered Medical Home                                                     09/10/2013



Equipping and Training Iraqi and Afghan Security Forces
Agency   Report Number        Report Title                                                                      Date
DoD IG   DODIG-2013-081       Assessment of U.S. Government and Coalition Efforts to Train, Equip, and          05/24/2013
                              Advise the Afghan Border Police
DoD IG   DODIG-2013-079       Advanced Combat Helmet Technical Assessment                                       05/29/2013
DoD IG   DODIG-2013-093       DoD Needs to Improve Oversight of the Afghan National Police Training/            06/25/2013
                              Mentoring and Logistics Support Contract
DoD IG   DODIG-2013-094       Assessment of U.S. and Coalition Efforts to Develop Leaders in the Afghan         06/24/2013
                              National Army
DoD IG   DODIG-2013-095       Award and Administration of Radio Contracts for the Afghan National Security      06/27/2013
                              Forces Need Improvement (FOUO)
DoD IG   DODIG-2012-034.5     Assessment of Afghan National Security Forces Metrics, Ministry of Interior       06/28/2013
                              Police Forces, October 2012 - March 2013 (Classified)
DoD IG   DODIG-2013-122       Assessment of the DSE 40mm Grenades                                               08/22/2013
DoD IG   DODIG-2013-123       Army Needs To Improve Mi-17 Overhaul Management and Contract                      08/30/2013
                              Administration (FOUO)
DoD IG   DODIG-2012-034.6     Assessment of Afghan National Security Forces Metrics, Afghan National Army       08/30/2013
                              (ANA), October 2012 - March 2013 (Classified)
DoD IG   DODIG-2013-129       Planning for the Effective Development and Transition of Critical ANSF Enablers   09/20/2013
                              to Post-2014 Capabilities Part I - Afghan National Army Enabler Description



Investigative Oversight
Agency   Report Number        Report Title                                                                      Date
DoD IG   DODIG-2013-091       Evaluation of the Military Criminal Investigative Organizations Sexual Assault    07/09/2013
                              Investigations



Financial Management
Agency   Report Number        Report Title                                                                      Date
DoD IG   DODIG-2013-070       Defense Agencies Initiative Did Not Contain Some Required Data Needed to          04/19/2013
                              Produce Reliable Financial Statements
DoD IG   DODIG-2013-071       The Audit Opinion of the DISA FY 2011 Working Capital Fund Financial              04/26/2013
                              Statements Was Not Adequately Supported



                                                                                                      APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 123
Appendix A

          Agency        Report Number     Report Title                                                                    Date
          DoD IG        DODIG-2013-076    Examination of Army Management’s Assertion for Existence and Completeness       04/29/2013
                                          of Operating Materials and Supplies Quick Win Assets
          DoD IG        DODIG-2013-077    The Navy Commercial Bill Pay Office, in Naples, Italy, Needs to Identify and    04/30/2013
                                          Report Improper Payments
          DoD IG        DODIG-2013-083    Efforts to Minimize Improper Payments for the Shipment of Household Goods       05/15/2013
                                          Were Generally Effective But Needed Improvement
          DoD IG        DODIG-2013-086    Complaint Regarding Tinker Air Force Base Agreement to Pay an Unallowable       05/29/2013
                                          Markup on a Foreign Military Sales Contract
          DoD IG        DODIG-2013-101    Fuel Exchange Agreement Reconciliations Are Effective, but the Joint            07/01/2013
                                          Reconciliation Process Needs Improvement (FOUO)
          DoD IG        DODIG-2013-105    Navy Did Not Develop Processes in the Navy Enterprise Resource Planning         07/18/2013
                                          System to Account for Military Equipment Assets
          DoD IG        DODIG-2013-111    Status of Enterprise Resource Planning Systems’ Cost, Schedule, and             08/01/2013
                                          Management Actions Taken to Address Prior Recommendations
          DoD IG        DODIG-2013-117    Enhanced Oversight Needed for Nontactical Vehicle Fleets in the National        08/15/2013
                                          Capital Region
          DoD IG        DODIG-2013-130    Army Needs to Improve Controls and Audit Trails for the General Fund            09/13/2013
                                          Enterprise Business System Acquire-to-Retire Business Process
          DoD IG        DODIG-2013-138    The U.S. Air Force Academy Lacked Effective Controls Over Heritage Assets and   09/23/2013
                                          Guest House Inventories, and Inappropriately Solicited and Accepted Monetary
                                          Gifts
          DoD IG        DODIG-2013-139    Independent Auditor’s Report on the Agreed-Upon Procedures for Reviewing        09/25/2013
                                          the FY 2013 Civilian Payroll Withholding Data and Enrollment Information
          USAAA         A-2013-0084-IEO   Audit of Nonappropriated Fund Labor Expenses                                    04/11/2013
          USAAA         A-2013-0090-FMF   Followup Audit of Controls of the Incentive Program in the California Army      05/02/2013
                                          National Guard
          USAAA         A-2013-0091-FMF   Controls Over the Incentive Program in the Army Reserve, U.S. Army Reserve      06/05/2013
                                          Command
          USAAA         A-2013-0094-MTS   Audit of Financial Management--Home Station Mission                             05/22/2013
          USAAA         A-2013-0101-IEM   Attestation of Non-Profit Foundation Transactions (FOUO)                        05/30/2013
          USAAA         A-2013-0102-IEI   Army’s Participation in the Association of the U.S. Army Conferences (FOUO)     05/31/2013
          USAAA         A-2013-0108-FMF   Army Executive Dining Facility Fund Internal Controls, Office of the            06/24/2013
                                          Administrative Assistant to the Secretary of the Army
          USAAA         A-2013-0109-FMF   Army Executive Dining Facility Fund Financial Statements, Office of the         06/24/2013
                                          Administrative Assistant to the Secretary of the Army
          USAAA         A-2013-0110-MTE   Cost Sharing: Logistics Support, Services, and Supplies, U.S. Forces—           06/13/2013
                                          Afghanistan (FOUO)
          USAAA         A-2013-0111-ALS   Second Destination Transportation--Fund Execution                               06/20/2013
          USAAA         A-2013-0115-FMF   Time-Sensitive Report, Audit of Controls Over the Incentive Program in the      07/10/2013
                                          Army Reserve Command
          USAAA         A-2013-0116-ALE   Housing Allowances in Europe, U.S. Army Europe                                  07/08/2013
          USAAA         A-2013-0118-FMF   Followup Audit of Proliferation of Wide Area Workflow System                    06/28/2013
          USAAA         A-2013-0119-FMF   Stopping Pay for Soldiers in an Absentee or Deserter Status                     07/02/2013
          USAAA         A-2013-0123-FMF   Time-Sensitive Report, Audit of Government Provided Meals for Soldiers          07/11/2013
                                          Attending Institutional Training
          USAAA         A-2013-0127-FMF   Agreed-Upon Procedures Attestation of Investigative Support for the 46th        07/25/2013
                                          Engineering Battalion Defense Travel System Case (FOUO)
          USAAA         A-2013-0130-FMR   Miscellaneous Pay Process General Fund Enterprise Business System               07/31/2013
          USAAA         A-2013-0138-FMR   Review of the Army’s Compliance with the Federal Managers’ Financial            08/26/2013
                                          Integrity Act
          USAAA         A-2013-0141-MTE   Agreed-Upon Procedures Attestation for Calculating Government Overtime          08/23/2013
                                          Costs of a DoD GS-09 Employee, Bagram Airfield, Afghanistan (FOUO)




124 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                       Appendix A

Agency      Report Number        Report Title                                                                           Date
USAAA       A-2013-0146-FMF      Time-Sensitive Report, Audit of Government-Provided Meals for Soldiers                 09/03/2013
                                 Attending Institutional Training
USAAA       A-2013-0150-IEO      Service Cost Execution Process, Office of the Assistant Chief of Staff for             09/09/2013
                                 Installation Management
NAVAUDSVC   N2013-0021           Internal Controls over Naval Criminal Investigative Service Salary Payments and        04/08/2013
                                 Travel Process
NAVAUDSVC   N2013-0022           Naval War College Gift and Other Related Funds                                         04/11/2013
NAVAUDSVC   N2013-0024           Internal Controls over Navy’s Electronic Leave System                                  04/26/2013
NAVAUDSVC   N2013-0027           Fiscal Management at the Center for Excellence in Disaster Management and              05/22/2013
                                 Humanitarian Assistance, United States Pacific Command
NAVAUDSVC   N2013-0028           Independent Attestation – Agreed-Upon Procedures Attestation Engagement of             06/03/2013
                                 Assessing Internal Controls over Financial Reporting in the Department of the
                                 Navy, Phase 4
NAVAUDSVC   N2013-0029           Marine Aircraft Group 49 Site Support Aviation Supply – Marine Corps Light             06/05/2013
                                 Attack Helicopter Squadron 773 Detachment B
NAVAUDSVC   N2013-0038           Fiscal and Resource Management at the Naval Postgraduate School                        08/07/2013
NAVAUDSVC   N2013-0039           Followup on Information Assurance Training and Certification                           08/15/2013
NAVAUDSVC   N2013-0043           Bureau of Medicine and Surgery Travel and Purchase Card Transactions                   09/11/2013
AFAA        F-2013-0005-L10000   Air Force Financial Improvement and Audit Readiness Reports - Fiscal Year 2012         06/25/2013
                                 Roll-Up
AFAA        F-2013-0006-L10000   Air Force Working Capital Fund Spending Authority Collections - Flying Hours           08/14/2013
AFAA        F-2013-0007-L10000   General Fund Military Equipment - Remotely Piloted Aircraft in the Continental         08/14/2013
                                 United States and Overseas
AFAA        F-2013-0008-L10000   Secretary of the Air Force Administrative Assistant Resource Directorate               08/16/2013
                                 Miscellaneous Obligation/Reimbursement Documents
AFAA        F-2013-0009-L10000   Air Force Working Capital Fund Spending Authority Collections - Standard Base          08/27/2013
                                 Supply System Transactions
AFAA        F-2013-0010-L10000   Official Representation Funds                                                          09/09/2013
AFAA        F-2013-0004-L20000   Aircraft Depot Maintenance Labor Standards                                             04/02/2013
AFAA        F-2013-0005-L20000   Aircraft Weight Reduction                                                              06/13/2013
AFAA        F-2013-0009-L40000   Flying Hour Consumables                                                                07/09/2013
AFAA        F-2013-0016-O10000    Memorandum Report of Audit, Reliability and Maintainability Information               05/15/2013
                                 System Accounting Conformance
AFAA        F-2013-0018-O10000   Summary of Reports of Audit on Financial System Application Controls                   06/11/2013
AFAA        F-2013-0020-O10000   Memorandum Report of Audit, Reliability, Availability, Maintainability Support         06/26/2013
                                 System for Electronic Combat Pods - General Controls
AFAA        F-2013-0021-O10000   Summary of Air Force System Accounting Conformance                                     07/15/2013
AFAA        F-2013-0022-O10000   Memorandum Report of Audit, Reliability and Maintainability Information                08/26/2013
                                 System - General Controls
AFAA        F-2013-0009-O20000   Warehouse Space Utilization                                                            04/10/2013
AFAA        F-2013-0011-O20000   Fiscal Year 2013 Utilities Privatization Economic Analysis                             09/11/2013
AFAA        F-2013-0007-O30000   Intelligence, Surveillance, and Reconnaissance Bonus Utilization                       06/11/2013
AFAA        F-2013-0012-O40000   Memorandum Report of Audit, Air Reserve Order Writing System - Reserve                 07/15/2013
                                 Application Controls
AFAA        F-2013-0016-O40000   Memorandum Report of Audit, Reserve Travel System - Phase 1, General and               09/05/2013
                                 Selected Application Controls




                                                                                                              APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 125
Appendix A


         Security
          Agency         Report Number          Report Title                                                                    Date
          DoD IG         DODIG-2013-092         Release of Department of Defense Information to the Media                       06/14/2013
          DoD IG         DODIG-2013-142         DoD Over-Classification of National Security Information                        09/30/2013
          NAVAUDSVC      N2013-0034             Department of the Navy Contract Requirements – Personally Identifiable          06/27/2013
                                                Information and Sensitive Data



         Nuclear Enterprise
          Agency         Report Number          Report Title                                                                    Date
          DoD IG         DODIG-2013-064         Accountability of the Air Force’s Classified Inventory of Nuclear Weapons-      04/18/2013
                                                Related Material (Redacted)
          DoD IG         DODIG-2013-085         Cryptographic Modernization of Critical Nuclear Command, Control, and           05/29/2013
                                                Communications Systems (Classified)
          DoD IG         DODIG-2013-089         Hotline Report on the Proposed Elimination of the Nuclear Command and           06/06/2013
                                                Control system Support Staff (FOUO)
          AFAA           F-2013-0006-O30000     Personnel Reliability Program                                                   04/29/2013



         Other
          Agency         Report Number          Report Title                                                                    Date
          DoD IG         DODIG-2013-074         Assessment of Voting Assistance Programs for Calendar Year 2012                 04/29/2013
          DoD IG         DODIG-2013-114         Cost Increases and Delays Occurred During Closure and Land Transfers of Army    08/06/2013
                                                Ammunition Plants and Chemical Depots Under Base Realignment and Closure
                                                2005
          DoD IG         DODIG-2013-116         National Geospatial-Intelligence Agency Did Not Comply With Base                08/13/2013
                                                Realignment and Closure Legislation
          NAVAUDSVC      N2013-0020             Summary of Audits of Department of the Navy Fuel Consumption Reporting          04/05/2013
          NAVAUDSVC      N2013-0023             Controls and Oversight for United States Marine Corps Fuel Storage Tanks        04/12/2013
          NAVAUDSVC      N2013-0026             Summary of Department of the Navy Fuel Storage Facilities and Farms             05/06/2013
          NAVAUDSVC      N2013-0031             Followup on Internal Controls Over Department of the Navy Energy Funding        06/13/2013
                                                and Financing Tools
          NAVAUDSVC      N2013-0035             Validation and Use of Life-Cycle Cost Analysis within the Marine Corps Energy   06/28/2013
                                                Investment Program
          NAVAUDSVC      N2013-0036             Controls and Oversight for Naval Research Laboratory Fuel Storage Tanks         07/09/2013
          NAVAUDSVC      N2013-0040             Verification of Hotline Complaints in the Naval Inspector General Hotline       08/15/2013
                                                Tracking System at Selected Western and Pacific Commands
          NAVAUDSVC      N2013-0042             Auditor General Advisory – Naval Audit Service Input for the Fiscal Year 2013   08/28/2013
                                                Statement of Assurance
          NAVAUDSVC      N2013-0044             Marine Corps Child, Youth, and Teen Programs                                    09/11/2013
          NAVAUDSVC      N2013-0045             Navy Child and Youth Programs                                                   09/12/2013
          NAVAUDSVC      N2013-0047             Navy Fuel Storage Tank Inventory                                                09/25/2013
          NAVAUDSVC      N2013-0048             Department of the Navy Achievement of Leadership in Energy and                  09/25/2013
                                                Environmental Design Certification
          NAVAUDSVC      N2013-0049             Department of the Navy Tax Exempt Commercial Lodging                            09/27/2013
          NAVAUDSVC      N2013-0050             Long-Term Temporary Duty Orders for Marine Corps Reserves Performing Duty       09/30/2013
                                                within the Continental United States and Hawaii
          NAVAUDSVC      N2013-0051             Department of the Navy Premium Class Travel Costs                               09/30/2013
          AFAA           F-2013-0015-O40000     Child and Youth Programs Personnel Background Investigations                    08/16/2013


            ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a) (6).


126 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                 Appendix B


REPORTS CONTAINING POTENTIAL
MONETARY BENEFITS
                                                                           Potential Monetary Benefits
                    Reports Issued                         Date                                Funds Put to Better
                                                                      Questioned Costs
                                                                                                      Use
DODIG-2013-063
Award and Administration of Performance-Based            04/08/2013              N/A               $53,300,000
Payments in DoD Contracts
DODIG-2013-083
Efforts to Minimize Improper Payments for the
                                                         05/15/2013              N/A               $13,000,000
Shipment of Household Goods Were Generally Effective
But Needed Improvement
DODIG-2013-084
Increased Procurement Quantity for CH-53K Helicopter     05/31/2013   $22,200,000,000                        N/A
Not Justified (FOUO)
DODIG-2013-090
Improved Guidance Needed to Obtain Fair and
Reasonable Prices for Sole-Source Spare Parts Procured   06/07/2013              N/A               $13,700,000
By the Defense Logistics Agency From The Boeing
Company (FOUO)
DODIG-2013-095
Award and Administration of Radio Contracts for the
                                                         06/27/2013     $133,000,000                 $5,000,000
Afghan National Security Forces Need Improvement
(FOUO)
DODIG-2013-097
Improvements Needed in the Oversight of the Medical-
Support Services and Award-Fee Processes Under           06/26/2013         $211,000                   $131,886
the Camp As Sayliyah, Qatar, Base Operation Support
Services Contract
DODIG-2013-100
Contract Administration of the Subsistence Prime
                                                         07/02/2013              N/A              $631,700,000
Vendor Contract for Afghanistan Improved, but
Additional Actions are Needed
DODIG-2013-101
Fuel Exchange Agreement Reconciliations Are
                                                         07/01/2013      $10,800,000                         N/A
Effective, but the Joint Reconciliation Process Needs
Improvement (FOUO)
DODIG-2013-103
Boeing Overstated Contract Requirements for the          07/16/2013              N/A               $51,873,746
CH-47F Helicopter (FOUO)
DODIG-2013-117
Enhanced Oversight Needed for Nontactical Vehicle        08/15/2013              N/A                 $1,200,000
Fleets in the National Capital Region
DODIG-2013-121
Award and Administration of Multiple-Award Contracts     08/23/2013         $267,405                         N/A
at Joint Base San Antonio–Lackland Need Improvement
DODIG-2013-123
Army Needs To Improve Mi-17 Overhaul Management          08/30/2013       $7,744,989                         N/A
and Contract Administration (FOUO)




                                                                                        APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 127
Appendix B


         REPORTS CONTAINING POTENTIAL
         MONETARY BENEFITS (CONT’D)
                                                                                                    Potential Monetary Benefits
                               Reports Issued                                Date                                     Funds Put to Better
                                                                                              Questioned Costs
                                                                                                                             Use
           D-2013-128
           Air Force and Army Corps of Engineers Improperly
                                                                        09/19/2013                 $1,137,000                      N/A
           Managed the Award of Contracts for the Blue Devil
           Block 2 Persistent Surveillance System
           D-2013-131
           Army Requirement To Acquire Individual Carbine Not           09/16/2013                         N/A           $382,000,000
           Justified
           D-2013-135
           The Department of Defense and Veteran Affairs Health
                                                                        09/18/2013                         N/A            $33,600,000
           Care Joint Venture at Tripler Army Medical Center
           Needs More Management Oversight
           Total                                                                             $22,353,160,394           $1,185,505,632

            ◊	Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a)(6)
              (See Appendix A).




128 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                 Appendix C


FOLLOW-UP ACTIVITIES
Decision status of DoD IG issued audit, inspection, and evaluation reports and dollar value of recommendations
that funds be put to better use.

                                                                                                                    Funds Put
                                       Status                                               Number               to Better Use1
                                                                                                                ($ in thousands)
  A.	 For which no management decision had been made by the beginning of
                                                                                                 20                          $0
      the reporting period.
  B.	 Which were issued during the reporting period.                                             83               $23,538,666
        Subtotals (A+B)                                                                        103                $23,538,666
  C.	 For which a management decision was made during the reporting period.                      70               $23,359,321
        (i)	 dollar value of recommendations that were agreed to by
              management.
                - based on proposed management action                                                                $397,175
                - based on proposed legislative action
        (ii)	 dollar value of recommendations that were not agreed to by
              management.                                                                                         $22,962,1462
  D.	 For which no management decision has been made by the                                      33                  $179,345
      end of the reporting period.

        Reports for which no management decision was made within 6 months of                      23                          0
        issue (as of Sept. 30, 2013)

  1.	   DoD IG issued audit reports during the period involving $22.4 billion in “questioned costs.”

  2.	   On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary
        benefits cannot be determined until those actions are completed.

  3.	   DoD IG Report Nos. DODIG-2012-057, “Guidance Needed to Prevent Military Construction Projects From Exceeding the
        Approved Scope of Work”; and, DODIG-2013-024, “U.S. Army Corps of Engineers Needs to Improve Contract Oversight
        of Military Construction Projects at Bagram Airfield, Afghanistan,” had no decision as of Sept. 30, 2013, but action to
        achieve a decision is in process.

  ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a)(8)(9) & (10).




                                                                                                       APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 129
Appendix C


         FOLLOW-UP ACTIVITIES (CONT’D)
         Status of action on central internal audits period ending Sept. 30, 2013

                                                                                                                           Funds Put
                                                    Status                                           Number             to Better Use1
                                                                                                                       ($ in thousands)
           DoD IG
                 Action in Progress - Beginning of Period                                               154                        $0
                 Action Initiated - During Period                                                        80              $23,359,321
                 Action Completed - During Period                                                        68               $2,284,459
                 Action in Progress - End of Period                                                     166                        $02
           Military Departments
                 Action in Progress - Beginning of Period                                               588               $6,982,012
                 Action Initiated - During Period                                                       157               $1,695,340
                 Action Completed - During Period                                                       220                  $81,341
                 Action in Progress - End of Period                                                     525               $7,543,305

           1.	   DoD IG opened audit reports during the period involving $22.2 billion in “questioned costs.”

           2.	   On certain reports with audit estimated monetary benefits of $23.7 billion, we agreed that the resulting monetary
                 benefits can only be estimated after completion of management action, which is ongoing.

            ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(b)(2) & (3).




130 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                              Appendix D


CONTRACT AUDIT REPORTS ISSUED1
                                                                         Dollars          Questioned        Funds Put to Better
               Type of Audit2                   Reports Issued         Examined               Costs3                Use
                                                                     ($ in millions)     ($ in millions)      ($ in millions)
  Incurred Costs, Ops Audits, Special Audits           2,480           $44,565.2             $2,233.0                   $17.44
  Forward Pricing Proposals                              721           $64,844.9                   ---              $8,543.855
  Cost Accounting Standards                              462              $257.1                $38.8                      ---
  Defective Pricing                                        23            (Note 6)             $111.8                       ---
  Totals                                               3,686          $109,667.2            $2,383.6                 $8,561.2

Note 1. This schedule represents Defense Contract Audit Agency contract audit reports issued during the six months ended
Sept. 30, 2013. This schedule includes any audits that DCAA performed on a reimbursable basis for other government agencies
and the associated statistics may also be reported in other OIGs’ Semiannual Reports to Congress. Both “Questioned Costs”
and “Funds Put to Better Use” represent potential cost savings. Because of limited time between availability of management
information system data and legislative reporting requirements, there is minimal opportunity for DCAA to verify the accuracy
of reported data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication. In prior
semiannual reporting periods, DCAA reported the total number of assignments completed. The total number of assignments
completed during the six months ended Sept. 30, 2013 was 8,064. Some completed assignments do not result in a report issued
because they are part of a larger audit or because the scope of the work performed does not constitute an audit or attestation
engagement under generally accepted government auditing standards, so the number of audit reports issued is less than the
total number of assignments completed.

Note 2. This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
  •	 Incurred Costs – Audits of direct and indirect costs charged to Government contracts to determine that the costs are
     reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition
     Regulation Supplement, and provisions of the contract. Also included under incurred cost audits are Operations Audits,
     which evaluate a contractor’s operations and management practices to identify opportunities for increased efficiency and
     economy; and Special Audits, which include audits of terminations and claims.
  •	 Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change orders,
     costs for redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
  •	 Cost Accounting Standards – A review of a contractor’s cost impact statement required due to changes to disclosed
     practices, failure to consistently follow a disclosed or established cost accounting practice, or noncompliance with a CAS
     regulation.
  •	 Defective Pricing – A review to determine whether contracts are based on current, complete and accurate cost or pricing
     data (the Truth in Negotiations Act).

Note 3. Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws,
and/or contractual terms.

Note 4. Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that funds
could be used more effectively if management took action to implement cost reduction recommendations.

Note 5. Represents potential cost reductions that may be realized during contract negotiations.

Note 6. Defective pricing dollars examined are not reported because the original value was included in the audits associated
with the original forward pricing proposals.

   ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 8(f)(1).




                                                                                                     APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 131
Appendix E


         STATUS OF ACTION ON POST-AWARD
         CONTRACTS1
                                                                                          Costs Questioned6           Costs Sustained7
                                                            Number of Reports
                                                                                            ($ in millions)            ($ in millions)
           Open Reports
                 Within Guidelines2                                 617                        $5,635.5                             N/A8
                 Overage, greater than 6 months3                    626                        $2,208.2                             N/A
                 Overage, greater than 12 months   4
                                                                    547                        $1,234.7                             N/A
                 In Litigation   5
                                                                    156                        $1,949.7                             N/A
           Total Open Reports                                     1,946                       $11,028.1                             N/A
           Closed Reports                                           583                        $1,273.0                 $540.8 (42.5%)9
           All Reports                                            2,529                       $12,301.1

           1.	   This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing,
                 equitable adjustments, accounting and related internal control systems, and noncompliances with the Cost Accounting
                 Standards as reported by DoD Components. The status of action on significant post-award contract audits is reported
                 in accordance with DoD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports”. Because of limited time
                 between availability of the data and reporting requirements, there is minimal opportunity to verify the accuracy of the
                 reported data.

           2.	   These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up”, and DoD Instruction
                 7640.02 as described in footnotes 3 and 4 below.

           3.	   OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance. Generally, an audit is
                 resolved when the contracting officer determines a course of action which is documented and approved in accordance
                 with agency policy.

           4.	   DoD Instruction 7640.02 states that audit reports are overage if not dispositioned within 12 months from date of
                 issuance. Generally, disposition is achieved when the contractor implements audit recommendations, the contracting
                 officer negotiates a settlement with the contractor, or the contracting officer issues a final decision pursuant to the
                 Disputes Clause.

           5.	   Of the 156 reports in litigation, 44 are under criminal investigation.

           6.	   Cost Questioned represents the amount of audit exception, potential cost avoidance, or recommended price adjustment
                 in the audit report.

           7.	   Cost Sustained represent the questioned costs, potential cost avoidance, or recommended price adjustment sustained
                 by the contracting officer.

           8.	   Not applicable. Cost Sustained occurs when an audit report has been dispositioned (closed) during the reporting period
                 and as a result would not be applicable when reporting data on open reports..

           9.	   Contracting officers sustained $540.8 million (42.5 percent) of the $1,273.0 million questioned as a result of significant
                 post-award contract audits during the period. The contracting officer sustention rate of 42.5 percent represents a
                 decrease from the sustention rate of 62.3 percent for the prior reporting period.

            ◊	Fulfills requirement of DoD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports”, Enclosure 2,
              Section (1)(d).




132 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                 Appendix F


STATUS OF REPORTS WITH ACTION
PENDING
Report: D-2006-077, DoD Security Clearance Process        requirements are approved, document plans for
at Requesting Activities, 04/19/2006                      issuance of the armor kits.
Description of Action: Updating DoD Personnel             Reason Action Not Completed: Although action was
Security Clearance Program policies to include            initiated in late 2008, the Army has yet to establish
information on investigative responsibilities, security   validated armor kit requirements for the Family of
clearance systems, submission processes, levels of        Medium Tactical Vehicles.
security clearances, and training requirements.           Principal Action Office: Army
Reason Action Not Completed: Current DoD guidance
is dated January 1987. The Office of Management and       Report: D-2008-090, Controls Over Reconciling Army
Budget has delayed publication of DoD Instruction         Working Capital Fund Inventory Records, 05/13/2008
5200.2 as a final rule three times since DoD’’s           Description of Action: The Army is working to
submission to Office of Management and Budget in          update system capabilities for annual and end-of-day
September 2012. The most recent delay is to resolve       inventory reconciliations.
Office of Management and Budget’s categorization          Reason Action Not Completed: Requested systems
of the policy as a “significant rule” under Executive     changes to the Logistics Modernization Program have
Order 12866, which requires further review, a ruling      not been funded.
that DoD Office of General Counsel is working to          Principal Action Office: Army
have reversed. Estimated completion date on the
related DoD Manual is 2014. Air Force guidance            Report: D-2009-028, Organizational Structure and
delayed due to increased workload supporting new          Managers’ Internal Control Program for the Assistant
personnel security efforts. Estimated completion date     Secretary of Defense (Public Affairs) and American
is December 2013. Army Regulation 380-67 on hold          Forces Information Service, 12/10/2008
by Army Judge Adocate General pending publication         Description of Action: Investigate potential misuse of
of revised DoD guidance.                                  funds, improper contracting, and statutory violations.
Principal Action Office: Under Secretary of Defense       Reason Action Not Completed: The formal
for Intelligence, Army, Air Force                         Antideficiency Act Violation Investigation is ongoing.
                                                          Principal Action Office: Assistant Secretary of Defense
Report: D-2008-066, FY 2006 and FY 2007 DoD               for Public Affiars
Purchases Made Through the Department of the
Interior, 03/19/2008                                      Report: D-2009-030, Marine Corps Implementation of
Description of Action: Publish guidance/manual to         the Urgent Universal Needs Process for Mine Resistant
address deficiencies in interagency acquisitions on the   Ambush Protected Vehicles, 12/08/2008
proper use of non-DoD contracts.                          Description of Action: Report is FOUO.
Reason Action Not Completed: Due to questions             Reason Action Not Completed: The Marine Corps
raised by the Office of the General Counsel, the          action was on hold pending Joint Staff issuing revised
principal assistant responsible for contracting policy    guidance. Joint Staff issued revised guidance in
alert was delayed in order to reconcile the issues        January 2012. The Marine Corps has not yet updated
and coordinate the additional changes with key            their guidance.
stakeholders. The anticipated release date is not later   Principal Action Office: Marine Corps
than Dec. 31, 2013.
Principal Action Office: Army                             Report: D-2009-062, Internal Controls Over DoD Cash
                                                          and Other Monetary Assets, 03/25/2009
Report: D-2008-089, Planning Armor Requirements           Description of Action: Improve internal controls
for the Family of Medium Tactical Vehicles,               over cash and other monetary assets by establishing
05/09/2008                                                a special control account, developing policies and
Description of Action: Update the capabilities            procedures, and monitoring cash usage. Develop non-
documents for the Family of Medium Tactical Vehicles      cash methods of payment for contingency operations.
to include armor kit requirements. Once these




                                                                                       APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 133
Appendix F

         Reason Action Not Completed: Corrective actions          Report: D-2009-104, Sanitization and Disposal
         cannot be implemented until coordination with Office     of Excess Information Technology Equipment,
         of Management and Budget and/or the Department           09/21/2009
         of the Treasury is complete. Extensive coordination      Description of Action: DoD Chief Information Office is
         needed between DoD and its components, and with          updating DoD Instructions 8500.01 and 8510.01.
         the Treasury and Office of Management and Budget.        Reason Action Not Completed: Extended time is
         Principal Action Office: USD(C), DFAS                    required for revision of DoD guidance series.
                                                                  Principal Action Office: DoD Chief Information Office
         Report: D-2009-064, FY 2007 DoD Purchases Made
         Through the National Institutes of Health, 03/24/2009    Report: D-2010-015, DoD Civil Support During the
         Description of Action: Develop mandatory training        2007 and 2008 California Wildland Fires, 11/13/2009
         to address how the rules and regulations governing       Description of Action: Update DoD and joint
         multiple-award contracts differ from those governing     guidance to add clarity to the process of staffing
         the General Services Administration‘s Federal Supply     Federal Emergency Management Agency mission
         Schedules, including the award and administration of     assignments, on the legal employment of surveillance
         task and delivery orders.                                by DoD assets providing assistance to civil authorities,
         Reason Action Not Completed: Updating policy             and on specific events for command and control
         and in-processing Federal Acquisition Regulation         handoff guidance.
         changes takes time. Developing training materials to     Reason Action Not Completed: Extensive time
         be consistent with the regulation changes also takes     required to develop, coordinate and implement the
         time.                                                    guidance.
         Principal Action Office: USD(AT&L)                       Principal Action Office: Joint Chiefs of Staff, USD(C)

         Report: D-2009-072, Monitoring PowerTrack                Report: D-2010-024, Contracted Advisory and
         Payments for DoD Freight Transportation, 04/09/2009      Assistance Services for the U.S. Army Future Combat
         Description of Action: Use data mining to monitor        Systems, 11/24/2009
         problematic payments for duplicate payment               Description of Action: Report is FOUO.
         indicators.                                              Reason Action Not Completed: Extensive time
         Reason Action Not Completed: Enterprise Data             required to coordinate and issue guidance.
         Warehousing and data mining solutions to assist with     Principal Action Office: USD(AT&L)
         the pre-payment and post-payment processes will
         be analyzed and implemented through an internal          Report: D-2010-026, Joint Civilian Orientation
         controls effort sponsored by the Deputy Assistant        Conference Program, 12/09/2009
         Secretary of Defense (Transportation Policy) and DFAS.   Description of Action: Update DoD Instruction
         Principal Action Office: USD(AT&L)                       5410.19 to clarify how to administer and manage the
                                                                  Joint Civilian Orientation Conference program. Initiate
         Report: D-2009-098, Status of the Defense Emergency      a preliminary Antideficiency Act review of the use of
         Response Fund in Support of the Global War on            Joint Civilian Orientation Conference fees received
         Terror, 07/30/2009                                       since the inception of the Miscellaneous Receipts
         Description of Action: Review the Fund for Global        Statute.
         War on Terrorism obligations and deobligate all          Reason Action Not Completed: The Washington
         unliquidated obligations, withdraw all excess funds      Headquarters Service is appointing an investigator
         provided to the DoD components, and transfer the         to conduct a formal investigation of the reportable
         funds to the U.S. Treasury.                              violation. A complete rewrite of DoD Instruction
         Reason Action Not Completed: Extensive time              5410.19 is underway.
         needed to coordinate deobligation of unliquidated        Principal Action Office: Assistant Secreteary of
         obligations, withdrawal of excess funds, and             Defense (Public Affairs), Washington Headquarters
         transference of funds to U.S. Treasury.                  Service
         Principal Action Office: USD(C)
                                                                  Report: D-2010-028, Rapid Acquisition and Fielding of
                                                                  Materiel Solutions by the Navy, 12/15/2009
                                                                  Description of Action: Report is FOUO.




134 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                               Appendix F

Reason Action Not Completed: Long-term corrective       Contract Audit Agency audit assistance and will obtain
actions are ongoing.                                    reimbursements for incorrect charges with attention
Principal Action Office: Navy                           to $24.3 million for labor charges invoiced by the
                                                        contractors but not authorized by the task orders.
Report: D-2010-036, Controls Over Navy Military         Reason Action Not Completed: DCAA work is ongoing
Payroll Disbursed in Support of Operations in           and the contracting officer was to review $3.3 million
Southwest Asia at San Diego-Area Disbursing Centers,    in DCAA identified questioned costs.
01/22/2010                                              Principal Action Office: Air Force
Description of Action: Develop an electronic storage
capability for supporting documentation.                Report: D-2010-081, Army Use of Time-and-Materials
Reason Action Not Completed: Navy plans                 Contracts in Southwest Asia, 08/27/2010
to commence the Training Requirements and               Description of Action: Army Contracting Command
Information Management System implementation            will establish a plan for reviewing invoices for 18
within the United States has been delayed. The          contracts, and will request DCAA assistance. ACC-
newest version of Training Requirements and             Aberdeen Proving Ground and White Sands Missile
Information Management System cannot interface          Range. ACC-White Sands Missile Range will review
with overseas activities, and there is currently no     contracts and task orders. DCAA will conduct incurred
overseas implementation schedule.                       cost audits on the contractor for FY 2006 and FY
Principal Action Office: Navy                           2007. ACC will pursue a refund from the contractor, if
                                                        appropriate.
Report: D-2010-043, Deferred Maintenance and            Reason Action Not Completed: ACC and DCAA have
Carryover on the Army Abrams Tank, 03/02/2010           not completed reviews of task orders and audits of
Description of Action: Report is FOUO.                  incurred costs.
Reason Action Not Completed: The proposed change        Principal Action Office: Army
has been incorporated into the revised Financial
Management Regulation, which is now expected            Report: D-2011-028, Contract Oversight for the
February 2014.                                          Broad Area Maritime Surveillance Contract Needs
Principal Action Office: USD(C)                         Improvement, 12/23/2010
                                                        Description of Action: Develop an agency
Report: D-2010-051, Defense Contract Management         improvement policy that will require all letters
Agency Acquisition Workforce for Southwest Asia,        of delegation be modified to include necessary
04/08/2010                                              surveillance and inspection requirements.
Description of Action: Revise DoD Instruction           Reason Action Not Completed: Extensive time
5000.66 to require military departments and defense     required to develop and coordinate guidance.
agencies to develop guidance to identify acquisition,   Principal Action Office: Defense Contract
technology and logistics workforce requirements         Management Agency
in accordance with other DoD instructions and the
Financial Management Regulation.                        Report: D-2011-037, Marine Corps Response to
Reason Action Not Completed: Extensive time             Nonlethal Laser Dazzler Urgent Request, 02/09/2011
required to revise and coordinate instructions/         Description of Action: Perform a review of the
guidance.                                               circumstances that led to the purchase of the 28
Principal Action Office: USD(AT&L)                      Compact High Power Laser Dazzlers and initiate
                                                        administrative action, if appropriate.
Report: D-2010-065, Validity and Security of Selected   Reason Action Not Completed: Competing
DoD Civilian Employee Accounts, 05/25/2010              management priorities.
Description of Action: Report is classified.            Principal Action Office: Navy
Reason Action Not Completed: Extensive time
required to review and validate potentially invalid     Report: D-2011-047, Improvements Needed in
accounts and apply corrections.                         Contract Administration of the Subsistence Prime
Principal Action Office: DFAS                           Vendor Contract for Afghanistan, 03/02/2011
                                                        Description of Action: The Defense Logistics
Report: D-2010-078, Air Force Use of Time-and-          Agency will conduct fair and reasonable pricing
Materials Contracts in Southwest Asia, 08/16/2010       determinations, refunds of overpayments, and review
Description of Action: The Air Force Center for         costs charged to incorrect appropriations.
Engineering and the Environment requested Defense


                                                                                     APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 135
Appendix F

         Reason Action Not Completed: DLA has not                 Report: D-2011-080, DoD and DoS Need Better
         adequately supported pricing determinations              Procedures to Monitor and Expend DoD Funds for the
         for premium transportation, recovered potential          Afghan National Police Training Program, 07/07/2011
         overpayments to the prime vendor contractor,             Description of Action: Defense Contract Audit Agency
         established controls for managing refunds of             will conduct audit work to verify that DynCorp did not
         subsistence prime vendor overpayments, and               double-bill claimed costs under DoD and Department
         reviewed all subsistence prime vendor contracts.         of State contracts from Dec. 30, 2010, through to July
         Principal Action Office: DLA                             15, 2011.
                                                                  Reason Action Not Completed: Corrective actions are
         Report: D-2011-060, Marine Corps Inventory of Small      on-going and on schedule.
         Arms Was Generally Accurate but Improvements             Principal Action Office: DCAA
         Are Needed for Related Guidance and Training,
         04/22/2011                                               Report: D-2011-083, Additional Actions Can Further
         Description of Action: Update Marine Corps Order         Improve the DoD Suspension and Debarment Process,
         8300.1C to include additional guidance for small arms    07/14/2011
         accountability.                                          Description of Action: Develop a training program to
         Reason Action Not Completed: Competing                   inform contracting personnel of the suspension and
         management priorities.                                   debarment program and the process for referring
         Principal Action Office: Navy                            poorly performing contractors.
                                                                  Reason Action Not Completed: Long-term corrective
         Report: D-2011-061, Excess Inventory and Contract        actions are in process.
         Pricing Problems Jeopardize the Army Contract with       Principal Action Office: USD(AT&L)
         Boeing to Support the Corpus Christi Army Depot,
         05/03/2011                                               Report: D-2011-089, Reducing Vulnerabilities at
         Description of Action: Establish a formal                the Defense Information Systems Agency Defense
         memorandum of agreement between the Corpus               Enterprise Computing Centers, 07/22/2011
         Christi Army Depot, Aviation and Missile Command         Description of Action: Report is FOUO.
         Integrated Material Management Center, Defense           Reason Action Not Completed: Extensive time
         Logistics Agency and Boeing for dealing with excess      required to coordinate and implement corrective
         DoD inventory.                                           actions.
         Reason Action Not Completed: Long-term corrective        Principal Action Office: Defense Information Systems
         actions are still ongoing.                               Agency
         Principal Action Office: Army
                                                                  Report: D-2011-090, Cost of War Data for Marine
         Report: D-2011-071, U.S. Air Force Academy Could         Corps Contingency Operations Were Not Reliable,
         Have Significantly Improved Planning, Funding,           07/22/2011
         and Initial Execution of the American Recovery and       Description of Action: Update Marine Corps Order
         Reinvestment Act Solar Array Project, 06/16/2011         7300.21A “Marine Corps Financial Management
         Description of Action: Determine accountability for      Standard Operating Procedure Manual,” Oct. 2, 2008.
         the categorization of Recovery Act solar array project   Reason Action Not Completed: Long-term corrective
         costs as a utility company connection charge.            actions are in process.
         Reason Action Not Completed: Competing                   Principal Action Office: Navy
         management priorities.
         Principal Action Office: Air Force                       Report: D-2011-096, Improvements Are Needed
                                                                  to the DoD Information Assurance Vulnerability
         Report: D-2011-077, Improved Management Can              Management Program, 08/12/2011
         Reduce Costs of the Maintenance, Repair, and             Description of Action: Report is FOUO.
         Operations Prime Vendor Contract for the Republic of     Reason Action Not Completed: Extensive time
         Korea, 06/24/2011                                        required to revise and coordinate policy guidance.
         Description of Action: Report is FOUO.                   Principal Action Office: DoD Chief Information Office,
         Reason Action Not Completed: Administrative delays       Joint Chiefs of Staff, U.S. Strategic Command
         in awarding contract. The estimated completion date
         is January 2014.                                         Report: D-2011-104, Pricing and Escalation Issues
         Principal Action Office: DLA                             Weaken the Effectiveness of the Army Contract With



136 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                  Appendix F

Sikorsky to Support the Corpus Christi Army Depot,        Inventory and Control Costs at the Corpus Christi
09/08/2011                                                Army Depot, 11/03/2011
Description of Action: Defense Contract Management        Description of Action: Army will develop a plan
Agency will identify the Sikorsky purchasing system       to improve use of existing inventory and source
as high risk and perform a review to determine            of supply; will obtain refunds from Sikorsky for a
improvements that can be made. Army will improve          materiel cost reduction incentive and for excessive
contracting procedures for pricing and procurement,       profits on purchases from Defense Logistics Agency;
and obtain refunds from Sikorsky for pricing and          and contracting personnel will improve contracts
excessive escalation.                                     related to materiel cost reduction incentives and
Reason Action Not Completed: Long-term corrective         purchases from DLA to prevent Sikorsky from making
actions are on-going.                                     excessive profits.
Principal Action Office: DCMA, Army                       Reason Action Not Completed: Long-term corrective
                                                          actions are on-going.
Report: D-2011-106, The Department of the Navy            Principal Action Office: Army
Spent Recovery Act Funds on Photovoltaic Projects
That Were Not Cost-Effective, 09/22/2011                  Report: DODIG-2012-006, Counter Narcoterrorism
Description of Action: Develop comprehensive policy       Technology Program Office Task Orders Had
for planning, prioritizing, selecting, and executing      Excess Fees, and the Army Was Incorrectly Billed,
cost-effective shore energy projects in accordance        11/01/2011
with DoD and federal requirements.                        Description of Action: The U.S. Army Space and
Reason Action Not Completed: The Navy and                 Missile Command contracting office will complete
the Marine Corps are developing planning and              their final review of excess fixed fees in the amount
implementation guidance.                                  of $20,000 and will negotiate a return of the funds, if
Principal Action Office: Navy, Marine Corps               appropriate.
                                                          Reason Action Not Completed: The U.S. Army Space
Report: D-2011-108, Geothermal Energy                     and Missile Command contracting office has not yet
Development Project at Naval Air Station Fallon,          completed their final review of excess fixed fees.
Nevada, Did Not Meet Recovery Act Requirements,           Principal Action Office: Army
09/19/2011
Description of Action: Establish a timeline for project   Report: DODIG-2012-007, Acquisition of the Multi-
completion and then determine if the project is still a   Platform Radar Technology Insertion Program Needs
valid use of Recovery Act funds.                          Transparency and Accountability, 11/02/2011
Reason Action Not Completed: Corrective actions are       Description of Action: Direct the Air Force to update
on schedule.                                              the Acquisition Strategy before Milestone C, submit
Principal Action Office: Navy                             a Capability Production Document in the Acquisition
                                                          Decision Memorandum, and update the Multi-
Report: D-2011-111, Guidance on Petroleum War             Platform Radar Technology Insertion Program/Global
Reserve Stock Needs Clarification, 09/27/2011             Hawk Block 40 Test and Evaluation Master Plan.
Description of Action: Report is classified.              Reason Action Not Completed: Corrective actions are
Reason Action Not Completed: Corrective actions are       on schedule.
on schedule.                                              Principal Action Office: USD(AT&L)
Principal Action Office: USD(AT&L), JCS
                                                          Report: DODIG-2012-017, U.S. Naval Academy
Report: D-2011-115, DoD Cannot Ensure Contractors         Officials Did Not Adhere to Contracting and Gift
Protected Controlled Unclassified Information for         Policies, 11/07/2011
Weapon Systems Contracts, 09/30/2011                      Description of Action: The U.S. Naval Academy will
Description of Action: Report is FOUO.                    revise guidance, improve controls, and implement
Reason Action Not Completed: Significant public           computer software systems covering in-kind gifts and
comments required additional time to adjudicate.          sponsorship funds.
Principal Action Office: USD (AT&L)                       Reason Action Not Completed: Corrective actions are
                                                          on schedule..
Report: DODIG-2012-004, Changes Are Needed to             Principal Action Office: Navy
the Army Contract With Sikorsky to Use Existing DoD




                                                                                        APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 137
Appendix F

         Report: DODIG-2012-036, DoD Needs to Improve             Report: DODIG-2012-069, Action is Needed to
         Accountability and Identify Costs and Requirements       Improve the Completeness and Accuracy of Defense
         for Non-Standard Rotary Wing Aircraft, 01/05/2012        Enrollment Eligibility Reporting System Beneficiary
         Description of Action: Develop a departmental            Data, 04/02/2012
         directive that establishes and implements policy for     Description of Action: Issue policy that requires
         service and component airworthiness programs.            Real-time Automated Personnel Identification System
         Reason Action Not Completed: Corrective actions are      personnel to scan and store documentation in the
         on schedule.                                             Defense Enrollment Reporting System that supports
         Principal Action Office: USD(AT&L)                       eligibility.
                                                                  Reason Action Not Completed: Corrective actions are
         Report: DODIG-2012-039, Summary Report on DoD’s          on schedule.
         Management of Undefinitized Contractual Actions,         Principal Action Office: Under Secretary of Defense
         01/13/2012                                               for Personnel and Readiness
         Description of Action: Develop a transparent
         means to document incurred costs and reduced             Report: DODIG-2012-072, DoD’s FY 2010 Purchases
         cost risk related to substantial incurred costs during   Made Through the Department of the Interior,
         undefinitized periods.                                   04/13/2012
         Reason Action Not Completed: The original Defense        Description of Action: USD(AT&L) will issue
         Federal Acquisition Regulation Supplement case has       contracting guidance to DoD that establishes
         been subsumed under a new DFARS case to address a        procedures for approving contracting actions when
         broader effort to review and modify the Department’s     using other federal agencies contracts to make
         profit guidelines.                                       purchases for DoD.
         Principal Action Office: USD(AT&L)                       Reason Action Not Completed: The DoD has not yet
                                                                  completed the policy memorandum for contracting
         Report: DODIG-2012-050, Improvements Needed              guidance.
         With Host-Based Intrusion Detection Systems,             Principal Action Office: USD(AT&L)
         02/03/2012
         Description of Action: Report is FOUO.                   Report: DODIG-2012-081, Navy Organic Airborne and
         Reason Action Not Completed: Multiple systems and        Surface Influence Sweep Program Needs Defense
         configuration processes that are needed are ongoing.     Contract Management Agency Support, 04/27/2012
         Principal Action Office: U.S. Strategic Command,         Description of Action: Navy will review the
         Defense Information Systems Agency                       other programs of littoral combat ship portfolio
                                                                  to determine whether program managers are
         Report: DODIG-2012-064, Vulnerability and Risk           maximizing the use of DCMA services.
         Assessments Needed to Protect Defense Industrial         Reason Action Not Completed: Corrective actions are
         Base Critical Assets, 03/13/2012                         in process.
         Description of Action: Report is FOUO                    Principal Action Office: Navy
         Reason Action Not Completed: Corrective actions are
         on schedule.                                             Report: DODIG-2012-082, DoD Can Improve Its
         Principal Action Office: Under Secretary of Defense      Accounting for Residual Value From the Sale of U.S.
         for Policy                                               Facilities in Europe., 05/04/2012
                                                                  Description of Action: The comptroller will obligate
         Report: DODIG-2012-066, General Fund Enterprise          $6 million of a $6.8 million unobligated balance
         Business System Did Not Provide Required Financial       in the DoD Overseas Military Facilities Investment
         Information, 03/26/2012                                  Recovery Account, and will revise the DoD Financial
         Description of Action: Implement corrective actions      Management Regulation to address oversight of
         to address the Standard Financial Information            unobligated balances. USD (AT&L) will revise guidance
         Structure gaps as reported in the General Fund           to require that future residual value settlement
         Enterprise Business System.                              negotiations analyze and document how the
         Reason Action Not Completed: Corrective actions are      settlement was determined.
         on schedule.                                             Reason Action Not Completed: The corrective actions
         Principal Action Office: Army                            are being implemented on schedule.
                                                                  Principal Action Office: USD(C), USD(AT&L)




138 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                               Appendix F

Report: DODIG-2012-083, Additional Guidance and         Report: DODIG-2012-102, Better Cost-Control
Training Needed to Improve Afghan National Army         Measures Are Needed on the Army’s Cost-
Pharmaceutical Distribution, 05/07/2012                 Reimbursable Services Contract for Logistics Support
Description of Action: Develop a new course that        of Stryker Vehicles, 06/18/2012
will provide pharmacy technicians with the logistics    Description of Action: Revise Army Regulation
training needed to perform their jobs and help          700-127 to require the use of all necessary DoD
improve the pharmaceutical distribution process.        overarching total life-cycle systems management
Reason Action Not Completed: Time needed to             metrics in performance-based logistics contracts to
develop new a training module for the Pharmacy          effectively ensure desired outcomes.
Technician Training Course and update policy changes.   Reason Action Not Completed: Extensive time
Principal Action Office: U.S. Central Command           required to coordinate and issue guidance.
                                                        Principal Action Office: Army
Report: DODIG-2012-087, Logistics Modernization
Program System Procure-to-Pay Process Did Not           Report: DODIG-2012-104, DoD Needs to Improve
Correct Material Weaknesses, 05/29/2012                 Vocational Training Efforts to Develop the Afghan
Description of Action: Develop a plan of action and     National Security Forces Infrastructure Maintenance
milestones to bring the Logistics Modernization         Capabilities, 06/18/2012
Program system into compliance with the DoD             Description of Action: The Combined Security
Business Enterprise Architecture Procure-to-Pay         Transition Command-Afghanistan will execute
business rules.                                         existing transition strategy initiatives and develop
Reason Action Not Completed: Long-term corrective       new initiatives to accelerate development of Afghan
actions are still ongoing.                              National Security Forces infrastructure maintenance
Principal Action Office: Army                           capabilities.
                                                        Reason Action Not Completed: Time needed to revise
Report: DODIG-2012-090, Improvements Needed             and staff the lnfrastructure Training Advisory Team
to Strengthen the Defense Enrollment Eligibility        Campaign Plan.
Reporting System Security Posture, 05/22/2012           Principal Action Office: U.S. Central Command
Description of Action: Report is FOUO.
Reason Action Not Completed: Corrective actions are     Report: DODIG-2012-106, DoD Needs to Improve the
on schedule.                                            Billing System for Health Care Provided to Contractors
Principal Action Office: Under Secretary of Defense     at Medical Treatment Facilities in Southwest Asia,
for Personnel and Readiness                             06/27/2012
                                                        Description of Action: In April 2011, DoD began billing
Report: DODIG-2012-095, American Recovery               contractors for health care provided in Southwest
and Reinvestment - Ineffective Controls Over            Asia, but improvements to the billing system are
the Contractor’s Performance and Reporting for          needed. Without improvements to the billing system,
Modernization of the Navy Operational Support           it is likely Defense Finance and Accounting Service will
Center in Charlotte, North Carolina, 06/05/2012         continue to underbill.
Description of Action: The Commanding Officer,          Reason Action Not Completed: General Counsel
Naval Facilities Engineering Command Mid-Atlantic       review to determine if current process to bill non-DoD
will validate contractor-reported data to detect and    contractors is adequate or if an alternate process is
correct significant reporting errors.                   required.
Reason Action Not Completed: Corrective actions are     Principal Action Office: Under Secretary of Defense
ongoing.                                                for Contracting
Principal Action Office: Navy
                                                        Report: DODIG-2012-107, Defense Finance and
Report: DODIG-2012-099, Adequate Contract Support       Accounting Service Needs to Improve the Process for
and Oversight Needed for the Tactical Wheeled           Reconciling the Other Defense Organizations’ Fund
Vehicle Maintenance Mission in Kuwait, 06/01/2012       Balance with Treasury, 07/09/2012
Description of Action: Report is FOUO.                  Description of Action: Develop a systems
Reason Action Not Completed: Corrective actions are     infrastructure that will allow: retrieval of detailed
on schedule.                                            transactions that support open appropriations,
Principal Action Office: Army                           reconciliations between transactions supporting the
                                                        amounts on the Cash Management Report and Other



                                                                                     APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 139
Appendix F

         Defense Organizations’ accounting systems, and            Report: DODIG-2012-115, Improved Oversight, but
         monthly transaction level reconciliations for the Other   No Invoice Reviews and Potential Antideficiency Act
         Defense Organizations. Also, develop an agreement         Violation May Have Occurred on the Kuwait Observer
         that designates responsibility for remediating            Controller Team Task Orders, 08/02/2012
         transactions that have remained unmatched since           Description of Action: Defense Contract Audit Agency
         2007.                                                     will coordinate with the Army contracting officer
         Reason Action Not Completed: Long-term corrective         to implement procedures for reviewing vouchers
         actions are still ongoing.                                and verifying that the contractor does not receive
         Principal Action Office: DFAS                             reimbursement for potentially unallowable costs, and
                                                                   will determine whether to include direct travel costs
         Report: DODIG-2012-108, Questionable Data Cast            as a high risk area.
         Doubt on the Need for Continuing the Defense              Reason Action Not Completed: DCAA action is on-
         Transportation Coordination Initiative, 08/31/2012        going and on schedule.
         Description of Action: Review contractor performance      Principal Action Office: DCAA
         against the criteria in the Award Term Option Plan
         to determine whether the Defense Transportation           Report: DODIG-2012-117, DoD Needs to improve
         Coordination Initiative achieves cost-savings goals and   Controls Over Economy Act Orders with U.S. Agency
         other key performance indicators prior to exercising      for International Development, 08/14/2012
         an option year.                                           Description of Action: DoD Acquisition and Logistics
         Reason Action Not Completed: Corrective actions are       officials established a working group to review
         on schedule.                                              acquisition policy related to Economy Act and non-
         Principal Action Office: U.S. Transportation Command      Economy Act interagency acquisitions. The group
                                                                   will address the recommendation regarding the use
         Report: DODIG-2012-110, Better Oversight Needed           of either a reimbursement process or a direct cite
         for the National Guard’s Weapons of Mass Destruction      when establishing Economy Act orders with non-
         Civil Support Teams, 07/02/2012                           DoD agencies; and the recommendation to include
         Description of Action: The director, National Guard       procedures for properly monitoring interagency
         Bureau-J3, will develop a written oversight plan          acquisitions. U.S. Forces-Afghanistan is updating
         that verifies compliance with mission-reporting           procedures and establishing controls over the
         requirements and provides feedback to Weapons of          development and monitoring of Economy Act orders.
         Mass Destruction Civil Support Teams on omissions         Reason Action Not Completed: Long-term corrective
         and errors.                                               actions are in process.
         Reason Action Not Completed: Time required to             Principal Action Office: USD(AT&L), USFOR-A
         convert all National Guard Bureau issued instructions
         to Chief, National Guard Bureau issued policy and         Report: DODIG-2012-119, Most Geographic
         manuals.                                                  Combatant Commands Effectively Planned
         Principal Action Office: National Guard Bureau            and Executed Disaster Relief Operations, but
                                                                   Improvements Could be Made, 08/14/2012
         Report: DODIG-2012-112, Reporting the Daily               Description of Action: Implement best practices
         Location of Deployed Service Members Generally            for disaster relief in key areas, such as command
         Adequate; However, the Navy Needed Improvement,           procedures, information sharing, phase-zero activities,
         07/18/2012                                                and dissemination of lessons learned.
         Description of Action: Task the appropriate               Reason Action Not Completed: U.S. European
         commands to establish roles and responsibilities for      Command will review Disaster Relief Plans from other
         implementing daily location reporting for deployed        combatant commands and utilize concepts, ideas and
         service members required by DoD Instruction               best practices from those plans that are compatible
         6490.03, “Deployment Health.”                             and effective into U.S. European Command plans.
         Reason Action Not Completed: The Chief of Naval           Principal Action Office: U.S. European Command
         Operations is developing a plan of action and
         milestones outlining the way to achieve compliance        Report: DODIG-2012-122, DoD Should Procure
         with the location reporting requirements.                 Compliant Physical Access Control Systems to Reduce
         Principal Action Office: Navy                             the Risk of Unauthorized Access, 08/29/2012




140 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                  Appendix F

Description of Action: Reassess and require each           Description of Action: Army conducted a preliminary
office responsible for the full implementation of          Antideficiency Act review of the modification of the
Homeland Security Presidential Directive-12 to             General Fund Enterprise Business System contract
provide oversight and accountability including the         concerning leased space for the General Fund
reprogramming of funding when appropriate or               Enterprise Business System Project Office, will request
necessary. Require the services and DoD agencies           the General Services Administration to ratify the
to report semiannually to the Under Secretary of           contract, and will evaluate appropriate remedies for
Defense for Personnel and Readiness on the status          potential improper payments.
of their Homeland Security Presidential Directive-12       Reason Action Not Completed: Army conducted a
implementation efforts. Report on facilities with          preliminary Antideficiency Act review but DoD IG
installed physical access control systems and physical     disagrees with the Army’s results.
access control systems’ equipment that comply with         Principal Action Office: Army
Federal Information Processing Standard 201 and on
those facilities required to install or upgrade physical   Report: DODIG-2012-129, General Purpose Forces
access control systems and equipment to comply with        Enablers Support to Special Operations Forces Works
Federal Information Processing Standard 201. Require       Effectively, but Opportunities Exist for Improvement,
the completion of site surveys, to include participation   09/13/2012
of installation security personnel, that address all       Description of Action: The Report is classified
mission requirements and infrastructure limitations.       Reason Action Not Completed: Corrective actions are
Reason Action Not Completed: Under Secretary of            on schedule.
Defense for Personnel and Readiness will convene           Principal Action Office: JCS
senior and working level meetings to address
the responsibilities of each Homeland Security             Report: DODIG-2012-130, DFAS Controls over
Presidential Directive-12 Office of Secretary of           Duplicate Payments in One Pay Were Generally
Defense principal staff assistant. USD (P&R) will          Effective, But There Were Opportunities for
work with each principal staff assistant to ensure         Improvement, 09/14/2012
compliance with relevant federal requirements and          Description of Action: Conduct testing of various
request each principal staff assistant to provide an       settings and use those results to determine if a logic
annual update regarding their Homeland Security            change would improve both improper payment
Presidential Directive-12 implementation efforts. All      prevention and optimized resource use.
DoD components will be directed to use the Defense         Reason Action Not Completed: Corrective actions still
Property Accountability System to inventory and            ongoing.
manage physical access control systems and physical        Principal Action Office: DFAS
access control equipment. Once a Department-wide
inventory is completed, authorized users will be able      Report: DODIG-2012-131, Improvements Needed
to query Defense Property Accountability System            in How the Defense Finance and Accounting Service
for the required report information on a real-time         Adjusts and Supports Billing Rates, 09/19/2012
basis. A directive paragraph will be included in the       Description of Action: USD(C) is updating the
Navy Physical Security and Law Enforcement Policy          DoD Financial Management Regulation to require
to include the requirement for installation officials      written authorization to use prices other than
to be included in the site survey. Headquarters            those established in the budget review process.
Marine Corps coordination of working groups is             DFAS is working to provide sufficient information to
ongoing to address required support to the integrated      customers so that they can understand the accounting
assessment team and to identify specific information,      services performed and how they contribute to
requirements, and standards that will be compiled          increased DFAS costs and workload.
during the site visits.                                    Reason Action Not Completed: Long-term corrective
Principal Action Office: Under Secretary of Defense        actions are in process.
for Personnel and Readiness, Under Secretary of            Principal Action Office: DFAS; USD(C)
Defense for Intelligence, Navy, Marine Corps
                                                           Report: DODIG-2012-132, Improvements Needed
Report: DODIG-2012-125, Inappropriate Leasing for          in How the Defense Finance and Accounting Service
the General Fund Enterprise Business System Office         Adjusts and Supports Billing Rates, 09/14/2012
Space, 09/11/2012




                                                                                        APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 141
Appendix F

         Description of Action: Identify existing deficiencies,              Report: DODIG-2012-137, U.S. Pacific Command’s
         such as those identified in this report related to                  Petroleum War Reserve Requirements and Stocks,
         the unified facilities criteria and quality of life,                09/26/2012
         and implement appropriate actions to correct the                    Description of Action: Revise DoD Manual 4140-25-
         deficiencies.                                                       M, “DoD Management of Bulk Petroleum Products,
         Reason Action Not Completed: Of the 26 items                        Natural Gas, and Coal,” to include a requirement for
         noted, 19 now have been closed, five are in progress                updating the days of supply planning factors at least
         and two are listed for future funding.                              biannually.
         Principal Action Office: Navy                                       Reason Action Not Completed: DoD Directive 4140-
                                                                             25 and DoD Manual 4140-25-M are expected to be
         Report: DODIG-2012-135, Mi-17 Overhauls Had                         issued in the 2nd quarter 2014.
         Significant Cost Overruns and Schedule Delays,                      Principal Action Office: USD(AT&L)
         09/27/2012
         Description of Action: Army will consider suspension                Report: DODIG-2012-138, Wholesale Accountability
         or debarment of a contractor; review analyses of                    Procedures Need Improvement for the Redistribution
         costs to ensure correctness; withhold payments to                   Property Assistance Team Operations, 09/26/2012
         contractor until costs have been verified as correct;               Description of Action: Define wholesale
         and establish controls for contracting officers on cost             accountability process, develop written procedures,
         and price analysis, modifications, and documentation                and disseminate procedures to all officials involved
         of fair and reasonable price determinations.                        with wholesale accountability. Inspect compliance
         Reason Action Not Completed: Corrective actions are                 with guidance. Update performance work statement
         on schedule.                                                        to include performance measures for Redistribution
         Principal Action Office: Army                                       Property Assistance Team operations, and incorporate
                                                                             updated performance work statement into contract.
         Report: DODIG-2012-136, DoD Education Activity                      Reason Action Not Completed: Training and
         Needed Better Planning for Military Construction                    assessment of compliance with new guidance are in
         Projects, 09/24/2012                                                process. Updated performance work statement was
         Description of Action: DoD Education Activity will                  not incorporated in existing contract because mission
         conduct a Business Case Analysis and cost                           was complete. Change in acquisition strategy delayed
         estimate on the 21st Century Education Facilities                   contract re-competition. Contract award is expected
         Specifications Initiative that meets applicable                     in November 2013.
         standards and guidance.                                             Principal Action Office: Army
         Reason Action Not Completed: Corrective actions are
         on schedule.
         Principal Action Office: Under Secretary of Defense
         for Personnel and Readiness

            ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(b)(4).




142 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                  Appendix G


SECTION 845 ANNEX AUDIT REPORTS WITH
SIGNIFICANT FINDINGS
DoD IG
Audit Report No. DODIG-2013-063                                    Date: April 8, 2013
Subject: Award and Administration of Performance-Based Payments in DoD Contracts
Report: $53.3 Million in Funds Put to Better Use
DoD contracting personnel needed additional guidance and training to better award and administer the
$13.2 billion in performance-based payment events contained in the 60 contracts reviewed. DoD risked
making advance payments totaling $11.4 billion and might have made full payments for less than full contract
performance. Also, the government could have needlessly incurred $28.8 million in carrying costs associated with
the $7.5 billion that DoD paid contractors. The government could realize potential monetary benefits of $13.6
million to $53.3 million over the next five years related to reduced carrying costs.

Audit Report No. DODIG-2013-090                                    Date: June 13, 2013
Subject: Improved Guidance Needed to Obtain Fair and Reasonable Prices for Sole Source Spare Parts Procured
By the Defense Logistics Agency From The Boeing Company
Report: $13.7 Million in Funds Put to Better Use
Defense Logistics Agency Aviation contracting officers did not negotiate fair and reasonable prices on 1,469
delivery orders, valued at $27.2 million, thereby not getting best value for the government. DLA Aviation paid
approximately $13.7 million in excess of fair and reasonable prices for the delivery orders.

Audit Report No. DODIG-2013-095                                    Date: June 27,2013
Subject: Award and Administration of Radio Contracts for the Afghan National Security Forces Need
Improvement
Report: $133.0 Million in Questioned Costs and $5. Million in Funds Put to Better Use
U.S. Army Communications–Electronics Command, Security Assistance Management Directorate personnel could
not substantiate the requirements for $133 million of Datron radios and equipment procured for the Afghan
National Security Forces because personnel developed letters of offer and acceptance for more equipment
than NATO Training Mission–Afghanistan/Combined Security Assistance Command–Afghanistan requested.
Additionally, Datron did not meet the initial 90-day contractual delivery requirement for 29 of 36 contract
actions, and Army Contracting Command–Aberdeen Proving Ground contracting officials did not renegotiate
to establish reasonable delivery schedules. Lastly, the Defense Security Cooperation Agency personnel did not
return excess contract administration services fees associated with Datron radio contracts to the Afghanistan
Security Forces Fund. Therefore, approximately $5 million in excess fees were not available to NTM-A/CSTC-A to
procure unfunded requirements for ANSF.




                                                                                         APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 143
Appendix G

          Audit Report No. DODIG-2013-103                                     Date: July 16, 2013
          Subject: Boeing Overstated Contract Requirements for the CH-47F Helicopter
          Report: $51.8 Million in Funds Put to Better Use
          Boeing overstated contract requirements by $15.1 million for 21 high dollar parts. Boeing also overstated
          requirements for 17 parts valued at $35.1 million that would result in overcharges ranging from $7.4 million to
          $16.6 million. As a result of our audit, Army Aviation and Missile Life Cycle Management Command performed
          an analysis of Boeing’s multi-year II contract proposal and calculated $36.8 million in funds that could be put to
          better use by reducing safety stock costs. The multi-year II contract also had potential requirement overcharges
          for eight parts valued at $51.7 million that would result in overcharges ranging from $10.6 million to $19.1
          million. As a result of our audit, AMCOM officials reviewed these eight parts on the multi-year II contract, and
          Boeing adjusted the requirements.

          Audit Report No. DODIG-2013-128                                     Date: Sept. 19, 2013
          Subject: Air Force and Army Corps of Engineers Improperly Managed the Award of Contracts for the Blue Devil
          Block 2 Persistent Surveillance System
          Report: $149 Million in Wasted Funds
          Air Force efforts were unsuccessful to rapidly develop and field a persistent surveillance capability in response to
          joint urgent operational needs. Air Force and Army Corps of Engineers personnel improperly managed the award
          of contracts for Blue Devil Block 2. The warfighter did not receive an urgently needed capability and Air Force
          personnel wasted about $149 million on a system the contractor did not complete.



         DCAA
          Audit Report No. 06281-2006H10100001                                Date: March 27, 2013
          Subject: Independent Audit of Contractor FY 2006 Incurred Cost Submission
          Prepared For: Defense Contract Management Agency
          Report: $120.7 Million Questioned Costs
          The audit of the incurred cost submission disclosed $120.7 million in questioned costs, including the following
          significant items: $61.6 million pension costs that should be part of segment-incurred cost submission; $7.9
          million pension administrative costs that were unsupported, out of period or ERISA noncompliant; $18.5
          million business insurance costs primarily that are allocable to the prior year; $17.8 million health and welfare
          costs related to ineligible dependents and excess self-insurance, over purchased insurance; $4.6 million state
          income taxes in excess of actual costs billed to segments; $2.2 million fringe-benefit costs for unallowable
          vacation accrual and paid holiday costs and fringe costs related to questioned labor costs; $2.1 million executive
          compensation for employees performing unallowable activities, unreasonable compensation and compensation
          over the executive compensation ceiling.

          Audit Report No. 09771-2010C17100002                                Date: March 27, 2013
          Subject: Examination of Termination
          Prepared For: Contracting Officer
          Report: $52.3 Million Questioned Costs
          The audit of the termination proposal resulted in $52.3 million in questioned costs. The significant items
          of questioned costs relate to labor hours not supported by timecards, unsupported material costs, lack of
          supporting documentation for computer services billed as other direct costs and assist audit results of proposed
          subcontract costs.




144 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                   Appendix G

Audit Report No. 06341-2011A17900002                               Date: March 28, 2013
Subject: Independent Audit of Labor Charging
Prepared For: DCMA Munitions and Support Systems
Report: $23.2 Million Questioned Costs
The audit of the labor billings on a Time and Materials contract resulted in $23.2 million of questioned costs,
including $1.2 million of subcontractor labor billed above cost; and $22.0 million of billed subcontractor and
prime contractor labor for employees that did not meet the education or experience requirements specified in
the contract.

Audit Report No. 06281-2005G10100001                               Date: April 15, 2013
Subject: Independent Audit of FY 2005 Final Indirect Cost Rate Proposal
Prepared For: Defense Contract Management Agency
Report: $60.9 Million Questioned Costs
The audit of the indirect cost rate proposal resulted in $60.9 million in questioned costs, $30.4 million of direct
costs and $30.5 million of indirect costs. The significant items of direct costs questioned are $16 million of
labor not adequately supported, e.g. lack of timesheets for labor; $8.5 million of material was not supported
adequately, e.g. lack of voucher, check and/or purchase order support or lack of required contracting officer
approval for material. The significant items of indirect costs are $20.3 million in questioned allocations and
questioned costs from the audit of the home office; $9.0 million not adequately supported, e.g. indirect labor not
supported by timesheets or unallowable, e.g. excess executive compensation.

Audit Report No. 03221-2006T10100001                               Date: April 17, 2013
Subject: Independent Audit of Contractor FY 2006 Administrative, Centrally Administered, and Cost of Money
Certified Final Indirect Proposal
Prepared For: Defense Contract Management Agency
Report: $212.9 Million Questioned Costs
The audit of the indirect cost proposal resulted in $212.9 million in questioned costs, including the following
significant items: $5.4 million purchased services—due to inadequate support, e.g., service agreements and/or
invoices; $2.8 million travel—unallowable primarily due to costs in excess of per diem and economy fare or as
inadequately supported; $2.5 million employee motivation—primarily patent costs related to invention awards
were not adequately supported as allowable, incurred as a government contract requirement; $38.5 million
professional services—primarily related to insufficient support such as invoices and signed service agreements;
$26.7 million consulting—primarily for inadequate support such as invoices, agreements and work product;
$30.3 million contractor international—due to inadequate support of percentages for determining unallowable
international office costs; $60.0 million employee group insurance—primarily as unallowable due to lack of
support of dependent eligibility; $10.3 retired medical insurance—as unallowable due to lack of support of
dependent eligibility; $25.5 million corporate liability insurance—as unallowable primarily due to inadequate
support of actual loss history experience used to determine the self-insurance premium.




                                                                                          APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 145
Appendix G

          Audit Report No. 06281-2005G10100002                              Date: April 26, 2013
          Subject: Independent Audit of FY 2005 Final Indirect Cost Rate Proposal
          Prepared For: Defense Contract Management Agency
          Report: $63.9 Million Questioned Costs
          The audit of the indirect cost rate proposal resulted in $38.8 million of questioned indirect costs and $25.1
          million of questioned direct costs. The significant items of indirect costs questioned are $29 million—allocations
          from division and home office allocations questioned in other DCAA audit reports; $5.7 million indirect labor—
          not adequately supported, e.g. properly completed timesheet. The significant items of direct costs questioned
          are $18.1 million direct labor—due to lack of properly completed timesheets to establish the cost was incurred as
          claimed; and $2.5 million consultant costs not supported by statements of work/contract agreements as required
          by the Federal Acquisition Regulation.

          Audit Report No. 09771-2008C42000005                              Date: April 30, 2013
          Subject: Post Award Audit
          Prepared For: Defense Contract Management Agency
          Report: $22.3 Million Recommended Price Adjustment
          The audit of the contractor’s compliance with 10 U.S.C. 2306a, Truth in Negotiations Act, resulted in a
          recommended price adjustment of $22.3 million for increased material, labor and related indirect costs included
          in the negotiated contract price, because the contractor did not comply with the statutory requirement to furnish
          accurate, complete and current cost or pricing data prior to contract award. The recommended price adjustment
          was based on current purchase orders; labor hour history from prior delivery orders; correction of pricing
          errors for items based on purchase orders and quotes; application of a material price curve representative of
          the unit price/quantities from the current purchase orders; application of a labor improvement curve based on
          historical labor hours and application of a labor improvement curve base on quantities manufactured from prior
          delivery orders.

          Audit Report No. 03181-2012D10180017                              Date: May 7, 2013
          Subject: Independent Audit Of Direct Costs Incurred and Claimed Under Contract, FY 2000 to CY 2011
          Prepared For: U.S. Air Force Central Command
          Report: $136.2 Million Questioned Costs
          The audit of the incurred cost claim disclosed $136.2 million in questioned costs, including the following
          significant items: $39.7 million direct labor—costs were not adequately supported by timesheets, employment
          agreements or there was no support provided; $15.6 million direct travel—costs were not adequately supported
          (e.g., by vouchers, receipts and/or expense reports), not allocable to this period, or exceeded per diem; $76.6
          million other direct costs—claimed costs did not tie to books, were not adequately supported (e.g. by vouchers,
          proof of payment, contractual agreements) or were not allocable to this period.




146 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                    Appendix G

Audit Report No. 01621-2012A17100001                                Date: May 14, 2013
Subject: Independent Audit of Termination Settlement Proposal
Prepared For: Defense Contract Management Agency – Terminations Group
Report: $12.5 Million Questioned Costs
The audit of the termination settlement proposal resulted in $12.5 million of questioned cost, including the
following significant items: $3.8 million of general and administrative expenses due to questioned rates and to
questioned base costs; $2.0 million of settlement expenses including unreasonable consultant expenses and
unallowable labor for idle time and job search; $3.2 million of claimed “loss of useful life” for special equipment
that the contractor does not intend to transfer to the government; and $2.2 million of proposed subcontract
settlement costs in excess of the actual or updated estimated settlements.

Audit Report No. 03231-2007M10100049                                Date: May 22, 2013
Subject: Independent Audit of FY 2007 Incurred Cost Proposal
Prepared For: U.S. Department of Energy
Report: $15.4 Million Questioned Costs
The audit of the incurred cost proposal disclosed $15.4 million in questioned costs, including the following
significant items: $4.7 million labor—costs were not adequately supported (e.g., no timesheets or timesheet not
adequate) or wage exceeded Federal Acquisition Regulation’s compensation limitation; $3.1 million consultants—
costs were for unallowable lobbying or advertising activities, were not adequately supported (e.g. by invoices
agreements, expense reports to establish allowability) or were not allocable as claimed; $2.4 million shareholder
expenses—were not adequately supported to determine the actual activities or constitute equity payouts.

Audit Report No. 06281-2005G10100003                                Date: May 22, 2013
Subject: Independent Audit of FY 2005 Final Indirect Cost Rate Proposal
Prepared For: Defense Contract Management Agency
Report: $136.6 Million Questioned Costs
The audit of the indirect cost rate proposal resulted in $136.8 million of questioned indirect costs, including
the following significant items: $70.9 million not allocable per Federal Acquisition Regulation; $35.5 million not
adequately supported to determine allowability; $19.9 million questioned based on other Defense Contract Audit
Agency audits and reconciliation differences of claimed to booked costs; $3.7 million unallowable compensation;
$1.9 million out of period costs.

Audit Report No. 02901-2012C17100004                                Date: May 24, 2013
Subject: Independent Audit of Termination Proposal
Prepared For: Office of the Assistant Secretary of Defense
Report: $16.0 Million Questioned Costs
The audit of the termination proposal resulted in $16.0 million of questioned indirect costs. The significant
items of termination costs questioned are: $6.3 million general and administrative —pool and base costs were
based on estimates not supported by documentation or approved by contracting officer and expenses are cash
basis versus accrual basis; $2.7 million pre-contract costs—labor, other costs and applicable overhead costs are
related to unallowable pre-contract effort based on contracting officer determination; $4.7 million settlement
with subcontractors—proposed subcontracts were not supported adequately (e.g., contractual agreement) and
included various unallowable pre-contract, idle facility and bid and proposal costs, and the settlement expenses
were not adequately supported.




                                                                                           APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 147
Appendix G

          Audit Report No. 03321-2005K10100001                                 Date: May 24, 2013
          Subject: Independent Audit of Contractor FY 2005 Incurred Cost Submission
          Prepared For: Defense Contract Audit Agency Americas Business Group
          Report: $350 Million Noncompliant Costs
          Because of scope restrictions, DCAA was not able to obtain sufficient evidential matter on which to base
          a definitive opinion on the reasonableness, allowability and allocability of the claimed costs resulting in a
          disclaimer of opinion. The procedures performed disclosed $350 million of costs noncompliant with the Federal
          Acquisition Regulation, including the following significant items: $267.5 million of subcontract costs that were
          not based on adequate price analysis, were not awarded to the lowest bidder, did not comply with subcontract
          terms or were unreasonable; $42.1 million of travel costs, $16.4 million of equipment costs and $4.6 million of
          consultant expenses for which the contractor did not provide adequate supporting documentation or that did
          not comply with contract terms; and $6.8 million of legal, freight and costs related to defective material.

          Audit Report No. 03321-2009K10100002                                 Date: May 28, 2013
          Subject: Independent Audit of Contractor FY 2009 Incurred Cost Submission
          Prepared For: Defense Contract Management Agency—Cost and Pricing Center
          Report: $182.7 Million Questioned Costs
          The audit of the incurred cost submission resulted in $182.7 million of questioned costs, including the following
          significant items: $56.3 million of Defense Base Act insurance premiums because the contractor did not support
          the labor costs used to compute the premiums; $54.9 million of inadequately documented travel costs for
          subcontractor-leased aircraft and related fuel and foreign royalty and landing fees; $24.6 million of Home Office
          allocations; $19.0 million of legal expenses because the contractor failed to provide details of the legal matters
          covered; $14.9 million of legal settlements with subcontractors related to unallowable legal fees and work
          already paid for by the government; and $7.6 million of subcontract costs because the subcontract price was not
          fair and reasonable.

          Audit Report No. 03321-2009K10100001                                 Date: May 29, 2013
          Subject: Independent Audit of Corporate Home Office and Intermediate Management Allocated Expenses
          Prepared For: Defense Contract Management Agency Civil Augmentation Program Team
          Report: $64.8 Million Questioned Costs
          The audit of the Home Office and intermediate office final indirect rate proposal resulted in $64.8 million of
          questioned costs, including the following significant items: $19.5 million of claimed facilities lease costs for which
          the contractor failed to provide any supporting information; $4.4 million of costs for deposits for facilities for
          which the contractor failed to provide adequate supporting information; $17.9 million of inadequately supported
          consultant expenses; and $12.1 million of subcontract costs.

          Audit Report No. 01281-2007A10100782                                 Date: May 30, 2013
          Subject: Independent Audit of FY 2007 Incurred Cost Proposal
          Prepared For: Defense Contract Management Agency
          Report: $30.6 Million Questioned Costs
          The audit of the incurred cost proposal disclosed $30.6 million in questioned costs, including the following
          significant items: general and administrative pool—$8.5 million bonuses where no support was provided and no
          bonus policy existed; $10.9 million independent research and development had no support provided; general
          and administrative base—$10.2 million (upward adjustment) to properly include unallowable direct and indirect
          costs; $6.8 million affiliate aviation charges—inadequate support that charges were limited to cost; and $1.2
          million labor—lacked adequate supporting documentation, e.g. properly completed timesheets.




148 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                      Appendix G

Audit Report No. 06281-2006G10100001                                 Date: May 30, 2013
Subject: Independent Audit of FY 2006 Final Indirect Cost Rate Proposal
Prepared For: Defense Contract Management Agency
Report: $65.3 Million Questioned Costs
The audit of the indirect cost rate proposal questioned $44.7 million in direct costs and $20.6 million indirect
costs. The significant items of questioned cost include: indirect costs—$16.4 million related to various allocations
and the Home Division audit (Report No. 06281-2006G10100002), and $2.6 million in various accounts did
not have adequate support provided to determine allowability; direct costs—$42.3 million due to inadequate
supporting documentation, e.g., for labor properly prepared timesheets were not provided, for materials checks,
vouchers and/or purchase orders were not provided.

Audit Report No. 06281-2006G10100002                                 Date: May 30, 2013
Subject: Independent Audit of FY 2006 Final Indirect Cost Rate Proposal
Prepared For: Defense Contract Management Agency
Report: $47.8 Million Questioned Costs
The audit of the indirect cost rate proposal questioned $11.7 million of direct costs and $36.1 million of
indirect costs. The significant items of questioned cost include: indirect costs—$31.6 million related to
various allocations and a division audit (Report No. 06281-2006G10100001) and the Home Office audit
(Report No. 06281-2006G10100003), and $3.1 million in various accounts did not have adequate support
provided to determine allowability; direct costs—$10.7 million due to inadequate supporting documentation,
e.g., for labor properly prepared timesheets were not provided, for consultant costs agreements, billings and/or
invoices were not provided.

Audit Report No. 03521-2010S42000002                                 Date: May 31, 2013
Subject: Independent Audit—Postaward Review
Prepared For: U.S. Army Contracting Command, Procuring Contracting Officer, Team Chief, Medium Tactical
Vehicles
Report: $61.6 Million Recommended Price Adjustment
The audit of the contractor’s compliance with 10 U.S.C. 2306a, Truth in Negotiations Act, resulted in a
recommended price adjustment of $61.6 million for overstated material costs and related burdens included in
the negotiated contract price because the cost or pricing data disclosed to the government (i) did not contain
the most current vendor price quotations for some parts, (ii) did not reflect the costs in a forward pricing
rate agreement that was in place prior to the date of price agreement and (iii) did not contain accurate parts
quantities. The contractor submitted a $44.4 million offset proposal resulting in a June 17, 2013, supplemental
report on the offset. The supplemental report recommended a $1.4 million offset and reported the remaining
$42.9 million was not an allowable offset.

Audit Report No. 06281-2006G10100003                                 Date: May 31, 2013
Subject: Independent Audit of Intermediate Home Office FY 2006 Final Indirect Cost Rate Proposal
Prepared For: Defense Contract Management Agency
Report: $136.8 Million Questioned Costs
The audit of the indirect cost proposal disclosed $136.8 million in questioned costs including $90.5 million of
costs not allocable in accordance with the Federal Acquisition Regulation 31.201-4, Determining Allocability;
$21.4 million of costs not adequately supported; $17.0 million of various internal, divisional, group and home
office allocations from assist audit reports; $3.7 million of reconciling differences and out of period costs; and
$4.3 million of costs not reasonable, allowable or allocable in accordance with FAR Part 31.




                                                                                             APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 149
Appendix G

          Audit Report No. 03121-2006H10100058                                  Date: June 3, 2013
          Subject: Independent Audit of Contractor FY 2006 Incurred Cost
          Prepared For: Defense Contract Management Agency
          Report: $19.0 Million Questioned Costs
          The audit of the incurred cost proposal resulted in $19 million of questioned costs, including the following
          significant items; $4 million of direct subcontracts missing executed agreements, documented requirements or
          cost/price analyses, $4.3 million based on the corporate assist audit report, and $5.1 million of indirect project
          labor and related fringe costs due to inadequate project descriptions.

          Audit Report No. 04411-2006N10100004                                  Date: June 3, 2013
          Subject: Independent Audit of FY 2006 Incurred Cost
          Prepared For: Defense Contract Management Agency
          Report: $168.3 Million Questioned Costs
          The audit of the incurred cost proposal resulted in $168.3 million of questioned costs. Questioned direct costs
          of $138.2 million included; (i) $49.8 million direct labor due primarily to differences between billed and incurred
          interdivisional labor, improper application of international premium rates, and unapproved overtime, (ii) $32.9
          million direct material due to excess related party rental costs, (iii) $17.7 million other direct costs primarily due
          to lack of adequate documentation supporting travel costs and excess related party vehicle lease costs, and (iv)
          $37.7 million subcontracts primarily due to lack of executed subcontract agreements and invoices. Questioned
          indirect costs of $30.1 million included $11.9 million of burden and benefits due to excess estimated worker’s
          compensation and other insurance, $13.5 million of corporate and group allocated costs based on assist audits,
          $1 million for update to a revised corporate submission and $3.7 million questioned as unallowable based on
          various FAR cost principles.

          Audit Report No. 03321-2006K10100001                                  Date: June 10, 2013
          Subject: Independent Audit of Contractor (CFY) 2006 Incurred Cost Submission
          Prepared For: Defense Contract Management Agency – Americas Business Group
          Report: $60.7 Million Noncompliant Costs
          Because of scope restrictions, DCAA was not able to obtain sufficient evidential support on which to base
          a definitive opinion on the reasonableness, allowability, and allocability of the claimed costs resulting in a
          disclaimer of opinion. The procedures performed disclosed $60.7 million of costs noncompliant with FAR,
          including the following significant items: $60.5 million of subcontract costs that were not based on adequate
          price analysis, were not awarded to the lowest bidder, did not comply with subcontract terms, were for
          unauthorized private security or were unreasonable; and $.2 million of legal expenses for which the contractor
          does not have a written agreement.

          Audit Report No. 06271-2003A10100102                                  Date: June 12, 2013
          Subject: Independent Audit of Incurred Cost Proposal for FY 2003
          Prepared For: Defense Contract Management Agency – Cost and Pricing Center
          Report: $98.6 Million Questioned Costs
          The audit of the incurred cost proposal resulted in $98.6 million of questioned costs including $79.5 million
          of direct contract costs and $12.5 million of indirect costs questioned due to lack of adequate supporting
          documentation primarily due to the contractor having destroyed records.




150 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                    Appendix G

Audit Report No. 04371-2006M10100015                                Date: June 14, 2013
Subject: Independent Audit of FY Ending Dec. 31, 2006 Incurred Cost Proposal
Prepared For: Defense Contract Management Agency - Lathrop
Report: $11.6 Million Questioned Costs
The audit of the final indirect cost rate proposal resulted in $11.6 million of questioned costs, including the
following significant items: $4.7 million of claimed labor on time and material test and measurement contracts
and subcontracts because the claimed hours or labor rates did not agree with the contract or subcontract terms,
the contract or subcontract was not provided for audit or claimed hours exceeded the hours recorded in the
contractor’s books and records; $1.5 million of direct materials because the contractor did not provide adequate
documentation to support the allowability, allocability or reasonableness of the costs; $1.3 million of travel costs
for unallowable per diem expenses and premium airfare, unallowable international airfare in noncompliance
with the Fly America Act, unreasonable costs due to deviations from the contractor’s established policies and
procedures, costs not adequately supported with documentation or not justified; and $1.2 million of consultant
costs as unallowable because they were lacking a signed contract, invoice or work product, were for undue
influence of solicitation process or lobbying costs or lacked supporting evidence to determine allowability.

Audit Report No. 03701-2006B10100001                                Date: June 21, 2013
Subject: Independent Audit of Contractor FY 2006 Incurred Cost
Prepared For: Defense Contract Management Agency
Report: $55.8 Million Questioned Costs
The audit of the incurred cost proposal resulted in $55.8 million of questioned costs, comprised of $29.0 million
of questioned indirect costs and $26.8 million of questioned direct costs. More than 90 percent of the questioned
costs were due to lack of documentation adequate to support the allowability, allocability and reasonableness
of the proposed costs. Other questioned indirect costs were due to noncompliances with various Financial
Management Regulation cost principles.

Audit Report No. 06221-2011M42000009                                Date: June 21, 2013
Subject: Post-Award Audit of Contract Delivery Order
Prepared For: U.S. Army Contracting Command
Report: $11.8 Million Recommended Price Adjustment
The postaward audit for compliance with the Truth In Negotiations Act disclosed a recommended price
adjustment of $11.8 million for increased costs in the negotiated contract due to defectively-priced materials,
including the related general and administrative expenses and profit. The contractor did not disclose available
purchase history or the existing documented confirmations that the historical lower vendor prices were valid for
the procurement.

Audit Report No. 02161-2012G10110001                                Date: June 26, 2013
Subject: Independent Audit of Contractor’s Compliance with Requirements Applicable to its Research and
Development Program and on Internal Control over Compliance in Accordance with OMB A-133, for FY 2012
Prepared For: USAF Enterprise Acquisition Division
Report: $14.2 Million Questioned Costs
The audit resulted in $14.2 million of questioned costs. Significant items in the $13.5 million questioned
indirect costs included $10.1 million for vacant and underutilized facilities and $1.6 million of downtime labor.
Questioned direct costs of $0.7 million were due to an internal control deficiency related to travel costs.




                                                                                           APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 151
Appendix G

          Audit Report No. 06421-2006B10100403                                   Date: July 12, 2013
          Subject: Independent of Contractor’s FY 2006 Direct and Indirect Costs
          Prepared For: Defense Contract Management Agency
          Report: $11.1 Million Questioned Costs
          The audit of the incurred cost submission questioned $11.1 million including the following significant items:
          $8.5 million of direct subcontracts billed in excess of costs and $2.7 million of indirect costs for facility rental,
          executive compensation, consultant fees and bonuses questioned as unallowable costs.

          Audit Report No. 09771-2013B17900002                                   Date: July 18, 2013
          Subject: Audit of De-Scope Contract Proposal
          Prepared For: Contracting Officer
          Report: $16.6 Million Questioned Costs
          The audit of the firm-fixed-price, de-scoped proposal resulted in $16.6 million in questioned costs. The
          questioned costs related to excessive profit due to noncurrent contractor cost estimates at completion which
          resulted in an understatement of the proposed credit amount. The profit was considered unallowable per
          Financial Management Regulation 31.205-7, Contingencies.

          Audit Report No. 04281-2005I10100036                                   Date: July 30, 2013
          Subject: Independent Audit of Contractor FY 2005 Incurred Cost
          Prepared For: Defense Contract Management Agency
          Report: $25.8 Million Questioned Costs
          The audit of the incurred cost submission questioned $17.5 million direct and $8.4 million indirect costs
          primarily due to insufficient documentation as required by Financial Management Regulation Part 31 criteria and
          contractor established policies and procedures. Significant items in the direct costs questioned included $15.3
          million of subcontracts and $1.9 million of other direct costs. Questioned indirect costs were primarily indirect
          labor, fringe benefits expenses and consulting costs.

          Audit Report No. 09861-2005R10100001                                   Date: July 31, 2013
          Subject: Examination of Calendar Year 2005 Incurred Cost Submission
          Prepared For: Defense Contract Management Agency
          Report: $99.7 Million Questioned Costs
          The audit of the incurred cost submission resulted in $99.7 million of questioned costs. Audit procedures
          identified $15.9 million of questioned direct costs and $83.8 million of questioned indirect expenses applicable
          to government contracts. Significant questioned direct costs related to direct material and other direct costs.
          Significant questioned indirect expenses related to depreciation, indirect expenses incurred by direct-charge
          employees, idle facilities, overtime premium, professional services, and unsupported basis of allocation for
          several intermediate overhead pools.

          Audit Report No. 01291-2012F17200001                                   Date: Aug. 8, 2013
          Subject: Independent Audit of Contractor’s Price Adjustment Proposal for Period of Performance Under Contract
          Task Order
          Prepared For: Department of the Army, Rock Island Contracting Center
          Report: $148.8 Million Questioned Costs
          The audit of the price adjustment proposal questioned the entire $148.8 million of costs proposed because the
          contractor did not support increased costs associated with the alleged changes discussed in the proposal.



152 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                    Appendix G

Audit Report No. 03511-2007M10100012                                Date: Aug. 20, 2013
Subject: Independent Audit of Contractor FY 2007 Incurred Cost Proposal
Prepared For: Defense Contract Management Agency
Report: $36 Million Questioned Costs
The audit of the incurred cost proposal questioned $32 million of direct and $4 million of indirect costs. The $32
million of questioned direct costs included $31.9 million of subcontracts, with the significant items being $18.3
million questioned as out-of-period costs and $13.5 million questioned based on a subcontract assist audit. The
significant item in the $4 million of questioned indirect costs was $3.9 million of professional services questioned
because the documentation provided did not show the nature and scope of the services furnished as required by
Financial Management Regulation.

Audit Report No. 04411-2007N10100006                                Date: Aug. 26, 2013
Subject: Independent Audit of FY 2007 Incurred Cost
Prepared For: Defense Contract Management Agency
Report: $62.7 Million Questioned Costs
The audit of the incurred cost proposal questioned $31.4 million of direct and $31.4 million of indirect costs.
Questioned direct costs included (i) $13 million direct labor due primarily to differences between billed and
incurred interdivisional labor and improper application of international premium rates, (ii) $13.1 million direct
material due to excess related party equipment rental costs and lack of supporting documents, (iii) $4.3 million
other direct costs primarily due to lack of adequate documentation and (iv) $1 million subcontracts due to lack
of procurement documentation demonstrating reasonableness of costs. Questioned indirect costs included
$11.4 million of burden and benefits due to excess estimated worker’s compensation and other insurance, $17.5
million of corporate and group allocated costs based on assist audits, and $2.5 million questioned as unallowable
based on the Financial Management Regulation cost principles and insufficient supporting documentation.

Audit Report No. 03201-2012E10180001                                Date: Aug. 29, 2013
Subject: Independent Audit of Contractor Direct Cost Incurred and Billed on Contract from Oct. 1, 2008, to Sept.
30, 2012
Prepared For: U.S. Agency for International Development
Report: $17 Million Questioned Costs
The audit of direct costs incurred questioned $16.5 million in subcontract cost and $0.5 million in travel costs.
Subcontract costs were questioned because they were not adequately supported, often supported only by the
invoice without documentation for delivery, receipt, acceptance or payment. Travel costs questioned were those
in excess of the lowest standard airfare that were not adequately justified and documented.

Audit Report No. 06271-2005B10100001                                Date: Aug. 30, 2013
Subject: Independent Audit of Contractor Incurred Cost Proposal for CY 2005
Prepared For: Defense Contract Management Agency
Report: $139.4 Million Noncompliant Costs
The audit disclosed that the contractor was unable to provide sufficient documentation to support its incurred
cost proposal, resulting in a disclaimer of opinion. The procedures performed disclosed $139.4 million of
costs inadequately supported, representing material noncompliances with applicable Financial Management
Regulation provisions. The noncompliant costs are contractor service center costs for which the contractor was
unable to support the basis for allocation of costs to segments or unable to provide supporting documentation
for costs directly billed to segments.




                                                                                           APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 153
Appendix G

          Audit Report No. 06421-2006B10100401                                 Date: Sept. 3, 2013
          Subject: Independent Audit of Contractor Intermediate Home Office Indirect Cost Rate Proposal for Contractor FY
          2006
          Prepared For: Defense Contract Management Agency
          Report: $79.8 Million Noncompliant Costs
          Time constraints and lack of sufficient evidence in support of the contractor’s proposal resulted in a disclaimer
          of opinion. The procedures performed disclosed $57.2 million of noncompliant costs primarily because the
          contractor was unable to provide documentation adequate to support allowability, allocability or reasonableness,
          including $1.5 million for which documentation was in boxes destroyed by a warehouse collapse; $3.5 million
          for which documentation was provided but time constraints did not allow for detailed review; and $19 million
          primarily due to reconciliation differences from related entity submissions and from amounts supported by the
          general ledger.

          Audit Report No. 01211-2011B17100002                                 Date: Sept. 5, 2013
          Subject: Independent Audit of Contractor’s Termination for Convenience Settlement Proposal
          Prepared For: U.S. Department of State
          Report: $9.7 Million Questioned Costs
          The audit questioned $7.1 million of the settlement proposal for the fixed-priced contract line items and $2.7
          million of the settlement proposal for the cost-reimbursement line items. Questioned costs include the following
          significant items: $2 million in costs continuing after termination; $2.3 million of related indirect and general and
          administrative expenses primarily due to update to the 2011 actual general and administrative rate; $2 million
          of profit and fee because the costs classified as non-billable (which were to have been recuperated through fee)
          exceeded the fee on the fixed price line items, and fee was unallowable on the cost reimbursable line items;
          and $3.6 million of prior payments to the contractor that were not recognized in the termination settlement
          proposals.

          Audit Report No. 02241-2012S10503003                                 Date: Sept. 9, 2013
          Subject: Independent Operations Audit of Contractor Material Handling Equipment Utilization System
          Prepared For: Defense Contract Management Agency
          Report: $17.4 Million Annual Cost Avoidance
          The operations audit disclosed that by exercising more effective management controls over material handling
          equipment utilization in Afghanistan, the contractor has the opportunity to achieve cost savings and efficiency
          gains of an estimated $1.45 million per month in container handler and forklift lease costs.

          Audit Report No. 06831-2006B10100004                                 Date: Sept. 9, 2013
          Subject: Independent Audit of Contractor Intermediate Home Office FY 2006 Incurred Cost Proposal
          Prepared For: Defense Contract Management Agency
          Report: $32.7 Million Noncompliant Costs
          The audit disclosed that the contractor was unable to provide an adequate explanation of the development
          of its incurred cost proposal, or sufficient documentation to support a majority of the transactions sampled
          from its proposal, resulting in a disclaimer of opinion. The procedures performed disclosed $32.7 million of
          costs inadequately supported, representing material noncompliances with applicable Financial Management
          Regulation provisions. The most significant element ($30.6 million) of the noncompliant costs are allocations-
          in from various other related entities (corporate, service centers, segments) for which the contractor was
          unable to map to the source entities, and therefore unable to support the costs. The remaining $2.1 million of
          noncompliant costs include various elements such as consulting fees, facility rental expenses, indirect labor/
          executive compensation and other miscellaneous costs.


154 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                     Appendix G

Audit Report No. 03701-2011B17200001                                 Date: Sept. 20, 2013
Subject: Independent Audit of Parts of Contractor’s Certified Claim for Payment for Low Rate Initial Production
Items for FYs 2006-2011
Prepared For: U.S. Department of Justice
Report: $21.9 Million Questioned Costs
The audit of parts of the certified claim resulted in $21.9 million in questioned costs, including $20.8 million for
settlements with subcontractors, and $1.1 million for inventory common to other work, differences between
raw material standard cost and purchase order cost, and unallowable profit on settlement expenses. The
$20.8 million questioned subcontractor settlements included: $10.6 million questioned based on more current
available information (revision to the prime contractor’s claim, updates to subcontractor claims, and negotiated
settlement with a subcontractor); $6.5 million questioned because the proposed settlement is not supported by
accounting data and other information sufficient for adequate review by the government; and $3.7 million for
items common to other work of the contractor or subcontractor.

Audit Report No. 04901-2007C10100002                                 Date: Sept. 27, 2013
Subject: Independent Audit of Contractor FY 2007 Final Incurred Cost Submission
Prepared For: Defense Contract Management Agency
Report: $24.3 Million Questioned Costs
The audit of the incurred cost proposal questioned $7.1 million payroll burden, $9.7 million of indirect and $7.5
million of direct costs. The $7.1 million questioned payroll burden included a $6.6 million reduction for the
impact of a settled CAS noncompliance related to the contractor’s employee stock ownership plan, and $0.5
million of questioned payroll related expenses. Significant items in the $9.7 million indirect costs included $3.2
million of costs removed based on a revised submission from the contractor; $1.5 million of questioned facility
occupancy costs due to exceptions to asset service lives, reconciling differences and reallocation of occupancy
square footage; $1.5 million questioned as unreasonable executive compensation based on an audit of the
contractor’s compensation system; $1.2 million questioned legal expenses because they were not adequately
supported by documented agreements and detailed invoices; and $0.8 million of incentive payments questioned
primarily because the contractor paid the incentives though established targets that were not achieved. The $7.5
million in questioned direct costs included $7 million of subcontracts and other direct costs questioned primarily
because the contractor did not provide adequate supporting documentation, and $0.6 million of compensation
questioned as unreasonable based on the results of the compensation system audit.

Audit Report No. 03421-2010J17100801                                 Date: Sept. 30, 2013
Subject: Independent Audit of Partial Termination for Convenience
Prepared For: Defense Contract Management Agency – Termination Division
Report: $109.8 Million Questioned Costs
The audit of the partial termination settlement proposal resulted in $109.8 million of questioned costs, including
the following significant items: $33.4 million of subcontract costs from assist audits; $36.4 million of estimated
continuing costs in excess of actual costs incurred; $9.6 million of costs for equipment and facilities that were
transferred to other work and were therefore unallowable on the terminated contract; and $17.4 million of fee
due to questioned base costs.




                                                                                            APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 155
Appendix G

          Audit Report No. 03711-2007A10100001                                      Date: Sept. 30, 2013
          Subject: Independent Audit of FY 2007 Proposed Incurred Costs and Indirect Rates
          Prepared For: Defense Contract Management Agency
          Report: $145.7 Million Questioned Costs
          The audit of the final indirect cost rate proposal resulted in $145.7 million of questioned costs including the
          following significant items: $77.2 million of questioned expenses due to lack of supporting documentation; $24.5
          million of expenses not allocable to FY 2007; $11.5 million of unallowable legal and professional costs; $9.9
          million of unreasonable expenses; $8.3 million of unallowable rental costs; $5.1 million of unallowable travel
          costs; and $3.2 million of expensed costs that should have been capitalized.

          Audit Report No. 06831-2006B10100006                                      Date: Sept. 30, 2013
          Subject: Independent Audit of FY 2006
          Prepared For: Defense Contract Management Agency, Virginia
          Report: $92.3 Million Noncompliant Costs
          The audit disclosed that the contractor was unable to provide an adequate explanation of the development of
          its incurred cost proposal or sufficient documentation to support a majority of the transactions sampled from its
          proposal, resulting in a disclaimer of opinion. The procedures performed disclosed $92.3 million of claimed costs
          noncompliant with Financial Management Regulation, including the following significant items: $23.4 million of
          direct materials that were not supported with documentation such as bills of material, purchase orders, vendor
          invoices, receiving reports, proof of payment, make-or-buy analyses; $30.2 million of direct labor for which the
          labor rates, labor hours, proof of payment and employee existence could not be verified or reconciled with
          banking, accounting or human resource records; and $22.4 million of allocations from other contractor segments
          for which the allocation methodology was not adequately explained or demonstrated.

          Audit Report No. 06831-2006M10100001                                      Date: Sept. 30, 2013
          Subject: Independent Audit of FY 2006 Incurred Cost Proposal
          Prepared For: Defense Contract Management Agency
          Report: $283.2 Million Noncompliant Costs
          The audit disclosed that the contractor was unable to provide an adequate explanation of the development of
          its incurred cost proposal or sufficient documentation to support a majority of the transactions sampled from
          its proposal, resulting in a disclaimer of opinion. The procedures performed disclosed $283.2 million of claimed
          costs noncompliant with Financial Management Regulation, including the following significant items: $176.8
          million of allocations from other contractor segments that could not be reconciled with the accounting records
          or with the other segment incurred cost submissions; $30.5 million of facilities rental costs for which no or
          inadequate supporting documentation was provided; $18.5 million of direct labor resulting from differences
          between the claimed costs or labor hours and data in the accounting records or for which no employee resumes
          were provided or for which inadequate supporting data was provided; and $15.8 million of direct materials for
          which sufficient supporting documentation such as vendor invoices, proof of payment, purchase orders or vendor
          agreements and evidence of receipt was not provided.

            ◊	Fulfills requirements of the National Defense Authorization Act for FY 2008 Section 845.




156 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                      Appendix H


RESULTS OF PEER REVIEWS
Peer Review of Department of Defense IG by U.S. Department of Housing and Urban Development
Office of the Inspector General
The Department of Housing and Urban Development Office of the Inspector General conducted an external peer
review of DoD IG Office of Audit and issued a final report Nov. 13, 2012. DoD IG received a peer review rating of
pass (with a scope limitation). There are no outstanding recommendations. A copy of the external quality control
review report can be viewed at www.dodig.mil/pubs/reviews.html.

Peer Review of Department of Transportation Office of Inspector General by U.S. Department of
Defense OIG
DoD IG conducted an external quality control review of Department of Transportation Office of Inspector General,
audit organization, and issued a final report Aug. 8, 2013. Department of Transportation OIG received a peer review
rating of pass. There are no outstanding recommendations. A copy of the external quality control review report can
be viewed on the Department of Transportation OIG website at www.oig.dot.gov/peer-review.

DODIG-2013-065, Quality Control Review of the Defense Contract Management Agency Internal
Review Audit Function
DoD IG reviewed the adequacy of the Defense Contract Management Agency Internal Review Team compliance
with quality policies, procedures and standards. In performing the review, DoD IG considered the requirements
of quality control standards contained in the July 2007 revision of generally accepted government auditing
standards issued by the Comptroller General of the United States. DoD IG judgmentally selected two reports to
review for compliance with Generally Accepted Government Auditing Standards in nine areas: quality control,
independence, professional judgment, competence, audit planning, supervision, evidence, audit documentation
and reporting. In addition, DoD IG selected one audit in which DCMA performed monitoring of an independent
public accounting firm for compliance with the Council of the Inspectors General on Integrity and Efficiency Guide.
DoD IG issued a pass opinion because DCMA’s system of quality control for the DCMA IRT was adequately designed
and functioning as prescribed. The findings DoD IG identified during its review of the selected audit reports were
not cumulatively significant enough to rise to the level of a deficiency or significant deficiency, based on DoD IG’s
opinion and as defined by the CIGIE Guide for Conducting External Peer Reviews of the Audit Organizations of
Federal Offices of Inspector General. DoD IG did identify five areas with findings relating to the quality control
system, independence, planning, audit documentation and quality control of audits. In addition, DoD IG made
recommendations in relation to the monitoring of independent public accountants. The review of the monitoring
of the independent public accountants did not affect the opinion of the DCMA initial response team quality control
review. Management agreed with all report recommendations.

Peer Review of DCIS Operations by the U.S. Department of Health and Human Services Office of
Inspector General
The U.S. Department of Health and Human Services OIG conducted an external peer review of Defense Criminal
Investigative Service’s system of internal safeguards and management procedures in effect through July 2011
and HHS OIG also conducted an evaluation to determine DCIS’ compliance with applicable internal policies and
procedures from April 2009 to July 2011. Since DCIS does not derive its statutory law enforcement authority from
the Attorney General or the Inspector General Act, it is not subject to the Council of the Inspectors General on
Integrity and Efficiency; thus, DCIS’s participation in this peer review was voluntary. After completing its review of
DCIS, the HHS OIG issued a final report dated Aug. 19, 2011, and concluded that the system of internal safeguards
and management procedures for DCIS was in full compliance with the quality standards established by CIGIE and
the Attorney General guidelines. These safeguards and procedures provide reasonable assurance that DCIS is
conforming to the professional standards for investigations established by CIGIE.




                                                                                             APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 157
Appendix H


         RESULTS OF PEER REVIEWS (CONT’D)
         Peer Review of DHS OIG Investigative Operations by DCIS
         Defense Criminal Investigative Service conducted an external peer review of Department of Homeland Security
         OIG’s system of internal safeguards and management procedures in effect through April 2013. The DHS OIG derives
         its statutory law enforcement authority from the Attorney General and the Inspector General Act and is subject
         to the Council of the Inspectors General on Integrity and Efficiency. After completing its review of DHS OIG, DCIS
         issued a final report dated Sept. 18, 2013, and concluded that the system of internal safeguards and management
         procedures for DHS OIG were in full compliance with the quality standards established by CIGIE and the Attorney
         General guidelines. These safeguards and procedures provide reasonable assurance that DHS OIG is conforming to
         the professional standards for investigations established by CIGIE.

            ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a)(14),(15),(16) and
              Section 8(c)(10).




158 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                    Appendix I


ACRONYMS
AADC	       Alaska Aerospace Development           DCIS	      Defense Criminal Investigative
            Corporation                                       Service
AAFES	      Army and Air Force Exchange            DCMA	      Defense Contract Management
            Service                                           Agency
ACC	        Army Contracting Command               DEA	       Drug Enforcement Administration
ACC-APG	    Army Contracting Command–              DFAS	      Defense Finance and Accounting
            Aberdeen Proving Ground                           Services
ACH	        Advanced Combat Helmet                 DHS	       Department of Homeland Security
AFAA	       Air Force Audit Agency                 DIA	       Defense Intelligence Agency
AFCENT	     U.S. Air Forces Central                DISA	      Defense Information Systems
AFOSI	      Air Force Office of Special                       Agency
            Investigations                         DLA	       Defense Logistics Agency
AI	         Administrative Investigations          DoD	       Department of Defense
AMCOM	      Army Aviation and Missile Life Cycle   DoD IG	    DoD Inspector General
            Management Command                     DON	       Department of the Navy
ANA	        Afghan National Army                   DOS	       Department of State
ANP	        Afghan National Police                 DOT&E	     Director, Operational Test and
AQL	        Acceptable Quality Level                          Evaluation
ARC	        Air Reserve Component                  DSCC	      Defense Supply Center-Columbus
Army CID	   U.S. Army Criminal Investigation       E-1	       private (Army and Marine Corps),
            Command                                           airman basic, seaman
ANSF	       Afghan National Security Force         ELA	       Enterprise Licensing Agreement
ASFF	       Afghan Security Forces Fund            EPA	       Environemental Protection Agency
ASMIS-R	    Army Safety Management                 FAR	       Federal Acquisition Regulation
            Information System-Revised             FAT	       First Article Testing
ASR	        Army Sustainability Report             FBI	       Federal Bureau of Investigation
AWACS	      Airborne Warning and Control           FDA	       Food and Drug Administration
            System                                 FMR	       Financial Management Regulation
BAS	        basic allowance for subsistence        FY	        Fiscal Year
BIMA	       Biometric Identity Management          G-1	       component manpower or personnel
            Activity	                                         staff
BML	        Blue Marsh Laboratory                  G-4	       component logistics staff
BRAC	       Base Realignment and Closure           G-3/5/7	   operations/plans staff
CBPO	       Commercial Bill Pay Offices            GEAS	      General Electric Aviation Systems
CECOM	      U.S. Army Communications–              GFEBS	     General Fund Enterprise Business
            Electronics Command                               System
CIGIE	      Council of Inspectors General on       GRI	       Global Reporting Initiative
            Integrity and Efficiency               GSA	       General Services Administration
COCOM	      combatant command                      HMCS	      Her Majesty’s Canadian Ship
COR	        contracting officer representative     HMMWV	     high mobility multipurpose wheeled
CPA	        certified public accountant                       vehicle
CSTC-A	     Combined Security Transition           IA	        information assurance
            Command-Afghanistan                    IED	       improvised explosive device
CY	         calendar year                          INCOM	     (Army) Installation Management
DA	         Department of the Army                            Command
DAI	        Defense Agencies Initiative            iNFADS	    internet Navy Facility Assets Data
DARPA	      Defense Advanced Research                         Store
            Projects Agency                        ISAF	      International Security Assistance
DCAA	       Defense Contract Audit Agency                     Force
D-CATS	     Defense Case Activity Tracking         ISO	       Investigations of Senior Officials
            System



                                                                        APRIL 1, 2013 TO SEPTEMBER 31, 2013 │ 159
Appendix I

         ISR	           Intelligence, Surveillance, and        QA	           quality assurance
                        Reconnaissance                         R&D	          research and development
         IT	            information technology                 RTP	          Resistance to Penetration
         JCS	           Joint Chiefs of Staff                  S-1	          battalion or brigade manpower and
         LAT	           Lot Acceptance Testing                               personnel staff
         LEP	           law enforcement professionals          SES	          senior executive service
         MoD	           Ministry of Defense	                   STR	          short tandem repeats
         MC MF	         Marine Corps Marine and Family         SUPSHIP	      Supervisor of Shipbuilding,
         MCIO	          Military Criminal Investigative                      Conversion and Repair
                        Organization                           TADSS	        training aids, devices, simulators
         MEB	           Medical Evaluation Board                             and simulations
         MEDCOM	        Army Medical Command                   TAMC	         Tripler Army Medical Center
         MIA	           missing in action                      TFSMS	        Total Force Structure Management
         MMAS	          Material Management and                              System
                        Accounting System                      TMA	          TRICARE Management Activity
         MORD	          miscellaneous obligation/              TS-MATS	      Training Support–Materiel
                        reimbursement document                               Armywide Tracking System
         NATO	          North Atlantic Treaty Organization     UAV          unmanned aerial vehicle
         NAVAUD	        Naval Audit Service                    UFC	          Unified Facilities Criteria
         NCIS	          Naval Criminal Investigative Service   UK	           United Kingdom
         NCO	           noncommissioned officer                ULO	          unliquidated obligation
         NEC	           National Electrical Code               US	           United States
         NFPA	          National Fire Protection Association   USAAA	        Army Audit Agency
         NGA	           National Geospatial-Intelligence       USACE	        U.S. Army Corps of Engineers
                        Agency                                 USACIL	       U.S. Army Criminal Investigation
         NTM-A/CSTC-A 	 NATO Training Mission–Afghanistan/                   Laboratory
                        Combined Security Assistance           USASOC	       U.S. Army Special Operations
                        Command–Afghanistan                                  Command
         NSRWA PMO	     Non-Standard Rotary Wing Aircraft      USCENTCOM	    U.S. Central Command
                        Project Management Office              USFOR-A	      U.S. Forces-Afghanistan
         OIG	           Office of Inspector General            USSOCOM	      U.S. Special Operations Command
         ORF	           operational readiness floats           UTC	          United Technology Corporation
         OSC-I	         Office of Security Cooperation–Iraq    WPO	          whistleblower protection
         PEB	           Physical Evaluation Board                            ombudsman
         PEO	           Program Executive Office               WRI	          Whistleblower Reprisal
         PMO	           Program Management Office                            Investigations
         POW	           prisoner of war                        WTB	          Warrior Transition Battalion
         PRP	           personnel reliability program          WTU	          Warrior Transition Unit




160 │ SEMIANNUAL REPORT TO THE CONGRESS
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection Om-
budsman to educate agency employees about prohibitions on retali-
ation, and rights and remedies against retaliation for protected dis-
closures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
               www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
              Congressional@dodig.mil; 703.604.8324
                            DoD Hotline
                          1.800.424.9098
                           Media Contact
               Public.Affairs@dodig.mil; 703.604.8324
                          Monthly Update
                dodigconnect-request@listserve.com
                        Reports Mailing List
                dodig_report-request@listserve.com
                              Twitter
                        twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L




                           4800 Mark Center Drive
                         Alexandria, VA 22350-1500
                               www.dodig.mil
                       Defense Hotline 1.800.424.9098
